<html>
<title> - THE PRESIDENT'S FOREIGN AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 110-741]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-741

                 THE PRESIDENT'S FOREIGN AFFAIRS BUDGET

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                           FEBRUARY 13, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html






                   U.S. GOVERNMENT PRINTING OFFICE
47-624 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Joseph Biden, Jr., U.S. Senator From Delaware...............     1


Hon. Richard G. Lugar. U.S. Senator From Indiana.................     5


Hon. Condoleezza Rice, Secretary of State, Department of State, 
  Washington, DC.................................................     8

      Prepared statement.........................................    12


Additional Material Submitted for the Record

      Prepared statement of Senator Russell D. Feingold..........    71

                                APPENDIX

Responses to Additional Questions Submitted for the Record to 
  Secretary of State Condoleezza Rice by Members of the Committee


      Questions Submitted by Senator Biden.......................    73


      Questions Submitted by Senator Lugar.......................    91


      Questions Submitted by Senator Boxer.......................   117


      Questions Submitted by Senator Coleman.....................   122


      Questions Submitted by Senator Menendez....................   126


      Questions Submitted by Senator Vitter......................   129


      Questions Submitted by Senator Casey.......................   130


      Question Submitted by Senator Isakson......................   132

                                 (iii)

  

 
                 THE PRESIDENT'S FOREIGN AFFAIRS BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Boxer, 
Menendez, Cardin, Casey, Webb, Lugar, Hagel, Coleman, Corker, 
Voinovich, Murkowski, Isakson, Vitter, and Barrasso.

          OPENING STATEMENT OF HON. JOSEPH BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order. It's a great 
pleasure to have Secretary Rice before us today to present the 
budget of the State Department and talk about that and other 
things with us. And it's an honor to have you here Madame 
Secretary. And it's hard to believe that this is the last--at 
least maybe--the last budget you'll be presenting, at least 
under President Bush. And who knows, maybe--maybe it will 
continue, but we thank you for being here, Madame Secretary, 
and appreciate your cooperation.
    Before we begin, I'd like to acknowledge what all of us are 
aware of, but it warrants being acknowledged, that our 
counterpart in the House, Tom Lantos, has passed away. Tom 
Lantos, we all had relationship with Tom, but as we say, as a 
point of personal privilege, my relationship with Tom goes back 
a long, long time. Tom was actually my foreign policy advisor. 
Tom was working for the Bank of America and teaching at the 
University of San Francisco as an economics professor. And I 
met him out there and on one occasion, and I talked him into 
coming back to work as my staffer. And I may be the only 
chairman who ever had a chairman work as a staffer.
    But we became very close friends, our families, and his 
daughter, Katrina, worked for me as well. And his grandson 
Tomicah is a Ph.D. and handles Europe for me on the committee 
as we speak. But Tom, as we all know, was the only survivor of 
the Holocaust to ever serve in the United States Congress. In a 
sense, Tom was more American than the son of the American 
Revolution. Tom Tom epitomized every value that we herald as 
being an American value. Above all, as the Secretary knows, he 
was a consummate gentleman.
    I used to kid him, I used to tell him that I believe that 
the Blarney Stone in Ireland was probably first found in 
Budapest, because I've never--I've never run across a more 
charming, more decent, and a more brilliant man, with all those 
qualities rolled into one. And, he is--it's a big loss for the 
country, and I know he was a close friend of Barbara's as well, 
being a fellow Californian and coming from her neck of the 
State. So, I just want to acknowledge how profoundly missed 
that Tom will be.
    I'd also like to welcome the newest member of our 
committee, Senator Barrasso. Where--is he here? Oh, there he 
is. I'm looking the wrong way. I'm so used to looking right 
when I think Republican. I apologize. And you were appointed 
last evening to take the place of Senator Sununu, who left the 
committee to take a seat on the Finance Committee. I welcome 
you and I really look forward--and I know you're going to have 
to leave because you're on the Energy Committee, as well, and 
there's a major issue coming before that committee today. But, 
we just want you to know how welcome you are and look forward 
to working with you on this committee.
    Madame Secretary, today the committee meets to hear from 
you on the President's budget for Foreign Affairs for fiscal 
year 2009. The budget submitted to Congress last week, seeks 
$39.5 billion in spending for Foreign Affairs, a substantial 
increase over the last year, and I commend you. I commend you 
for persuading the President to continue to expand the Foreign 
Affairs budget.
    I'm particularly pleased by the nearly $250 million for 
funding requested for the Civilian Stabilization Initiative, 
which was an initiative of my colleague and Chairman Senator 
Lugar and I, but he was the main engine behind all of that. And 
I think it is extremely important. This builds on legislation 
that we developed 4 years ago, to establish a corps of Active 
Duty and Reserve civilian personnel that we can send overseas 
on short notice to address post-conflict needs and humanitarian 
crisis. We still have unfinished business here in the Senate 
and the Congress, the latest version of our legislation has 
been stalled in the Senate for nearly a year. It is my hope we 
can unglue it and get it passed.
    I'm also pleased that you are working to increase the 
number of Foreign Service personnel, as well as diplomatic 
security agents. Secretary Powell began that expansion, but it 
has been offset by the demands of Iraq, and there continues to 
be reports of personnel shortages in many areas of the 
department.
    The President's Emergency Action Program for HIV/AIDS has 
saved more than a million lives. It may be the greatest legacy 
this President leaves, or any President could leave. It's saved 
more than a million lives, and it also, not only did the right 
thing, is doing the right thing, but puts America in the right 
light, once again trumpeting our values and our humanity, not 
just our power.
    This year's budget includes $6 billion for HIV/AIDS. I know 
that sounds like a lot of money and is a lot of money, but, in 
reality, the request only marginally increases the program over 
last year. We're not doubling our investment as the President 
said, we're just barely maintaining it. And I believe we can do 
even better than that, so this may be a case where briar rabbit 
is allowed to be thrown into the briars, because my intention 
to try to expand that number, and I believe others will join me 
in that regard.
    So Madame Secretary, I strongly support most of your budget 
efforts. What I don't support, and this is not your 
responsibility, is the practice of placing tens of billions of 
dollars for the wars in Iraq and Afghanistan in the category of 
so-called emergency spending, which the President again exempts 
from normal budget rules. I think it is wrong to force the 
taxpayers of tomorrow to pay for the wars of today.
    Beyond the budget, this is an opportunity for you to talk 
about your policy priorities for the remaining months of the 
administration.
    And let me briefly mention a few of mine and what I'm going 
to attempt to, with the help of Senator Lugar and others, have 
the committee focus on. In Iraq, all of us welcome the recent 
decline in violence. Our military, as it always has, has done 
its job and has done its job remarkably well. And they've taken 
advantage of other critical developments, including the 
awakening movement among Sunnis and the Sadr cease-fire among 
Shiites. Unfortunately, political progress, which was the 
principle aim of the surge, has not followed.
    I still see no strategy for achieving what virtually 
everyone agrees is the key to success in Iraq, a sustainable 
political settlement that convinces Iraqis they can pursue 
their interest peacefully without bullets and bombs. Without a 
political settlement, Madame Secretary, we could easily see a 
resurgence of violence, no matter how many troops we keep in 
Iraq. And, we just can't keep this many troops in Iraq for a 
whole lot longer. Every day we stay in these numbers is another 
day of terrible strain on our fighting forces and their 
families, on our military readiness and ability to meet other 
threats to American security, on our taxpayers and government's 
capacity to meet challenges here at home, and our standing in 
the world.
    The President says our strategy is to ``to leave on 
success.'' The question is: Does that mean that it is his 
intent to stay on failure? Because right now, in the absence of 
a political strategy in Iraq, that's what we're doing. We're 
treading water. That's better than drowning, but we can't keep 
doing it.
    I'm pleased that both you and Defense Secretary Gates have 
now clarified the so-called framework for normalization of 
relations. That is the administration's plan to negotiate with 
the Government of Iraq. And you've laid out clearly, it does 
not include security commitments that would bind us to engage 
our military in Iraq's defense. As I made clear to the 
President in a letter last December, any such commitment would 
require the consent of the Senate.
    And I'm also pleased that the President himself has said on 
the record, the United States seeks no permanent military bases 
in Iraq. We have passed such legislation, I believe on several 
occasions in the Senate, and once finally, the entire Congress, 
signed by the President. I've repeatedly put a prohibition 
against permanent bases in legislation because the misplaced 
belief in Iraq and the wider Arab and Muslim world, is that we 
seek a permanent presence, has been used as a recruiting tool 
for al-Qaeda, and it is an accelerant for anti-Americanism, and 
I'm glad the President has stated flatly that is not our 
intention.
    What I hope to hear from you today, Madame Secretary, and 
in the weeks ahead, is just how we get to success. What is the 
political strategy in Iraq? What is the diplomatic strategy to 
help achieve it? You know my views and my colleagues, 
unfortunately, know my views. I've been like a broken record, 
as they used to say, but unless and until we put our energy 
into helping the Iraqis build what is already in their 
Constitution, a federal system that brings resources and 
responsibility down to the local and regional level, I don't 
believe we're going to reach that political solution. Where are 
we on that? And if we continue to reject that plan, which 
Congress overwhelmingly endorsed, what's the alternative?
    If we should have surged forces anywhere, I think most of 
the committee would agree it was in Afghanistan. I know you're 
just back from there, and Senators Kerry and Hagel and I are 
about to go. When we return, the committee will want to hear 
your ideas for how we can turn around the situation that seems 
to most of us, if not the administration, to be slipping from 
our grasp. Violence is up, the Taliban is back, drug production 
is at an all time high, and people seem to be losing faith in 
Karzai government's ability to deliver progress.
    Afghanistan's fate, as you know better than anyone, is 
linked to Pakistan's future, and so is American security. We're 
going to see, next week, what the elections bring in Pakistan, 
but we'll be anxious to hear from you after that.
    But no matter what the result, we need to move in Pakistan 
from Musharraf policy to a Pakistan policy, one that 
demonstrates to its moderate majority that we are with them for 
the long haul, with the help to build schools, roads, clinics, 
and that we're going to demand accountability for the billions 
of dollars in a blank check that we keep writing for the 
Pakistan military.
    And finally, in Darfur, the United Nations and the African 
Union jointly assumed control over the peacekeeping mission on 
December 31, but fewer than 10,000 of the 26,000 authorized 
troops are on the ground. One reason is Khartoum's 
obstructionism, but the other is the pathetic fact that the 
international community can not muster 24 helicopters needed 
for this mission. I would like to know exactly which leaders 
you and the President have personally contacted to get these 
helicopters, and what can be done to deal with that.
    There's a lot more to talk about, Kosovo's imminent 
declaration of independence, your plans for the NATO summit, 
your efforts in the Middle East, the challenges posed by Iran, 
Syria, and Lebanon.
    And this committee is going to spend a lot of time in the 
months ahead on some long-term challenges that may seem less 
urgent, but are no less important to America's future, the 
emergence of China, India, and Russia, the critical issues of 
energy, security, and climate change, which Chairman Lugar 
started in earnest the last 2 years, and the need for a more 
effective strategy to advance democracy and combat extremism 
that will help us recapture the totality of America's strength.
    We won't have time today to cover even a small piece of 
this agenda, so I hope you'll come back a few times before the 
year is out, Madame Secretary.
    And with that, let me turn to Senator Lugar for his opening 
comments.
    Senator Lugar. Mr. Chairman, thank you very much. Let me 
ask of--I note the presence of a quorum, and both parties have 
been consulted about legislation, five pieces and 19 nominees 
that have unanimous consent, whether it might be the pleasure 
of the chairman to proceed to that business.
    The Chairman. Well, I would ask the Secretary if she minds 
us interrupting.
    [Recess.]
    The Chairman. Now we'll move back to regular session and 
the floor is yours.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR. 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I thank the chairman, and I know the 
Secretary thanks the chairman. Nineteen worthy Americans will 
be heading out to embassies that need to have our presence, and 
we appreciate very much this action.
    And I join the chairman in thoughts about Tom Lantos. He 
was a very dear friend and a wonderful partner with this 
committee. We have appreciated that leadership very much 
throughout the years, as well as opportunities to be with him 
in Hungary during CODELs in the past, in which he enriched our 
understanding.
    Likewise, I want to welcome our new member, Senator John 
Barrasso. He is going to be a very able and eager participant 
in our hearings. He'll be back, I understand, after he does his 
work in the Energy Committee today.
    I join you, Mr. Chairman, in welcoming the Secretary. This 
hearing gives the committee an opportunity to examine the State 
Department's budget and ask fundamental questions about the 
Bush administration's foreign policies. It's especially 
important in a year of transition to examine international 
projects that we have in motion, and the overall strategies of 
our foreign policy institutions. We should ask whether the 
State Department, the Bush administration, and indeed, the 
entire political establishment of our country, both Democrat 
and Republican, are adapting to the world as it is.
    Have bureaucrats and budgetary inertia consigned us to 
spend most of our time preparing for yesterday's military and 
diplomatic threats, or are we fixated on old processes and 
tactics that are being overwhelmed by global economic, 
demographic, and technological changes?
    The understandable Bush administration response after 
September 11, 2001, was to shift assets toward combating 
terrorists. And defending this country from terrorist attacks 
remains a fundamental national security priority. We are also 
engaged in vital diplomatic efforts related to problem 
countries, including Iraq, Iran, Afghanistan, North Korea, but 
the gravity of these situations should not keep us from 
responding to dynamic global changes.
    In a recent piece from the Financial Times, the eminent 
columnist, Martin Wolf wrote, ``Neo-classical economics 
analyzed economic growth in terms of capital, labor, and 
technical progress, but I now think it is more enlightening to 
view the fundamental drivers as energy and ideas.'' If Wolf is 
correct, and I believe he is, our economy and our foreign 
policy are at risk of being overwhelmed by forces that are 
receiving far too little attention within our Government.
    Principal among these forces is the burgeoning demand for 
energy from China, India, and elsewhere, and the cosmic 
economic shifts that are being driven by these immense, rapidly 
industrializing societies. The immediate effect is rising 
energy prices, but longer term effects include accelerating 
climate change and shortages of hydrocarbon supplies, both of 
which could become sources of serious conflict.
    The most eye-opening statistics emanate from China. That 
country's rapid industrialization is obliterating old ways of 
thinking about the global economy. Consider that the Chinese 
coals plants that came online in 2006 alone, added a net 80 
gigawatts of electricity generation to the Chinese system, an 
amount roughly equal to the entire electrical capacity of Great 
Britain.
    Meanwhile, China last year used 32 percent of all the steel 
consumed in the world. The 7.2 million vehicles sold in China 
in 2006 were 4\1/2\ times as many as were sold in China just 9 
years earlier.
    And thanks both to foreign direct investment in China and 
its massive current surplus, China has nearly $1.5 trillion in 
official foreign currency reserves. That accounts for a quarter 
of all the reserves in the world. The value of the dollar has 
fallen, as our trade deficit has risen and our savings rate 
remains near zero. We are not just buying what they are making, 
America is, in effect, importing debt, along with consumer 
satisfaction.
    Such statistics raise many disconcerting questions about 
global stability, the United States influence in the world, and 
the maintenance of American living standards.
    I make these points today because there is a temptation in 
the last year of an administration for observers to dismiss, 
not only the budgetary priorities of the outgoing President, 
but also important foreign policy initiatives. Lame-duck 
administrations sometimes embed such attitudes by failing to 
quickly appoint nominees, as numerous vacancies come open, and 
by giving up on initiatives that require approval from 
Congress. I would emphasize the United States can not afford to 
take a year off, and I trust the administration believes that 
very stoutly.
    The President should be reaching out to the Congress in an 
effort to construct a consensus on how we can respond, not only 
to a high-profile threat such as terrorism and climate change, 
but also more nuanced problems such as U.S. energy 
vulnerability, the struggle to diversify central Asian energy 
supplies, our weakened debt positions, the shift of financial 
influence to Asia, the growth of sovereign wealth funds, and 
the coming expansion and demand for nuclear power, which will 
complicate our nonproliferation efforts.
    These are economic and political problems that require the 
reorientation of the State Department. For example, traditional 
ways of thinking about Russia have less salience when Russian 
foreign policy is now largely based on maximizing the political 
leverage and financial earnings of its energy supplies, and 
dominating the transport of energy in Eurasia.
    Secretary Rice, I congratulate you for moving toward a 
much-needed reinvigoration of U.S. international energy 
diplomacy. I would highlight agreements with Brazil on 
biofuels, and with India on civilian nuclear power as examples 
of how our strategic alliances can bring together our foreign 
policy, our energy security, and climate change interests.
    I hope that you will act quickly upon legislation 
establishing an international energy coordinator within your 
office. The legislation was passed unanimously by this 
committee and signed into law by President Bush in December 
2007. Swift implementation of this legislation, with your clear 
support, would empower the international energy coordinator to 
galvanize diplomatic capacities currently stove-piped within 
the State Department and other executive agencies.
    Last month, I traveled to Georgia, Kazakhstan, 
Turkmenistan, Azerbaijan, and Ukraine to advocate for greater 
cooperation on energy security. The stakes there are high, as 
President Putin has repeatedly traveled to the region to 
solidify Russian domination of energy supplies. Chairman Biden 
and I have joined in urging the administration to appoint a 
high-level, Special Envoy for energy in that region. Indeed, 
during my trip, leaders of those countries asked that the 
United States send such a representative to affirm U.S. 
interest in central Asia and affirm U.S. security.
    Madame Secretary, I'm hopeful you will share with us your 
strategy for the region, and whether you intend to appoint such 
an envoy.
    As we think about how to achieve our goals, we must also 
consider how to strengthen our diplomatic capabilities. The 
Bush administration deserves praise for its international 
affairs budgets, which have attempted to reverse the downward 
spiral in U.S. foreign policy capabilities imposed during the 
1990s.
    By 2001, embassy security upgrades were behind schedule. We 
lacked adequate numbers of diplomats with key language skills, 
many important overseas posts were filled by junior Foreign 
Service officers, and our public diplomacy was completely 
inadequate for the mission in an era of global terrorism. Our 
diplomatic capabilities have made progress under President 
Bush, but much work is left to be done.
    Congress however, must begin to ask more fundamental 
questions about the national security budget as a whole. 
Although our Defense, Foreign Affairs and Homeland Security and 
Intelligence, Energy budgets are carefully examined from the 
incremental perspective of where they were the last year, it is 
not apparent that Congress is adequately evaluating whether the 
money flowing to these areas represents the proper mix for the 
21st century security threats that we face.
    Last year, in my opening statement at our State Department 
budget hearing, I pointed out that the Foreign Affairs account 
was just one-fourteenth the size of the Defense budget. Defense 
agencies increasingly have been granted authority to fill gaps 
in foreign assistance and public information programs, but the 
military is ill-suited to run such programs. A far more 
rational approach would be to give the State Department the 
resources it should have to achieve what clearly our civilian 
missions.
    This view was echoed by Defense Secretary Gates in a speech 
last month at CSIS. He pointed out that the total Foreign 
Affairs budget request was roughly equivalent to what the 
Pentagon spends on health care alone. He also noted that the 
planned 7,000 troop increase in the Army expected for 2008 is 
an, ``equivalent to adding the entire U.S. Foreign Service to 
the Army in one year.'' We must adjust our civilian foreign 
policy capabilities to deal with a dynamic world, where 
national security threats are increasingly based on nonmilitary 
factors.
    Though the State Department has numerous underfunded 
priorities, I would emphasize the urgency of establishing a 
rapidly deployable civilian corps that is trained to work with 
the military on stabilization and reconstruction missions to 
hostile environments.
    I am very pleased that after several years of work by this 
committee and the State Department, the Bush administration is 
requesting $248.6 million for the Civilian Stabilization 
Initiative. Creating and sustaining this civilian capacity is 
precisely the intent of the Lugar-Biden-Hagel legislation that 
passed the Senate in 2006, and passed this committee again last 
March.
    In addition to meeting contingencies in Iraq and 
Afghanistan, we must be ready for the next post-conflict 
mission.
    Madame Secretary, it is a pleasure always to have you with 
us. We look forward to your insights and many other matters 
that you wish to bring before us.
    Thank you.
    The Chairman. Chairman, thank you for an insightful 
statement. I appreciate it.
    Madame Secretary, one housekeeping measure. We're told 
there's going to be a vote around 10:30, and what I'd like to 
suggest is you begin your statement and I'd have you go through 
your statement. But it may be that one of us will leave. I've 
read your statement in its entirety already, believe it or not, 
and may leave to vote so we can come back without interruption, 
and just keep this going. But I apologize for the interruption, 
which is likely to occur around 10:30.
    The floor is yours, Madame Secretary, and again, welcome. 
Thank you for being here.

    STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Rice. Thank you very much, Chairman Biden.
    I would first like to thank the committee. This is, indeed, 
the last budget that I will present to you as Secretary of 
State.
    I want to thank you, Mr. Chairman, I want to thank Senator 
Lugar, and all of the members of the committee for what, I 
think, we have achieved together over the last several years.
    I'd also like to take just a moment to say how much 
Congressman Tom Lantos will be missed. He was, of course, a 
northern Californian, someone that I knew very well. I feel 
that I've lost an inspirational mentor, and I've lost a good 
friend. And when I testify today before the House Foreign 
Affairs Committee, it will be a sad moment to see him not 
sitting there. He was a true American hero, and I think he 
embodied the best of our country.
    I want to thank you very much for what we have been able to 
do together. I have a full statement, Mr. Chairman, but I'll 
just have that entered into the record with your permission.
    The Chairman. Without objection, the entire statement will 
be placed in the record.
    Secretary Rice. Thank you.
    I'd like to just mention a few highlights of what I think 
we've be able to do together, and then to address three 
questions that came up in the remarks that you and Senator 
Lugar have made.
    First, I'd like to thank you very much for the support of 
this committee in significantly increasing foreign assistance 
during this administration. Really, foreign assistance had been 
essentially flat-lined for almost 2 decades, and it was time 
for the United States to do more.
    We have to be able, with your help, to double foreign 
assistance for Latin America, to triple it worldwide, and to 
quadruple it in Africa. That includes, of course, the 
development of the HIV/AIDS PEPFAR initiative, which you 
mentioned, Senator Biden, as well as the development of 
innovative approaches in foreign assistance, like the 
Millennium Challenge Corporation. I think it's been a good 
story.
    If I could say one thing from a point of privilege, I hope 
that it will continue into the future. Because we've learned, 
as important as development assistance is, foreign assistance 
is because of our moral obligation to help those less 
fortunate, it is also critical to our national security. We 
have seen what happens when states are failed states, when they 
are unable to deliver for their people. And we have both an 
obligation and an interest in having well-governed, democratic 
states that can deliver for their people, that can fight 
poverty, that can defend their borders. And I think foreign 
assistance is our most valuable tool in doing so.
    Second, I'd like to thank you very much for the support 
that you've given to the Department as we've tried to transform 
the Department into one that is capable of taking on the myriad 
challenges that we face. We are sending diplomats into places 
that diplomats didn't used to go. And I want to take a moment 
to thank the men and women of the Foreign Service, the Civil 
Service, and especially Foreign Service Nationals, for their 
willingness to serve in extremely difficult places and 
difficult circumstances.
    We've tried to give them new tools. We've tried to develop 
new ways of doing this, the Provincial Reconstruction Teams, 
for instance, in Iraq and Afghanistan that, in effect, marry us 
with our military counterparts. Because, while the military can 
buy time and space, it is really civilians who have to help 
these people and these governments build governance structures, 
nongovernmental institutions, rule of law, justice, and 
functioning economies. And I think that the Provincial 
Reconstruction Teams will also live on as a way to think about 
post-conflict operations.
    I'm especially pleased that we have included the budget 
request for the Civilian Response Corps. To be very frank, I 
think we tried in Afghanistan to deal with counterinsurgency, 
and reconstruction through a kind of international effort--I'll 
be very frank--it was a kind of an adopt-a-ministry for each 
country for capacity-building. It was very good to have so many 
countries involved, I've seen those efforts. But it also has 
led to some incoherence, with which we are still dealing. And I 
will make a comment about that, when I turn to Afghanistan.
    And then, in response, in Iraq, we tried the single U.S. 
Government department, the Department of Defense took 
responsibility, but I think did not--was not able to--fully 
mobilize the range of capabilities that were needed. There was 
no single, U.S. Government institution or agency that was 
capable of doing that.
    I think that under the State Department with the Civilian 
Response Corps, we would be better capable of getting the city 
planners, and the justices and the lawyers, and the health 
experts, out into the field to help countries recover in post-
conflict situations.
    And it's not just the large ones like Iraq or Afghanistan, 
but Haiti or Liberia, or the many places that have to develop. 
And I thank you for the innovation of the Civilian Response 
Corps, for the work that you and Senator Lugar, and Senator 
Hagel have done, and I sincerely hope that we can get it stood 
up and really working. It is probably one of the most important 
things that we can do as the United States Government.
    I want to thank you, also, for the support of increases in 
public diplomacy. When I first testified before this committee 
for my confirmation hearing, I said that we would try and 
increase the resources to public diplomacy--this is a long-term 
prospect. It's not something that is going to take hold 
overnight. But we've increased, dramatically, the number of 
exchanges. We have record numbers of foreign students studying 
in the United States now.
    I think we've overcome some of the difficulties of the 
post-9/11 period, when we really did--I have to think hard 
about who was coming into the country, but where we were in 
danger of sacrificing one of our best, long-term tools in 
improving the understanding of the United States and respect 
for it. That is, people who come here and study and go back to 
their countries to be leaders. And I'm very grateful that we've 
been able to rebuild that function. There's much more work to 
do, and I'm sure that Jim Glassman, as he replaces Karen 
Hughes, will put energy into that.
    I would also like to note that there is a request for a 
substantial increase in the number of Foreign Service Officers, 
and USAID officers--roughly 1,100 in the Foreign Service, and 
300 in USAID. We're just very small. And on many occasions, 
I've been asked if the State Department could do things, it's 
been hard to do it. We have roughly 6,500 professionals 
worldwide. I believe there are twice as many lawyers in the 
Defense Department as Foreign Service Officers. And while 
Secretary Powell and the President started the process of 
rebuilding after the 1990s, with roughly 2,000 over 4 years, 
this is another important increment, and I will be counting on 
your support with the appropriators to make sure that we can, 
this time, fully fund the personnel requests.
    It will be important, as a part of that, also, to do 
compensation reform, so that our people do not lose locality 
pay when they serve over, abroad. It is principally our younger 
officers that suffer from that disparity, and we will press 
again for compensation reform.
    I say all of this because it has been an extraordinary 
period for the United States, in which we've been taking on 
challenges, and difficult challenges, that I think perhaps none 
of us could have fully foreseen in 2001. It has required us to 
make some difficult decisions. We have not always agreed about 
those decision. But I think that we have always done it in the 
spirit of our great democracy, which is one that recognizes 
that people can disagree and still be patriots. That recognizes 
that we must always support our men and women in uniform, as 
well as our civilians abroad.
    We have much work to do in the remaining 11 months, and I 
want to assure you--we will sprint to the finish. We, the 
United States of America cannot afford any less.
    In this regard, let me just say briefly on Iraq and 
Afghanistan and then, perhaps, a comment on the energy issue. 
It has been difficult in Iraq, but I do believe that not only 
are we starting to see security improvements, but we're 
starting to see the Iraqis rebuilding their country and 
developing a young political system to deal with their 
differences.
    I would just note that reconciliation is taking place, from 
the bottom up, of course, with provincial councils and local 
councils that are working. With an awakening movement--not just 
in Anbar, but efforts to spread it to the southern part of the 
country. With, frankly, Senator Biden, as we've talked, a 
pretty decentralized structure, which I think is probably best 
for a country as complex as Iraq.
    The local citizens committees that are coming out to defend 
their territory are coming out--not unlike a tradition we've 
had in our own country for people to defend that which is 
nearest to them, which is their neighborhoods and their 
districts.
    The political progress that we're seeing at those local 
levels--and I will say, I sat with the Kirkuk provincial 
council and watched Kurds and Arabs trying to overcome their 
difference through political dialog, but those local efforts 
are starting to have an effect on the national level.
    Frankly, I think we thought that it would be the national 
level, downward. In some ways it's been the local level upward 
that has put the pressure on the Iraqi national leaders to be 
responsive. And thus, they have passed in recent months, a 
pension law, an investment law, a justice and accountability 
law--in other words a de-Baathification reform. Just today, a 
provincial powers law, setting a date for provincial elections 
to take place during the fall. A general amnesty--which is very 
much welcomed by the Sunni population, and a 2008 budget, which 
has significant increases for provincial governments, for 
Iraq's own security forces, and a capital budget that also has 
a significant provincial element.
    So, it is hard work, it is harder work, perhaps, than we 
thought when we began this enterprise. But they are going about 
the business of building a political structure.
    That is welcome among their neighbors. We are seeing Arab 
States begin to engage with them. The Saudis have said that 
they will put a diplomatic mission there, as well as others. 
The Russians have now forgiven, on Paris Club terms, some 90 
percent of the Iraqi debt. And we will have--I've just accepted 
the invitation of the Kuwaiti Government to hold the third 
Iraqi Expanded Neighbors Conference toward the end of April. 
So, I believe that we see progress on all fronts, although it 
is fragile, and there is still much work to do.
    If I may, just one word on Afghanistan. I was just there. I 
was in both Kabul and in Kandahar. It is quite clear that 
militarily there are battlefield successes against the Taliban 
that, quite frankly, doesn't do very well when it comes at the 
coalition forces or our forces in military-type formations, and 
has therefore gone to hit-and-run tactics, to suicide bombings 
to try and to terrorize the population.
    And I had extensive discussions there about the importance 
of refocusing on population security and the importance of 
building police forces, and local citizens forces. That can--
after an area has been cleared by coalition forces--hold the 
territory so that building can take place. And I just want to 
say that there's been a lot of attention to NATO in the South, 
and can we get more NATO forces in to help the forces that are 
fighting there--the Canadians, the Danes, the British, the 
Dutch--and they deserve to have the help that they have asked 
for. And Secretary Bob Gates and others are working very hard 
on that.
    But I also saw reconstruction efforts that, frankly, are 
not as coherent as they should to be. And we are searching now 
for an envoy who can help to bring coherence to that 
international effort, because we now understand that in 
counterinsurgency, you have to defeat the enemy, keep him from 
coming back, and then give the population reason to believe in 
a better future.
    I believe that we--that the Afghan project is making 
progress. The situation is better than some reports, it is not 
as good as it needs to be. And we are paying a lot of attention 
to improving the circumstances in Afghanistan.
    Let me say just finally, Senator Lugar, on the energy 
piece--and I'll be very brief--I agree with you, it is a really 
important part of diplomacy. In fact, I think I would go so far 
as to say that some of the politics of energy is warping 
diplomacy in certain parts of the world. And I do, indeed, 
intend to appoint, and we are looking for a special energy 
coordinator who could especially spend time on the central 
Asian and Caspian region.
    Thank you very much.
    [The prepared statement of Secretary Rice follows:]

   Prepared Statement of Hon. Condoleezza Rice, Secretary of State, 
                  Department of State, Washington, DC

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for this opportunity to appear before the committee today in support of 
the President's FY 2009 international affairs budget request, and to 
discuss our Nation's foreign policy priorities. This is the fourth time 
I have come before this committee to discuss and defend the 
international affairs budget. As you know, this is the last budget I 
will present to you in my capacity as Secretary of State. I want to 
take this occasion to thank the committee, and especially the chairman 
and ranking member, for their support and cooperation on many of the 
issues we addressed here in the past 3 years, and to let you know that 
this administration is committed to a vigorous foreign policy during 
our remaining 11 months. We have many critical issues before us and we 
intend to press forward our national interests on all fronts. I look 
forward to working with the committee to do just that.
    I would like to take a moment to ask you to act quickly on the 
balance of funding requested in the FY 2008 global war on terror 
supplemental. These additional resources are critical to the 
Department's continued diplomatic operations in Iraq. The supplemental 
also addresses critical security and construction requirements in 
Afghanistan, support for international organizations functioning in 
Iraq and Afghanistan, and peacekeeping missions in Darfur as well as 
other urgent humanitarian and foreign assistance efforts. This funding 
is necessary to our ongoing diplomatic mission and I ask for your 
support.
                    fy 2009 state operations request
    Let me begin by discussing our request for Department of State 
operations. This request funds the platform on which we build our 
foreign policy activities, including diplomacy and foreign assistance, 
around the world.
    The FY 2009 budget for Department of State Operations totals 
$11.456 billion. These funds will significantly strengthen the core 
programming, policy, and management capabilities of the Department 
which are necessary to carry out vital U.S. diplomatic and consular 
relations with more than 180 countries. They will also support 
strategic U.S. engagement abroad through public diplomacy and 
multilateral diplomacy.
Diplomatic Solutions to National Security Issues
    The request provides $3.806 billion to increase the capacity of 
American diplomacy to meet challenges to U.S. national security and 
welfare in the international arena where power is defined increasingly 
in economic and financial terms and where transnational threats like 
terrorism, disease, and drug trafficking have become urgent. The 
requested funding will strengthen the global operating platform for the 
U.S. Government and add 1,095 new positions. These new positions will 
allow us to expand training in much-needed skills, including in 
critical foreign languages. The positions will also increase the number 
of political advisors to the military combatant commends, enhance 
interagency collaboration, and allow Department employees to take 
advantage of interagency development and training opportunities. 
Increased interagency cooperation is a valuable means to advance our 
diplomacy, but we need sufficient numbers of trained personnel to 
execute complex, coordinated efforts abroad. Building the Department's 
capacity to fill this role is my highest priority and I ask for your 
strong support.
    The request also includes funding, as in previous years, for 
Foreign Service Compensation Reform, which would eliminate the pay 
disincentive caused by the loss of locality pay upon transfer to 
foreign assignments. When the Government instituted locality pay in the 
1990s, it did not include Foreign Service employees working abroad. As 
a result, when officers transfer to overseas assignments, they lose the 
locality portion of their pay. With the Washington, DC, rate now equal 
to approximately 20 percent of employee compensation, this loss 
severely undermines the salaries of officers assigned abroad. Moreover, 
this sizable and growing disincentive undermines our ability to attract 
talent and reward sacrifice. Diplomacy is a difficult, sometimes 
dangerous business, and the sacrifices made by Foreign Service officers 
and their families are real. In implementing Senior Pay Reform, we were 
able to eliminate this disincentive for our senior members of the 
Foreign Service, but the problem remains--and is more acute--for our 
mid-level and junior officers. I am asking that you provide the 
necessary authorization requested by the administration to address this 
problem by enabling a transition to a performance-based pay system and 
a global rate of pay.
Civilian Stabilization in Post-Conflict States
    The request provides $249 million, including funding for 351 
positions, in a new appropriation, the Civilian Stabilization 
Initiative, to build a U.S. Government civilian capacity that can 
assist in reconstruction and stabilization efforts in post-conflict 
states. The requested funding will support, train, equip, and deploy an 
interagency civilian response corps comprised of interagency Active and 
Standby components and a Civilian Reserve of outside experts. This 
effort will provide mission-ready experts in fields such as policing 
and the rule of law, transitional governance, and economic 
stabilization and development. The request will also fund the personnel 
and operating expenses of the Office of the Coordinator that provides 
Washington leadership to whole-of-government strategic planning, 
analysis, policy direction, and coordination of USG reconstruction and 
stabilization activities. The CSI complements our request for 
additional personnel and has the strong support of the Department of 
Defense. This is a high priority and we need to get this accomplished.
Protecting America's Borders
    The FY 2009 budget provides $2.124 billion for the Border Security 
Program. This program helps secure American borders against illegal 
entry by terrorists and others who threaten homeland security. At the 
same time, it facilitates the entry of legitimate foreign visitors and 
students. Revenue from Machine Readable Visa (MRV) fees, Enhanced 
Border Security Program fees, the Western Hemisphere Travel Surcharge, 
and visa fraud prevention fees will fund continuous improvements in 
systems, processes, and programs. The fees will also fund 448 
additional positions required to address rising passport demand 
associated with the Western Hemisphere Travel Initiative and rising 
visa demand, including increases related to Border Crossing Card 
renewals.
Providing Secure Diplomatic Facilities
    The request provides $1.163 billion for worldwide Security 
Protection to increase security for diplomatic personnel, property, and 
information in the face of international terrorism. The funding will 
extend the program to upgrade security equipment and technical support, 
information and systems security, perimeter security, and security 
training. This funding will also support the worldwide local guard 
force protecting diplomatic missions and residences. Funding increases 
will help meet new security demands in all regions and implement the 
Visa and Passport Security Strategic Plan to safeguard the integrity of 
U.S. travel documents. Because people continue to be the single most 
important factor in deterrence and response to terrorist acts, the 
funding will add 200 security professionals.
    The request provides $1.790 billion to continue security-driven 
construction projects and to address the major physical security and 
maintenance needs of U.S. embassies and consulates. This total includes 
$844 million for the Capital Security Construction Program to replace 
diplomatic facilities at the most vulnerable overseas posts. FY 2009 
proposed projects include new embassy compounds in Santo Domingo, 
Dakar, Maputo, and Malabo. During the fifth year of Capital Security 
Cost Sharing (CSCS), U.S. Government agencies with personnel abroad 
under chief-of-mission authority will contribute $455 million to CSCS 
construction. The request also includes $105 million to upgrade 
compound security at high-risk posts and to increase protection for 
soft targets such as schools and recreation facilities. In addition, 
the request includes $841 million for ongoing operations, including 
major rehabilitations. These programs are essential to protect the 
investment in real estate assets which are currently valued at over $14 
billion and to keep more than 15,000 properties in good working order.
Influencing Foreign Opinion Through Public Diplomacy
    The request provides $395 million in appropriations for public 
diplomacy to influence foreign opinion and win support for U.S. foreign 
policy goals, including through providing 20 new public diplomacy 
positions. In addition to advocating U.S. policies, public diplomacy 
communicates the principles that underpin them and fosters a sense of 
common values and interests. Objectives of the national public 
diplomacy strategy include promoting democracy and good governance, 
marginalizing extremist leaders and organizations, and preventing 
extremist messaging from gaining a foothold with vulnerable 
populations. Through innovative programs we are providing positive 
alternatives for Muslim youths, and helping build networks among 
progressive-minded Muslims, in many cases working in partnership with 
the private sector, civil society, and academia. We also place a high 
priority on modernizing our communications architecture to strengthen 
our leadership in the war of ideas and sharpen our messaging to counter 
terrorist propaganda.
Exchange Programs
    The request provides $522 million and 19 positions for educational 
and cultural exchanges to increase mutual understanding and to engage 
the leaders of tomorrow. Aligned with other public diplomacy efforts, 
these people-to-people programs are uniquely able to address difficult 
issues. The request includes increased funding for academic and 
professional programs to reach constituencies vital for America--youth 
and those who influence youth. The programs include English language, 
Fulbright, and other academic initiatives, and Citizens Exchanges, 
within the President's Partnership for Latin American Youth. The 
funding will also continue to support the President's National Security 
Language Initiative, promoting teaching and study of critical foreign 
languages, including the Arabic, Chinese, Korean, and Russian 
languages, and the Indic, Turkic, and Persian language families.
Information Technology
    The request provides $414 million for State's Central Fund, 
including revenue from fees, for Central Fund investments in 
``knowledge management'' and information technology (IT). The ability 
of the Department to support transformational diplomacy, information 
sharing, rightsizing efforts, and E-Government initiatives depends 
increasingly on robust, secure IT. Funding increases in FY 2009 will 
help support the State Messaging and Archive Retrieval Toolset project, 
diplomacy through collaboration, and IT infrastructure that provides 
American diplomats with anytime/anywhere computing.
Multilateral Diplomacy
    The request provides $1.529 billion to pay U.S. assessed 
contributions to 47 international organizations, including the United 
Nations. The request includes payments to address outstanding U.S. 
arrears to international organizations. The request recognizes U.S. 
international obligations and reflects a commitment to maintain the 
financial stability and efficiency of those organizations. Membership 
in international organizations assists in building coalitions and 
gaining support for U.S. policies and interests. Further, multilateral 
diplomacy through such organizations serves key U.S. foreign policy 
goals, including advancing democratic principles and fundamental human 
rights, promoting economic growth through free trade and investment, 
settling disputes peacefully, encouraging nonproliferation and arms 
control, and strengthening international cooperation in environment, 
agriculture, technology, science, education, and health.
International Peacekeeping
    The request provides $1.497 billion to pay the U.S. share of costs 
for U.N. peacekeeping missions. This funding will help support 
peacekeeping efforts worldwide, including the activities of ongoing 
missions in Lebanon, Haiti, Liberia, and the Congo. Proposed funding 
increases will also pay U.S. assessments for new missions in Darfur and 
Chad. These peacekeeping activities further U.S. goals by maintaining 
peace and strengthening regional confidence and stability. They also 
leverage U.S. political, military, and financial assets through the 
participation of other states that provide funds and peacekeepers for 
conflicts around the world.
                   fy 2009 foreign operations request
    Let me turn now to our foreign assistance request. The total State 
Department and USAID Foreign Operations request for FY 2009 is $22.7 
billion. These funds support the strategic purposes of our diplomacy: 
Securing peace, supporting democracy, advocating our principles and 
ideals, meeting global challenges, and aiding our friends and allies.
War on Terror
    Fighting and winning the war on terror remains the greatest 
challenge to our national security, and it will continue to be the 
focus of our military and diplomatic efforts as long as extremist 
ideologies and their proponents find safety and support in unstable and 
failing states. We have made enormous strides in diplomatic and foreign 
assistance efforts in Iraq and Afghanistan, which are notable for their 
successes even as we recognize the daunting work that remains. We 
credit our progress in these countries to many who have struggled 
there, to our military and our diplomats, to the international 
community, to our counterparts in the military and government in these 
countries, and to the citizens in Iraq and Afghanistan who recognize 
and are fighting for the full benefits of freedom.
Iraq
    Our engagement with Iraq remains a centerpiece of the United States 
effort in the war on terror.
    The administration's FY 2009 requests of $404 million in foreign 
assistance funding and $65 million in operations funding are critical 
to meet these goals. Of this total, $300 million in Economic Support 
Funds will help consolidate the security gains realized in 2007 and 
2008, and will increase the capacity of local and national Iraqi 
Governments ($75 million) to provide services for their population, 
which in turn will reduce support for extremist elements. The 
administration is also requesting funds to help the nonoil economy 
grow, including the development of the agricultural sector ($50 
million), support for business formation ($25 million), and continued 
support for key Iraqi economic reforms ($62 million), such as reducing 
subsidies. These programs will generate jobs and stimulate economic 
growth. This request also includes funding for the Iraqi-American 
Enterprise Fund ($40 million), which will address a critical lack of 
access to capital and know-how that is preventing Iraqi entrepreneurs 
from forming companies. This request also includes $48 million to 
continue Democracy and Civil Society programs, which will be vital to 
support Iraq's nascent democracy, particularly in working with new 
representatives and/or parties elected in anticipated nationwide 
elections in 2009. Democracy and Civil Society programs also will have 
a direct impact in fostering political reconciliation.
    The administration is also requesting $75 million in funding under 
International Narcotics Control and Law Enforcement (INCLE) to bolster 
Iraq's rule of law, including continuing training and security for 
judges and program support for major crime task forces, which will help 
Iraq combat terrorism and a growing criminal element, and mentoring to 
Iraq's corrections service to ensure criminals are effectively and 
humanely kept off the streets. The administration is also requesting 
$20 million in Nonproliferation, Anti-Terrorism, and Demining (NADR) 
programs, of which $16 million will support expansion of a successful 
humanitarian demining program that has allowed hundreds of communities 
to bring agricultural and industrial land back into production, and $4 
million in programs to combat terrorism.
    Taken together, these programs are an integrated approach to build 
on the significant investment we have already made in Iraq's success. 
The FY 2009 programs complement our previous investments in 
infrastructure, security, and capacity-building and will hasten the 
ability of the Iraqi people to meet their own needs. Failure to fully 
fund these programs will endanger the progress we have made over the 
last 5 years. In order for us to carry out these programs, we need the 
full $65 million request for operational funding for core Embassy 
functions.
    As a final point on Iraq, I would like to bring some clarity to 
discussions about the agreement that we plan to negotiate with Iraq. 
With the U.N. Security Council mandate due to expire at the end of this 
year, we need an agreement with Iraq that will ensure that U.S. forces 
continue to have the authorities and protections they need to operate 
in Iraq. An agreement with Iraq will not contain a ``security 
commitment''; that is, there will be no binding U.S. obligation to act 
in the common defense in the event of an armed attack on Iraq, it will 
not set troop levels, and it will not provide for permanent bases in 
Iraq. This arrangement will not ``lock in'' specific policies, but will 
leave policy options open for the next President. In addition, much as 
we did in Afghanistan, we expect to negotiate a strategic framework 
arrangement building on the Declaration of Principles that will 
formalize our intentions to cooperate in political, economic, cultural, 
and security fields. We have begun to brief Members of Congress and 
will continue to do so as our discussions with Iraq progress.
Afghanistan
    For FY 2009, the President has requested $1.054 billion in foreign 
assistance to help prevent Afghanistan from ever again becoming a 
sanctuary for terrorists. We have achieved many successes in our fight 
against the Taliban and al-Qaida, but we have not won yet. The funds 
requested are critical to supporting our comprehensive approach to 
defeat the insurgency and return Afghanistan to long-term stability 
based on Afghan national sovereignty, democratic principles, and 
respect for human rights. The Afghan Government enjoys broad support, 
while the Taliban offers no political vision. We are collaborating 
bilaterally, with donors, and through NATO and other multilateral 
organizations to tighten the coherence of security, economic, and 
governance capacity-building efforts. Development and security efforts 
on both sides of the Afghan-Pakistan border aim to prevent the 
deterioration of overall progress.
    Recognizing that counterinsurgency requires more than physical 
security, we have requested $370 million for counternarcotics efforts, 
$248 million for democracy and governance, $109 million for health and 
education, $226 million for economic growth, $74 million to support the 
work of our Provincial Reconstruction Teams, and $12 million in 
nonemergency food aid. Development efforts to improve Afghan governance 
at the national and regional and local levels and to achieve prosperity 
for the Afghan people are as crucial to winning the war as security 
assistance to fight insurgent groups, to prevent Afghanistan from 
becoming an illicit narcotics-based economy, and to train the Afghan 
Security Forces. Simultaneously, the efforts of the United States and 
the international community to work with the Government of Afghanistan 
to improve security, build government capacity, protect human rights, 
reconstruct infrastructure, and provide humanitarian assistance 
generate confidence in the Afghan Government and in turn decrease 
support for insurgents. As part of these efforts, we look forward to 
working with Congress on Reconstruction Opportunity Zone (ROZ) 
legislation that would help create employment and sustainable economic 
development in Afghanistan and the border regions of Pakistan.
West Bank/Gaza
    The United States is firmly committed to supporting Israelis and 
Palestinians as they work to realize peace. Working with international 
donors and Quartet Representative Tony Blair, the United States is 
strengthening our support for the Palestinian Authority (PA) Government 
to help achieve this end.
    Our FY 2009 funding request for the West Bank and Gaza is $100 
million. This includes $25 million for the Palestinian Authority 
Security Sector Reform Program, part of a broader U.S. and 
international effort to strengthen and transform the Palestinian 
security sector and assist the PA in its efforts to extend law and 
order and meet its roadmap obligations to dismantle the terrorist 
infrastructure, thereby providing a reliable partner for Israel. 
Establishing the rule of law and effective security in the West Bank 
will support President Mahmoud Abbas and Prime Minister Salam Fayyad by 
demonstrating to the Palestinian people that the PA can reduce 
lawlessness and improve their lives, and by building the capacity of 
the PA to address security threats against Israel. The request includes 
$24 million for democracy projects that will assist the PA government 
to extend the rule of law and improve governance, including bolstering 
the justice system through training judges and building judicial 
independence, and supporting local municipalities. A further $18 
million will assist the PA to achieve economic growth by focusing on 
activities that increase agricultural productivity, provide support for 
microenterprises, create private sector opportunity and increase trade. 
Finally, $33 million will assist the PA government to provide essential 
health, education, and humanitarian services to the Palestinian people.
    U.S. Government assistance in these areas will help the Palestinian 
people directly and support moderates such as President Abbas and Prime 
Minister Fayyad, while also providing tools through security 
improvements, civil society building, and economic growth to combat 
Hamas and its terrorist infrastructure.
Pakistan
    A broad, long-term, and strategic relationship with Pakistan is now 
crucial to global security and regional economic interests. We are 
encouraging formation of a moderate center to complete the transition 
to democracy and underwrite the fight against violent extremism. Our 
programs support transparent elections, democratic institutions, and 
long-term development. We are cooperating closely with the Pakistanis 
to defeat extremist groups and networks. U.S. assistance programs 
support all these goals.
    For FY 2009, the Department of State is requesting $826 million for 
Pakistan, to bolster four areas of cooperation: Peace and security, 
democracy, economic growth, and health and education.
    To win the war on terror, this request includes $150 million 
specifically to support development in the Federally Administered 
Tribal Areas. This is the second tranche of a 5-year $750 million 
Presidential Commitment initiated in 2007. This will allow the United 
States to help the Government of Pakistan recast its relationship with 
the country's Federally Administered Tribal Areas.
    Of the total $826 million, we are requesting $343 million for peace 
and security assistance, including $7.7 million for counterterrorism 
programs and $32 million for border security, law enforcement capacity-
building, and counternarcotics efforts. This will aid the Government of 
Pakistan in countering the terrorist threat, enhancing border security, 
addressing illicit narcotics activities, and establishing the means to 
provide for a peaceful and secure environment.
    Recognizing that the war on terror can not be won solely by 
improving security, our request includes $55 million to strengthen 
democracy and good governance, $119 million to expand economic 
opportunity, and $260 million for health and education.
Lebanon
    Progress in Lebanon remains a critical element of our efforts to 
foster democracy and security in the Middle East. We have joined hands 
with Lebanon's elected government to support their struggle for 
freedom, independence, and security. For FY 2009, the Department of 
State has requested $142 million in foreign assistance for Lebanon to 
support two parallel objectives: Countering threats to Lebanon's 
sovereignty and security from armed groups backed by Syria and Iran, 
and helping foster good governance and a vibrant economy.
    Three years ago this week, former Lebanese Prime Minister Rafiq 
Hariri was assassinated. One month later, the Lebanese people demanded 
an end to foreign domination and political violence, taking to the 
streets to call for Syrian withdrawal from Lebanon. The FY 2009 budget 
request includes support for the Special Tribunal for Lebanon--a 
concrete demonstration of our unwavering commitment to justice, an end 
to political violence, and the protection of Lebanese sovereignty.
    Since then, Lebanon has elected a new Parliament and deployed its 
army to the south of the country for the first time in 40 years. 
However, Lebanon remains under siege by a Syrian and Iranian-backed 
opposition working to undermine the nation's stability, sovereignty, 
and state institutions. Meanwhile, political violence continues, 
including a January 15 bombing of an American Embassy vehicle. Our 
vision of a safe, secure, and democratic Middle East cannot survive 
without a sovereign and stable Lebanon.
                          economic assistance
Economic Support Funds
    The FY 2009 request for Economic Support Funds (ESF) is $3.15 
billion, an increase of $164 million over the FY 2008 enacted level. 
ESF remains a reliable assistance mechanism by which we advance U.S. 
interests through programs that help recipient countries address short- 
and long-term political, economic, and security needs. ESF also 
supports major foreign policy initiatives such as working to resolve 
the Israeli-Palestinian conflict and regional economic integration in 
East Asia. ESF funds global and regional programs that support specific 
U.S. foreign policy goals, including assistance to states critical in 
the war on terror.
    The request includes significant increases in some activities over 
the administration's request for FY 2008, such as programs in Nepal to 
address rural poverty and help blunt the appeal of Maoist rebels, 
Lebanon to bolster that country's democratic traditions and reduce the 
ability of Hezbollah to divide the populace, and south and central Asia 
to improve communications and transportation linkages between 
Afghanistan and its regional neighbors.
    The administration's strategic priorities for FY 2009 ESF include 
funding for our partners in the war on terror to mitigate the influence 
of terrorist and insurgent groups and reduce their potential to recruit 
in regions bereft of political and economic participation; countries 
and regions at risk of civil unrest, to assist in building democratic 
institutions, fight poverty, and provide basic services and economic 
opportunities; states of concern to encourage democratic reform and 
build civil society; and regional and thematic programs like the Asia-
Pacific Partnership, Middle East Partnership Initiative, and promoting 
implementation of Free Trade Agreements, especially improving labor and 
environmental conditions, and efforts to combat Trafficking in Persons.
Millennium Challenge Corporation
    The request of $2.225 billion supports the continuing assistance 
efforts of the Millennium Challenge Corporation (MCC), an important 
contributor to U.S. foreign assistance through the principles of 
promoting growth through good governance, investment in health and 
education, and economic freedom. By early FY 2008, the MCC had approved 
a total of 16 compacts worth over $5.5 billion. An additional 14 
threshold agreements were in place at the end of FY 2007, and there is 
a robust pipeline of compacts under development. MCC expects to sign 
compacts with Tanzania ($698 million) in February 2008, and with 
Burkina Faso ($500-$550 million) and Namibia ($300-$325 million) this 
summer. MCC is also engaged with Jordan, Moldova, Malawi and other 
countries in the compact development process, and foresees sizable 
compacts with those countries in FY 09.
    Eight compacts are entering their second or third year of 
implementation, and are achieving tangible results. For example, in 
Georgia, the first phase of gas pipeline repairs is complete, providing 
Georgian citizens and businesses with needed electricity and heat. In 
Honduras and Madagascar, farmers are employing new techniques to 
improve productivity and links to reliable markets, thereby increasing 
their incomes.
    MCC and USAID programs are complementary and mutually reinforcing. 
USAID programs help countries improve policies to qualify for compacts, 
build their capacity to manage funds and administer compact and 
threshold programs, and support overall U.S. efforts to keep MCC 
countries on a transformational development track. MCC programs 
frequently build on existing USAID programs and other USG assistance. 
They do not overlap with them, and USAID adjusts programs to augment 
funding for opportunities created by MCC programs, and to enhance and 
sustain assistance in other areas.
Development Assistance
    The Development Assistance request of $1.639 billion supports 
programs in countries that range from those with very low incomes whose 
governments are sufficiently stable and organized, to those with income 
levels above MCC eligibility that are relatively well-governed. The 
goal of all Development Assistance is to foster an expanded community 
of well-governed states that respond to the needs of their people and 
act responsibly within the international community.
    Countries receiving DA face a range of long-term development 
challenges. Experience shows that the most effective response is to 
provide a well-balanced package that includes sustained support for 
transformational democratic and economic reforms and that is closely 
coordinated with MCC programs and the President's Emergency Plan for 
AIDS Relief (PEPFAR). These assistance programs also must complement 
and reinforce other development-related foreign policy initiatives, 
including our diplomatic efforts to advance freedom and democracy, 
expand international trade opportunities, and address climate change 
and other critical environmental issues. Our strategic priorities for 
DA funding in FY 2009 include: Long-term democratic governance and 
economic growth programs in Africa; trade capacity-building programs in 
Africa and the Western Hemisphere; capacity-building in support of the 
Global Climate Change initiative; strengthened democratic governance in 
the Western Hemisphere; accelerated literacy and numeracy programs 
under the President's International Education Initiative, and more 
broadly in Africa, the Western Hemisphere, and the Middle East, and 
alternative development in the Andean countries.
    We also recognize that any effort to improve development 
initiatives will require a significantly increased overseas presence of 
USAID, together with expanded technical and stewardship capabilities. 
Therefore, we are requesting $767.2 million in USAID Operating Expenses 
which will allow USAID to increase its overseas workforce. Under the 
Development Leadership Initiative, USAID will hire 300 Foreign Service 
officers above attrition in FY 2009 to build the capacity to implement 
the National Security Strategy for foreign assistance.
Trade Agreements
    Let me say a word about the trade agreements we have concluded with 
Colombia, Panama, and Korea. Expanding trade opportunities advances 
American economic and national security interests. The Department is 
deeply involved in international trade issues at all levels. I recently 
traveled to Colombia with nine Members of Congress, who saw firsthand 
the impressive results of economic and political reform there. Our 
missions abroad actively support the negotiation and enforcement of our 
trade agreements.
    Through multilateral, regional, and bilateral trade agreements, we 
lower tariff and nontariff barriers to U.S. businesses, farmers, 
ranchers, and entrepreneurs. The American worker can compete 
successfully with anyone so long as the rules are fair. We help set 
those rules by promoting open markets, as we have done since the end of 
World War II. Our efforts at the World Trade Organization (WTO) 
strengthen these rules and expand opportunities globally. We are at a 
critical juncture in the Doha Round of WTO negotiations, which the 
President has described as a ``once in a generation opportunity'' to 
create economic opportunity, promote development, and alleviate 
poverty. As the President noted in his State of the Union Address, the 
United States is committed to the conclusion of a strong Doha Round 
this year, and will provide the leadership necessary to achieve this 
objective.
    With respect to bilateral trade agreements, our free trade 
agreement with Colombia is a prime example of how such agreements can 
strengthen both our economy and national security. The United States 
currently provides duty-free treatment to virtually all Colombian 
products entering the United States under the Andean Trade Preference 
Act. With the United States-Colombia Free Trade Agreement, U.S. GDP 
will grow by an estimated $2.5 billion by expanding opportunities for 
U.S. exporters as the significant tariffs that are assessed on U.S. 
exports to Colombia are reduced and eliminated. We urge Congress to 
consider and pass the Colombia FTA to allow our exporters to receive 
the same treatment as is available to Colombian exports to the United 
States.
    The importance of the agreement, however, extends beyond trade. The 
current and previous administrations, as well as the Congress, have 
made a significant commitment to Colombia by providing over $5 billion 
in assistance through Plan Colombia. Security in Colombia is vastly 
improved, the economy has rebounded, and Colombians have real hope for 
the future. The proposed FTA advances our partnership and cements these 
gains. The Colombia FTA reflects the open, democratic, economic, and 
political system which is our vision for Latin America. Colombia is a 
friend of the United States. Its government has taken great risks to 
achieve the successes it has achieved. I urge the Congress to pass this 
agreement for internal security reasons as well.
    Two additional key allies of the United States are also awaiting 
congressional action on free trade agreements: Panama and Korea. The 
United States-Panama Free Trade Agreement will build on our already 
vibrant trade relations and support the consolidation of freedom and 
democracy in this important country. The United States-Korea Free Trade 
Agreement is the most commercially significant FTA in over 15 years. 
Korea has been a steadfast partner and ally in promoting peace and 
security in Northeast Asia and globally. I urge your action on these 
agreements as well.
                          security assistance
Foreign Military Financing
    The request of $4.812 billion for Foreign Military Financing (FMF) 
will advance U.S. interests by ensuring that coalition partners, 
allies, and friendly foreign governments have the equipment and 
training necessary for common security goals and burden-sharing in 
joint missions. This request includes $2.55 billion for Israel, the 
first year of a 10-year $30 billion commitment. FMF promotes our 
national security by strengthening the defense of friendly governments 
and bolstering their abilities to contain transnational threats, 
terrorism, and trafficking in persons, weapons, and narcotics. This 
request provides funding for Egypt to foster a modern, well-trained 
Egyptian military, and support for force modernization, border 
surveillance, and counterterrorism efforts in Jordan. FMF is helping to 
build a Lebanese army capable of implementing U.N. Security Council 
resolutions 1559 and 1701, secure Lebanon's border against weapons 
smuggling, and begin the process of disarming militias in Lebanon. The 
request also finances programs with the Gulf States of Bahrain and Oman 
as part of the Gulf Security Dialogue. FMF will also assist ongoing 
efforts to incorporate into NATO the most recent members of the 
alliance and to support prospective NATO members and coalition 
partners, as well as partners in Iraq and Afghanistan.
The International Military Education and Training
    The International Military Education and Training (IMET) program 
request for FY 2009 is $90.5 million. Through professional and 
technical course curricula and specialized instruction, this key 
component of U.S. security assistance provides valuable education and 
training on U.S. military practices within a context of respect for 
democratic values and internationally recognized standards of human 
rights. IMET programs in Europe advance regional security and force 
integration among NATO and European Armed Forces, most notably in 
Turkey, Poland, Ukraine, and the Czech Republic. In the Near East, IMET 
provides technical training necessary to maintain U.S.-origin equipment 
in Jordan, Morocco, Tunisia, Egypt, Iraq, Lebanon and Oman. In Africa, 
IMET provides training programs for Ethiopia, Kenya, Nigeria, Senegal, 
and South Africa, countries central to long-term regional peace and 
stability. In east Asia, IMET programs with the Philippines and 
Indonesia, for example, focus on professionalizing defense forces and 
developing skills in fighting the war on terror. In south Asia, IMET 
programs improve military interoperability with the United States and 
educate south Asian armies in respect for human rights and civilian-
military cooperation. In the Western Hemisphere, IMET focuses on 
building capacity to respond to regional security challenges, with 
major programs in El Salvador, Colombia, and Mexico.
    IMET is a critical tool to strengthen important military 
relationships in the global fight against terrorism and to do so in the 
context of support for human rights. IMET helps ensure that future 
leaders of foreign militaries are well trained, exposed to the U.S. 
system of civilian control of the military, and have lasting ties to 
the U.S. defense community.
Nonproliferation, Antiterrorism, Demining, and Related Programs
    The request for the Nonproliferation, Antiterrorism, Demining and 
Related Programs Account is $499 million. With this year's request, 
three separate subaccounts, Humanitarian Demining, International Trust 
Fund, and Small Arms/Light Weapons, are combined into one line item in 
the budget to address more appropriately our global Conventional 
Weapons Destruction efforts. We are also establishing a proposed new 
subaccount for WMD terrorism to undertake projects that improve 
international capabilities to respond to potential WMD terrorist 
attacks.
    The FY 2009 request includes increases in several important areas. 
We propose continued funding for humanitarian demining and increased 
funding for programs to address the threat to civil and military 
aviation posed by terrorists and insurgents armed with MANPADS. We have 
also proposed increased funding for the Nonproliferation and 
Disarmament Fund to address emergent nonproliferation and disarmament 
requirements including additional support for disablement and 
dismantlement activities in North Korea, as they are achieved in the 
ongoing six party talks. Increases in the Global Threat Reduction 
program will strengthen biosecurity programs and antinuclear smuggling 
programs.
    Under the Anti-Terrorism Assistance (ATA) program, we are expanding 
the TransSahara Counterterrorism Partnership (TSCTP) in the North 
Africa region, and strengthening linkages with the existing TSCTP in 
sub-Saharan Africa to prevent terrorist movement between Mahgreb and 
sub-Saharan states and to promote greater regional cooperation. 
Increased funding for ATA will also support counterterrorism programs 
in East Africa.
Peacekeeping Operations
    The FY 2009 request for Peacekeeping Operations (PKO) is $247.2 
million, which is necessary to advance international support for 
voluntary, multinational stabilization efforts, including support for 
non-U.N. missions and for U.S. conflict-resolution programs. PKO 
funding enhances the ability of states to participate in peacekeeping 
and stability operations and to address counterterrorism threats. In 
the aftermath of conflict, PKO funds help transform foreign military 
establishments into professional military forces guided by the rule of 
law.
    An important element of FY 2009 PKO funding is the President's 
Global Peace Operations Initiative (GPOI), now in its fifth year. FY 
2009 funding will train over 15,000 peacekeeping troops to reach the 
initiative's goal of 75,000 peacekeeping troops trained worldwide. GPOI 
includes the African Contingency Operations Training and Assistance 
(ACOTA) program, as well as train-and-equip programs outside of Africa. 
GPOI assists in the deployment of peace operations troops, provides 
logistics and transportation support, and assists regional 
organizations in planning and managing peacekeeping operations. PKO 
funding also helps support TSCTP; Security Sector Reform programs in 
Liberia, Sudan and the Democratic Republic of Congo; peacekeeping 
activities in Somalia; and the Multinational Force and Observers 
peacekeeping mission in the Sinai.
                           global challenges
Democracy & Human Rights
    We will continue to promote democratic development and uphold 
international standards of human and worker rights globally. We are 
requesting $1.745 billion for programs to advance good governance, 
democracy and human rights in support of the President's Freedom 
Agenda, including political competition and consensus building, rule of 
law, and civil society activities in countries around the world. This 
budget will support centrally managed and multilateral efforts that 
provide targeted funding for unforeseen needs and opportunities, 
advance democracy in difficult countries where bilateral programs are 
not feasible and provide technical support to our overseas missions on 
democracy issues and programs.
    Our request includes $60 million in ESF for the Human Rights and 
Democracy Fund to support innovative activities that open political 
space in struggling and nascent democracies and in authoritarian 
regimes as the leading element of the U.S. Government's efforts to 
effect positive and lasting change. HRDF will allow us to support 
pivotal democracy and human rights programming in critical target 
countries such as China, Belarus, Russia, Lebanon, North Korea, 
Thailand, Venezuela, Somalia, Burma, and Pakistan. With HRDF, we will 
continue to support the Global Human Rights Defenders Fund, a program 
that enables us to quickly disburse small grants to human rights 
defenders facing extraordinary needs due to government repression. In 
addition, we will fund innovative approaches to advance labor rights 
abroad by strengthening democratic trade unions and will promote 
corporate social responsibility globally.
International Narcotics and Law Enforcement
    The $1.202 billion request for International Narcotics and Law 
Enforcement (INCLE) and $406 million for the Andean Counterdrug Program 
(ACP) in FY 2009 supports bilateral and global programs to combat 
transnational crime, illicit narcotics threats, and terrorist networks 
built upon and funded by the illegal drug trade. These programs aim to 
strengthen and professionalize law enforcement institutions that are 
weak or subject to corruption.
    INCLE funds are focused mainly on countries in which serious 
security threats exist, both to host governments and to our national 
interests as well. This includes countries like Afghanistan, Iraq, 
Pakistan, the Democratic Republic of Congo, Haiti, Indonesia, Liberia, 
and Sudan.
    Of particular note this year is the importance and timeliness of 
the Merida Initiative, our new program for security and law enforcement 
cooperation with Mexico and the nations of Central America. The 
President has requested $550 million in FY 2008 and in FY 2009, a total 
of $1.1 billion. The administration believes that we must act now to 
assist our southern neighbors in their fight against the criminal 
organizations that threaten their security and prosperity, as well as 
our own. These nations have demonstrated the political will to tackle 
critical problems and have asked us to cooperate with them as partners. 
I strongly urge Congress to fund this important national security 
initiative both through the FY 2008 supplemental and the FY 2009 
appropriation.
Migration and Refugees Assistance
    Our commitment to providing humanitarian assistance and protection 
for refugees, conflict victims, and vulnerable migrants remains strong. 
We are requesting $764 million in FY 2009 to fund contributions to key 
international humanitarian and nongovernmental organizations and for 
bilateral programs to respond to humanitarian needs abroad and identify 
durable solutions, including resettlement of refugees in the United 
States. These funds provide for basic needs to sustain life, protect 
refugees and conflict victims, assist refugees with voluntary 
repatriation, local integration, or permanent resettlement in a third 
country. They are a humane and effective response to pressing needs 
that reflects the compassion of the American people. Humanitarian needs 
related to Iraq and Afghanistan will be subject to a separate FY 2009 
supplemental request. The request of $45 million for the President's 
Emergency Refugee and Migration Assistance Fund is critical to meet 
urgent and unforeseen humanitarian requirements.
Global HIV/AIDS Initiative
    The Global HIV/AIDS Initiative account (GHAI) is the largest source 
of funding for the President's Emergency Plan for AIDS Relief (PEPFAR). 
The request of $4.779 billion is a substantial increase over the FY 
2008 enacted level for the PEPFAR bilateral program, and capitalizes on 
the demonstrated capacity-building and programmatic successes in 
prevention, care, and treatment during the first 5 years of the 
program. Funding will support country-based activities, international 
partners, technical support, and oversight and management. The FY 2009 
request is the first of a new, 5-year, $30 billion Presidential 
commitment that builds upon and expands our initial 5-year, $15 billion 
commitment.
    The request also proposes the development of a ``Partnership 
Compact'' model, with the goal of strengthening host government 
commitment. In selected countries, compacts will outline reciprocal 
responsibilities, linking our resources to increased host country 
resources for HIV/AIDS and the establishment of policies that foster an 
effective HIV/AIDS response.
Environment
    As President Bush said in his State of the Union Address, the 
United States is committed to confronting the challenge of climate 
change. We want an international agreement that will slow, stop, and 
eventually reverse the growth of greenhouse gasses. Achieving that goal 
will require commitments by all major economies, a point we have made 
in the two Major Economies Meetings on Energy Security and Climate 
Change under the initiative launched by the President in support of 
U.N. negotiations.
    In Indonesia this past December, the United States joined with the 
other parties to the U.N. Framework on Climate Change (UNFCCC) to adopt 
the ``Bali Action Plan.'' This document will guide negotiations of a 
new post-2012 climate change arrangement by 2009. Our FY 2009 budget 
request includes $64 million to support our efforts to address 
adaptation and reduce deforestation, major elements of the ``Bali 
Roadmap.''
    Through the Asia-Pacific Partnership on Clean Development and 
Climate (APP), the United States works with China, India, Australia, 
South Korea, Canada, and Japan to accelerate the adoption of clean 
energy technologies. Over 100 APP projects and activities are reducing 
emissions in major sectors such as power generation, cement, steel, 
aluminum, and buildings. Our FY 2009 foreign assistance budget request 
for APP totals $26 million.
    As part of our long-term commitment to protecting the Earth's ozone 
layer we are proposing $19 million for the Montreal Protocol 
Multilateral Fund. Last year, the international community agreed to a 
landmark U.S. proposal to accelerate the phaseout of ozone depleting 
substances. Over the next two decades, this acceleration will provide 
climate system benefits that could exceed those contemplated under the 
Kyoto Protocol.
    Finally, a request of $40 million supports our commitment to labor 
and trade-
related environmental initiatives with our Dominican Republic-Central 
American Free Trade Agreement partners. These activities will 
strengthen institutions for more effective implementation and 
enforcement of environmental laws and promote biodiversity, market-
based conservation, and private-sector environmental performance.
                               conclusion
    Mr. Chairman, the FY 2009 International Affairs request proposes an 
increase of 16 percent over the FY 2008 base appropriation, and more 
than 9 percent over all FY 2008 appropriations enacted to date. I 
understand that this is a significant increase. But the President and 
I, as well as the officials in all departments and agencies which 
administer the foreign affairs account, strongly believe this request 
is fully justified and critical to the national security interests of 
the United States. We understand that these funds are the result of the 
efforts of hard-working American taxpayers. You have our commitment 
that we will manage these funds efficiently as stewards of the 
resources entrusted to us by the American people.

    The Chairman. Based on who's here, we can start with 10-
minute rounds, but we'll start with 10-minute rounds, and if it 
turns out that other people show up, they'll just get less 
time. That's the price of coming late. So, we'll begin with 10-
minute rounds, here.
    Madame Secretary, there are reports of growing frustrations 
in the ranks of the former Sunni insurgents, a co-called 
``Awakening'' to whom we have been providing monthly payments 
of $300, which I agree with, that's not a criticism. They want 
to be integrated into the Iraqi Government and security forces, 
but the central government seems--even with the changes made as 
recently as yesterday--to be balking, particularly in mixed 
areas close to Baghdad.
    The situation is said to be so bad that our military has 
started developing plans to create a Depression-era style 
Civilian Job Corps, so these folks are going to be gainfully 
employed. What are the consequences of the Iraqi Government's 
failure to hire these exinsurgents, or to the concerned local 
citizens, as they are called by our military? What are we going 
to do to increase this integration? And, if they're not 
integrated, can we--by stepping in--stave off what is a growing 
discontent?
    Secretary Rice. The Iraqi Government I think it's fair to 
say, was initially quite skeptical of the local citizens 
committees, in part, because they worried they might be new 
militias, in a sense. And what we have done is to work with the 
Maliki government. There is a committee that reviews, now, the 
local citizens committees, and their integration into the 
security forces. Not all of them will be integrated into 
security forces, and it is important that there be job 
opportunities for them. There is work going on in that--not 
just temporary jobs, but real jobs through, for instance, we 
believe that if the Iraqi Government fully executes its budget 
for housing--the construction industry brings a lot of jobs--
that that might be a way to absorb some of these people.
    I'm heartened by the budgets that are now coming out for 
provincial governments. You are starting to see more of an 
emphasis on budgetary resources from the center, going to the 
provinces.
    We have had--through the Provincial Reconstruction Teams--
to intensify our efforts to make it possible for the provincial 
governments, then, to spend the resources that they're getting.
    I've sat with the sheikhs of the awakening--both in Iraqi 
and when they were here--they want more project money into 
their province. In fact, there was an Anbar supplemental of 
about $70 million. The Anbaris are politically powerful enough 
that several national politicians decided they should go and 
deliver it by hand. And there was a big ceremony for it.
    The--ultimately I think you will see that the elections at 
the provincial level will be the real answer to this. Because 
some of the provincial councils, which are not so 
representative, because of the way that the elections took 
place in 2005, I think, will be renovated by a new provincial 
powers, and it's why--by new elections--and it's why the 
provincial powers law is so important.
    I might just say that they were engaged in debates about 
the provincial powers that we would recognize from our own 
history. What was the role of governors who could remove them? 
Did governors have the right to mobilize military forces--these 
were really very crucial debates, and I think it's a good thing 
that they've gotten a law.
    The Chairman. I was there for that ceremony. I was there 
when the central government came out to meet with the sheikhs 
and with Satr, not Sadr, Satr--who was the guy who organized 
the sheikh, who organized the other sheikhs. And I was there at 
that ceremony. I, along with Ambassador Crocker and the 
General.
    And it was an interesting phenomenon. The fact was that I 
was told by two of the Vice Presidents that came from Baghdad--
one Sunni and one Shia--that Maliki wouldn't sign the check 
until the very last minute, and I assume it was because of some 
significant pressure from Ambassador Crocker, I don't know 
that.
    And the point I'm making is this--at least it may have 
changed in the last month or so. But there is an overwhelming 
distrust, as you know, as to whether or not these are merely 
stopgap measures.
    And what I keep being told is that there is a need for 
there to be actual integration--not just in the regional 
government, and the regional elections that will be coming up, 
but in the central government, and in the security forces.
    And I haven't--I may be missing something, and I'm not 
being facetious--I may be missing something here, but I don't 
see any of that integration occurring. Because that's where--
what the sheikhs with whom I personally met, and there were, I 
think, six present--they wanted to make sure that they were 
integrated into the security apparatus, on a permanent basis. 
And the bottom line was, because they didn't want Shia 
patrolling their streets, they didn't want Kurds patrolling 
their streets, and they wanted to be able to patrol their own 
streets, being a representative of the central government, but 
in their own areas.
    Secretary Rice. There is a program that is working with the 
Iraqi Government. There is a committee that the Prime Minister, 
himself, appointed--to do precisely that--to work these people 
into permanent structures of the state.
    I think, not everybody who's in the local citizen committee 
will be.
    The Chairman. No, no.
    Secretary Rice. But, you're right, Senator--this will take 
some time. This was a very fortuitous development, Awakening 
and the local citizens' committee, it was frankly not 
envisioned in the way that the security forces were planned. 
And now working them into the structure if very important. But 
it is underway. And my only point is it's, I think, working in 
the security structures is important, but also having Awakening 
feel that they are really a part of the political process.
    The Chairman. No; I understand both. And I agree. All I'm 
saying to you is, I think we are, we should be pushing, quite 
frankly, and according to the military, with whom I speak, 
considerably harder. And as you pointed out, that real progress 
has come--not the only progress--but real progress has come the 
more we've empowered people. And I really would argue, again, 
for you all to take another look at what the Congress passed 
here, about pushing forward on this whole Federal system that 
their constitution envisions. But, I'll come back to that.
    In my remaining 2\1/2\ minutes here, I'd like to ask you 
about the de-Baathification law. As you know, whether the 
recently passed de-Baathification law promotes healing or 
further division, depends on how it's implemented. If you 
listen to some of the voices of those, such as Dr. Chalibi, who 
has been closely associated with de-Baathification, the law 
will actually lead to the expulsion of more individuals from 
key government jobs, then inclusion.
    What steps are we taking, and how are we monitoring this to 
make sure that the de-Baathification law actually integrates 
more people, rather than has this negative impact. Because, the 
devil really is in the details of how this is read, and how it 
is being advertised, if you will, in Iraq by those individuals 
representing the sectarian interests in Iraq.
    Secretary Rice. We made the point, precisely, that you've 
made. That the issue here is going to be implementation. The 
law itself is not a perfect law, it is a compromise law. And, 
obviously, with any law, it is subject to interpretation.
    But when we've talked, particularly, with Tariq al-Hashimi, 
the Vice President, he is now very focused on the question of 
implementation, and also whether or not there need to be 
certain understandings about how it will be implemented. And we 
have people in the Embassy who are working on that.
    One of those things that has come about, when I was out 
there, a couple of times ago, Senator, I worked very hard with 
Prime Minister Maliki to restart something called the three-
plus-one, which is--they now call their Executive Council the 
Presidency plus the Prime Minister. And, by meeting weekly, and 
then having a little steering committee of their people to meet 
even more frequently--we've encouraged them to--practically, 
every day, to look at this and how it's going forward.
    I think the principle concerns are about what may happen to 
certain people in the security forces, and in the intelligence 
forces. It should be helped by the fact that the pension law 
and, frankly, also by the amnesty--but we've been making 
exactly the point, regarding the implementation, and whether 
there need to be certain understandings about it.
    The Chairman. I think Hashimi's come a long way, I've spent 
a lot of time with him, and I think he's come a long way in 
terms of greater regional authority. And I think there still is 
a significant deal to be made here, tied to oil, but my time is 
up. And I yield to Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Madame Secretary, yesterday Russian President Vladimir 
Putin, while President Yushenko of Ukraine was sitting next to 
him, threatened to target Ukraine with nuclear weapons if 
Ukraine was to deepen their relationship with NATO. Now, this 
comes on the heels of similar threats to Poland, and the Czech 
Republic, if those nations were to cooperate with us on missile 
defense.
    Last year the Russian Government, fomented unrest and stood 
idly by while government-sponsored groups physically threatened 
the Estonian Ambassador at her Embassy in Moscow, and are 
suspected of sponsoring a massive cyber-attack on their Baltic 
neighbor, all because the government in Talin moved a Soviet 
statue.
    Last year, Russia withdrew from a treaty, restricting 
conventional weapons in Europe. And this week, a Russian bomber 
risked an international military incident when it flew over a 
U.S. aircraft carrier, while another bomber simultaneously 
violated Japanese airspace.
    And President Putin announced that Russia is in the midst 
of a new arms race with the United States and our allies.
    Meanwhile, Gazprom, the Russian state energy company, 
threatened to cut off energy supplies to Ukraine, although the 
intervention yesterday by President Yushenko and some agreement 
may have postponed that for the winter--and Moscow continues to 
use energy as a weapon against its neighbors, to extort sales 
of vital infrastructure, with the goal of monopolizing energy 
development and transportation.
    Other forms used by Russia to bully its neighbors have 
taken the form of a blockage of Georgia, and daily threats to 
those capitals who work cooperatively with the United States. 
Now, given this record of behavior, why is NATO considering 
inviting President Putin to the Summit Conference in Bucharest 
in early April? It would seem that the alliance might very well 
be intimidated by that presence, given all of the experiences 
of its members.
    I just simply want to ask you to discuss for a moment what 
you perceive in the event the agenda at NATO is new members--
three have been strongly suggested--our two MAP programs, for 
Ukraine and Georgia, and then, of course, discussion of 
Afghanistan, or other issues in which we are, as an alliance, 
involved.
    What is the effect of joining President Putin to join the 
conversation?
    Secretary Rice. Thank you, Senator.
    First of all, let me just say that I said it at Davos, that 
the unhelpful and, really, reprehensible rhetoric that is 
coming out of Moscow is unacceptable and is not helpful to a 
relationship that, actually, I think, has some positive 
aspects. And we have cooperated on North Korean 
denuclearization, and Iran and the Middle East, and of course 
the cooperative threat reduction and global nuclear terrorism--
a lot of things. And yet, when it comes to issues that I would 
say come out of the structure of the post-cold-war order in 
Europe, we get this kind of rhetoric which is most certainly 
not helpful.
    As to the NATO agenda, it's the administration's strong 
belief that NATO will do what it must as an alliance, and 
Russia has no veto.
    So, in fact, we will look at what the status of various 
aspirants really is, and whether they're ready for different 
stages of, either NATO membership or the various relationships 
that NATO can offer, and we'll make the decision on that basis. 
I think that's the only way that NATO can proceed.
    We've also been very clear that we are absolutely devoted 
to the independence and sovereignty of Ukraine and of the other 
states that were once as part of the Soviet Union. The Soviet 
Union had all of these parts, but that was another point in 
time. It is gone forever. And I hope that Russia understands 
that.
    Now, as to how these discussions go, I've sat through, at 
least, the ministerials of the NATO-Russian Council. And very 
often, Senator, it goes the other way. It's an opportunity for 
Russia to see the unity of the alliance. It's very often an 
opportunity for the Russians to sit and recognize that the 
Baltic States are part of NATO, and therefore enjoy the 
protection of Article V and of the European and North Atlantic 
allies.
    And so, in that sense, these sessions tend not to be one in 
which the alliance is intimidated by Russia, but rather where a 
very strong message of alliance unity can be communicated.
    And I would hope that if we do go forward with a NATO-
Russia Council in Bucharest, that that would be what is being 
communicated--that it is a Russia-NATO conversation, but that 
NATO is a strong and unified alliance that is not going to see 
a return to the cold war, and that means, neither to Russia's 
ability to intimidate its neighbors, nor to the times when we 
had an implacably hostile relationship with the Soviet Union.
    Senator Lugar. Well, I thank you for that response. Can you 
give us an indication of how vigorous the administration will 
be in backing the three new membership applications that are 
imminent, as well as the MAP designation for Ukraine and 
Georgia?
    Secretary Rice. Well, on the three aspirants, we believe 
they're making very good progress. We will obviously reserve 
judgment until the time that we've had a chance with our allies 
to determine whether or not they've met the standard.
    But, should they meet the standard, it's our view that they 
ought to be invited for membership.
    In terms of the Membership Action Plans, of course, those 
also require an examination of where a state is, and I would 
give the same answer--we've always believed that states ought 
to meet these, or receive these relationships as they become 
able and capable for carrying out the responsibilities that go 
with them.
    Senator Lugar. Well, we will certainly ask you, as April 
approaches, to inform the committee about the impressions of 
the administration, the vigor of this pursuit. Because, as you 
know, action will need to be taken by the Senate. The last 
round was a joyous occasion. Of a good debate, ending in the 
morning, about noontime. The Foreign Ministers of the countries 
involved, sitting in the gallery of the Senate. Proceeding to 
the White House for a celebration. I would hope that this would 
be the case on this occasion, as opposed to a very tentative 
situation in which the countries may or may not know where they 
stand with you or with the Senate.
    And we've not had much discussion on the issue, but I cite 
this as a very important set of developments, rather stoutly 
ahead of us, at this point.
    Secretary Rice. Thank you, Senator. Let me just add that 
it's also very important to the future stability of the 
Balkans, as well, so we're mindful of the fact that this could 
help in issues of stability in the Balkans.
    Senator Lugar. I appreciate very much, your response and 
your opening statement that a special coordinator or negotiator 
or however one wants to designate this person, may be charged 
with a very heavy duty in the Near East.
    I cite this, specifically, having come through Kazakhstan 
and Turkmenistan within a week after President Putin, 
literally, had been on the telephone with the Presidents of 
those two countries, almost personally negotiating a natural 
gas deal, of very sizable amounts.
    This is not a bureaucratic functionary from Russia, this is 
at the top. And the necessity of gaining those resources, then, 
to pass them through Russia where--even while I was traveling--
deals were being inscribed with Bulgaria, with Russia taking 
control of 50 percent of the pipelines underneath that country, 
and then shortly after, with Serbia. Negating, in part, the so-
called Nabuko pipeline idea that we have. So, life is going on, 
rather seriously in this area, which we need to be following.
    And the new President in Turkmenistan, as you know because 
you have met him--is a very different President. After a long 
stretch of total, absolute control by someone with whom we 
really had no dealings. So, there's an opportunity. He has 
already been in touch with President Sakasvili of Georgia. They 
see each other as the same generation, and what had seemed 
impossible before, with trans-Caspian pipelines, or ships, may 
happen. And that is new.
    But we really need to be there, in Ashkbat, as well as with 
all of the dealings in Astona now, with the six powers, the 
very large Kashagan field--this is a huge situation, for the 
world, as well as for us.
    You know this, but I just applaud the need for our State 
Department to be on top of it. With somebody--almost on a daily 
basis--in touch with these leaders who want to talk to us. And 
especially President Aleyev, who is waiting for assistance, but 
values the security of the relationship, vis-a-vis, Russia, 
Iran--anyone else who might breathe heavily in the area.
    Thank you very much.
    Secretary Rice. Thank you.
    The Chairman. Thank you, Senator.
    Senator Dodd is next, but he suggested I----
    Senator Dodd. Well, no, Mr. Chairman, having just arrived, 
let me defer to my colleagues. We had a markup on a Banking 
Committee bill, Madame Secretary, and I'll defer my time and 
come back in a few minutes, thanks.
    The Chairman. Senator Kerry.
    Senator Kerry. Thanks, Mr. Chairman.
    Let me join you and the ranking member in expressing our 
sadness at the loss of Tom Lantos. My daughters and I had the 
chance to have one of those wonderful trips you referred to 
with him, in Budapest, and he was just so full of enthusiasm 
and energy, and had this marvelous warmth and brightness about 
him that we all remember.
    And we will miss him, and his passion for human rights, and 
for the issues that we're talking about here today.
    And what a family--a great, unbelievable family.
    Madame Secretary, thank you so much for being here with us 
today, for what you're doing. And I want to congratulate you on 
the increase of the State Department personnel, the Foreign 
Service personnel and USAID personnel--that is so important. 
And this is a very significant increase that you have asked 
for, and I'm confident the committee will embrace it 
wholeheartedly. I think it is long overdue.
    One concern--well, a number of concerns on the budget, 
overall. Secretary Gates, in a speech at Kansas State 
University, he said, ``There's a need for a dramatic increase 
in spending on the civilian instruments of national security. 
Diplomacy, strategic communications, foreign assistance, civic 
action, and economic reconstruction and development.'' And I 
think it's wonderful to have the Secretary of Defense, who is 
making that argument.
    The question is, really, whether or not this budget, in 
fact, fully meets that task. I know it's an increase and we 
welcome the increase and you cited the various increases that 
have taken place.
    But specifically, for instance, turning to Afghanistan 
where General Jones and others--I might ask you, 
parenthetically, to perhaps comment on that, I mean you're 
familiar with the report--of these eminent persons who really 
see the Afghanistan situation slipping away, and that's the way 
they've cited it. And General Eickenberry has said, ``Where the 
road ends, the Taliban begins.'' And there's this whole notion 
that we need to be making a stronger commitment. I think the 
budget is a plus-up of $150 million over what you asked for in 
the regular budget. Then, of course, there was a supplemental 
above that. So, the total last year as over $1 billion.
    But the question is asked, why wouldn't we be asking for 
that full amount here in this budget, and why would the 
increase not be more significant with respect to the support 
for the PRTs which, I think is around $50 million or something, 
that vicinity.
    So, are you asking for enough to really, in fact, get the 
job done, and where do you assess that situation at this 
moment, with respect to General Jones reports, et cetera?
    Secretary Rice. Thank you, Senator.
    Well, first of all, I believe that the budget represents, 
as you said, a significant increase. And I'd like to focus very 
intensely this year on getting it fully funded.
    I think that one of the problems that we've had is that 
we've had increases, and then we've not be able to get them 
approved--particularly on the personnel side. In the last 
budget we asked for 280 positions--that didn't get approved. 
And so, I believe this is a very, very significant increase, 
and if we could get this fully funded, then we would leave the 
Department during the next budgetary cycle, in a position to 
increase the funding again, and to get to a place where we need 
to be.--
    Senator Kerry. But that's the personnel part, right?
    Secretary Rice. That's the personnel part.
    Senator Kerry. Right.
    Secretary Rice. On Afghanistan, we have tried, in part, 
through supplemental funding, which is really focused on the 
kinds of things that we don't think will be recurring costs in 
the budget for extended period of time, to infuse 
counterinsurgency funding.
    A lot of the funding that we think will be longer run 
governance, the building of capacity and all of that--we've 
started to put into the regular budget. But there's certain 
things--and this is where the PRTs are very important, where we 
really are very much linked up in a war-like environment, where 
we are part of the counterinsurgency effort.
    I think these are the right numbers. I will be the first to 
say that we have made a priority decision in favor of roads and 
electricity. And it's in part, because of what you mentioned--
the insurgency begins where roads end.
    It is also because we believe that the electricity piece is 
very important.
    Senator Kerry. Which part of the package goes to that? I'm 
trying to just break it down, here.
    There's $370 million for counternarcotics, there's $240 
million for democracy and governance, $109 million for health 
and education, $74 million for the PRTs, $12 million for 
nonemergency food aid.
    Secretary Rice. And there's an infrastructure piece in the 
supplemental; we had a road-building plan over a number of 
years.
    Senator Kerry. It's in the supplemental.
    Secretary Rice. Yes; it's in the supplemental.
    Senator Kerry. I see.
    Secretary Rice. So we are building roads.
    Senator Kerry. Why wouldn't that be part of the overall 
budget request, to accurately reflect what we need to do in 
Afghanistan?
    Secretary Rice. Yeah; there's $834 million in the 
supplemental. A significant portion of that is for 
infrastructure. I'll get the exact breakout for you, Senator.


    [The information referred to above follows: ]

    In the Fiscal Year 2008 Base Budget, the Department of State has 
allocated on a preliminary basis $94.5 million for power and $95.3 
million for roads. An additional $60 million for power and $279 million 
for roads has been requested in the Fiscal Year 2008 Supplemental for 
the Global War on Terror.
    After the original Supplemental request for Fiscal Year 2008 had 
been submitted, the Government of Afghanistan approached the United 
States Government with an emergency request for diesel generators for 
Kabul and the Northern Electrical Power System. Furthermore, the 
development of Sheberghan, a thermal power plant with adjacent oil and 
gas fields that would feed electricity into the Northern Electrical 
Power System, became a high priority for infrastructure development. It 
has the potential to increase access to electrical power for 50 percent 
of Afghanistan's population and greatly reduce Afghanistan's reliance 
on imported electricity and fuel. To fund these high priority 
infrastructure projects, the Department of State amended its Fiscal 
Year 2008 Supplemental request to include an additional $115 million 
for power and an additional $50 million for roads.

    Senator Kerry. Come to the heart of the issue; when are you 
going to measure that against what General Jones has said, what 
the Secretary has said, and others--we still have the luxury of 
the majority of the people supporting our presence. We've got 
to keep that, which means we've got to turn around the on-the-
ground delivery, rapidly.
    Secretary Rice. Yes. And I think, Senator, only a portion 
of that, and I would say, a relatively small portion relates to 
resources. I think the problem that we really have--and here I 
do think the international effort has got to be more coherent--
is that you really have a significant counterinsurgency problem 
in the South. And the forces are able to clear these areas.
    If you take a place like Musukala, they have been able to 
clear it. The question is: Can it be held? And so there is a 
significant program now that I talked to the one-star general 
who has been put in charge of it out there, to rapidly increase 
the number of police. We will work with them on doing that. 
There are certain limitations.
    One of the problems in Afghanistan, as you know, this is a 
very poor country with people who are largely illiterate. Just 
finding people is not an easy matter. But, it's really being 
able to hold, and then making sure that all of the multiple 
reconstruction efforts--ours plus those of the rest of the 
international community--are really getting into an area, and 
building quickly.
    They have a plan for what they're calling ``Focus District 
Development'' in the south, which means, taking a district, 
looking at the needs of clearing, looking at the needs of 
holding and then putting the right reconstruction efforts in. I 
think that will give us a much more focused way of doing it.
    Senator Kerry. Let me follow up on that.
    Secretary Rice. It's just the two of us.
    Senator Kerry. But let me take advantage of that.
    The Paddy Ashdown situation, and your recent trip--did you 
make any progress with the British foreign circuit and Foreign 
Secretary Miliband on the question of NATO troops, additional 
troops? And obviously, this is an enormous test for NATO. I 
think Secretary Gates made the right comments.
    As I stated, this is really an important test. Can you 
report to us what progress you made, and what happens if NATO 
doesn't provide more troops? What are you planning?
    Secretary Rice. Well, as you know, as a temporary matter, 
we are surging some 3,200 marines into Afghanistan. But the 
real answer here is that somebody's going to have to join the 
Canadians in the south. And the Canadians have been clear about 
that--it is not a request that should be beyond the alliance to 
do it.
    And Secretary Gates is working very hard on it, I'm working 
very hard on it. The French have said that they may be able to 
help some, in some parts of the country, there are others who 
might help.
    Senator Kerry. Why do you think this is proving so 
difficult? I realize that a majority of the German population 
doesn't want the troops there. When I was in Brussels, I met 
with the Ambassadors there, and the Dutch might be 
characterized as squeamish--everybody's squeamish about this. 
Where does that leave us, with respect to this first mission 
out of area for NATO and the future?
    Secretary Rice. Well, I think the first point to make is, 
it is NATO's first really big mission out of area. And this was 
not what, I think, the alliance would have thought that it was 
going to be doing, 4 or 5 years ago. And I think the 
capabilities have come along more slowly than the new demands.
    I also believe, Senator, that we've got a bit of a problem, 
in that governments are going to have to be more 
straightforward with their people, that this is not just 
another peacekeeping operation. That this is really a 
peacemaking operation, and that there are going to be 
casualties.
    It is going to be tough fighting. You can't do it all with 
reconstruction assistance. And part of what we've been trying 
to do--Bob Gates and myself--is to just say to people, ``We 
appreciate that you're doing what you can do, but this is a 
different kind of mission than peacekeeping.'' And so when you 
have allies like the Canadians, the Danes, and others in the 
south, who are encountering really tough fights. It's important 
to get them the military help that they need.
    And balancing the rhetoric with populations, about the need 
to do reconstruction and build schools and do health clinics, 
with a full understanding that there is a really tough military 
mission that has to be carried out here, has been part of the 
problem.
    Senator Kerry. Is it fair to say that the NATO reluctance 
puts the mission in jeopardy?
    Secretary Rice. I believe that if NATO is--if allies, all 
allies remain reluctant, yes, there is a real problem.
    Senator Kerry. And is the administration envisioning 
picking up that slack with our own troops? I mean, does the 
temporary deployment of Marines then become permanent? Does it 
become larger?
    Secretary Rice. I believe there are still good options for 
the alliance. A lot of effort is being put toward the common of 
Bucharest, to resolve some of these issues. We have increased 
in-flows, and willingness to give equipment and to use Special 
Forces, that's important.
    We need more people in the training units, who are--and you 
know, this is not training in a classroom, very often. This is 
mentoring out in a rough neighborhood where you might encounter 
terrorists, as well.
    And so I know, and we can all be critical of how the 
alliance has taken this on, but I think we need to recognize 
that the alliance, which was structured to do something else, 
has only slowly transformed itself, and that the mentality of 
what it requires to do Afghanistan is only now really dawning 
on certain members of the alliance.
    Senator Kerry. If NATO does not accept this responsibility, 
does this, in fact, put NATO's rationale on the table?
    Secretary Rice. Well, NATO is doing a lot of things, 
Senator. They're also, you know, they have a training program 
in Afghanistan for leadership, we're in Darfur as a planning 
element. I still believe the alliance will meet this test. But 
we have not minced words, that an alliance that has taken this 
mission on--and I want to underscore, this was a decision taken 
by the NAC, to take this mission on. It is a consensus 
organization. So there was no one who didn't want to take this 
mission on. And we've not----
    Senator Kerry. I understand.
    Secretary Rice [continuing]. Minced words that we better 
succeed, or the alliance, in fact, will be weakened.
    Senator Kerry. In your judgment, as you have these 
discussions with the various ministers and others involved, do 
they express an understanding of the challenge of the stakes in 
Afghanistan, but simply see a different way of dealing with it? 
Or do they not see the, sort of, downstream impact of Taliban 
resurgence, al-Qaeda, et cetera?
    Secretary Rice. I would say that it's mixed. A lot of 
countries now that are taking on this very heavy fighting 
understand, fundamentally, now what counterinsurgency is all 
about.
    To be fair to them, this is something we've had to learn, 
as well. This has not been easy to learn that this is a 
continuum--you clear, you hold, you build--it all has to happen 
in a continuum. There isn't a fine line between war and peace.
    Senator Kerry. It's also fair to say, they have lived with 
these kinds of things longer, in some ways. Whether it's been 
the Basques or the IRA or other forms of terror.
    Secretary Rice. Well, they've certainly lived with 
terrorism, but I think it's different, this is a different 
branch, a different form.
    Senator Kerry. And you think they understand that? Or not?
    Secretary Rice. I think they understand it, it's been 
harder to come to a realization about what to do with it, what 
to do about it. But in my visits down to the ISAF headquarters, 
I think people are coming to terms with it.
    The problem is the alliance has to come to terms with it, 
as a whole. It cannot just be Canadians and Brits and Danes and 
Americans and a few others.
    Senator Kerry. And what did Foreign Secretary Miliband say 
to you with respect to the British?
    Secretary Rice. The British, I think, understand this 
fight. If there's a big piece of this I think we all are going 
to have to work very hard on it. And David Miliband and I spent 
a lot of time on this. I believe the ISAF mission is really 
understanding better, militarily, what has to be done. That 
you're going to be fighting for population security in 
circumstances where they won't come at you as an integrated 
military grouping, because then they get really destroyed. The 
tried that at Kandahar, they tried that on a spring offensive, 
they got destroyed.
    The harder piece is the piece that is rounding up cells, 
using information and intelligence from the population to take 
down that suicide bombing network. It's that piece of it that 
they are now really trying to do.
    But the piece that I don't believe is really pulling its 
weight is the build part. And only a small part of it is 
resources. Everybody would love to have more resources. But 
unless you're quick, and capable of going right into a 
community, and saying, ``All right, you have helped clear your 
area of bad guys. We can hold, they're not coming back.''
    Senator Kerry. Now we're going to make a difference.
    Secretary Rice. Now, let's make a difference for you. A lot 
of the structures of aid--institutions are not really 
structured to that.
    Senator Kerry. I know I'm trying to draw this out a little 
bit for somebody to get back here so I can go vote. But, 
Pakistan--Senator Biden and Senator Hagel and I are going to be 
there on the election day and the next day. Can you share with 
us what the Republican Institute has pulled out of the 
electoral process. What are we doing, and what is your standard 
going to be, to make a judgment about the fairness of those 
elections?
    Secretary Rice. Well, we will--for a variety of reasons, as 
you said, IRI had to pull out. There's a large European 
Commission monitoring mission. We will, of course, listen very 
closely to them, there are other NGOs that will be involved, we 
will listen closely to them. We have tried to help train, even 
local officials in election monitoring and the like, and we 
will have our people out and around the country--we have, as 
you know, several consulates, we'll have people out and around 
to observe----
    Senator Kerry. What's your confidence level at this point, 
about the prospects of those elections being held?
    Secretary Rice. Well, I believe that the Pakistani 
leadership understands that they have to have an election that 
inspires confidence in the Pakistani people that this is a step 
forward for democracy, I think they understand that.
    It's not going to be easy, we're all concerned about the 
potential for violence, we're all concerned, of course, about 
the potential that there will be, at least, pockets where there 
may be problems with the elections. But I think we have to keep 
pressing and encouraging and insisting that this is an election 
on which a lot is holding. They have got to inspire confidence 
that people got to vote freely.
    Once that is done, once the elections are over, the key is 
going to be to bring about a government that, again, can 
inspire that there are a wide range of moderate voices that 
have been integrated into it.
    Senator Kerry. Madame Secretary, thank you, I need to go 
vote.
    Senator Lugar, I think you get a second round, here.
    Senator Lugar. Thank you very much.
    Senator Kerry. Thank you, Madame Secretary, very much.
    Secretary Rice. Thank you, Senator.
    Senator Kerry. Thank you.
    Senator Lugar. While awaiting my colleagues, let me ask a 
question about our relations with Serbia. It's anticipated that 
action may occur in Kosovo within days. The Serbians have had 
an election recently, Tadic was elected--a person who appears 
to be headed toward affiliation with Europe, and that is very 
encouraging, but can you describe any efforts that we are 
making to maintain very strong ties between the United States 
and Serbia, and thoughts on this transition, period, that may 
accompany a Kosovo announcement?
    Secretary Rice. Thank you, Senator.
    We want a Serbia that is looking to its future, and that 
future is in Europe. And we've been the strongest advocates of 
its agreement between Europe and Serbia, for reasons having to 
do with Serbian politics, they've delayed that somewhat but, I 
think we find our European allies recognizing that the Serbs 
need a European perspective.
    I personally intervened so that the Partnership for Peace 
could be offered to Serbia. It doesn't mean that we are unaware 
of, or are uninterested in the important work of still getting 
the war criminals--we are. But we felt that it was time to move 
Serbia closer to NATO.
    I do know that this is going to be an extraordinarily 
difficult period of time for the Serbian people. And what the 
United States will be doing is offering a hand of friendship, 
saying that the status of Kosovo and its resolution will allow 
Serbia to look forward, and to move on, then, with what it 
needs to do.
    We hope to be good partners in exchanges, in economic 
assistance and all the ways that we could reach out to Serbia. 
But it's a great culture, and they're a great people. And I 
hope that they will look to that future, and not to the past.
    Senator Lugar. I was interim, waiting for Senator Hagel's 
arrival, and now I'll turn attention to him.
    Senator Hagel. Thank you, Mr. Chairman.
    Madame Secretary, I add my thanks to you, for your many 
years of leadership and commitment to this country, in 
particular, foreign policy. I know this will not be the last 
time we see you, I'm sure--I hope--before this committee this 
year, before your tenure ends. But, as was noted at the 
beginning, it will be your last budget, most likely, that you 
will present.
    And this country is grateful to you for your leadership and 
your good work and your efforts.
    I wanted to go back to a couple of points that were made by 
Chairman Biden and Senator Lugar in their remarks. One 
references--as you have noted in your budget presentation, to 
increasing a number of our programs. And in particular, what 
Secretary Gates said, recently, in two speeches over the last 6 
weeks, about increasing our soft power, our diplomatic power.
    Our entire arsenal of influence that's so critical for our 
country at a time, as both Senators Lugar and Biden noted--this 
is a different world, and you understand it, as well as anyone. 
It is going to require a 21st century frame of reference, that 
I'm not sure we're there, yet. I don't think that's anyone's 
fault, it is just realities of the world we're dealing in, and 
a world that experiencing the greatest diffusion of 
geopolitical, economic power in the history of man.
    And to accommodate and to address those great challenges of 
our time, we are going to rely greatly, I think, on what you 
have within your portfolio, and the next Secretary of State, 
and the next group of leaders that comes behind you, and the 
President and your team.
    And I want to compliment you--as has been noted here, too--
for following along with what Secretary Powell has started, in 
enlarging, deepening those resources that are required as the 
State Department.
    And General Petraeus has said, and others, there is no 
military solution to Iraq. There is no military solution to any 
of these problems. So, we're going to have to depend more and 
more on this arsenal of influence that, sometimes we've not 
coordinated as well as we needed to.
    And, in particular, the energy aspect--what Senator Lugar 
talked about--your reference to trying to implement that energy 
coordinator before you leave office, which I think is one of 
the more important parts of dealing with these great issues.
    I wanted to focus on a couple of areas more specifically, 
and go back to Iraq, because when we really look at this great 
framework of challenges in the world today, we the United 
States, are committed in two areas, in two wars. Roughly 
180,000 troops in Iraq and Afghanistan. We're pouring 
tremendous resources, as we have been, into those two 
countries.
    We took more casualties, as you know, in Iraq and 
Afghanistan, American casualties, last year than any other 
year. Our casualties in Iraq last month are the highest they've 
been in 4 months, with more violence.
    And when you were talking here, and I didn't hear all of 
the conversation because of the vote, about the focus on 
bottom-up, and in fact you and I have had this conversation in 
your office. Efforts to secure and stabilize at the regional 
level, community level, which is obviously critically important 
because that's an area that represents the human dimension, 
jobs, growth. How are the individual Iraqi lives--how are those 
lives being improved?
    But also there's a risk in that, in that it has the 
potential to weaken the strength of a national government. And, 
if on one hand, we are focused on strengthening Iraq, 
strengthening the loyalty to a nation--not loyalty to a tribe, 
not loyalty to a region. And further, trying to strengthen a 
national army--loyalty to a national army. Trying to root out--
which everyone recognizes, a tremendous amount of corruption 
that we are dealing with.
    We've got to have some balance, obviously, to that, and I 
know you try to deal with that. And, in particular, I want to 
note an AP story that I just saw this morning that came out of 
Iraq last night, and I'd like to get your reaction to this.
    This is an Associated Press story out of Baghdad. Last 
night, and I'll quote just a sentence or two from it, ``The 
Speaker of Iraq's fragmented Parliament threatened Tuesday to 
disband the legislature in Iraq, saying it is so riddled with 
distrust, it appears unable to adopt the budget, or agree on a 
law setting a date for provincial elections, or any other 
bills.''
    And it goes on in some detail, it quotes other legislators, 
how much and how deeply troubled the Parliament is, and unable, 
as a result of that, to accommodate and address some of these 
great challenges that we know need to go forward. And, of 
course, that was the entire point of the so-called thrust that 
we, militarily, worked through last year, and the surge that 
was to buy time for the politicians, for the national interest, 
the leaders of Iraq, to not just move toward political 
reconciliation, but toward some political accommodation, in 
order to get these differences on some ground, in order to deal 
with a reconciliation.
    And, as you have noted, we've all noted, that progress has 
been lacking.
    Would you comment on this story, and if its accurate, and 
where we go from here?
    Thank you.
    Secretary Rice. Yes, Senator; I was following--I've been 
following very closely what has been happening in the Iraqi 
Parliament, and I think the Speaker, who I actually know, Mr. 
Mashhadani, was perhaps engaging in a little hyperbole to rally 
the troops. And they, this morning, came back.
    What had been the dispute was going to be the sequencing of 
the bills, because the Kurds wanted their 17 percent before 
they voted the provincial powers, others wanted.
    As you might imagine, legislative sequencing is something 
you understand better than I. They went back and they figured 
out how to do it all as one package, and this morning, they 
voted all three. They voted provincial powers, they set a--
apparently, although I don't have my own confirmation of this, 
I was passed a note--that they've said, they will try to hold 
provincial elections before October 1.
    Those provincial elections are going to be very important 
to renovating provincial councils that are, perhaps, not wholly 
representative. They passed their 2008 budget, with significant 
increases to the provinces for funding. They also passed an 
amnesty that the Sunnis are very pleased to see.
    So, the legislature has actually done a lot. We talk a lot 
about bottom-up reconciliation, and I don't think that's very, 
very key--the Concerned Citizens Committees, The Awakening 
movement, the functioning provincial councils.
    When I was here on my first testimony on Iraq, in 2005, I 
talked about the formation of Provincial Reconstruction Teams 
as something we wanted to do.
    I opened the first in 2005 in Mosul. They've gotten 
stronger and stronger as a way to bring about provincial and 
local capability to do things like execute budgets.
    But, you're right--the national level has to work, too. And 
in the last few months, they've passed a pension law, an 
investment law, a justice and accountability law, a provincial 
powers law, a general amnesty and a 2008 budget.
    They also, Senator--we've worked very hard with them--
they've created a structure now, their Executive Council, which 
gets the Prime Minister to work with the Presidency Council on 
a weekly basis, and they've created a Secretariat for that.
    It's still hard, you're right, there's a lot of distrust. 
There is a lot of feeling that is very deep. But when we talk 
about reconciliation, I think it's important to realize what 
they're trying to do right now is what I would call de jure 
reconciliation. They're trying to get the right laws in place, 
the right distribution of power. The coming together of peoples 
will happen over a longer period of time.
    But, you see every day, efforts between Sunnis and Shia to 
assert their ``Iraqi-ness'' not their Sunni or their Shia 
element, and it will be helped by these laws that have been 
passed.
    So, yes; it was a big kerfluffle last night in the Council 
of Representatives, apparently they solved it this morning.
    Senator Hagel. Mr. Chairman, thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and thank you, 
Madame Secretary, for testifying before the committee. We are 
at a critical time right now, with regards to our foreign 
policy, and related spending, which makes this hearing all the 
more timely. And I'd like to just make a few quick remarks, and 
ask that my full statement be placed in the record.
    I'm a strong supporter of increased funding for State 
Department operations, to ensure that we have a robust and 
fully functioning agency. I'm pleased that the President's 
proposed fiscal year 2009 State Department budget has increased 
8.5 percent from last year's budget request, including 
emergency funding.
    I nonetheless remain deeply concerned that the President is 
still failing to properly allocate resources, so we can address 
our top national security priority, and that of course is the 
global threat posed by al-Qaeda and its affiliates.
    The misguided and narrow focus on the war in Iraq is 
depleting our financial, diplomatic, and material resources 
around the globe--whether in Afghanistan, Pakistan, Indonesia, 
the Democratic Republic of Congo, or Algeria--and making it 
much more difficult for us to pursue a policy agenda that does, 
in fact, contribute to our national security.
    Following the Defense Secretary's lead, last week the 
Chairman of the Joint Chiefs testified before the Senate Arms 
Services Committee and noted that we need to do a better job of 
developing the capabilities and capacity in other agencies, 
outside of the Defense Department, including State and USAID.
    And, you know, how have we--how has this happened? How have 
we reached the point where the Defense Department has to 
advocate more strongly for building and strengthening our 
civilian and diplomatic capacity than our own State Department?
    In addition to my concerns about misplaced priorities, I 
continue to be concerned about this administration's misleading 
budgeting. As in previous years, the President's budgeting 
fails to account for the cost of the wars in Afghanistan and 
Iraq and fails to pay for those costs, thus sticking our 
children and grandchildren with the bill. Passing the tab for 
these wars onto future generations is simply irresponsible.
    And I'd also like to echo the comments of some my 
colleagues with respect to Iraq and Afghanistan and the need to 
ensure that we are equally focusing on the so-called 
``nonkinetic'' programs. I think such priorities are essential 
and needs to be substantially robust.
    Madame Secretary, I understand this budget request includes 
creating an additional 50 positions for political liaisons with 
military counterparts, designed to provide additional support 
for the Department of Defense. And I do believe and understand 
that these relationships are key to ensuring that U.S. military 
actions are consistent with U.S. foreign policy objectives.
    However, given that the Department of State is incapable of 
meeting critical foreign policy needs overseas, coupled with 
the fact that the U.S. military is increasingly filling the 
gaps when the Department of State cannot, it almost seems like 
the Department of State is outsourcing its mission and its jobs 
to the Department of Defense.
    What steps have you taken to ensure that the Department of 
State does not cede its foreign policy responsibilities to the 
Department of Defense, and retains its position--which I, of 
course, believe in--as the primary agency responsible for 
foreign policy?
    Secretary Rice. Well, Senator, let me start by saying this 
problem began in the 1990s, when we tried to capitalize on the 
peace dividend. It was when USIA went away, it was when there 
was a hiring freeze on Foreign Service officer--we now will 
experience a bubble in a couple of years, where we simply 
didn't hire anybody for years.
    As so, what we have done in this administration, and what I 
have done with the support of this committee--and frankly, not 
just starting this year--is to rebuild those capabilities, over 
a period of time. That's why public diplomacy funding has been 
up every year in the President's budget. That's why funding for 
foreign assistance has quadrupled in Africa, doubled in Latin 
America, tripled worldwide. It's why we have, not just spent 
more money, but we've completely restructured the way we think 
about what the State Department is doing.
    I have, frankly, 300 diplomats in Europe that I didn't 
need. They're now someplace else. And I think it's important 
that they're in India and Brazil and in parts of Africa. I had 
as many diplomats in Germany as I had in India. That was an 
outrage.
    And so, it is, in fact, not just more people, although, 
thank goodness we are asking for a lot more people--1,100 new 
Foreign Service, and 300 new USAID--but it's also, what are 
those people going to be doing?
    It's a great thing to have great political reporting--I 
believe in it. But I've said to my officers in places like 
London and Berlin, I talk to those people all the time. The 
political reporting I need is, how are we mobilizing the trans-
Atlantic alliance to do something about Darfur--where you've 
had a tremendous interest, sir--or to do something about 
Somalia?
    And so, we've been changing the whole structure of the way 
that we think about diplomacy. I gave a speech yesterday, a 
second speech--I gave the first at Georgetown 2 years ago, and 
I went to update it, called Transformational Diplomacy--what 
are diplomats going to be doing?
    Now, in that regard, diplomats are going to be doing more 
to help people improve their lives, through being able to 
manage foreign assistance as part of our foreign policy. 
Diplomats are going to be working with the military, which is 
why the PolAds are important, because we fully believe--and by 
the way, so do our military counterparts--that they don't want 
to, nor should they have, the mission of carrying out the 
foreign policy of the United States. It would erode the State 
Department's mission, and it would erode their mission in terms 
of military functions.
    But, increasingly we have a continuum. And not just in 
places like Iraq or Afghanistan, but in a Haiti or a Liberia, 
where an area might not yet quite be stable, so you have to 
work with military assets while you build the capacity of the 
government, which is why you see us working very hard for these 
civil/military-type apparatuses, like the Provincial 
Reconstruction Teams.
    Finally, I was really quite unhappy that, when it came to 
staffing major civilian reconstruction, that we had not 
developed, in the United States of America, civilian 
institutions to do that.
    I mentioned, Senator Feingold, I think you might not yet 
have been here--the way we did it in Afghanistan with the bond 
process, I will label ``adopt-a-ministry.'' So, one country 
took this ministry, and another country took that ministry, and 
frankly, we're still paying for the incoherence of that effort.
    Then we got to Iraq, and it was given to the Defense 
Department. But they would be the first to say that they 
weren't capable of mobilizing the full range of civilian 
capability for reconstruction. And it's only when we went to 
Provincial Reconstruction Teams, this kind of integration of 
civilian and military, that we were able to do more.
    Now, the last big step in that is what Senator Lugar and 
Senator Biden and Senator Hagel and the State Department have 
been so interested in, the Civilian Response Corps. Because 
what we really ought to be able to do is not to turn to the 
National Guard or to the Reserves to provide city planners, or 
to provide judges or people who know how to do a health care 
system. We ought to be able to ask Americans who want to serve, 
to say, ``If you're an Arizona prosecutor, and you want to take 
a year off and help the Liberian people develop rule of law--
the U.S. Government will put you in the Civilian Response Corps 
and we'll call on you to do that.
    So, I believe that these are all innovations that we've 
made over the last several years, with increased resources, but 
not just with increased resources. With really changing the way 
that we think about what diplomats are going to do. And I'm 
very pleased and proud to say that I think that the men and 
women of the State Department have been excited by the 
challenge. They've been willing to think about the different 
kind of training, and the different kind of light that that's 
going to require.
    We have had to support families better, just one final 
example--when we wanted people to go to Afghanistan, or to 
Iraq, unaccompanied--in the old days their family had to move 
back to the United States, that was very disruptive. Now we can 
leave them in theater.
    So, we've made a lot of innovations. I want to say that I 
think we've made them together, and we've increased the 
resources together. But this is going to take more than what 
we've been able to do in one administration, and long after I'm 
gone, I hope the United States will continue to build these 
capabilities.
    Senator Feingold. Madame Secretary, you know from past 
experience, I normally wouldn't tolerate such a long answer, 
but you really were trying to talk about this fundamental 
issue, and I appreciate the breadth of what you talked about, 
especially the reference to the civilian corps at the end--this 
is exactly what we need to do.
    And let me just say, as my time is running out, you know, 
having been to Africa many times, and seeing the work of our 
military in some of these situations--it is so moving and 
wonderful to see, for example, in a place called Dire Dawa, 
Ethiopia, they actually provided these army tents when there 
was a flood, and it's the only reason people were OK--and this 
wasn't even in a military situation, this was a situation just, 
where we helped people.
    But what bothers me, and I know you're sensitive to it, is, 
you know, you see the kids running up to the military people, 
and that's a lovely sight and they're excited and grateful. But 
for our face to be, first and foremost, military in a situation 
like that. I know you're sensitive to this, but somehow we have 
to get to the point where our first face is not military in 
these situations. Their role is important, but we have got to 
have the diplomatic and other resources so that it isn't, ``the 
United States does good things, if they're in uniform, only.'' 
It can't just be that.
    And I realize you're sensitive to that, but I think that is 
one of the most overarching issues for our foreign policy 
throughout the world, and it is a continuum between Defense and 
State in those functions, but I think too often the continuum 
right now is too much on the appearance of a military side, and 
make it more balanced, appropriately balance it, it would be 
great.
    Thank you.
    The Chairman. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Madame Secretary, I want to join my colleagues in thanking 
you for your service, it has been an honor for me to work with 
you. And I do hope that, though this might be your last budget 
presentation, I'm sure there will be lots of conversations that 
will go on until the end of the President's term.
    Let me just, I want to just start by reflecting on some 
positives, and then raise some areas of concern.
    I also join in appreciation for the increase, 8.5 percent 
increase in State Department funding, I think that's important.
    I support and applaud the continuing commitment to 
Millennium Challenge Account, though I would hope that we in 
Congress could do better. I think this is one of the really 
important ways in which we do foreign aid, which is to work 
with local governments, and have them identify what they need. 
And then have in place those indices of accountability and 
transparency that give us a greater sense that they'll return 
for the investment, that watch it be used in the way it's 
intended.
    So, I applaud the continued commitment, I would hope that 
we could do better than what's set forth in the budget. The 
robust funding for global AIDS, I think the--this 
administration has not gotten the recognition for the 
incredible commitment we've made to global AIDS, and the impact 
it's had, in terms of saving lives, and I applaud that.
    I participated in a meeting with Ambassador Negroponte just 
the other day on the Merida initiative, with the Ambassador 
from Mexico and El Salvador, and I applaud the commitment there 
to combat transnational organized crime. The places in 
Minnesota are impacted by the inability to deal with organized 
crime and drug trafficking in Mexico.
    And finally, if that's not of great focus, but of great 
significance has been your personal efforts, and the efforts of 
the State Department to expand the opportunities of student 
visas, bringing students into this country. I think in the 
post-9/11 universe, we squeezed back, and I have been concerned 
by the long-term implications of that. And we talked about 
this, I think during your confirmation you made a commitment to 
change that. And as I've reviewed the numbers, I think we're 
back to pre-9/11 numbers of students from other countries. And 
here, we're doing a lot of work now with the Arab countries. I 
think it's important that the best face of America--I can only 
imagine in 10 years, someone in this seat, 15 years, talking to 
a Prime Minister from an Arab nation or South American nation, 
if they studied here, it makes a difference, and so I applaud 
that.
    Two areas of significant concern. One, I am concerned about 
what appears to be a push by this administration to complete a 
Civil Nuclear Cooperation Agreement with the Russians. We've 
talked a little bit and Chairman Lugar raised the issue of some 
of the language which you, yourself, you know, labeled 
unhelpful, reprehensive rhetoric.
    I understand that--or our intelligence community has 
confirmed that Russia continues to assist the Iranians in long-
ranch missile programs, I'd, at least that has been reported. I 
would ask you, one question would be--is that an accurate 
assessment?
    I also understand that Russia is selling advanced air 
defenses to Iran, defenses that could be deployed to defend 
Iran's nuclear sites. And I believe the Clinton administration 
made a point of demanding in the late 1990s that--a limitation 
of that. Have we reversed that? Are we allowing that to go 
forward?
    And then, finally, and this is the issue, this--the whole 
question of proliferation. I supported the India agreement, I 
thought it was--it made sense.
    But on the one hand, we have--we're putting diplomatic 
pressure on nations not to trade with Iran, not to support it, 
not to put it in a position to expand its nuclear efforts. 
You've talked about upping the impact of sanctions about 20 
percent, to significantly higher, we begin to see the efforts 
of that.
    I understand that a few weeks ago, Moscow made its final 
shipment of nuclear fuel, needed to start up a massive power 
plant reactor at Bushehr. My understanding is that once this 
plant is up and running, it will produce enough near weapons-
grade plutonium for roughly 60 crude nuclear weapons.
    So, that's the information that we're hearing. I'm hearing 
that, and I don't know whether that's Energy or State 
Department, that doesn't matter to me. The bottom line is, help 
me understand whether, in fact, this is a path we're moving 
down. If I'm wrong in the assertions I've made, let me know. 
But I would state very clearly that it's a deep concern to me, 
that moving forward with a Russian Civil Nuclear Cooperation 
Agreement, particularly in light of their activities in Iran, 
really are inconsistent and contrary to the diplomatic efforts 
we're trying to assert, regarding Iran and its capacity to 
develop a nuclear weapon.
    Secretary Rice. Thank you, Senator.
    Well, there certainly are concerns about Russian 
conventional transfers, air defense capabilities, and the like, 
to Iran. And this is something that I bring up consistently and 
frequently with my counterpart. They say, ``Well, these are not 
arms sales that are illegal,'' and we say, ``Not everything 
that is legal, is wise.'' And this is a discussion we have, and 
will continue to have.
    I do believe that we think that the Civ Nuke agreement--and 
we've not yet initialed it, we have largely negotiated it, but 
we've not initialed it--we do believe that a Civ Nuke agreement 
with Russia makes sense. They are one of the members of the 
Nuclear Suppliers group. We believe that their proliferation 
activities--or nonproliferation activities, let me put it that 
way--on nuclear matters are consistent with the obligations 
that we would be taking and they would be taking under the 123 
Agreement, and that it would be in the benefit of both sides to 
have it.
    Let me just say, on Bushehr--we frankly have had, over 
time, a kind of evolution of our policy on Bushehr, because 
when it became clear that what we needed to do was to stop the 
Iranians from enrichment and reprocessing, but not to deny that 
they had the right to peaceful nuclear uses, that the Bushehr 
strategy, the Bushehr framework by which the enrichment and 
reprocessing of fuel would take place, that all spent fuel 
would be returned to Russia, and that the Iranians would not be 
involved in the technology, therefore learning how to enrich 
and reprocess on their own, was actually a good model going 
forward, for how countries might acquire civil nuclear power, 
but not have the proliferation risk associated with the fuel 
cycle.
    Senator Coleman. But, wouldn't that be a good model, Madame 
Secretary? If, in fact, the Iranians agreed to step back on, 
and we had a sense of assurance that we're stepping back on 
reprocessing and enrichment, because we don't have that right 
now, and there's nothing in the NIE estimates or anything that 
says that they--so they're getting the best of both worlds.
    Secretary Rice. I agree. What we'd like them to do, I mean, 
what would be acceptable is if they would stop their own 
indigenous efforts at reprocessing and enrichment, and accept 
that fuel would be supplied by outside powers. Wewe and the 
Russians have even put forward the concept of a kind of assured 
fuel supply that might be given by the Nuclear Suppliers Group, 
or some members of it, so that countries don't acquire the fuel 
cycle. This was a proposal that the President made in a speech 
at the National Defense University a couple of years ago, and 
he and President Putin have agreed that that would be a good 
thing.
    So, my point is that we believe Bushehr is a model that 
would make sense. And the last fuel shipment was sent with the 
Russians saying to the Iranians, ``All right, now you don't 
need indigenous reprocessing and enrichment,'' and I think, 
frankly, has helped us to move forward on the next Security 
Council resolution, which I hope will be voted sometime in the 
next few weeks.
    That does not excuse, Senator, the problems we continue to 
have with the Russians on, particularly, the advanced weapons 
systems sales to Iran. Even if the Russians wish to talk about 
them as defensive in character, we will continue to press on 
that. But I think we believe that in the nuclear side, for the 
most part, we have a system in which the obligations of the 123 
Agreement would be sustainable.
    Senator Coleman. Again, my concern is to be moving forth in 
a Civil Nuclear Cooperation Agreement at a time that the 
Russians engage in a range of activities which we find 
unhelpful--unhelpful, at least, and perhaps dangerous--perhaps 
dangerous, I think certainly this body, I anticipate, will be 
looking very closely at that.
    Last area of concern, I had forwarded a letter signed by 26 
of my colleagues about the Durban II conference--and this is an 
issue, obviously, close to the heart of Tom Lantos, who 
attended Durban I, which we walked out of at the end, first the 
Secretary of State wasn't going to participate, and then we 
sent a lower level delegation. And then, ultimately, when it 
resulted at every level, in perpetuating the idea that Zionism 
is a race and falling into that anti-Semitic--just an 
unhelpful--unhelpful international process, of which Tom Lantos 
said was, you know, recognized that.
    We're now in Durban II and I appreciate the fact that we 
made a statement about U.S. funding, we're voting against the 
budget because it included funding for this. We're not 
participating in the preparatory activities, but we're walking 
down the same path.
    And I believe the Canadians have said they are not going to 
provide credibility to this process by participating, we 
haven't made that statement yet. Are we going to make that 
statement?
    Secretary Rice. Well, we've not made that statement, but 
let me assure you, Senator, we have no intention of 
participating in something like Durban I. It was an outrage, 
and I've been very clear with my counterparts about that. We 
sent a signal on the budget, and we've not tried to make a 
final decision on this, but let me just state very clearly, we 
don't have any interest in participating in something that 
deteriorates into the kind of conference that Durban I was.
    Senator Coleman. Thank you, Madame Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman, I'm going to be 
brief in all of this, because I know my other colleagues have 
been here a little longer than I have this morning.
    And let me join with the chairman and others who have 
expressed their sorrow over the loss of Tom Lantos, as well. I 
had a nice conversation with his son-in-law Dick Swett the 
other day, and Katrina and Annette, and they're just wonderful 
people.
    I go back, running for Congress 30 years ago, when Tom 
Lantos was in the private sector, and very supportive of many 
of us, beginning early on. He had a remarkable career, made a 
difference in every stage of it. So, it's a real loss for the 
country and I know you and others expressed your similar 
sentiments. So, I wanted to join you in that.
    Let me ask you about Latin America a bit. I know we're--
obviously tension in Iraq and Afghanistan and these other 
issues that Senators have raised--but there's some huge issues 
looming. I was going to address the issue of the Merida 
program, and at some point I'll talk to you or your staff about 
that--the $500 million that are being requested on the drug 
issue. And that's the obvious issue in Mexico and obviously 
Colombia we need to deal with.
    But, we're reading about Bolivia these days, the issue of 
what's happening with energy resources. You've got a new 
President in Argentina. Obviously, the problems that are still 
looming, and maybe growing larger in Venezuela, the issue of 
the FARC and what's going on between Venezuela and Colombia.
    It seems to me that there are a whole series of issues. And 
I've said this over and over again, I want you to know, that 
obviously the issues of Iraq and Afghanistan have sucked a lot 
of the oxygen out of what would be, normally, a foreign policy 
debate that would have included Latin America a lot more. 
That's not to say its been avoided entirely, but certainly 
there's only so many places you can keep the kind of level of 
attention. And, obviously, some huge issues here that need our 
attention.
    And I wonder if you might give us some idea of what 
thoughts, plans, ideas--the post-Castro regime--are there plans 
being formulated? Are we thinking about this? Are we talking to 
regional leaders as to what might happen, is there a glide path 
that others have talked about that would allow for an easier 
transition, if that occurs.
    Would you spend just a couple of minutes and share with me 
some thoughts, and sort of range around the region, if you 
will, for me a bit--beyond the drugs issues--as to where the 
administration is?
    Secretary Rice. Thank you.
    Well, I think we've had, actually, quite a lot of focus on 
Latin America. I think the President's been there five times, 
or something like that, I've been there an additional three--I 
was just in Colombia.
    We've doubled assistance to Latin America, and I think we 
have a very positive agenda for Latin America, which is one 
that looks for open markets and democracy, and frankly, a much 
more, a much stronger identification with the social justice 
agenda than the United States has had in the past.
    And I think it's served us well to be very clear that we 
don't have any ideological tests for our friends. We have very 
good relations with left governments like Brazil and Chile and 
Uruguay, and equally good relations with countries like 
Colombia. And a very, very budding and strong relationship with 
Brazil which, of course, is the big power in South America.
    We, of course, with Central America, have had the Central 
America Free Trade Agreement and we've had a number of other 
free trade agreements.
    I would say that, it is true that there are some 
troublesome regimes in Latin America, but there are equally as 
many who have come into power who are very strong friends and 
allies of the United States like, for instance, Peru, where 
we've just passed a trade agreement.
    The one single thing I'd most want to do is pass the 
Colombia Free Trade Agreement--I was just there. This is a 
remarkable story. We're talking about a country that, in 2001, 
everybody was talking about it as a failed state.
    Thanks to early work by the Clinton administration, we've 
expanded that work. We now have a Colombia that has literally 
has taken its country back from both paramilitaries and from 
the guerillas. It's a country that can now extend police power 
and military power throughout the country.
    We were just in Medellin, which was synonymous, of course, 
with Pablo Escobar and trouble, and is now a thriving city. 
It's not all perfect, because they're continuing to work on the 
justice system, and issues of impunity and human rights, I 
understand that. But Colombia is an extraordinary, bipartisan 
success for the United States of America and it stands as a 
symbol to the rest of the region that friendship with America, 
and willing to work on your difficulties can--you can succeed.
    We also, of course, are working very hard through the 
Millennium Challenge Program with some of the poorest 
countries. I would note that even though Nicaragua has a 
government with which, shall I say, we have a history, they've 
been fierce defenders of the Millennium Challenge, even though 
the areas in which that is being done is the Sandinista or 
Sandinista areas--those Sandinista mayors have been really 
clear that they want those programs to go forward.
    And so, I think the combination of support for democratic 
development, willingness to admit that democracy doesn't 
necessarily mean social justice, and that we, therefore, have 
to have programs that expand the reach. I, personally, have had 
a focus on Afro-Colombian, and Afro-Brazilian affairs, I'm 
looking forward to going to Balilla very shortly, and the 
inclusion of marginalized populations.
    I think we're doing rather well in Latin America. But it is 
a place that is always in the balance, having made the moves 
away from juntas and from governments that were nondemocratic, 
there's always the problem of democratic governments getting 
elected, and then not be able to deliver for their people. And 
that's what we've been very, very focused on, and we've tried 
to do it as a positive agenda, not as an agenda against anyone, 
but rather as a positive agenda.
    Senator Dodd. I thank you for that and I won't take the 
time right now, but I'd love to spend a little time with some 
people, possibly, and talk about this--the $500 million account 
and how that's going to work. I know it's starting with Mexico 
and Columbia, principally, I presume.
    Secretary Rice. And Central America, there's a significance 
there.
    Senator Dodd. I know the transit points. Well, thank you 
very much.
    Secretary Rice. Thank you.
    The Chairman. Thank you.
    Senator Voinovich. Thank you. First of all, I'd like to 
join with my colleagues and say how much the loss of Tom Lantos 
is going to be to this country and to the cause of human 
rights. I got to know Tom during the last several years, when 
we working on the issue of anti-Semitism and trying to bring it 
to the priority list of the OSCE and make sure there was an 
effort to combat anti-Semitism in the 55 OSCE countries.
    Madame Secretary, I am really happy to see that the 
Department of State has been included as a National Security 
Agency in the President's FY 2009 budget. I think that for too 
long we have ignored the importance of public diplomacy and 
soft power in our national security interests. This time last 
year, we talked about getting more personnel for the job. You 
said you were aware of the problem, and I congratulate you for 
being candid about the needs of the State Department and 
requesting the new positions. I'm very interested in personnel 
training management. I think that's one of the areas where we 
need to really improve our Federal Government.
    I've been asked to be on the Advisory Committee for the 
American Academy of Diplomacy, led by Ambassador Pickering, to 
examine the Foreign Affairs budget and resources. I hope these 
recommendations you've made in the President's final budget 
will be looked upon with great approval by this group, as they 
advise the next President on the challenges in your area.
    I also believe the Civilian Stabilization Initiative is 
extremely important. We all know that we must to do a much 
better job in post-conflict stabilization and reconstruction. 
I'll never forget being in Iraq and talking to some of the 
sheikhs, particularly the Sunni, who said, ``We changed our 
attitude because one, we've concluded you don't want to occupy 
our country. No. 2, we don't like al-Qaeda, we don't like their 
brand of the Sunnis. And No. 3, we love your PRTs.''
    The PRTs have contributed greatly to our success in Iraq 
and also Afghanistan. We need to do more in this area, and the 
fact that you recognize the need to have people in the State 
Department to do so, the fact that we're going to cascade this 
out in other agencies of the Federal Government so they also 
are prepared to contribute will be a wonderful step in the 
right direction.
    I also mentioned anti-Semitism. I'm a little concerned that 
there doesn't seem to be any money in the budget for the OSCE 
because it's critical right now. The Russians are putting a lot 
of effort into the OSCE. Ambassador Christian Strohal, the 
director of the OSCE's Office of Democratic Institutions and 
Human Rights (ODAIR), is stepping down, and it's anti-Semitism 
adviser also is leaving. I hope that somebody at the State 
Department pays attention to the new people that we choose to 
run ODAIR and the funding that I cannot find it in the budget.
    One of my favorite topics--not so favorite right now 
because we don't know what's going to happen--is Kosovo. I 
recently sent you a letter explaining my concerns about that, 
and I know that you share my concerns about preserving human 
rights there. I'm very, very worried, Madame Secretary, about 
what's going to happen there because I'm getting mixed signals. 
I think Kosovo probably will declare its independence, and the 
European Union will go along with it, but I'm really fearful 
that the institutions and infrastructure referred to in the 
Ahtisaari plan will not be put in place for the plan to be 
successful. If it's not successful, I think it will cause a 
real problem for our goal of integrating Southeast Europe into 
the EU.
    I was interested also in Senator Lugar's comments about the 
three new countries joining NATO. I'm hopeful that you'll 
support extending an offer of Membership Action Plans to 
Georgia and Ukraine, and maybe even Bosnia-Herzegovina, Serbia, 
and Montenegro. I really believe that if we can get these 
countries into NATO and the EU, we will have accomplished a 
great deal.
    Finally, I'd like for you to comment on why there's no 
money in the President's FY 2009 budget for the OSCE, and if 
that is a priority.
    Secretary Rice. Well, thank you, Senator Voinovich. First 
of all, I think that there is OSCE money. I'm told it is both 
in the SEED account and in the DNCP account, and it's about $25 
million. So, it may be distributed in ways that you can't see. 
I'll get you a full accounting for it.
    [The information referred to above follows: ]

    In the President's FY 2009 budget, a total of $26.5 million has 
been requested for the OSCE in the following accounts: $7.875 million 
in the Assistance for the Independent States of the Former Soviet Union 
(FSA) account; $14.625 million in the Assistance for Eastern Europe and 
Baltic States (SEED) account; and $4 million in the Diplomatic and 
Consular Affairs Program (D&CP) account. We expect to meet our 
financial obligations to the OSCE and continue the practice of 
providing additional, voluntary funding over and above our OSCE budget 
contributions for activities such as election monitoring, extra-
budgetary projects and personnel secondments, albeit at lower levels 
than in the past due to overall funding constraints. In an era of tight 
budgets, we in the U.S. Government must--and do--work hard to ensure 
that OSCE's activities fulfill its core missions, complement without 
duplicating other local and international efforts and does so in ways 
that are fiscally sound.
    The administration remains a strong supporter of the OSCE, and 
appreciates consistent Helsinki Commission and bipartisan Congressional 
support. In a constrained budget environment, we need to focus on top 
priorities, promote budgetary discipline, and reduce expenses where 
appropriate (e.g., the OSCE Secretariat). We are working with the OSCE 
and others member states to develop OSCE budgets for 2008 and beyond 
that reflect these goals. As the only post-Cold War multilateral 
organization in the Euro-Atlantic region, the OSCE remains the most 
effective--and cost-effective--organization for promoting core U.S. 
policy objectives on security, democratization, rule of law, and human 
rights in the region. We look forward to developing a carefully 
targeted OSCE program to build border security and customs capacity 
along the Afghanistan border, thereby enhancing cooperation between 
Afghanistan and its Central Asian neighbors.
    The Office for Democratic Institutions and Human Rights (ODIHR) 
remains one of our top priorities, especially in connection with its 
democratization and human rights promotion efforts. The United States 
has contributed generously to ODIHR extra-budgetary programs and 
projects in the last few years, with a particular focus on election 
observation and tolerance programs. The majority of our contributions 
for the tolerance programs have been for projects to combat anti-
Semitism. With this support, the ODIHR has published a number of 
handbooks on teaching about the Holocaust and is providing educators 
with tools for curriculum development to promote tolerance education. 
Our 2008 agenda for supporting events to highlight the continuing 
problem of anti-Semitism is extensive. One expert event has already 
occurred in Berlin, another event focusing on hate crimes is scheduled 
for the summer in Helsinki, and the Romanian Government will sponsor a 
conference on anti-Semitism in September. We will seek to have an 
additional session at the yearly October Human Dimension Implementation 
Meeting in Warsaw devoted to a review of implementation of existing 
commitments to fight anti-Semitism and other racial and religious 
intolerance.
    We share your concern over the need to protect the rights of 
minority populations in Kosovo and are pleased that the Kosovo Assembly 
has shown its commitment to a multi-ethnic Kosovo by moving quickly to 
adopt much of the legislation required to implement the Ahtisaari plan; 
we expect that all the Ahtisaari legislation will be adopted soon. 
Kosovo Police are actively supporting international efforts to protect 
all minorities in Kosovo. We also are encouraging these actors to 
improve the situation at Roma camps in the north and to be mindful of 
the particular challenges facing the Roma minority.

    Secretary Rice. But there is money for the OSCE. I'm very 
supportive, as you know, of the work that the organization 
does, both its peacekeeping operations and its election 
monitoring. It was very critical in helping us in Kyrgyzstan 
when that was--that drama was unfolding. I made a visit to 
Vienna and addressed the Perm Reps. I've said I want to look, 
at some point, the distribution between what we're doing in 
Vienna and what's done in the field, but it's obviously a very 
important----
    Senator Voinovich. Well, we had a hearing before the 
Helsinki Commission. I'm not on it, but Senator Cardin is, and 
the people that testified indicated they thought that there was 
less interest by the State Department in the OSCE, compared to 
what it was 2 or 3 years ago.
    Secretary Rice. No; we're very interested in it, following 
it very carefully. I think there is a question of the relative 
distribution of resources between Vienna and the actual 
activities of the OSCE. But no, it's a very important 
organization and we've continued to work very hard on it. And 
you're right, there are those who would turn it to other 
purposes, which is another reason to be very vigilant about the 
organization.
    Senator Voinovich. By the way, I am concerned that the 
biggest contingent of people in the OSCE is in Kosovo.
    Secretary Rice. Yes.
    Senator Voinovich. And now OSCE is going to pull them all 
out. Who will fill the jobs that those people are now doing?
    Secretary Rice. Well, we've spent a lot of time with our 
European allies looking at the so-called supervised 
independence, should it come to that for Kosovo. The Europeans 
have a mission that will be going in, including an ESDP mission 
to deal with policing and police training and the like. There 
is, of course, still a U.N. activity there. And so, we're very 
aware that helping Kosovo develop the infrastructure--we expect 
there will have to be a donors conference for Kosovo. I don't 
want to get too far ahead of myself in terms of what will 
happen here, but we've spent a lot of time being very concerned 
about the very issues that you've mentioned out of the 
Ahtisaari plan, the human rights issues, the respect for holy 
sites, and what happens to the population, the minority 
populations in Kosovo. So, it is something that's very much on 
my mind and very much in our planning.
    In fact, we had a Principles Committee meeting yesterday 
and a National Security Council meeting just today about this 
very issue.
    Senator Voinovich. I also appreciate the fact that you 
supported the Partnership for Peace program for Serbia, and 
that we have a State partnership with them. We've got to 
continue to let the Serbian people and President Boris Tadic 
know that we are supportive of them and we want to see their 
economy and quality of life improve.
    Finally, to my last question. I have spent some time with 
Ban Ki-Moon, Secretary General of the United Nations, talking 
about the issue of our arrearage, in terms of our dues for 
peacekeeping and generally for the United Nations. Would you 
comment on how this year's budget impacts our arrears to the 
United Nations? I know there is $1.497 billion for 
international peacekeeping. Does pay our dues in that area? And 
what about the other general dues?
    Secretary Rice. Well, what it does, Senator, is it allows 
us to meet the peacekeeping assessment that we anticipate. We 
also have some voluntary peacekeeping funds that would come in 
supplemental, for instance, for Darfur and the like. It will 
not help us to make much progress on the arrearages. My goal 
right now is to prevent us from continuing to fall into greater 
arrearage. I think we can manage this with what is forecast in 
the budget, but we really need to fully fund this this time. 
We've experienced difficulty in fully funding. That has caused 
us to slip, and I would ask that we get the full funding. We 
also, of course, have work going on to look at the cap, which 
is a part of the problem.
    Senator Voinovich. Well, the peacekeeping funds are really 
important because the U.N. is accomplishing a lot through its 
peacekeeping efforts that we're very interested in, and it's 
multilateral in terms of the participants. I think that getting 
ourselves up to date on the peacekeeping dues will mean a great 
deal to those we're trying to get involved.
    Secretary Rice. I think we can manage it with the resources 
that we've requested, but we really do need the full funding 
this time.
    Senator Voinovich. Thank you.
    The Chairman. Thank you. I want to thank my colleagues. 
They've all stayed within the 10 minutes and we'll do 10 
minutes with Senator Boxer. Depending on how long the question 
is, we promised we'd get the Secretary out at 1 o'clock. We're 
going to run very close. I warn my remaining five colleagues, I 
may cut it back to 8 minutes in order to accommodate her--her 
schedule, but I thank everybody for sticking with the time.
    And thank you for your physical endurance, Madame 
Secretary.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    And thank you, to everyone for your beautiful remarks about 
Tom Lantos. I will tell Annette and she will be so happy to 
hear that this is one area we all agree on.
    Secretary Rice, with 157,000 American troops in Iraq. The 
United States now makes up 94 percent of the total force there. 
The number of forces from other nations has decreased from 
47,000 in 2003 to 10,600 as of today. British forces, which 
once numbered 45,000, have been reduced to 4,500. An additional 
2,000 British soldiers are expected to leave Iraq this spring, 
yet you have described our coalition partners as strong and 
active.
    As our strongest allies like Great Britain pull out of 
Iraq, I don't see how you can believe that they're strong and 
active. Here's the point, the American people are beginning to 
really get more and more uncomfortable with the burden that 
they have to bear for this war. Last week, an AP poll asked 
Americans how to best fix our ailing economy. And redeploying 
from Iraq ranked first. People are connecting the dots. Sixty-
eight percent said ending the Iraq war would help fix our 
economy. Now the administration first said this war would cost 
tens of billions of dollars. It's already cost half a trillion, 
and there is no end in sight. Some are saying it could be quite 
a while--I believe Senator McCain said we could be in Iraq for 
100 years. The war is costing about $10 billion a month, while, 
to give you an example, we spend less than $1 billion a month 
on all the after school programs for our children in a year. 
How much more do you think we should spend in Iraq, especially 
since some of our States are already in a recession? How much 
more do you think we should spend in Iraq?
    Secretary Rice. Well Senator, I can't give you an answer to 
how much more we need to spend in Iraq. I can tell you what I 
think we need to achieve in Iraq.
    Senator Boxer. I'm not asking that question.
    Secretary Rice. Well, Senator, I'm sorry, I can't give you 
an answer.
    Senator Boxer. Because people in my State----
    Secretary Rice. I can't give you a number.
    Senator Boxer [continuing]. The people that this 
administration talks about all the time, the taxpayers, are 
getting very disturbed that the burden of this war is on their 
shoulders. So you have no answer----
    Secretary Rice. Senator----
    Senator Boxer [continuing]. To----
    Secretary Rice. Senator----
    Senator Boxer [continuing]. What we should have to spend.
    Secretary Rice [continuing]. I'm not going to try to come 
up with a number of how much more I think we will spend in 
Iraq.
    Senator Boxer. Then let's get on to another question.
    Secretary Rice. What I can tell you?
    Senator Boxer. I don't want another answer. I want an 
answer to how much more we are going to spend.
    Secretary Rice. Well Senator, you asked me a question.
    Senator Boxer. No; you said you can't answer my question, 
so I'm moving to----
    Secretary Rice. Senator, you asked me a question, and I'd 
like to have an opportunity to answer.
    Senator Boxer. Well, you just said you can't answer it.
    Secretary Rice. I'm not going to answer how much we need to 
spend.
    Senator Boxer. Right, well, that's my question.
    Secretary Rice Force levels are being determined by the 
President and by the commanders on the ground through Secretary 
Gates to get the mission accomplished. Now, Iraqi forces are 
making up an ever increasing number----
    Senator Boxer. Madame Secretary, the only reason I'm 
interrupting you is because you said you couldn't answer my 
question and I have another couple of questions.
    Secretary Rice. Senator, I don't think there is an answer 
to your question.
    Senator Boxer. Well, that is a sad statement about the lack 
of planning and foresight. There's no way out. There's no end 
in sight, and no one knows what they're doing and no one can 
answer important questions.
    Secretary Rice, construction of the U.S. Embassy in Iraq is 
seen by many as a symbol of the administration's failed policy 
in Iraq. It is plagued by delays, cost overruns, and life-
threatening safety concerns.
    And I'll put those statements in the record, Mr. Chairman, 
if I might, backing up what I just said.


    [The information referred to above follows:]


                          Fortress America\1\
---------------------------------------------------------------------------

    \1\ This article first appeared in the September/October 2007 
edition of Foreign Policy.
---------------------------------------------------------------------------

                          By Jane C. Loeffler

    The new U.S. Embassy in Baghdad is the largest the world has ever 
known. Thousands will live inside its blast walls, isolated from the 
bloody realities of a nation at war. Why has the United States built 
this place-and what does it mean?
    A citadel is rising on the banks of the Tigris. There, on the 
river's western side, the United States is building the world's largest 
embassy. The land beneath it was once a riverside park. What sits atop 
today is a massive, fortified compound. Encircled by blast walls and 
cut off from the rest of Baghdad, it stands out like the crusader 
castles that once dotted the landscape of the Middle East. Its size and 
scope bring into question whether it is even correct to call this 
facility an ``embassy.'' Why is the United States building something so 
large, so expensive, and so disconnected from the realities of Iraq? In 
a country shattered by war, what is the meaning of this place?
    For security reasons, many details about the embassy's design and 
construction must remain classified. But the broad outline of its 
layout says a lot about one of America's most important architectural 
projects. Located in Baghdad's 4-square-mile Green Zone, the embassy 
will occupy 104 acres. It will be six times larger than the U.N. 
complex in New York and more than 10 times the size of the new U.S. 
Embassy being built in Beijing, which at 10 acres is America's second-
largest mission. The Baghdad compound will be entirely self-sufficient, 
with no need to rely on the Iraqis for services of any kind. The 
embassy has its own electricity plant, fresh water and sewage treatment 
facilities, storage warehouses, and maintenance shops. The embassy is 
composed of more than 20 buildings, including six apartment complexes 
with 619 one-bedroom units. Two office blocks will accomodate about 
1,000 employees. High-ranking diplomats will enjoy well-appointed 
private residences. Once inside the compound, Americans will have 
almost no reason to leave. It will have a shopping market, food court, 
movie theater, beauty salon, gymnasium, swimming pool, tennis courts, a 
school, and an American Club for social gatherings. To protect it all, 
the embassy is reportedly surrounded by a wall at least 9 feet high-and 
it has its own defense force. The U.S. Congress has appropriated $592 
million for the embassy's construction, though some estimates put the 
expected building costs much higher. Once built, it could cost as much 
as $1 billion a year to run. Charles E. Williams, who directs the State 
Department's Overseas Buildings Operations, proudly refers to it as 
``the largest U.S. mission ever built.''
    But, the idea of an embassy this huge, this costly, and this 
isolated from events taking place outside its walls is not necessarily 
a cause for celebration. Traditionally, at least, embassies were 
designed to further interaction with the community in which they were 
built. Diplomats visited the offices of local government officials, 
shopped at local businesses, took their suits to the neighborhood dry 
cleaner, socialized with community leaders, and mixed with the general 
public. Diplomacy is not the sort of work that can be done by remote 
control. It takes direct contact to build goodwill for the United 
States and promote democratic values. Otherwise, there would be no 
reason for the United States to maintain its 250-plus diplomatic posts 
around the world. The embassy in Baghdad, however, appears to represent 
a sea change in U.S. diplomacy. Although U.S. diplomats will 
technically be "in Iraq," they may as well be in Washington. Judging by 
the embassy's design, planners were thinking more in terms of a 
frontier outpost than a facility engaged with its community. ``The 
embassy,'' says Edward L. Peck, the former U.S. ambassador to Iraq, 
``is going to have a thousand people hunkered behind sandbags. I don't 
know how you conduct diplomacy in that way.''
    It is tempting to think that the Baghdad compound must be an 
anomaly, a special circumstance dictated by events on the ground in 
Iraq. But, while it is larger in scope than other U.S. embassies 
opening around the world, it is hardly unique. Since al Qaeda bombed 
the American missions in Kenya and Tanzania in 1998, the State 
Department has been aggressively replacing obsolete or vulnerable 
embassies with ones designed under a program it calls Standard Embassy 
Design. The program mandates look-alike embassies, not the boldly 
individual designs built during the Cold War, when architecture played 
an important ideological role and U.S. embassies were functionally and 
architecturally open. The United States opened 14 newly built embassies 
last year alone, and long-range plans call for 76 more, including 12 to 
be completed this year. The result will be a radical redesign of the 
diplomatic landscape-not only in Baghdad, but in Bamako, Belmopan, Cape 
Town, Dushanbe, Kabul, Lome and elsewhere.
    If architecture reflects the society that creates it, the new U.S. 
embassy in Baghdad makes a devastating comment about America's global 
outlook. Although the U.S. government regularly proclaims confidence in 
Iraq's democratic future, the United States has designed an embassy 
that conveys no confidence in Iraqis and little hope for their future. 
Instead, the United States has built a fortress capable of sustaining a 
massive, long-term presence in the face of continued violence.
    Forty years ago, America was forced to flee a newly constructed 
embassy in Baghdad just five years after it was opened, when the United 
States broke off relations with Iraq after the 1967 Six Day War. Given 
the costs of the new compound, the United States would not likely part 
with its latest Baghdad embassy under almost any circumstances, 
including escalating violence. As much as the situation there may 
deteriorate-the fighting already includes missile and mortar attacks in 
the Green Zone-the biggest problem may not be the embassy's security; 
indeed, it is the most impenetrable embassy ever built. Rather, the 
question is, with its high walls and isolation, will it be hospitable 
for conducting American diplomacy?
                           a city upon a hill
    An embassy's precise design is classified. But earlier this year, 
sketches of the massive new U.S. Embassy in Iraq surfaced on the 
Internet. Herewith, a brief tour of Baghdad, U.S.A.
Mission Colossal
    The main embassy building will include a central atrium and a rear 
portion housing classified offices, including the ambassador's. 
Hundreds of non-diplomatic personnel from dozens of U.S. agencies will 
work in the annex building. The two office buildings will house about 
1,000 employees.
Battle Ready
    Marines will provide embassy security and live in their own 
separate barracks. The embassy grounds will be surrounded by high blast 
walls, which are all that most Iraqis will ever see of the U.S. 
Embassy.
Home Sweet Home
    Inside the compound, staff will feel right at home. The complex 
will include a shopping market, beauty salon, movie theater, and 
American fast food.
Compound Cribs
    The ambassador's private residence will offer the most comfortable 
quarters. Lower-level employees will squeeze into 619 one-bedroom 
apartments.


    Jane C. Loeffler teaches architectural history at the University of 
Maryland and is author of The Architecture of Diplomacy: Building 
America's Embassies (New York: Princeton Architectural Press, 1998).




                                 ______
                                 


                          the associated press

                  October 9, 2007 Tuesday 9:25 PM GMT

   State Department struggles with Iraq embassy delays, vows to hold 
                         contractor accountable

BYLINE: By Matthew Lee, Associated Press Writer
SECTION: Business News
LENGTH: 795 words
DATELINE: Washington
    The State Department vowed Tuesday to hold contractors accountable 
for delays and construction problems with the massive new U.S. Embassy 
in Iraq, saying it would not pay for ``a turkey.''
    As the U.S. government orders major repairs to correct deficiencies 
at the Vatican-size compound in Baghdad, the department sought to fend 
off mounting congressional criticism of the project and its broader 
operations in Iraq, including the use of private security firms to 
protect diplomats.
    The embassy, which will be the world's largest diplomatic mission, 
had been scheduled to be completed in September, but last week 
officials said it was badly behind and might not open for business 
until well into 2008. It will also cost nearly $150 million more than 
its original $600 million price tag, they said.
    The delays, charges of shoddy workmanship and fraud by the main 
contractor have caused growing concerns in Congress, where two top 
Democratic lawmakers, Reps. Tom Lantos and Henry Waxman, the chairmen 
of the House International Relations and House Oversight and Government 
Reform committees, are demanding answers and a new timeline for the 
embassy's opening.
    State Department spokesman Sean McCormack said Tuesday he was 
unable to provide a revised date for the completion of the project.
    ``We don't have an answer,'' he told reporters, adding that 
Secretary of State Condoleezza Rice was pursuing the matter. ``I can't 
tell you when it will open up.''
    But McCormack insisted the repairs would be made and that the 
contractor in question, First Kuwaiti General Trading & Contracting 
Co., would be required to finish the embassy for the $592 million it 
agreed to build it for. At the same time, he noted that changes ordered 
to the original design would cost an additional $144 million.
    ``We're not going to buy ourself a turkey here,'' he said. ``We're 
going to make sure that we get what we paid for.''
    McCormack's comments came in response to questions about the 
construction posed by Waxman in a 10-page letter sent to Rice on 
Tuesday and a similar letter sent last week to Deputy Secretary of 
State John Negroponte by Lantos.
    Both lawmakers noted that they had been assured, in July and again 
in August, that the embassy was ``on schedule and on budget'' for 
September completion and that staff would begin moving in ``shortly 
thereafter.''
    McCormack maintained that while he could not offer a new opening 
date, the project was now only nine days overdue and that Rice was 
willing to accept a reasonable delay, particularly on such a large 
compound.
    ``She's willing to cut everybody involved in the construction 
project some slack if it falls within a reasonable period of time and 
it falls within the normal practices of opening up a large embassy 
compound around the world if it's consistent with our past practices,'' 
he said.
    Her patience, however, is not infinite.
    ``There will come a point if the embassy isn't opened up and 
doesn't meet the standards that have been required of the contractor, 
then you have a problem,'' McCormack said. ``I can't tell you when that 
point is going to be.''
    In his letter, which McCormack said he had not read, Waxman details 
multiple failures of electrical wiring and fire sprinklers that have 
been pointed out by State Department building inspectors.
    An internal Sept. 4 inspection report cited by Waxman says the 
``entire (fire suppression) installation is unacceptable'' and notes 
widespread deficiencies with electrical wiring.
    McCormack said he could not address the specifics outlined in the 
letter.
    Embassy employees have been working and living in a makeshift 
complex in and around a Saddam-era palace that the Iraqis have said 
they want back quickly.
    The temporary quarters are cramped and increasingly dangerous. Many 
employees live in trailers that are not fully protected from mortars 
fired from outside the Green Zone.
    Insurgents have gotten better at firing into the heavily guarded 
zone in attacks this year have killed several people. The new complex 
is supposed to be safer, with additional blast walls and other 
protection.
    McCormack also said he could not speak to allegations by Waxman 
that First Kuwaiti had been involved in illegal kickback schemes on a 
prior project for the U.S. government that should have raised concerns 
when the State Department hired the company for the embassy job.
    Waxman has been a persistent critic of the State Department and its 
operations in Iraq, including its dependence on private security 
contractors like Blackwater USA to protect diplomats and refusal to 
divulge details of corruption in the Iraqi government.
    ``Increasingly, it appears that the State Department's efforts in 
Iraq are in disarray,'' he wrote in the letter. McCormack shot back 
when asked about that remark. ``That is just a ridiculous statement,'' 
he said.
LOAD-DATE: October 10, 2007
LANGUAGE: ENGLISH
PUBLICATION TYPE: Newswire

          Copyright 2007 Associated Press--All Rights Reserved


    Senator Boxer. There's also an ongoing criminal probe by 
the Justice Department into the awarding of the contracts. The 
$700 million Embassy, originally budgeted at $500 million, will 
be six times larger than the U.N. complex in New York, more 
than 10 times the size of the new U.S. Embassy being built in 
Beijing. Iraqis, who resent the U.S. occupation, are set to 
call the Embassy, ``George W.'s Palace.''
    Jane Loeffler, an expert on the architecture of embassies, 
has written that, ``Encircled by blast walls and cut off from 
the rest of Baghdad, it stands out like the crusader castles 
that once dominated the Middle East.'' Secretary Rice, do you 
agree with these criticisms?
    Secretary Rice. No.
    Senator Boxer. OK, so you don't think that the Embassy that 
we're going to build, that's 10 times the size of our largest 
Embassy and way larger than the U.N. complex in New York, sends 
a message of a long-term occupation to the people of the world?
    Secretary Rice. No, Senator. I think it sends a message 
that we are going to continue, through our political presence, 
to be a good partner for an Iraq that is trying to emerge from 
years of tyranny, that will be a stable ally in the Middle 
East, that will be at the center of a different kind of Middle 
East, and certainly we need a different kind of Middle East 
than the one that we inherited in 2001 that produced an 
ideology of hatred so great that people attacked innocent 
civilians. So, that's how I see the Embassy.
    I see it as a place that our men and women can work in safe 
conditions, that they can work in conditions that will allow 
them to carry out their mission. I think you've heard a number 
of people talk about how our Provincial Reconstruction Teams 
are viewed as a force for good among Iraqis who are trying to 
better their lives, and that's how I see the Embassy.
    Senator Boxer. OK. I would just say, to put our people in 
this walled-off Embassy does not send the type of signal that 
we usually send around the world.
    Now, in August 2007, the New York Times quoted a Central 
Command official, who stated, ``If we were not in Iraq, we'd 
have the Special Forces you need most to conduct precise 
operations in Afghanistan. We'd have more CIA. Anyone who tells 
you differently is blowing smoke.'' Just last week, the 
Secretary of Defense, Robert Gates, admitted that the war in 
Iraq has hurt our efforts in Afghanistan, particularly in 
respect to participation form our European allies.
    Speaking before an International Security Conference in 
Europe, Secretary Gates said that, ``Europeans, many of them I 
think, have a problem with our involvement in Iraq and project 
that to Afghanistan.'' In Afghanistan, attacks by al-Qaeda, 
Taliban, and other extremists are becoming increasingly common 
and deadly. The number of improvised explosive devices, 
including car and suicide bombs, has nearly tripled since 2005. 
Support for the Taliban is growing, and poppy production 
continues to rise. It is now accounting for 93 percent of the 
world's illicit opium supply. And Osama bin Laden is still on 
the loose.
    Secretary Rice, do you agree with Secretary Gates, that the 
war in Iraq is making it harder to get our allies to contribute 
to Afghanistan?
    Secretary Rice. I will tell you what I think the problem is 
in getting our forces--getting our allies, to the extent that 
they're not contributing, to contribute. And I gave the answer 
to Senator Kerry.
    Senator Boxer. But do you agree with what Secretary Gates 
said?
    Secretary Rice. I would like to answer, Senator.
    Senator Boxer. But my question was do you agree with what 
Secretary Gates said? That was my question.
    Secretary Rice. Senator, I would like to give you an answer 
to your question.
    Senator Boxer. Well, I'd like you to answer whether or not 
you agree with what he said.
    Secretary Rice. Senator, I will answer your question if you 
permit me the courtesy----
    Senator Boxer. Please go ahead.
    Secretary Rice [continuing]. To allow me to do so.
    Senator Boxer. And please answer the question, yes.
    Secretary Rice. Thank you. As I said to Senator Kerry, I 
believe that the problem with our allies in Afghanistan--by the 
way, all of whom undertook a decision to go into Afghanistan 
through the North Atlantic Counsel of NATO in a consensus 
decision to go into Afghanistan, so there was no question that 
our allies were prepared and willing to go into Afghanistan--I 
do think that there has been difficulty with some allies in 
wanting to deal with the fact that this is not a peacekeeping 
operation, that it is a heavy-duty military operation in parts 
of the country. I think that is the problem with the allies.
    Senator Boxer. OK. Well, let the record show that Secretary 
Gates said that many of our allies have a problem with our 
involvement in Iraq and project that to Afghanistan.
    Secretary Rice, last Friday in a lead editorial titled, ``A 
President Who Tortured,'' the Washington Post said that, 
``Water boarding will leave an indelible stain on the legacy of 
George W. Bush.'' Last week, the Director of the CIA admitted 
that the U.S. Government had subjected suspected terrorists to 
water boarding in 2002 and 2003, years in which you served as 
President Bush's National Security Advisor. In 2004, you wrote 
a letter to Congress opposing legislation that would have 
prevented the intelligence community from using extreme 
interrogation tactics. In 2005, then-Attorney General Alberto 
Gonzalez, approved two secret memos specifically authorizing 
water boarding, head slapping, and frigid temperatures. NBC 
News reported that you were aware of these secret memos.
    Secretary Rice, do you remember those memos and do you 
believe water boarding is torture?
    Secretary Rice. Senator Boxer, I'm not going to comment on 
matters that I was involved in as National Security Advisor. I 
will simply repeat what General Hayden has said, which is that 
this is not a part of the CIA program now. If there are issues 
to be raised about this, they will have to be raised through 
the Attorney General, but as a general proposition, let me 
state very clearly that the President of the United States has 
never authorized torture and that everything that has been 
done, has been done in accordance with our obligations, legal 
obligations, both domestic and international.
    Senator Boxer. Thank you.
    My last question. Earlier this year, the Center for Public 
Integrity released a report documenting 935 false statements by 
administration officials leading up to the Iraq war. According 
to this study, you were responsible for 56 of them. This report 
only reinforces what we all know now to be true, that the 
nation was led to war under false pretense. Back in 2003, the 
main justifications for going to war in Iraq were the 
allegations that Iraq had weapons of mass destruction and links 
to al-Qaeda that simply did not exist, as we all know.
    Today, the Bush administration claims that one goal of the 
ongoing war in Iraq is to make sure that the country is 
``democratic.'' We hear that all the time. But just 2 years 
ago, you stated, ``Let's be very clear about the grounds for 
war against Iraq,'' and it was actually not to bring democracy 
to Iraq. So I would ask you, what is the mission now?
    Secretary Rice. Senator, I remember very well the quote 
that you are--you are referencing. What I said was that much in 
World War II, where we took down Adolph Hitler, not to bring 
democracy to Germany. We then, in order to make stable Germany 
for the future, insisted on a democratic Germany. In the case 
of Saddam Hussein, he was a threat to our interests, he was a 
threat to our security, we had gone to war with him in 1991, 
we'd gone to war with him in 1998. We believed that he had 
weapons of mass destruction, and with all due respect, the 
intelligence community believed he had weapons of mass 
destruction, the United Nations believed he had weapons of mass 
destruction, and he was a threat as he continued to threaten 
our pilots and take advantage of an Oil for Food program that 
had become a scandal. And so that's why we went to war.
    Having gone to war, we believe that the most stable course 
for Iraq and for the Middle East is, if Iraq can develop 
democratic institutions that can make it a center of a 
different kind of Middle East, and that is the work in which we 
are now engaged.
    And so with all due respect, Senator, the quote is not in 
context and it does not reflect what I have said. What I have 
said is, that the reason to go to war was because Saddam 
Hussein was a threat. The reason to build democracy in Iraq is 
because the only way to make certain that Iraq is stable for 
the long run, is if they learn to resolve their differences 
democratically, not be force or not by tyranny.
    Senator Boxer. Yes; I think we all share that and many of 
us think it's up to them and it isn't up to us as an occupying 
force to do that.
    Thank you very much.
    Secretary Rice. May I just comment on one thing?
    The Chairman. Sure.
    Secretary Rice. Because I think it's extremely important 
that we don't leave on the record that American men and women 
in Iraq, who are sacrificing every day, are an occupying force. 
They are there on U.N. mandate. They are there at the 
invitation of a democratically elected Iraqi Government. They 
are there fighting al-Qaeda forces that take--that take women 
who are mentally challenged and send them as suicide bombers. 
And so I would not like to leave it on the record that our men 
and women in uniform are occupiers.
    Thank you.
    The Chairman. Senator Boxer.
    Senator Boxer. Mr. Chairman, I would take backseat to no 
one in caring about our men and women in uniform, because many 
of those who have been killed or wounded in Iraq have been from 
California or based in California. We have lost 3,960 
Americans, and we have more than 29,000-plus wounded. We have 
more soldiers committing suicide. This war is a disaster, and 
the fact is that many of us believe it is now time for the 
Iraqis to take over and to do what most nations do. And many of 
us believe that we have spent too much blood and too much 
money, and that it is time to bring this war to a close. But to 
say that anyone here, in any way, doesn't love, respect, and 
revere our fighting men and women, I think is a low blow.
    Secretary Rice. Senator, I also take no backseat to support 
for our men and women in uniform, but I would never call them 
occupiers.
    Senator Boxer. That's fine.
    The Chairman. Thank you.
    Senator--now look, here we are. We've reached the point 
where we have half an hour left and we have two, three, four, 
five, six people to ask questions. So, I'm afraid that we're 
going to have to limit it to 5 minutes in order to meet our 
commitment to the Secretary.
    Senator Corker. Mr. Chairman, I'll be even more brief than 
that. I do sense we----
    The Chairman. Then we'll give additional time.
    Senator Corker. Good, I do sense we've moved away from the 
budget that's being discussed. I'm sorry to arrive late, but I 
noticed that coming in. I would, sense we have moved away from 
the budgetary process, we had a meeting the other day, in sort 
of a private setting, with our Envoy to Darfur, Richard 
Williamson. And I have to tell you, this is not a critical 
comment, I just love to hear your comments regarding that. He's 
got four people who work with him. From what I can tell, has no 
budget.
    My sense is, that if we had 26 helicopters there, we could 
make a huge difference in Darfur today. I know there's some 
security issues that surround that.
    But I have to tell you, when he left, I did wonder, and I 
don't mean this in any way to be critical, I did wonder whether 
we had a Special Envoy in name, but really had no real activity 
taking place as it related to that. And I wish, if you could, I 
know several of us seemed to sense that when we left there and 
I wonder if you could focus on that for just 1 minute. And that 
will be my only question, may be my only question.
    Secretary Rice. Thank you, Senator.
    On Darfur, we have a full-time effort, not just with the 
Special Envoy, but, of course, he has at his disposal the 
resources of the Department to do whatever he needs to do. We 
have an Africa Bureau that will send people out when he needs. 
We have an Assistant Secretary who's also concerned with that 
account. We're working it in the United Nations all the time. 
And so I think the four people who work for him, it would be 
deceptive to think that those are the only people working on 
Darfur.
    And, we, of course, have requested significant resources 
for Darfur, in terms of peacekeeping and for the Comprehensive 
Peace Agreement between Southern Sudan and Northern Sudan, 
which would help to bring stability to Sudan as a whole. So, it 
is a very big effort.
    The difficulty has been really to get the U.N. peacekeeping 
forces, capable to get the numbers in place in order to be able 
to put that U.N. hybrid force on the ground to protect these 
innocent civilians.
    Just yesterday, spoke with the Foreign Minister of Sudan, 
who came to see me. I said to him in no uncertain terms that it 
was time for Sudan to stop making excuses for why the hybrid 
force can't get in. We've also been very supportive of the 
peace negotiations that are going on to try to bring rebels and 
the government together.
    And so it's a very active effort in the Department, but 
we're hoping that Rich Williamson, who is a very fine diplomat 
and who everybody thinks very highly of, will be able to bring 
a certain focus to the effort, just as Andrew Natsios did 
before him.
    Senator Corker. It seemed like he did not have the tools 
available and I don't know----
    Secretary Rice. He'll have those.
    Senator Corker [continuing]. The other departments. If you 
could just look at that.
    Secretary Rice. I certainly will.


    [The information referred to above follows:]


    The Department of State fully supports the efforts of the 
President's Special Envoy Richard S. Williamson in advancing the 
administration's goal of enhancing overall the stability in Sudan and 
bringing an end to the violence in Darfur through rapid deployment of 
the United Nations-African Union peacekeeping mission in Darfur 
(UNAMID), reinvigoration of the Darfur peace talks, and full 
implementation of the Comprehensive Peace Agreement.
    With regard to operational resources, Congress has generously 
provided since 2006 more than $850,000 specifically to support the 
Special Envoy's office. The Department of State has provided additional 
resources above and beyond this amount to cover the extensive travel 
and support costs of the Special Envoy. Special Envoy Williamson has 
specifically requested and has been provided with a personal staff of 
two policy officers and an office management specialist located in 
Washington, DC and a senior policy advisor in the U.S. Mission to the 
U.N. The latter is specifically devoted to coordinating U.S. efforts 
within the U.N. system to facilitate UNAMID's deployment.
    In addition to his personal staff, Special Envoy Williamson is 
further assisted by the Bureau of African Affairs and its Sudan 
Programs Group Office (SPG) of more than 15 staff. The Special Envoy 
has the full backing of the National Security Council and the 
Department of Defense, which has offered the Special Envoy a Colonel to 
serve as a defense advisor as needed. The Special Envoy's efforts are 
also supported by the U.S. Embassy in Khartoum, including two Foreign 
Service Officers located in Darfur, and our Consulate General in Juba, 
Southern Sudan. In al of his efforts, Special Envoy Williamson has the 
complete support of the administration and the Department of State.


    Senator Corker. And if 26 helicopters are keeping us from 
saving thousands of lives, I hope we will not let that be an 
impediment, by blaming it on other countries not supplying 
those.
    But thank you very much for your testimony.
    Secretary Rice. Thank you.
    Senator Lugar. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, I appreciate the 
recognition there.
    First, let me add my voice on the loss of Tom Lantos. Tom 
Lantos was clearly our leader to globally advance human rights. 
I cherish the time that I spent with him in the House, usually 
doing rollcall votes, where we would sit down and talk about 
strategizing and what we could do to advance human rights.
    And I also had the opportunity to visit Budapest when he 
was there, and to see firsthand the struggles that he went 
through.
    Madame Secretary, I want to thank you for being here. I 
want to follow up, first, on the point that Senator Voinovich 
raised on the OSCE budget.
    All of us are very much in favor of the expanded budget 
you've brought forward on post-conflict resolution. But we have 
an international organization that's been very effective on 
that. The OSCE field missions have been very effective, as to 
the work they're doing in Afghanistan, on the Tajikistan 
border, what they've done in Kosovo, and what they've done in 
Bosnia.
    The budget that you have submitted is actually 20 percent 
below the current budget for the U.S. commitment to OSCE, and I 
would hope that you would take a look at that.
    But, I want to refer specifically to the point that Senator 
Voinovich raised on the work of ODAIR on human rights. We just 
talked about Tom Lantos, and I think it's appropriate.
    The United States, through extra-budget means, have always 
been a leader in providing the wherewithal to advance the human 
rights agenda. We're responsible for initiating the efforts to 
fight anti-Semitism, and we should be proud of that. But 
there's virtually no support and no funding for that effort. 
The United States had led donor nations to provide extra budget 
support, there's zero, I believe, in this year's budget to do 
that.
    So, I would just ask if you would get back to me and 
Senator Voinovich as to how we can clearly send the right 
signal internationally that the United States commitment today 
is strong as ever for OSCE.


    [Secretary Rice's response appears on page 47 of this 
hearing print.]


    Secretary Rice. I'll take a look at it. Clearly, we will 
support ODAIR, so let me take a look at it, and get back to 
you, Senator.
    Senator Cardin. I thank you very much, Madame Secretary.
    I want to follow up on a point that my colleagues have been 
making. You usually talk about the DOD budget when it comes to 
Iraq, and how much of it is spent in that regards, but your 
budget, the State Department's budget, is very much impacted by 
our responsibilities in Iraq. I personally believe there are so 
many areas of the world we need to be engaged in. That we are 
spending so much effort in Iraq is detracting from our ability 
to resolve problems in other parts of the world.
    But, in one respect, I'm not sure we're doing what we 
should be doing. And that is, we now know there are 2 million 
refugees from Iraq in Jordan and Syria, primarily. There are 
2.2 million internally displaced people in Iraq, and yet the 
budget doesn't appear to provide help to deal with the refugee 
issue, which I think the United States, again, must be the 
leader on. And I appreciate your comments as to why we are not 
doing more to help the refugees?
    Secretary Rice. I'm sorry, Senator, did you mean refugees, 
in general, or refugees in Iraq?
    Senator Cardin. Refugees, internally displaced people in 
Iraq and the Iraqi refugees in Jordan, Syria, and other 
countries.
    Secretary Rice. Yes.
    Well, I appointed an Iraq Refugee Coordinator so we could 
have a focus on, exactly, this problem. And we have provided 
resources, as a matter of fact I think we're something like 25 
percent of the U.N. effort on refugees, and we are--we have 
money in supplementals for refugee affairs for the Iraqis.
    It hasn't really, quite frankly, been so much an issue of 
funding. It has been a problem of the kind of infrastructure of 
dealing with Iraqi refugees. We only recently have begun to 
make some progress with Syria on the ability to process people 
coming out, to come out of Syria. We have a very good operation 
in Jordan. We've even provided some support to countries that 
are educating the children of Iraqi refugees.
    We've also worked very hard, and the Iraqi Government 
itself has earmarked $25 million for its own refugee problem. 
In that sense, it's not a country without some resources.
    But it really is more of a problem of processing people, 
and getting them out and----
    Senator Cardin. I would just request that we make this a 
priority. There are so many people who are displaced, and I 
think we have a responsibility to be a leader on that 
internationally.
    Secretary Rice. Yes.
    Senator Cardin. I do want to mention two other parts of the 
world. We're not going to have time for a full response. But in 
Kosovo, we do expect some activity this month, and I want to 
make sure that we're prepared to support the independence of 
Kosovo.
    I think the United States has played a very constructive 
role here, but I expect it will be a challenge, internationally 
in moving forward, considering the positions of Serbia and the 
Russian Federation.
    And then second, so I can get both questions in, under the 
wire, we haven't asked you about the status of peace between 
Israel and the Palestinians. We all, very much, support the 
initiatives that you brought forward in Annapolis, and want to 
be as helpful as we can to make as much progress as we can in 
2008.
    Secretary Rice. Thank you.
    I'll just very briefly--just one other point on refugees. 
Another thing that we're trying to do is, there are certain 
parts of Iraq that people can now return to, but the housing, 
and the like, is not there. And encouraging Iraqis to rebuild 
housing in places like Ramadi is also part of our program.
    On Kosovo, yes; we have been working very hard to try to 
make this as smooth a transition as possible. I think you know 
that we believe that the status of Kosovo has to be resolved, 
and we are prepared to take our responsibilities in helping to 
do so.
    As to the Middle East peace, I think Annapolis was a very 
good start, in that it brought together the right coalition of 
countries to help support the bilateral peace process. I talk 
to the Israelis and the Palestinians quite frequently about how 
they're doing. They're continuing to have their negotiations 
and their discussions. They've tried to do it off stage, to a 
certain extent, to do it without much public glare on those 
conversations. I think that's probably a good point.
    But, to the degree that they will need help to get to an 
agreement, we're prepared to help. I will probably return to 
the region at the beginning of March, Senator, to see if we can 
help them. We are focused a lot, right now, on trying to 
improve the circumstances of Palestinians on the ground.
    Tony Blair, as you know, has a mission there. This morning 
I met with General Jones, and with GEN Will Frazier who are 
helping with the security and roadmap obligations piece of 
that.
    There are a lot of pieces. We've been very much challenged 
by what is going on in Gaza. We've been very much challenged by 
continued terrorist and rocket attacks against Israel, and the 
irresponsible behavior--the deadly behavior--of Hamas. But, I 
think the good news is that the parties, who seem really quite 
devoted to trying to solve their conflict this time, are 
continuing their negotiations, and we will be there to try to 
help them. Because, as the President said, the time is now to 
try to create a Palestinian state, and finally end that 
conflict.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator. OK.
    Senator Isakson. Thank you, Senator Murkowski, and I'll be 
very brief. One comment and one question.
    And the comment is, with respect to Senator Cardin's 
question on displaced persons and refugees--I've just returned 
from a trip to Iraq and saw firsthand, two things that might 
help you.
    One was, in Ghazaliyah, where I walked the streets, people 
are returning home because of the security, and the second 
reason they're returning is because of the microloans we 
approved in last year's budget, the $500 to $2,500 loans to 
restart businesses. In the particular little shopping area I 
went to, 18 of the 24 booths had reopened, and the colonel who 
traveled with me picked up three more applications for loans--
which are really grants--to them to reestablish their 
businesses.
    So, I think when you look at the investment in security, 
and then building their economy, people are coming home, and 
they're coming home at a pretty rapid rate in that part of 
Iraq. So, your investment there has paid off.
    My question is this: On that same trip I returned through 
Djibouti and Equatorial Guinea, and I wrote you with regard to 
the Embassy in Equatorial Guinea, and I'm very pleased to see 
it's in the 2009 budget, but I do want to make a comment. 
Equatorial Guinea has gone from being the poorest country in 
the world, to the most rapidly developing economy in the world. 
The Chinese are building an embassy--I couldn't see it finished 
yet, because it wasn't finished--but it will be a huge 
compound. The Spanish are doing the same thing. The Americans 
and Equatorial Guineans have discovered one of the world's 
largest reserves of natural gas. They're liquefying it, and 
it's shipping into the United States.
    Our Embassy has a hole in the ceiling so big you could 
drive a car through it, and it rains inside. And next to it is 
an apartment--a 2-bedroom, 1-bath apartment, where the 
Ambassador lives, which has no security.
    So, I thank you for appropriating the money--or asking for 
the money for us to appropriate--for construction of the 
Embassy in Malabo.
    But it may be helpful for you to look at the residents as 
part of that. The security of our Ambassadors and our people, I 
think is very important, although that country is relatively 
safe, it's not totally safe, and I would certainly encourage 
you to take a look at including the housing of those key State 
Department personnel, as well as the Embassy, in that 
appropriation request.
    Secretary Rice. Thank you, Senator, I will do that, thank 
you.
    Senator Casey. Mr. Chairman, thank you very much.
    Madame Secretary, thank you for your presence here today, 
your testimony, and of course your public service.
    I'm going to be referring to--as a predicate to my 
questions--your prepared testimony today, and in particular, 
one aspect of our Iraq policy, where you use the word 
``bringing clarity'' to discussions about this. That's the 
reason for my question, since I think on any issue of 
importance, but especially the grave question of war and our 
foreign policy, I think it's critically important that we have 
as much clarity as is possible.
    If you'd just bear with me for a couple of moments, I just 
wanted to make reference to a couple of documents, a couple of 
parts of the record, so to speak, and some of which I'll add to 
the record before I ask a question.
    The first thing I'd start with is a letter that I 
spearheaded in December 6, 2007. I wrote--along with 5 other 
U.S. Senators--to the President, a letter pertaining to the 
question about a declaration of principles, with regard to our 
ongoing relationship with Iraq. And I'll submit the whole 
letter for the record, but I do want to just read one sentence 
from it that encapsulates, really, what we're concerned about.


    [The material referred to above follows:]

                         U.S. Senate, Washington, DC 20510,
                                                  December 6, 2007.
President George W. Bush,
The White House, Washington, DC.
    Dear Mr. President: We write you today regarding the ``Declaration 
of Principles'' agreed upon last week between the United States and 
Iraq outlining the broad scope of discussions to be held over the next 
6 months to institutionalize long term U.S.-Iraqi cooperation in the 
political, economic, and security realms. It is our understanding that 
these discussions seek to produce a strategic framework agreement, no 
later than July 31, 2008, to help define ``a long-term relationship of 
cooperation and friendship as two fully sovereign and independent 
states with common interests.''
    The future of American policy towards Iraq, especially in regard to 
the issues of U.S. troop levels, permanent U.S. military bases, and 
future security commitments, has generated strong debate among the 
American people and their elected representatives. Agreements between 
our two countries relating to these issues must involve the full 
participation and consent of the Congress as a co-equal branch of the 
U.S. Government. Furthermore, the future U.S. presence in Iraq is a 
central issue in the current Presidential campaign. We believe a 
security commitment that obligates the United States to go to war on 
behalf of the Government of Iraq at this time is not in America's long-
term national security interest and does not reflect the will of the 
American people. Commitments made during the final year of your 
Presidency should not unduly or artificially constrain your successor 
when it comes to Iraq.
    In particular, we want to convey our strong concern regarding any 
commitments made by the United States with respect to American security 
assurances to Iraq to help deter and defend against foreign aggression 
or other violations of Iraq's territorial integrity. Security 
assurances, once made, cannot be easily rolled back without incurring a 
great cost to America's strategic credibility and imperiling the 
stability of our nations's other alliances around the world. 
Accordingly, security assurances must be extended with great care and 
only in the context of broad bipartisan agreement that such assurances 
serve jour abiding national interest. Such assurances, if legally 
binding, are generally made in the context of a formal treaty subject 
to the advice and consent of the U.S. Senate but in any case cannot be 
made without Congressional authorization.
    Our unease is heightened by remarks made on November 26 by General 
Douglas Lute, the assistant to the President for Iraq and Afghanistan, 
that Congressional input is not foreseen. General Lute was quoted as 
asserting at a White House press briefing, ``We don't anticipate now 
that these negotiations will lead to the status of a formal treaty 
which would then bring us to formal negotiations or formal inputs from 
the Congress.'' It is unacceptable for your administration to 
unilaterally fashion a long-term relationship with Iraq without the 
full and comprehensive participation of Congress from the very start of 
such negotiations.
    We look forward to learning more details as the administration 
commences negotiations with the Iraqi Government on the contours of 
long-term political, economic, and security ties between our two 
nations. We trust you agree that the proposed extension of long-term 
U.S. security commitments to a nation in a critical region of the world 
requires the full participation and consent of the Congress as a co-
equal branch of our Government.


                                   Robert P. Casey, Jr.,
                                           United States Senator.
                                   Robert C. Byrd,
                                           United States Senator.
                                   Edward M. Kennedy,
                                           United States Senator.
                                   Jim Webb,
                                           United States Senator.
                                   Hiliary Rodham Clinton,
                                           United States Senator.
                                   Carl Levin,
                                           United States Senator.


    Senator Casey. I'm quoting from the second paragraph, ``I 
believe--'' or, we believe, I should say, ``a security 
commitment that obligates the United States to go war on behalf 
of the Government of Iraq, at this time is not in America's 
long-term national security interests, and does not reflect the 
will of the American people.''
    Later in the letter, we referred to a statement by General 
Douglas Lute, the Assistant to the President for Iraq and 
Afghanistan, and I'm quoting from him, here. ``We'' 
representing the administration, ``We don't anticipate now that 
these negotiations will lead to the status of a formal treaty, 
which would then bring us to formal negotiations, or formal 
input from the Congress.''
    Then I will go to your op-ed today in the Washington Post. 
In this op-ed written by you and Secretary Gates, you say, with 
regard to the agreement with Iraq, ``Nothing will set troop 
levels, nothing will commit the United States to join Iraq in a 
war against another country, or provide other security 
commitments, and nothing will authorize permanent bases in 
Iraq.''
    Finally, I will go to testimony by Secretary Gates, in 
front of the Armed Services Committee, February 6, where he 
said in different parts, basically what you said in the op-ed, 
together. There's no commitment for security, and there's no 
security equipment, nothing to bind a future administration.
    And then I come to--all of which I think is what we were 
aiming at in our letter. Then I come to the language in the 
Declaration of Principles, ``Providing security assurances and 
commitments to the Republic of Iraq to deter foreign aggression 
against Iraq that violates its sovereignty and integrity of its 
territories, waters or airspace.''
    So, what I'm aiming for, here, is clarity, and an 
explanation as to what all this means.
    Here's the question. The question for you and the 
administration is, is it the administration's position--its 
policy, its intention--and contrary to anything else that's 
been written so far, in op-eds, or policy or statements--is it 
the policy of this government, this administration, to say 
categorically that there will be no permanent bases in Iraq, 
No. 1, and No. 2, that there will not be a guarantee of a 
security arrangement, as it pertains to Iraq being invaded, or 
having to defend itself against another country?
    Secretary Rice. On the first of those, Senator, the 
President has also said we don't seek permanent bases in Iraq, 
and we do not.
    Second, in terms of security, what we want to do is provide 
for Iraq the capacity to secure itself and to defend itself, 
which is why we are securing, why we are training their Armed 
Forces and the like, and obviously an Iraq that can defend 
itself is going to make the region more stable, but the United 
States is not taking on that obligation, as Secretary Gates and 
I have put forward in the op-ed.
    Senator Casey. But, I still don't understand why in the 
Declaration of Principles we would have language that says, 
``Providing security assurances and commitments to the Republic 
of Iraq.'' Why would that appear in the Declaration of 
Principles if the administration's policy is not to provide, or 
to----
    Secretary Rice. Well----
    Senator Casey [continuing]. Set forth a security agreement?
    Secretary Rice. Senator, that Declaration of Principles is 
a broad document that talks about the relationship of Iraq and 
the United States in the broadest possible way, over time. But, 
I just wanted to assure you that nothing in the actual document 
that we will be negotiating with the Iraqis--and I want to be 
very clear, we will also continue, of course, to consult with 
the Congress on it--nothing in that document would commit the 
United States to provide security guarantees or to engage 
ourselves in Iraq's wars with its neighbors.
    Senator Casey. And finally, and I know we're----
    Secretary Rice. Which we hope would never happen, because 
we hope, now, that a democratic and stable Iraq will be a force 
for security in the region, not for trouble, the way that 
Saddam Hussein's Iraq was.
    Senator Casey. In my remaining minute, I have to say that 
what you're saying and what you've written--and others have 
written in the administration--seems to conflict, along with 
the President's signing statement.
    I'm reading from President Bush's January 28th signing 
statement as it pertains to the Department of Defense 
authorization act for 2008. And it says, in part, and I'm 
quoting from the beginning, ``Provisions of this Act--'' the 
DOD act, ``including Sections 841, 846, 1079, and Section 1222, 
which pertains specifically to permanent bases--''. How do we 
square that--not just in the context of this signing statement, 
but in the context of other signing statements? This is an 
administration and a President that has had a lot of signing 
statements which calls into question whether or not despite or 
in contravention of statute, that this administration thinks 
that it can go around statutes, or interpret statutes in a way 
that Congress didn't intend.
    So, based upon that, I would consider this a bad track 
record as it pertains to signing statements, and the reason for 
them, and based upon what I perceive as an apparent conflict 
between rhetoric about no permanent bases and rhetoric about no 
long-term security commitment, in the actual policy, I don't 
see how you can square the two. And I would ask you to----
    Secretary Rice. Well, Senator, we will----
    Senator Casey [continuing]. Attempt to do that.
    Secretary Rice. I think we all believe that we will be 
committed, in effect, to Iraq for a long time--politically, 
economically, et cetera. We want to help build their security 
forces so that they can secure themselves, so that they can be 
a stabilizing force in the region, not a destabilizing one. And 
I would separate that notion, which I think is very much at the 
base of everything that we're trying to do with Iraq, and which 
I think has, in a sense, broad support that that's the kind of 
thing that we ought to be doing.
    From the document that is being negotiated with the Iraqis, 
which is principally about a Status of Forces agreement so that 
our forces can operate there in a legal fashion when the U.S. 
Security Council resolution goes out of business at the end of 
the year--I'm not really--I'm not able to reflect on the 
specific signing statements, Senator, I don't--I haven't read 
them, I don't remember them specifically right now. But only to 
say that what Secretary Gates and I have said in the op-ed, 
that this is not about permanent bases, this is not about a--
undertaking security assurances to the defense of Iraq--but it 
is about a long-term relationship with Iraq that would help 
Iraq be a stable and good neighbor in the region, and that our 
forces have to be legal in what they're doing there, that 
that's really what this is about.
    Senator Casey. Well, I would ask--and I know I'm way over 
time--but I would ask that you communicate with the President 
that I think people are looking for a lot more clarity on this. 
When you have an internally inconsistent policy, in my 
judgment. When you juxtapose a signing statement, and you 
juxtapose some of the language in the Declaration of Principles 
with what you have said and written and what Secretary Gates 
has said in testimony, what he has written.
    So, I'd ask for--I think that the committee's record should 
be completed with a clearer and more declarative statement from 
the administration.
    I'd wrap up, because I know I'm over, I ask unanimous 
consent to include in the record any of those documents that I 
referred to.
    The Chairman. Without objection, we'll include them.


    [The information referred to above was not available when 
this hearing print was sent to press.]


    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And welcome, Secretary.
    I'm going to move from Iraq to the Arctic--not a surprise. 
We've had discussions about this, and I've always said you're 
going to look at me and think about the Arctic, and I want you 
to think about the Arctic again today. And when we look at the 
area of the world where we have a clean slate in building 
relationships and, in truly developing policies, the Arctic is 
an opportunity for us.
    We've got the International Polar Year underway, some very 
substantive research projects going on. We're going to be 
having the Biennial Conference of the Arctic Parliamentarians 
Meeting in Alaska in August, this is the legislative branch 
equivalent of the Arctic Council.
    Just within this past week, we've got new mapping data from 
the Coast Guard cutter Healy's Arctic Expedition that 
demonstrates that Alaska's Continental Shelf extends more than 
100 nautical miles further from the North Coast than we had 
originally thought, giving us an opportunity, clearly, to lay 
greater claim to the Arctic region, but we're still not a 
signatory to the Law of the Sea Treaty.
    Others nations, as we're talking with them about Arctic 
policy, clearly want to work with the United States on 
developing and working with an Arctic policy. Can you give me 
any indication where we are in terms of developing that and the 
support within the budget to provide for a policy that does 
move the United States into more of a leadership role on Arctic 
issues?
    Secretary Rice. Well, Senator, we have provided funding for 
the Arctic Council, and there will be, I think, a meeting 
fairly soon, and Paula Dobrianski has represented us in the 
past, and she will in the future.
    There are obviously countries with which we share a lot of 
interests, and the Russians, in particular, have been 
interested in developing those ties concerning the Arctic.
    I agree with you that it would be a very good thing if we 
had the Law of the Sea Treaty. That would obviously make 
possible some elements of our leadership that we've, that are 
more difficult without it.
    So, the President has put the Law of the Sea Treaty on his 
list of treaties that he wants to see passed. But we are 
providing both funding and representation in the Arctic Council 
affairs.
    Senator Murkowski. And we would hope that with that 
funding, there is a push to not only talk about the policy, but 
actually to get a policy that is adopted. We've been dealing 
with a policy that, as you know, is old and it is important 
that we try to revamp that.
    Very quickly, then, and going back to the Middle East now--
there was a GAO report back in October about the amount of 
money that the international donors had pledged for Iraq 
reconstruction, a total of about $16.4 billion. Of that amount, 
only about $7 billion has been provided, as I am sure you are 
very well aware. But in looking at the list of the countries 
that have made the pledges and what has been delivered so far, 
what strikes me is that the countries who would be most 
immediately impacted if the Iraq Government were to collapse--
essentially the neighboring countries surrounding Iraq--are the 
ones who are really not living up to their level of commitment 
in terms of keeping their pledges. What are we doing here in 
the United States to get Iraq's neighbors really more active in 
their support of the Iraq Government?
    Secretary Rice. Well, we have an International Compact for 
Iraq and I think it's under that vehicle that we have seen the 
pledges made.
    There have been some significant pledges from Iraq's 
neighbors. One of the problems, and one of the reasons that 
there's a distinction or a difference between what has been 
pledged and what has been spent, is that frankly, until 
recently, I think people could either cite the security 
situation as a reason--or some might say, an excuse--and that 
the security situation is improving and that it is now possible 
to make some of those reconstruction efforts.
    We are, and the Iraqis are redoubling their effort to, 
actually have states deliver on those pledges. And I think, 
it's my hope that you'll start to see countries come forward in 
that way.
    For instance, some of the funding from Kuwait and Saudi 
Arabia is project funding, and not budgetary support, and 
frankly, the Iraqis don't need budgetary support, the project 
funding is what is helpful to them. And so we expect that they 
will begin to spend out that project funding as the security 
situation improves, and we're working with them on precisely 
that.
    But it has been a combination of slow absorption by the 
Iraqis, and a security situation that I think has now improved 
to the place where we could expect these disbursements to take 
place more quickly.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Vitter, thank you for your patience.
    Senator Vitter. Thanks, Mr. Chairman.
    Thank you, Madame Secretary for all of your service. We 
really do appreciate it.
    I'm actually going to stay in the Arctic, where Lisa 
brought us, in terms of the Law of the Sea Treaty.
    It's clear that I disagree with you and the administration 
and some of my colleagues, like Lisa, on the Law of the Sea 
Treaty. We won't resolve that today, and for now we can put 
that disagreement to the side.
    What I am concerned about, no matter what anybody might 
think about the merits of the Treaty, is that there is about $5 
million designated for two entities created under the Law of 
the Sea Treaty. This is a significant amount of money. There's 
$1.3 million budgeted to go to the International Seabed 
Authority. And there is $3.6 million budgeted to go to the 
International Tribunal for the Law of the Sea. I hope we can 
all agree that this money being budgeted for entities, which 
are part of a treaty that is currently before the Senate, and 
has yet to be ratified by the Senate. Isn't it completely 
jumping the gun, and completely presumptuous for those two line 
items to be in the budget?
    Secretary Rice. Senator, we're obviously not going to do 
anything in terms of the Law of the Sea Treaty until it's 
ratified by the Senate. As I understand it, some of these 
elements we've been willing to attend meetings to provide some 
technical assessments, because we have entities in the United 
States, including the U.S. Navy and some of our business 
interests, that are very concerned that people not use our 
absence of the ratification of the Law of the Sea to take 
advantage of us.
    Senator Vitter. Well, let me just----
    Secretary Rice. But, we will not spend any funding----
    Senator Vitter [continuing]. Clarify your response. Is this 
money for American personnel to go to meetings? Will this money 
go to the international entities created by the Law of the Sea 
Treaty?
    Secretary Rice. I assure you, Senator, we're not going to 
actually spend anything in conjunction with Law of the Sea 
unless it is ratified by the Senate. But, in hopes that it 
might be ratified, we've made some requests going forward, that 
would allow us to rapidly begin to implement it if it does go 
forward.
    Senator Vitter. While that should be reassuring, I would 
like to point out that what you just said is not in the budget. 
The budget does not contain your caveat that this money is not 
available before the Senate ratifies the Treaty, and that the 
money's just there in case the Treaty is ratified. So, I think 
it's completely presumptuous----
    Secretary Rice. Senator, I think there may be--let me get 
you, in writing, an answer. Because I think there are some 
elements of this, the International Seabed, for instance, that 
we have wanted to support in order to protect our own 
interests. But I will get a--an answer to you in writing.
    Senator Vitter. So, therefore, what you are actually saying 
is that the money in the budget could go to Law of the Sea 
related activities or entities prior to Senate ratification.
    Secretary Rice. Senator, I want to have an opportunity to 
review it, and to come back to you in writing on precisely how 
we would use that funding, if we would use it at all.
    Senator Vitter. OK, great. I look forward to that.


    [The information referred to above follows: ]


    The President's budget request included funding to pay assessed 
contributions of $1.3 million to the International Seabed Authority and 
$3.6 million to the International Tribunal for the Law of the Sea in FY 
2009. In both cases, the budget request explicitly conditioned 
expenditure of the requested funds on Senate approval of U.S. accession 
to the Law of the Sea Convention. Attached are pages 737 and 740 from 
the President's FY 09 budget, which clearly indicate that no funds will 
be provided to either organization until the United States accedes to 
the Convention.
    We would like to reiterate the administrations's strong support for 
U.S. accession to the Law of the Sea Convention. Joining the 154 other 
parties to the Convention would promote U.S. security, economic, and 
environmental interests, with very modest financial implications, 
especially when weighed against the substantial benefits that would 
accrue to the United States.


                                 ______
                                 

            Contributions to International Organizations\1\
---------------------------------------------------------------------------

    \1\ Transcribed from pages 737 and 740 of the President's 2009 
Budget.

                                International Seabed Authority, Kingston, Jamaica
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                                               FY 2007  Actual      FY 2008          FY 2009
                   Computation of Estimate                                          Estimate         Request
----------------------------------------------------------------------------------------------------------------
U.S. Requirements in Dollars.................................               0                0            1,296
----------------------------------------------------------------------------------------------------------------



    The International Seabed Authority (ISA) is the institution through 
which states parties to the Law of the Sea Convention regulate 
activities in those portions of the seabed and ocean floor that are 
beyond the limits of national jurisdiction. Regulated activities 
include exploration and exploration and exploitation of solid, liquid 
and gaseous mineral resources at or beneath the seabed. ISA currently 
has 148 members. The principal organs of ISA are the Assembly, to which 
all members may belong, a 36-member Council and the Secretariat.
    ISA carries out the Convention's provisions for non-discriminatory 
access to deep seabed mineral resources and adopts rules and 
regulations setting forth specific terms and conditions for exploration 
and development, including environmental safeguards. ISA has contracts 
in place with ``pioneer investors,'' has adopted regulations on 
prospecting and exploration, developed recommendations for assessing 
the potential environmental impact of certain exploration activities, 
and is working on rules for the exploration of certain oceanic crusts. 
ISA is also active in collecting and disseminating data on specific 
issues relating to deep seabed mining. Although deep seabed mining is 
not economically feasible at present, ISA will have the authority to 
grant unimpeded access to mining sites when it is. U.S. investors would 
benefit substantially from this predictability.
Explanation of Estimate
    The FY 2009 request provides for the U.S. assessed contribution for 
2009, the first year of the 2009-2010 biennial budget. Expenditure of 
the requested funds is contingent on Senate ratification of the 
International Law of the Sea Convention, which would establish U.S. 
membership in ISA. As a member of ISA, the U.S. would contribute 22 
percent of the assessed budget, which represents the ceiling on member 
state assessed contributions.



                                             Explanation of Estimate
----------------------------------------------------------------------------------------------------------------
                                                               FY 2007  Actual      FY 2008          FY 2009
               Detailed Computation of Estimate                                     Estimate         Request
----------------------------------------------------------------------------------------------------------------
Assessment against members (in dollars)......................               0                0            5,891
United States percentage share...............................               0                0               22
United States assessment (in dollars)........................               0                0            1,296
----------------------------------------------------------------------------------------------------------------



          * * * * * * *



                         International Tribunal for the Law of the Sea, Hamburg, Germany
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                                               FY 2007  Actual      FY 2008          FY 2009
                   Computation of Estimate                                          Estimate         Request
----------------------------------------------------------------------------------------------------------------
U.S. Requirements in Dollars.................................               0                0            3,608
----------------------------------------------------------------------------------------------------------------



    The International Tribunal for the Law of the Sea (ITLOS) was 
established by the United Nations Convention on the Law of the Sea as 
one of several dispute resolution mechanisms available to states 
parties. Although the U.S. would choose arbitration tribunals rather 
that ITLOS for settlement of disputes where the choice is available, 
the U.S. woul dbe subject to the Tribunal's jurisdiction in certain 
circumstances involving prompt release of vessels and disputes relating 
to seabed mining. For this reason, and because the U.S. has an interest 
in influencing the interpretation and application of the Convention, 
mmbership [sic] in ITLOS would be of significant benefit to the U.S. As 
a member of ITLOS, the U.S. would also be able to nominate a judge for 
election to ITLOS, which would result in a U.S. judge being in the 
position to promote interpretation and application of the Convention in 
ways that would be helpful to U.S. interests.
Explanation of Estimate
    The FY 2009 request provides for the U.S. assessed contribution for 
2009, the first year of the 2009-2010 biennial budget. Expenditure of 
the requested funds is contingent on Senate ratification of the 
Convention of the Law of the Sea, which woul destablish U.S. membership 
in ITLOS. As a member of the ITLOS, the U.S. would contribute 
contribute 22 percent of the assessed budget, which represents the 
ceiling on member state assessed contributions.



                                             Explanation of Estimate
----------------------------------------------------------------------------------------------------------------
                                                               FY 2007  Actual      FY 2008          FY 2009
               Detailed Computation of Estimate                                     Estimate         Request
----------------------------------------------------------------------------------------------------------------
Assessment against members (in euros)........................               0                0           11,200
United States percentage share...............................               0                0               22
United States assessment (in euros)..........................               0                0            2,464
Approximate Exchange Rate (euros to dollars).................               0                0            0.686
U.S. requirement (in dollars)................................               0                0            3,608
----------------------------------------------------------------------------------------------------------------



    Senator Vitter. Let me just say that I think it's 
inappropriate request or provide the money before the Senate 
acts. I strongly urge the administration, and strongly urge the 
Congress, to strike this particular budget request.
    I would also note, one of the two entities listed in the 
budget provision, the International Tribunal for the Law of the 
Sea, is an entity in which the U.S. has said it will not 
participate if we ratify the Treaty. We're not going to submit 
to its jurisdiction. We don't trust it to consistently rule on 
matters involving the U.S. in a fair and impartial manner. 
Ratification is not going to change this. And yet we are asking 
for funding for this Tribunal anyway. I don not think there is 
any precedent for sending money to organizations created by a 
treaty on which the Senate has yet to act, and has not yet 
acted. I would request a review of this, and hopefully a change 
of policy. I would make the same request to Congress.
    Thank you.
    Secretary Rice. Thank you.
    The Chairman. Madame Secretary, thank you for your patience 
and thank you for your presence. And believe it or not, it is 1 
o'clock.
    Secretary Rice. Perfect.
    The Chairman. We got you out.
    We are adjourned.
    Secretary Rice. Thank you very much.


    [Whereupon, at 1 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Russell D. Feingold, 
                      U.S. Senator From Wisconsin

    Thank you, Madam Secretary, for testifying before this committee, 
and thank you, Mr. Chairman, for holding this hearing. We are at a 
critical time right now with regard to our foreign policy and related 
spending, which makes this hearing all the more timely.
    I am a strong supporter of increased funding for State Department 
operations to ensure that we have a robust and fully functioning 
agency. I am pleased that the President's proposed FY09 State 
Department budget has increased 8\1/2\ percent from last year's budget 
request, including emergency funding. We have thousands of dedicated 
Americans who commit themselves to serving this country by working at 
the Department of State--both overseas and at home--and without 
adequate funding our foreign policy agenda is shortchanged as critical 
staff does not have the necessary resources to do their job. This 
capacity and resource gap needs to be addressed immediately, and while 
these initial plus-ups are small compared to the overall needs, I am 
nonetheless pleased to see them.
    Madam Secretary, I remain deeply concerned that the President is 
still failing to properly allocate resources so we can best address our 
top national security priority--the global threat posed by al-Qaeda and 
its affiliates. The misguided and narrow focus on the war in Iraq is 
depleting our financial, diplomatic, and material resources around the 
globe--whether in Afghanistan, Pakistan, Indonesia, Democratic Republic 
of Congo, or Algeria--and making it more difficult for us to pursue a 
policy agenda that does, in fact, contribute to our national security. 
While we are spending $10 billion per month in Iraq, our efforts in 
Afghanistan are being short-changed and vital development, disaster 
assistance, education and health programs that are essential for 
building strong nations and restoring stability in post-conflict 
situations are underfunded. These programs can play an important role 
in eradicating some of the factors that contribute to extremism and 
terrorism.
    Following the Defense Secretary's lead, last week the Chairman of 
the Joint Chiefs testified before the Senate Armed Services and noted 
that we need to do a better job of developing the capabilities and 
capacity in other agencies outside the Defense Department--including 
State and USAID. He also said we need to do a better job of deterring 
conflict and being prepared to ``defeat foes globally by rebalancing 
our strategic risk.'' How have we reached the point where the Defense 
Department is advocating more strongly for building and strengthening 
our civilian and diplomatic capacity than our own State Department?
    In addition to my concerns about misplaced priorities, I continue 
to be concerned about this administration's misleading budgeting. As in 
previous years, the President's budget fails to account for the cost of 
the wars in Afghanistan and Iraq, and fails to pay for those costs, 
thus sticking our children and grandchildren with the bill. Passing the 
tab for these wars onto future generations is simply irresponsible.


                                 ______
                                 



 
                            A P P E N D I X

                              ----------                              



            Responses to Additional Questions Submitted for

           the Record to Secretary of State Condoleezza Rice

                      by Members of the Committee

                  Questions Submitted by Senator Biden


    Question 1. There are at least 10 departments, 25 agencies, and a 
total of 60 government units engaged in foreign assistance in the U.S. 
government. Did the FY 2009 foreign affairs budget request result from 
a multi-year strategic planning process for development that is 
coordinated across the entire United States Government? If not, how can 
we hope to get a coherent, strategic funding plan if the management of 
foreign aid is so fragmented across the United States Government?

    Answer. Central to our foreign assistance reform efforts is the 
goal of improving our ability to provide assistance more strategically 
and effectively. Since its establishment in June 2006, the Office of 
the Director of U.S. Foreign Assistance has developed and implemented 
integrated budget planning, program planning, and results monitoring 
tools. These tools are designed to provide senior leadership with the 
necessary information to assess progress and trade-offs, and improve 
decision-making that supports policy goals, including our goal of 
achieving transformational diplomacy. The FY 2009 budget is country 
focused with the aim of identifying what programs are needed for the 
unique situation of each recipient country in reaching the 
transformational diplomacy goal. Based on lessons learned from the FY 
2008 budget process, the FY 2009 budget process was adjusted to 
incorporate greater input from our experts in the field. The first 
stage of the FY 2009 budget build relied on our embassies and USAID 
missions around the world to form the initial basis for each country 
request through Mission Strategic Plans--a joint State-USAID filed 
submission of budget and allocation levels by program element. 
Washington core teams have been replaced by Assistance Working Groups, 
composed of regional and functional representatives, who evaluate the 
field-proposed priorities and programs, recommending adjustments and 
addressing global and regional issues. In contrast to last year's 
process, the field had defined and concrete input at multiple stages, 
which resulted in a budget that represents both field and Washington 
priorities. Additionally, this budget was built in coordination with 
the Millennium Challenge Corporation (MCC) and the Department of 
Defense. In some cases, this entailed a realignment of State and USAID 
assistance programs to complement or reinforce MCC programs, and avoid 
redundancy. As a result of these changes to the budget process, the FY 
2009 request represents a budget that is truly coordinated between 
field and headquarters, State and USAID.
    We are at the beginning of true foreign assistance reform, not in 
the middle and not at the end. While there is not yet a multi-year 
strategic planning process, we are making progress in that direction. 
We have started developing a multi-year Global Assistance Strategy and 
will be piloting multi-year country assistance strategies in the coming 
months. Through the Development Policy Coordination Committee we are 
working with other U.S. Government agencies to see how we can better 
align our foreign assistance programs. The Development Policy 
Coordinating Committee has agreed to focus on intra-government 
coordination in a select number of countries. Lessons learned will then 
be adopted on a broader scale. We will better integrate the work of our 
non-government partners for a comprehensive development approach in 
each country.
    There are many aspects of the foreign assistance apparatus that 
have to be carefully examined; for example, whether the current 
authorities and account structures are equipped to meet the evolving 
needs of a post 9-11 world. We are committed to fully engaging with 
Congress in a collaborative manner regarding further steps and 
improvements to the foreign assistance process and our reform efforts.


    Question 2. There is widespread concern about the growing role of 
defense strategy in setting development policy. It seems we may also 
run the risk of our diplomatic strategy overwhelming a sound 
development policy. For example, we spend 40% of our foreign aid in the 
10 countries where we have key strategic interests. But we only spend 
4% among the world's 10 poorest countries. Are you concerned that with 
the budget planning process run by the State Department, we will get a 
development strategy beholden to our diplomatic strategy? What are the 
consequences of that for our development goals? How would we avoid 
that?

    Answer. It has become clear that the security and well-being of 
Americans is inextricably linked to the capacity of foreign states to 
govern justly and effectively. The U.S. Government can no longer draw 
neat, clear lines between security interests, development efforts, and 
democratic ideals. With proper focus and coordination, we can achieve 
both our development and diplomatic objectives without sacrificing the 
principle of long term development for shorter term objectives. In the 
past, there was a perception that development policy and foreign policy 
objectives were entirely separate and typically at odds. Poverty 
reduction, good governance, and capacity building for sustainable long 
term success are long-held development goals. Foreign policy goals also 
now recognize that lasting peace and prosperity cannot be achieved 
unless we expand opportunities for all citizens of the global community 
to live hopeful and prosperous lives. A driving purpose behind the 
establishment of the Office of the Director of U.S. Foreign Assistance 
was to strengthen the U.S. commitment to long term development. One of 
the key principles of foreign assistance reform is to ensure that 
State/USAID resources support shared goals, and that our planning, 
budgeting, management and implementation processes for foreign 
assistance capitalize on the respective strengths of State and USAID.
    I believe that the FY 2009 budget demonstrates our commitment to 
long term development needs. The budget reflects increased investments 
aimed at expanding the community of stable, democratically-governed, 
and prosperous nations. This emphasis is reflected in the request for 
Development Assistance account, which is nearly 60% higher than the 
President's FY 2008 request. Funding for programs to consolidate 
democratic gains has been increased by 27% from FY 2008 enacted levels. 
Funding for programs that expand economic freedom, help countries open 
their markets, and spur growth has been increased by nearly $94 
million. The United States is on track to double assistance to sub-
Saharan Africa between 2004 and 2010 to $8.7 billion--the FY 2009 
request reflects a 25% increase (without GHAI) compared to the FY 2008 
requests. Similarly, the Western Hemisphere region saw a $41 million 
increase (without the Merida Initiative and GHAI) from the FY 2008 
request.


    Question 3. Many responsible government leaders overseas express 
concern about the challenge of dealing with multiple development 
donors. Some recipient countries receive as many as 800 new development 
projects each year, host more than 1,000 donor missions, and are 
required to present 2,400 quarterly progress reports. Ashraf Ghani, the 
former Finance Minister of Afghanistan, has argued that the costs and 
frustrations of dealing with foreign aid donors overwhelm poor 
governments-and that, in fact, the costs of accepting money from rich 
countries often outweigh the benefits. How do we make the aid system 
simpler?

    Answer. This is an issue that we take very seriously. As stewards 
of tax payers' dollars, we look to find that balance between being 
accountable and programming for results, ensuring that our assistance 
isn't diverted to terrorist entities, following all legal requirements, 
and being flexible and responsive to host country needs. One step that 
we have taken to improve aid delivery is to hire more staff in the 
stewardship and technical areas. The President's Fiscal Year 2009 
Budget includes $92.1 million dollars to hire 300 foreign service 
officers for USAID--above attrition--in Fiscal Year 2009, a 30 percent 
increase in our foreign service workforce. This will move USAID toward 
a 100 percent increase in deployable staff resources over the next 
three years.
    The Development Leadership Initiative will address critical 
staffing deficiencies in the stewardship and technical areas by hiring 
officers in the areas of program and planning; executive management; 
contracting; financial management; legal; health; economic growth and 
trade; alliance building; education; and democracy, conflict, human 
rights, and governance.
    We are also taking steps to improve our internal coordination as a 
donor. In addition to establishing joint and common planning, 
budgeting, and performance evaluation systems for State/USAID, for the 
first time, the Director of Foreign Assistance and USAID Administrator 
is chairing the US government's interagency policy coordinating 
committee on Development, which is a forum for consultation and 
collaboration among senior policy officials representing a wide range 
of federal agencies involved in foreign assistance activities. As the 
chair of this forum, the Director of Foreign Assistance and USAID 
Administrator is enhancing the impact of US Government assistance by 
forging agreement on whole-of-government approaches at the country 
level and on collaboration to foster private sector-led growth in 
Africa; and strengthening our voice on the international stage on key 
assistance issues such as aid effectiveness and achievement of the 
Millennium Development Goals.
    Outside of Washington, the USG is an engaged partner with other 
donors, providing leadership on practical and results oriented 
collaboration. This past October, USAID agreed with Denmark, Finland, 
Ireland, Norway, the Netherlands, Sweden, and United Kingdom, referred 
to as the Nordic Plus, to publicly and enthusiastically confirm our 
strong commitment to the Paris Declaration on Aid Effectiveness and 
most importantly to work in tangible ways to demonstrate this 
commitment. As a result, we've committed to work together in Ghana and 
Tanzania to enhance the impact of our aid efforts through greater 
coordination among donors and with host country development strategies.
    Finally, within our PEPFAR program, the USG is a co-sponsor, 
together with the UK and UNAIDS, of the ``three ones'' approach, in 
which donors seek to work under one country strategy, one monitoring 
and evaluation system, and through one coordinating mechanism in-
country.
    We share your concern about the importance of making aid 
streamlined, flexible and responsive, and welcome your input and 
feedback on our ongoing efforts.


    Question 4. We need to be able to measure the results of our 
development aid so that we can ensure that we are getting value for 
taxpayer dollars. But who gets to evaluate? Who determines what 
``success'' is? Are we evaluating development projects for how well 
they deliver the results that the U.S. government wants? Or, are they 
measured by how well they deliver the results that poor people in 
developing countries want? Whose measurement tools are we using? And 
how can we design measurement tools that ensure our efforts are 
benefiting poor people?

    Answer. Accountability for development results is one of the 
fundamental principles of the reform launched in 2006. The U.S. 
Government incorporates the interests of many constituents when 
determining the goals and outcomes of its foreign assistance programs. 
Certainly, we recognize that without the ownership of host country 
governments and the validation and support of non-governmental 
organizations and multilateral donor agencies our efforts stand a 
lesser chance of success.
    Therefore, just as it is important to recognize that the results 
that we are striving to achieve through foreign assistance are 
established jointly, it is equally important to have an understanding 
of whether we are achieving U.S. strategic objectives and the long-term 
development goals of the recipient countries.
    We measure the results of foreign assistance programs in several 
distinct but inter-related ways. First, each program that is funded 
must include specified results and related performance measures--
indicators--that are monitored by the office overseeing the program to 
determine whether we are meeting our targets. These results and 
indicators are determined jointly, in advance of starting the project, 
with host country governments and beneficiaries. The Office of the 
Director of Foreign Assistance has also developed a set of standard 
performance indicators that are intended to enable the aggregation of 
results across countries and programs to tell us what the U.S. 
government achieved from foreign assistance during a fiscal year. For 
example, the standard indicators can tell us how many people we have 
inoculated, how many farmers we assisted with new crops varieties, or 
how many electoral systems we have strengthened. By being able to look 
at assistance data on a country-by-country level as well as in 
aggregate, we are able to measure whether we are achieving success in 
partnership with individual countries and stakeholders, but also at a 
broader level that is the core of the overarching U.S. foreign policy 
strategy.
    To further assist our ability to measure progress, a set of 51 
representative indicators were identified and utilized in the FY 2007 
Foreign Assistance Annual Report, published in conjunction with the FY 
2009 CBJ. Each of the short-term (annual) indicators included 
information on the results target set for FY 2007, whether the target 
was achieved and steps that will be taken to improve performance if it 
fell short. The process of identifying, analyzing and reporting on this 
indicator set pointed to needed adjustments in the process that will be 
incorporated into future reports.
    Additionally, we also monitor the overall progress of a country or 
region in the sectors we are supporting by using data and information 
gathered by established organizations. For example, by using Freedom 
House indicators, we are able to determine the progress that a country 
or region has been making or not making towards democracy and human 
rights. Using these second-party measurements helps us to validate that 
our programs are not simply achieving shorter term objectives and 
needs, but that they are contributing to a portfolio of efforts that 
are accomplishing long-term sustainable change that serve the 
individual countries as well as the regions where they are located.
    Finally, USAID Missions and bureaus and some State Department 
Bureaus conduct evaluations of their major development projects and 
programs. Last year, USAID offices conducted over 200 evaluations which 
examined questions such as what were the effects of projects and 
programs, what problems they faced during implementation, and what 
lessons can be learned for the future to aid in designing programs that 
will achieve greater impact.
    Evaluations invariably take into consideration the views and 
judgments of the intended beneficiaries. Evaluation teams routinely 
interview the real and intended beneficiaries to understand their 
perspectives and perceptions.
    USAID Administrator and Director of U.S. Foreign Assistance Fore 
has stressed the importance of rigorous and objectives evaluations of 
all programs administered by State and USAID. Both USAID and the State 
Department are exploring ways to strengthen the evaluation function and 
to improve upon the performance management systems now in place.


    Question 5. The President has requested that Congress provide 
twenty-five percent of PL-480 funds to purchase food aid locally in 
emergencies. What are the advantages of this approach? Could you 
identify specific cases where development or humanitarian assistance 
funds would have more impact if they were spent in recipient countries?

    Answer. What is paramount to the Title II program is having 
adequate food aid available when needed to save lives. Food purchased 
in the U.S. normally takes up to four months to arrive at its 
destination. Food purchased locally, however, can reach the 
beneficiaries within days or weeks. The ability to use even a fraction 
of Title II for local and regional purchase will allow the U.S. to move 
with greater speed and flexibility to save lives and prevent famine. 
Such speed is sometimes necessary when a sudden emergency occurs (e.g., 
a natural disaster or an outbreak of fighting), food deliveries are 
unexpectedly interrupted (e.g., a pipeline break), or an unexpected 
and, often, short-lived cease fire allows rapid access to populations 
in need. We will be better equipped to deal with emergencies if our 
``tool-box'' were to include cash that can be used to provide immediate 
relief until US commodities arrive, or fill in when there are pipeline 
breaks.
    Local procurement can also save funds, allowing us to feed more 
people, which is especially important as the increasing commodity costs 
erode the purchasing power of the Title II account. Had the U.S. been 
able to procure commodities in Uganda for persons displaced by conflict 
there, we would have been able to increase our support by 31 percent. 
In 2006 alone, had we purchased commodities available in Uganda we 
would have saved over US$3 million, which could have been used to 
supply Ugandan displaced persons with 6,000 tons of additional 
commodities.
    Our U.S-grown food will continue to play the primary role and will 
be the first choice in meeting global needs. We plan to use local and 
regional purchases judiciously.


    Question 6. How can the U.S. Government improve its coordination 
across the different agencies that conduct international development 
and health work, like MCC and PEPFAR, especially given that the latter 
two programs are outside the direct authority of the Director of 
Foreign Assistance? While the Director of Foreign Assistance does have 
coordinating authority over those agencies, the experience over the 
last two years has not demonstrated that that authority is sufficient 
to effectively coordinate the activities and budget planning between 
USAID, MCC, and PEPFAR--either here in Washington or at the country 
level.

    Answer. The establishment of a dual-hatted Director of U.S. Foreign 
Assistance and USAID Administrator has led to continued improvement in 
the interagency coordination of activities and budget planning. For FY 
2008, for example, with the establishment of common objectives, a 
common program lexicon, and common budget and program planning 
processes, State (including PEPFAR) and USAID were able to improve 
coordination, with steps taken toward greater MCC and DOD coordination. 
For FY 2009, MCC and DOD were formally added as participants in State 
and USAID's budget and program planning process, in addition to their 
coordination in the field.
    The evidence of such coordination is illustrated by a number of 
examples: In Ghana, for instance, USAID is focusing its programming on 
enhancing the capacity of local government, which is responsible for 
implementing MCC compact activities in economic growth. In Honduras, 
USAID programming focuses on trade and investment capacity building and 
private sector competitiveness, in order to complement MCC compact 
investments in infrastructure and agricultural diversification.
    With respect to PEPFAR, the greater coordination achieved through 
the DFA helped highlight development gaps in our non-HIV/AIDS 
programming, including interventions in governance and economic growth 
that will help build host government capacity to sustain further 
progress on their own. Thus, in FY 2009, the budget includes $2.1 
billion for State Department and USAID programs in Africa to address 
development gaps and support economic opportunity and governance 
programs critical to the success of the investments we have made 
through PEPFAR.
    A number of additional activities are ongoing for this year that we 
hope will further improve coordination. A strong interagency country 
strategy development process is being planned for specific pilot 
countries. The 3-to-5-year strategic plan will be developed by the 
field, under the leadership of Ambassadors, and is explicitly targeted 
to include full interagency, other donor, and where appropriate, host 
government participation. As with last year, the annual Operational 
Plan process will provide additional opportunities for the interagency 
in the field to develop comprehensive program plans, working together 
to ensure coordination.
    Finally, to extend coherence across all U.S. Government foreign 
assistance, the Director of U.S. Foreign Assistance and USAID 
Administrator now leads the interagency Development Policy Coordination 
Committee. This committee is an important tool for aligning U.S. 
Government efforts, making joint policy decisions on critical 
development issues, and forging stronger collaboration to deliver 
greater impact from the U.S. Government's development efforts around 
the world. The Development Policy Coordinating Committee has agreed to 
focus on intra-government coordination-including the use of the DFA-
established common objectives, program lexicon, and planning processes 
in a select number of countries. Lessons learned from this pilot will 
then be adopted on a broader scale.
    We share your concern about the importance of such comprehensive 
coordination, and welcome your input and feedback on our ongoing 
efforts.


    Question 7. Our national security strategy is built around three 
pillars, also known as the ``Three D's'': Defense, Diplomacy and 
Development. Each pillar is intended to be equally crucial to a 
balanced foreign policy strategy, yet our government's resources are 
overwhelming tilted towards the defense pillar. For every dollar of 
funding we spend on diplomacy and development, we spend $19 on defense. 
Military-led development is the fastest growing form of U.S. overseas 
aid. Are you concerned about the consequences of this imbalance? How 
does this budget request address that imbalance?

    Answer. President Bush's Fiscal Year 2009 Foreign Operations Budget 
for the Department of State, the U.S. Agency for International 
Development (USAID) and other foreign affairs agencies totals $26.1 
billion, an increase of 8.9 percent over the total Fiscal Year 2008 
enacted to date, including emergency funding, or 14.3 percent over the 
FY 2008 enacted base. This increase reflects a determined effort to 
enhance civilian instruments of national security-including the 
capacity of our civilian agencies, with staff increases for the 
Department of State and the largest requested increase in USAID's 
operational budget in nearly two decades-and our development, 
reconstruction, and security assistance.
    Development now plays a vastly elevated role in America's foreign 
policy. The charge I have given to our diplomatic corps is a long-term 
development goal-to help build and sustain democratic, well-governed 
states that respond to the needs of their people, reduce widespread 
poverty, and behave responsibly toward their people and the 
international system. In the 21st century, defined as it is thus far by 
an unprecedented and increasing interdependence, human development is 
both a moral end in itself and also a central pillar of our national 
security. Today, the idea that foreign assistance-and specifically 
long-term development-is a vital tool of our international statecraft 
is met with broad and growing support.
    With respect to funding, we have continued to boost the quantity of 
our assistance. Since 2001, with the support and partnership of 
Congress, President Bush has launched the largest development agenda 
since the Marshall Plan. In the past six years, we have nearly tripled 
official development assistance worldwide and quadrupled it to Sub-
Saharan Africa.
    As noted above, the FY 2009 request reflects the continuation of 
this effort, further illustrating the emerging national consensus in 
support of development. The resources requested in the Fiscal Year 2009 
Foreign Operations Budget demonstrate our strong commitment to fighting 
poverty, with a focus on strengthening democratic governance and 
promoting economic growth. This is reflected in our request for the 
Development Assistance account, which is nearly 60 percent higher than 
the Fiscal Year 2008 request, and our request of $1.7 billion for 
democracy promotion and governance.
    I would also like to specifically mention the State Department's 
Civilian Stabilization Initiative (CSI) that is included in the 
President's budget. CSI is the product of the work of 15 agencies, 
including Defense, to build the full complement of U.S. government 
expertise necessary to respond to a stabilization crisis and to promote 
effective rule of law, economic stabilization and transitional 
governance in weak and failing states.
    With the requested resources, the Department of State, USAID and 
other foreign affairs agencies strive to create the conditions 
conducive to sustained progress in governance, economic growth, and 
human capacity, recognizing that countries that move in this direction 
become our partners in global peace and prosperity.


    Question 8. USAID has been systematically under-resourced, 
overstretched, and disempowered over the last three decades-severely 
affecting the United State's capacity to provide global leadership on 
foreign assistance. Some example of this attrition: In the 1990s, 37 
percent of USAID's workforce left without being replaced. The number of 
direct hires working in the field dropped by 29 percent from 2002 to 
2005. The average U.S. contracting officer should manage about $10 
million dollars in grants. Today, they manage more than $50 million on 
average. This budget contains an impressive increase for USAID 
Operating Expenses. However, some observers argue this attrition has 
taken place because USAID has lacked the stature necessary to defend 
itself in the budget process. How have you addressed this issue? And, 
once that rebuilding is complete, what steps would we need to take to 
ensure that this erosion doesn't happen again in the future?

    Answer. Over the last several years USAID's OE budget has remained 
at a virtually straight-lined level, while USAID-managed program 
funding has increased by approximately 40%. The National Security 
Strategy now recognizes the importance of foreign assistance to the 
achievement of the nation's foreign policy objectives. The FY 2009 
budget supports this goal of reestablishing Development as the third 
leg of the foreign policy triad along with Diplomacy and Defense. 
Leadership at both the Departments of State and Defense are on record 
supporting these increases.
    Without sufficient operating expense funds to hire permanent staff, 
USAID has been forced to utilize a variety of program-funded hiring 
mechanisms to achieve its goals. The way to ensure that the Agency is 
not again subject to this type of erosion to its permanent workforce is 
to support the requested level of operating expenses.


    Question 9. The HELP Commission focused intensively on the issue of 
procurement and the weaknesses of our current contracting system. USAID 
has, in the words of General Chiarelli, become ``little more than a 
contracting agency.'' More than 50% of USAID funding in Afghanistan 
goes to five for-profit companies who do contracting. Each USAID 
contracting officer should manage about $10 million in grants. Today, 
according to USAID Acting Deputy Administrator James Kunder, they 
manage an average of $50 million. How far will the requested increase 
in operating expenses go to address this problem?

    Answer. The FY 2009 budget requests an increase in hiring which 
will include approximately 35 Foreign Service contracting officers as 
part of the Development Leadership Initiative (DLI). USAID's 
contracting officer shortage will also be addressed by increased hiring 
in Washington, as well as a pilot program to re-tool a limited number 
of qualified Foreign Service Officers into contracting officers.
    It should be noted that the requested increase will also address 
shortages in other stewardship categories such as financial management, 
legal, program and budget.


    Question 10. Recently, the HELP Commission issued its report on 
reforming U.S. foreign assistance. Among its recommendations was to 
dedicate the Economic Support Funds account, or ESF, for short-term 
economic needs, and protect the Development Assistance Account, or DA, 
for long-term goals. This budget request continues in the trend of 
funding development work through ESF. Why has the President requested 
funds for development through ESF? Do you think this is a wise 
strategy? And, if not, what are the obstacles that you feel force the 
USG to fund development work through ESF?

    Answer. We continue to work towards having a clearer and more 
transparent way of allocating Economic Support Funds (ESF) and 
Development Assistance (DA) funds. The FY 2009 request reflects 
allocations in the two accounts that are consistent with the current 
purposes of each appropriation. Using the Foreign Assistance Framework 
country categories as a basis, we have funded countries/bureaus with 
either ESF or DA funds (with one exception, Liberia). We are following 
a one account--one country rule in order to clarify the use of the DA 
and ESF accounts and end the practice of using both accounts in a 
single country.
    The DA request funds programs in Developing, Transforming, and 
Sustaining Partner countries (e.g., Bangladesh, Bolivia, Cambodia, 
Ethiopia, Guatemala, Indonesia, Peru, Philippines, Yemen). The ESF 
request funds programs in Restrictive and Rebuilding countries (e.g., 
Afghanistan, Burma, Haiti, Liberia, Nepal, Sudan) as well as foreign 
policy priorities such as Egypt and Jordan. By consolidating country 
programs previously funded with both ESF and DA, the Administration 
seeks to improve transparency and facilitate the performance monitoring 
of long-term development programs. Additionally, in the FY 2009 
request, we have made a concerted effort to elevate the importance of 
development, in balance with other foreign assistance priorities. This 
led to a $600 million increase in the DA account over the FY 2008 
request. About one-third of the increase is due to a shift from the ESF 
account, while two-thirds are programmatic increases.


    Question 11. The global health sector, more than any other part of 
foreign assistance, is perhaps the most fragmented, with two major 
health initiatives aimed at HIV/AIDS and malaria that are currently not 
linked into on-going global health programs, such as maternal and child 
health programs at USAID. As a result, a large majority of our global 
health funding is aimed at 15 countries, most of which are in sub-
Saharan Africa, but only through two programs, one directed towards 
HIV/AIDS and one towards malaria. Many have called for a more 
``comprehensive'' or holistic approach to global health. How does this 
budget request, in the short term, help coordinate its global health 
assistance and ensure that services on the ground cover the core 
components of basic health services that are maternal and child health, 
infectious diseases and HIV/AIDS? How do you reconcile that with a 14 
percent cut in the overall Child Survival and Health Account?

    Answer. This budget request will support the existing foreign 
assistance strategy to achieve and sustain the greatest possible 
reduction of maternal and child mortality and malnutrition. As the U.S. 
Government's lead foreign assistance agency in the global health 
sector, USAID coordinates health programming to the fullest extent 
possible--an approach that increases the affordability and 
sustainability of our global efforts to tackle critical public health 
challenges. We coordinate global health assistance and ensure that 
services on the ground cover the core components of basic health 
services, including maternal and child health, family planning, 
infectious diseases and HIV/AIDS. This is done through high-level 
coordination with other U.S. Government and host-government partners 
and strategic coordination of services in context-specific approaches. 
This includes coordination with CDC, FDA, HHS, NIH and OGAC, both in 
strategy development and in-country coordination with host governments 
and other bilateral and multilateral donor agencies.
    An example of coordination of services is the delivery of 
antenatal, delivery, and post-partum care. We know that good antenatal 
care--including the promotion of adequate nutrition and anemia 
prevention, detection and treatment of infections and complications, 
and planning for adequate care at birth--can have important positive 
effects on outcomes for both women and their babies. In areas where 
malaria is prevalent, we promote antenatal care as a key opportunity to 
provide anti-malarial treatment and the use of insecticide-treated 
nets, protecting women from anemia and illness and their unborn 
children from the low birth weight caused by maternal malaria 
infection. In areas where HIV is prevalent, antenatal care is one of 
the best opportunities to offer testing and counseling services and 
identify mothers requiring anti-retroviral treatment or prevention of 
mother-to-child transmission (PMTCT) of HIV. Most of our missions 
already support integrated maternal and child health/family planning 
(MCH/FP) and malaria programs and help to build broad-based health 
systems. These programs also strengthen drug management, supervision, 
community outreach and other critical systems across the board that are 
needed to deliver basic public health services.


    Question 12. One response to the calls for greater integration 
between HIV/AIDS programs and other health, social, and economic needs 
is ``wrap-around'' programs. But the non-HIV/AIDS programs often have 
dramatically less funding or may be geographically separated from most 
AIDS programs. How can greater integration be achieved under these 
circumstances?

    Answer. Even with geographic or financial disparities, greater 
integration can be achieved by strengthening and building upon common 
service delivery platforms, implementing national and district-level 
policies directing such integration, targeting resources, and 
incorporating strong monitoring and evaluation into programs. Service 
integration becomes formalized when outlined in cross-cutting national 
and district-level policies and championed by country leadership, as in 
Mozambique, Rwanda and other countries. Critical to this process is 
resource mapping at the community, primary facility, and district 
levels and then targeting resources.
    The successful integration of programs is more than co-location of 
services. Although obvious benefits exist in the integration of 
services, program, logistic, and financial barriers can negate these 
benefits. HIV programming in Rwanda has shown that improved health 
systems performance through a Pay-for-Performance model contributes to 
improved management in HIV/AIDS services, as well as family planning 
and child health services. An evaluation is underway to elucidate the 
key components with perceived successful integration of HIV/AIDS and 
other public health programming in at least three countries (i.e., 
Malawi, Mozambique and Rwanda). Strong monitoring and evaluation of 
integration efforts are necessary for sustained program quality and 
coverage. Monitoring and evaluation should address donor concerns about 
accountability and transparency of combined resources. The monitoring 
and evaluation system should be able to track task shifting and give 
some sense of how the health system and health workers may become 
overburdened in an environment of limited resources but increasing 
expectations.
    Opportunities exist where integration makes sense, building upon 
the strengths of the different programs. For example, in many countries 
antenatal visits and child immunization visits are relatively high. 
Extending from these strong points to the post-partum period may be an 
incremental approach to integration. High-quality care at delivery is 
one of the most critical interventions for the survival and health of 
mothers and newborns; it prevents or resolves life-threatening 
complications and provides essential immediate care to newborns. It 
also provides a key opportunity for the prevention of mother-to-child 
transmission (PMTCT) of HIV. Increasingly, we are extending care into 
the post-partum period, allowing for the detection and treatment of 
serious maternal and newborn complications and better promotion of 
breastfeeding and essential newborn care. This extension allows us the 
opportunity to conduct early infant diagnosis and start cotrimoxazole 
preventive therapy that has integrated benefits for HIV-exposed and 
HIV-infected children for prevention of death from pneumonia, TB and 
malaria. This post-partum period is also one of the most important 
opportunities to counsel women in voluntary family planning methods. 
Thus, in practice, our maternal, child health, and family planning 
programs are delivered holistically, yielding greater impact and 
sustainability and providing a platform for other important health 
programs.


    Question 13. When, realistically, do you think the joint United 
Nations-African Union force will be fully deployed to Darfur? What is 
the anticipated timeline for this deployment?

    Answer. Security Council Resolution 1769 authorizes a force of up 
to 19,555 military personnel, including 360 military observers and 
liaison officers, and an appropriate civilian component, including up 
to 3,772 police personnel and 19 formed police units of up to 140 
personnel each. Currently 9,000 personnel are deployed with an 
additional 3,600 expected by June.
    Special Envoy Williamson recently launched, on behalf of the United 
States and in partnership with Canada, the Friends of UNAMID. 
Secretary-General Ban has given his full support to this group 
comprising like-minded states that meets weekly in New York for the 
purpose of helping the UN accelerate deployment of an effective UNAMID. 
The Friends aim to help UNAMID meet its deployment goals of an 
additional 3,600 African troops by June.
    We are hopeful that deployment of an additional 1,600 troops can be 
achieved shortly thereafter, and are pressing for the deployment of the 
remainder of UNAMID's troops by December 31.


    Question 14. For months, the United Nations has been calling for 
urgently needed helicopters for the peacekeeping mission in Darfur. 
I've written the President on this, more than once. The Senate recently 
approved a resolution that Senator Lugar and I wrote calling for the 
President himself to personally engage on this issue with other heads 
of state. I don't get the sense that this is as high a priority as it 
should be. Can you tell me the degree of engagement you have had on 
this issue and with whom? How many foreign ministers have you called? 
With how many heads of state has President Bush raised this issue?

    Answer. The United States has been at the forefront of Darfur 
peacekeeping support since the African Union first deployed in July of 
2004. Since that time we have provided Darfur peacekeepers with more 
than $400 million in assistance. We have been engaged in an intense 
high-level diplomatic campaign, both in public and behind the scenes, 
to lobby on behalf of the UN and the people of Darfur to generate and 
deploy tactical and utility helicopters as well as other critical 
mission requirements. This diplomatic campaign is starting to bear 
fruit: Ethiopia has offered 4 attack helicopters to the mission. Our 
efforts have also included high-level coordination and outreach to 
multiple NATO and non-NATO countries, including China. We have worked 
closely with the UN to identify those countries most likely to 
contribute helicopters to this operation. Officials at the most senior 
levels of the US government have approached their counterparts in these 
countries' governments to urge them to provide the required support. We 
are also in touch with the UN on the full range of alternative options 
to meet these urgent requirements and to assist other countries to 
strengthen their capabilities to contribute.


    Question 15. The need for peacekeepers in Africa is immense. 
Darfur, Chad, and Somalia are still in the grips of terrible conflicts. 
The Democratic Republic of Congo, which has seen horrendous violence in 
recent years, may be on the verge of a breakthrough toward genuine 
peace. The President's budget request, however, has significant cuts 
for UN peacekeeping--a cut of $75 million for the Congo mission, a cut 
of $56 million for the mission in Liberia, and a cut of $39 million in 
the Cote d'Ivoire mission. What will be the impact of these budget cuts 
on these missions and these and other countries' efforts to ensure that 
gains made in peacemaking are secured?

    Answer. There are eight UN peacekeeping missions in Africa that 
account for $1.1 billion of our FY 2009 request. The exact requirements 
for UN peacekeeping funds for future years are difficult to predict, 
because the size and cost of UN peacekeeping missions depend on UN 
Security Council decisions based on conditions on the ground and UN 
General Assembly review of the financial implications associated with 
those decisions. With respect to these missions, we are hopeful for 
some drawdown of peacekeeping forces. In Liberia, a plan is being 
implemented to consolidate and draw down the mission, measured against 
progress in building Liberian security institutions. The UN Security 
Council will consider possible further reductions. In Cote d'Ivoire, 
progress of implementing a peace agreement should open the possibility 
of an eventual drawdown; and in the Congo, we expect a gradual 
reduction as national forces assume roles and political, 
reconstruction, and military benchmarks are achieved.


    Question 16. What is the Administration's rationale for proposed 
reductions in assistance to Armenia, despite increased levels of 
support for several neighboring countries?

    Answer. Within the FY 2009 assistance request for Eurasia, funding 
is prioritized to help the most reform-oriented countries in the 
region--Georgia, Ukraine, and Moldova--by promoting economic and energy 
independence, helping to diversify export markets, and improving 
democratic governance in the face of increasing Russian economic and 
political pressure. Other priorities for the region include democracy 
programming in Russia and elsewhere and opportunities to promote reform 
in Turkmenistan and the rest of Central Asia.
    Excluding the funding Armenia receives as part of its $235.65 
million Millennium Challenge Corporation (MCC) Compact, the 
Administration's FY 2009 request for Armenia totals $27.9 million. 
While funding for the Eurasia region as a whole has declined sharply 
over the last several fiscal years, reductions to the Armenia budget 
have not declined as drastically. The reduced request for FY 2009 does 
not detract from the critical importance of Armenia to U.S. interests 
nor does it signal a change in U.S. policy. Rather, the request level 
meets the country's development needs and is appropriate within the 
context of assistance priorities within the region and around the 
globe. Armenia has made real progress on reversing rural poverty; 
nevertheless, the government's commitment to reform is not as strong as 
others in the region and the country still struggles with rampant 
corruption and with weak democratic institutions, as illustrated by 
recent events.
    Within the Caucasus, the Administration's request prioritizes 
funding for Georgia. Led by a Western-oriented government under 
increasing pressure, U.S. assistance is intended to help Georgia 
consolidate its democratic, economic, and social reforms, address rural 
poverty, encourage the peaceful resolution of its separatist conflicts, 
and strengthen Georgia's economy while decreasing its dependence on 
Russia as an export market and for energy resources. The FY 2009 
request for Georgia ($67.1 million) is a five percent increase over FY 
2008 enacted levels.


    Question 17. As U.S. assistance to Europe and Eurasia has declined 
in recent years, many nations in the region have experienced a 
breakdown in democracy and the rule of law. Despite this trend, the 
Administration's budget proposes further drastic cuts in assistance to 
the area. How does the Administration justify these cutbacks, 
particularly in view of the President's rhetoric about the importance 
of democracy promotion?

    Answer. Within the Europe and Eurasian region, FREEDOM Support Act 
(FSA) and Support for East European Democracy (SEED) Act funding for FY 
2009 is prioritized to:

   advance reform in countries that have faced Russian pressure 
        (Georgia, Moldova, Ukraine);

   support democracy and rule of law in Russia and elsewhere;

   address concerns about the final status of Kosovo and its impact on 
        the region; and

   promote needed reforms in Central Asia and linkages between Central 
        and South Asia.


    In the Europe and Eurasian region, challenges to democracy and rule 
of law remain most serious in countries in the former Soviet space. 
From 2006 to 2007, democratic reforms and freedoms improved in only two 
of the countries and regressed in five. Reforming governments have had 
difficulty consolidating the democratic breakthroughs of 2003-2005. 
Reflecting these challenges, the Administration's FY 2009 FSA request 
for the Governing Justly and Democratically (GJD) program objective 
remains the largest of all five program objectives at over $137 
million. While this year's request represents a decline from the FY 
2008 enacted level, we believe that the Administration's FSA request 
for GJD programming is appropriate and reflects the needs of the region 
given progress made by some of the Eurasian countries in promoting 
reform, and increased reliance on self-sustaining NGOs and legacy 
grant-making institutions to support democratic reform, particularly in 
Russia.
    As FSA resources decline, the Administration's request for FY 2009 
continues to prioritize FSA-funded GJD programming, directing support 
to beleaguered democracy activists and advancing democratic openings 
where they exist. As a statement of Administration priorities, the FSA 
request for GJD assistance is nearly $10 million higher than last 
year's request and funding for these programs is increasing as a 
percentage of the total FSA, up to 42 percent in FY 2009. In addition, 
relative to the Administration's FY 2008 request for FSA-funded GJD 
programming, the GJD request in FY 2009 has significantly increased 
support for GJD programs to support civil society and media 
organizations, including in Georgia and Ukraine. A strategic eight-fold 
increase in Central Asia regional GJD programming will help promote 
access to independent media in the region and a 30 percent increase in 
democracy assistance to Turkmenistan will help take advantage of 
openings to promote reform there.
    For Russia, while this year's GJD request is a decrease from the FY 
2008 enacted level, the Administration has requested a total of $30.3 
million for the programs in FY 2009, an increase of over $4 million 
from last year's request. These funds will be used to broaden support 
for Russian independent media and civil society, including NGO watchdog 
organizations such as human rights groups, as they face increasing 
political pressure. Programs will also strengthen political, civil and 
justice sector institutions that reinforce democratic principles and 
the rule of law. The FY 2009 request level also takes into account the 
resources of the U.S.-Russia Foundation for Economic Advancement and 
the Rule of Law (the U.S.-Russia Investment Fund or TUSRIF legacy 
foundation), which will have over $180 million at its disposal to 
support development in Russia, including the rule of law and the free 
flow of information through its grant-making and other activities.
    Reflecting the important work still needed to promote democracy in 
the countries of South Eastern Europe, the FY 2009 SEED request for the 
GJD program objective remains robust at $79 million. As a percentage of 
the overall SEED budget, GJD assistance declines modestly in FY 2009 
compared with FY 2008 enacted levels, from 32 percent in FY 2008 to 29 
percent in FY 2009. There are several factors that explain this 
decline:


   A decrease of slightly more than $5 million in Kosovo GJD 
        assistance accounts for approximately half of the decline in 
        SEED GJD assistance from FY 2008 to FY 2009; this decrease 
        reflects a return to a more sustainable annual level of 
        transition assistance following a ``spike'' in requested 
        resources in the FY 2007 Emergency Supplemental and the FY 2008 
        budget request. This ``spike'' was aimed at providing direct 
        support for a successful settlement of Kosovo's status.

   The SEED request continues to give high priority to Economic Growth 
        in order to create needed jobs, promote economic 
        diversification, repay World Bank debt for Kosovo, and 
        integrate the region with the world economy, decreasing EG 
        funding in the request by 1 percent compared with the FY 2008 
        enacted level. Economic progress and prosperity continue to be 
        critical factors in checking extreme nationalism, radicalism, 
        and anti-reform sentiment in Eastern Europe.

   Progress made on democratic reforms and freedoms in the countries 
        of South Eastern Europe over the last several years, if 
        somewhat uneven, allows for the Administration to focus SEED 
        funding to assist reform in sectors in which SEED-funding 
        recipients remain fragile and, in the case of Kosovo, to stand 
        up new governance structures and procedures.

   To maintain robust security relationships with the countries of 
        South Eastern Europe and assist their integration into NATO, 
        the Administration's FY 2009 request responds to a decrease in 
        FMF funding allocated to the region by increasing Peace and 
        Security assistance by 5 percent over the FY 2008 enacted 
        level; some of this assistance advances respect for the rule of 
        law through law enforcement reform.


    Regional programs also play an important role in furthering 
democratization. One of our key tools for the promotion of democracy, 
human rights, and the rule of law throughout Europe and Eurasia is the 
Organization for Security and Cooperation in Europe (OSCE). The OSCE 
enables the United States to advance these interests effectively in 
concert with our friend and allies, with shared costs. In addition to 
FSA and SEED funding, other U.S. resources are being used to support 
democracy in Europe and Eurasia. For example, Millennium Challenge 
Account (MCA) resources leverage the impact of other U.S. assistance in 
strengthening democracy and good governance, with three countries 
holding Threshold Programs (Ukraine, Moldova. and Albania) and one soon 
to sign a Threshold Program (Kyrgyz Republic). These programs 
supplement SEED and FSA assistance by helping to fight corruption, 
increase government transparency, and strengthen civil society watchdog 
capacity. U.S. resources continue to be used to leverage other donor 
funding and to establish legacy institutions that support civil 
society, the rule of law, and the transfer of knowledge about democracy 
throughout the region (e.g., the New Eurasia Foundation in Russia, the 
Eurasia Foundation of Central Asia, the Black Sea Trust for Regional 
Cooperation, and the Balkan Trust for Democracy).


    Question 18. There are reports of growing frustration in Iraq in 
the ranks of former Sunni insurgents to whom we are providing monthly 
payments of $300. They want to be integrated into the Iraqi government 
and security forces, but the central government is balking, 
particularly in mixed areas close to Baghdad. The situation is said to 
be so bad that our military has started developing plans to create a 
depression-era style civil job corps. ?What are the consequences of the 
Iraqi government failing to hire these ex-insurgents, or ``Concerned 
Local Citizens'' as they are called by our military? What are we doing 
to increase their hiring and integration?

    Answer. The Concerned Local Citizen program represents an important 
element of current Iraqi and Multi-National Forces--Iraq security 
efforts; this program has recently been renamed the Sons of Iraq (SOI) 
program. Through the SOI program, members of communities, including 
former insurgents, work with Coalition and Iraqi forces to improve 
security and economic conditions at the local level. This program is 
estimated to currently have approximately 91,000 volunteers and 
enhances the ability of Iraqi and Coalition forces to interact with 
local residents and obtain information on insurgents and illegal 
militia activity, and protect key infrastructure. The GoI leadership 
has made public statements lauding the contribution of SOIs to improved 
security. The SOI effort is crucial to the counterinsurgency effort and 
will require continued support.
    The long-term goal of the SOI program is to transition 
approximately 20-25% of the SOI members into the Iraqi Security Forces 
(ISF) as police or army personnel. The remaining members will 
eventually transition into other public or private sector education or 
employment. To date, close to 20,000 have transitioned to the ISF or 
civil employment. The GOI has supported the integration of more than 
9,000 former SOI members into Iraqi forces in Baghdad alone. 
Approximately 19,000 additional members of SOI groups have expressed 
their desire to join the Iraqi forces and they await an expansion of 
the government's integration and training programs.
    The Iraqi and U.S. Governments are also jointly funding multiple 
private employment and joint technical education programs focusing on 
SOI members and former detainees. For example, the Coalition is teaming 
with the GoI to implement a new technical training and employment 
program entitled the Joint Technical Education and Reintegration 
Program (JTERP). This program consists of vocational training, on-the-
job training and job placement for Iraqis, with priority going to 
former SOIs and recently released detainees. JTERP is a collaboration 
of efforts among multiple ministries to include the Ministry of Labor 
and Social Affairs, Ministry of Higher Education, Ministry of 
Education, and Ministry of Industry and Minerals, as well as the 
Disarmament, Demobilization and Reintegration Committee.


    Question 19. As you know, whether the recently passed de-
Ba'athification law promotes healing or further division depends upon 
how it is implemented. According to some voices, such as Dr. Chalabi, 
who has been closely associated with De-Ba'athification, the law will 
actually lead to the expulsion of more than 7,000 individuals from key 
government jobs. What steps are you taking to ensure that the de-
Ba'athification law has a positive, rather than a negative, impact?

    Answer. Since the issuance of the De- Ba'athification Order under 
CPA in 2003, many Sunni Arabs have perceived the de-Ba'athification 
process as opaque and politicized. However, in the last few months, 
several key laws have been passed that together will help address Sunni 
Arab concerns.
    In December, the Council of Representatives (CoR) passed amendments 
to the Unified Pension Law, which, among other things, restores pension 
rights to former civil servants and military officials without regard 
to former party affiliation. In January, the CoR passed an amnesty law, 
which sets provisions by which Iraqis held in detention facilities, the 
majority of whom are Sunni Arabs, can be released. Also in January, the 
CoR passed the Law on Accountability and Justice, which reforms the de-
Ba'athification process by allowing some former mid-level party members 
back into government employment and by establishing an appeals 
procedure. These three laws are necessary for national reconciliation, 
and passage of these laws shows that Iraqis are committed to work 
together in building the new Iraq.
    As you note, effective implementation of the Accountability and 
Justice Law is vital to broad Iraqi support for the de-Ba'athification 
process. Although the law provides basic rights to those it affects, 
the regulations and procedures to implement it will determine its 
political effect.
    Before any action under the law can be taken, the GOI must create a 
commission, which will then establish the new de-Ba'athification 
process and select judges for the appeals committee. We are encouraging 
the GOI to create the commission as soon as possible and, in a spirit 
of reconciliation, show the Sunni Arab community that the government is 
committed to reforming the de-Ba'athification process.
    Additionally, one section of particular concern requires that all 
former employees of Ba'ath-era security and intelligence agencies be 
dismissed from government employment, regardless of whether they were 
party members. We are encouraging the GOI to consider issuing 
exemptions for all those individuals who would be terminated because 
they worked in the former security apparatus if they have been working 
since the establishment of the current government, without incident, to 
help rebuild Iraq.
    Although there is some ambiguity in the language that needs to be 
clarified, and on which the Presidency Council has been working, 
passage of the Accountability and Justice Law has shown that Iraqis are 
able to compromise on important legislation. The Presidency Council is 
also reviewing the law, and may seek amendments to further refine and 
clarify the legislation.


    Question 20. What is the process for obtaining additional 
international sanctions against Iran if it continues to fail to halt 
its uranium enrichment and plutonium production activities? When would 
you anticipate a fourth UN Security Council resolution? What elements 
are in the third resolution? What separate sanctions will Europe 
consider? What understandings do you have with Russia and China?

    Answer. The Council clearly expressed its intention in UN Security 
Council resolution 1747 to consider the adoption of further appropriate 
measures under Article 41 of Chapter VII of the UN Charter if the IAEA 
Director General's report showed that Iran had failed to comply with UN 
Security Council resolutions 1737 and 1747. The Director General has 
reported three times since the adoption of that resolution in March 
2007 that Iran has failed to do so.
    The Foreign Ministers of China, France, Germany, Russia, UK, and 
the United States (P5+1) reached agreement on the elements of a third 
UNSC sanctions resolution on 22 January 2008 in Berlin. France and the 
UK shared the draft resolution with the full Council on 5 February 
2008. The Council has been engaged in negotiations on the resolution in 
New York for the past several weeks. We expect the Council will adopt 
the resolution soon.
    Pursuant to the standing P5+1 strategy of incremental escalation of 
sanctions on Iran until it meets its Security Council obligations, the 
draft resolution increases the severity of existing sanctions and 
expands upon the previous two UNSC sanctions resolutions (UNSC 
Resolutions 1737 and 1747). Key provisions include a travel ban, a ban 
on transfers to Iran of all dual use items controlled by the Nuclear 
Suppliers Group, and calls for inspecting cargo, limiting export 
credits and monitoring activities of financial institutions. The 
resolution is the product of intense negotiations between the members 
of the P5+1 and is a clear signal to the Iranian regime that the P5+1 
are united in ensuring that Iran complies with its UNSC obligations.
    On next steps, the draft resolution includes a request for a report 
from the IAEA Director General within 90 days on whether Iran has 
complied with its obligations. The Council will review the report and 
if it shows that Iran has not complied, the Council expresses its 
intention to adopt further measures under Chapter VII to persuade Iran 
to comply. UNSC sanctions are part of our dual track strategy to 
clarify to Iran's leaders the consequences of its continued 
noncompliance, while also keeping open the door to direct negotiations.
    It is our understanding that the European Union is waiting for the 
Council to adopt the third sanctions resolution before adopting 
additional sanctions on Iran outside the UNSC framework. We will urge 
the EU both to implement the provision in the new resolution as quickly 
as possible and to move forward with complementary, autonomous 
sanctions.
Update to take into account recent developments:
    On 22 February 2008, the IAEA Director General reported that Iran 
is continuing to fail to comply with its UN Security Council 
obligations and calls by the IAEA Board of Governors to suspend all 
proliferation sensitive nuclear activities, including enrichment-
related activities, and has not undertaken full and complete 
transparency with the IAEA. This is particularly the case with respect 
to full disclosure by Iran of past nuclear weaponization-related 
activities described in an extensive body of Iranian-origin 
documentation made available to the IAEA. The IAEA has concluded that 
full disclosure by Iran is ``critical to an assessment of a possible 
military dimension to Iran's nuclear program.'' After allowing for time 
to review and consider the IAEA Director General's report, the Council 
adopted UNSC sanctions resolution 1803 on 3 March 2008 by a vote of 14-
0 with one abstention (Indonesia).
    While we regret the necessity, we are very pleased that the Council 
acted for a third time to impose legally-binding Chapter VII sanctions 
on Iran for its failure to comply with the Council's demands. The 
Council's actions, and the high level of support for this third 
sanctions resolution, reflect the international community's profound 
concerns over Iran's nuclear program. While the international community 
waits for Iran to make the strategic decision to comply with its 
international nonproliferation obligations, we will focus our efforts 
and attention on the robust implementation of the provisions of 1737, 
1747, and 1803.
    As stated in the P5+1 Ministers Statement of March 3, the P5+1, 
including Russia and China, remains committed to an early negotiated 
solution to the Iranian nuclear issue and a dual-track approach. We 
have asked Dr. Javier Solana, the European Union's High Representative 
for Common Foreign and Security Policy, to meet with Dr. Saeed Jalili, 
Secretary of Iran's Supreme National Security Council, to create the 
conditions for negotiations. We have also reiterated our commitment to 
the proposals included in the generous June 2006 P5+1 incentives 
package, which remains on the table. The Secretary's historic offer to 
sit down with her Iranian counterpart, at any time and any place to 
discuss any issue, once Iran has fully and verifiably suspended its 
uranium enrichment-related and reprocessing activities--also remains on 
the table.
    It is our understanding that the European Commission has completed 
draft language to implement UNSCR 1803, which will now have to make its 
way through the formal EU approval process prior to final adoption at a 
Ministerial level meeting. We hope that EU ministerial level adoption 
of UNSCR 1803 will take place in April. We will continue to urge the EU 
both to implement UNSCR 1803 as quickly as possible and to move forward 
with complementary, autonomous sanctions.


    Question 21. How detailed of a peace treaty do you expect the 
Israelis and Palestinians to achieve this year? Is the aim a general 
framework agreement or a more detailed treaty? How quickly could such a 
peace treaty be implemented?

    Answer. Prime Minister Olmert and President Abbas agreed at the 
Annapolis Conference that they would make every effort to conclude a 
peace agreement before the end of 2008. The nature and level of detail 
of that agreement depends on the parties' own intentions as well as 
their ability to bridge the gaps that remain on the core issues. Their 
negotiations are proceeding, and the fact that both parties have kept 
the details of these talks secret should be seen as a sign of their 
seriousness.
    At Annapolis the leaders also agreed that implementation of a peace 
agreement would be subject to implementation of the Roadmap. We are 
encouraging more rapid progress by both parties in fulfilling their 
commitments under the Roadmap, and we have named LTG William Fraser III 
to monitor and promote progress in this area. Exactly how long it will 
take to implement any agreement reached is unclear and will depend on 
the efforts and commitment of both Israel and the Palestinians, as well 
as the continuing and expanded support of the international community 
in the areas of capacity building, reform, and economic growth. A vital 
element to implementing a peace agreement will be the commitment and 
performance of the PA fighting terrorism. We are already working with 
the PA to train, reform, and professionalize its security forces and we 
plan to continue and expand that effort, including with other donors.


    Question 22. In the spring 2007 war supplemental the administration 
requested, and Congress provided, $220 million in Foreign Military 
Financing for training and equipment for the Lebanese Armed Forces. But 
by the end of September, less than one percent of those funds had 
actually been spent. Committee staff has been told that part of the 
reason for the delay is that it took a long time to actually develop a 
request that the United States could work with. How much of the $220 
million in supplemental funds to train and equip the Lebanese Armed 
Forces have been spent? What steps has the United States Government 
taken to improve the ability of the Government of Lebanon to request 
training and equipment from those funds, to ensure that they can take 
advantage of our assistance in a timely and effective manner? What 
additional steps might be needed?

    Answer. The Lebanese Armed Forces (LAF) has programmed the entire 
$220 million in Foreign Military Financing to purchase ammunition, 
equipment, and training. Cases totaling $95 million are under 
development, and $11 million has been committed thus far. This pace 
reflects: (1) the LAF began only in late 2006 to re-learn USG security 
assistance procedures following over a decade of Syrian occupation; (2) 
Embassy Beirut's Office of Defense Cooperation needed to boost staff 
levels to handle the enormous growth in our security assistance 
relationship; and (3) nearly all LAF procurements (save for emergency 
ammunition supplies) were interrupted by the conflict in the Nahr al-
Barid refugee camp in the summer of 2007. All of these challenges have 
now been overcome.
    Ongoing USG security assistance engagement will continue to help 
the LAF specify and articulate defense requirements, facilitating the 
processing of Foreign Military Sales cases and speeding the expenditure 
of funds. In early 2008, a contractor-led survey team provided an 
assessment of LAF needs, and, in the wake of Under Secretary of Defense 
Eric Edelman's February visit to Beirut, U.S. officials will meet 
Lebanese counterparts in the first mid-level security assistance review 
since 1996.
    As Lebanon's political situation permits, we will continue our 
bilateral political-military discussions with the LAF. Our goal will 
remain to better gauge its needs in coming months and help the 
Government of Lebanon develop a national strategy to develop and 
professionalize its security forces to face the challenge of foreign 
interference in its internal affairs and lingering threats from 
militant groups operating within the country's borders.


    Question 23. The budget for the Department requests a total of 
1,543 new positions, including 448 of which would be funded by fees. 
Assuming that all requested funds are provided, how quickly do you 
expect to be able to hire for these additional positions?

    Answer. If approved and funded by Congress, the Department will 
immediately begin the process of recruiting and hiring qualified 
personnel to fill the 1,543 positions requested in the FY 09 budget. 
This type of surge is not unprecedented. In 2002, the Department 
brought on more than 900 new employees, including 360 Foreign and Civil 
Service Officers as part of the Diplomatic Readiness Initiative, 51 IT 
security professionals, 12 positions devoted to Counterterrorism, 98 
fee-funded Border Security positions, and 389 security personnel funded 
by the Worldwide Security Upgrades account. And just last year, more 
than 500 permanent Civil Service personnel were hired to handle the 
surge in passport demand. The Department rose to the task in 2002 and 
2007, and we will do so again if Congress approves the much needed 
positions in our FY 09 budget.
    The 1,543 new positions in the FY 09 budget request are split 
between Foreign Service positions and Civil Service positions. For the 
new Foreign Service positions, the Department will rely on the faster, 
redesigned Foreign Service intake process that was introduced in 
September 2007. The new online Foreign Service Officer Test will be 
offered three times a year, rather than just once or twice, and the 
time between the test and the oral assessment will be significantly 
reduced. Utilizing this new system, the Department can hire the 
approximately 820 Foreign Service positions out of the 1543 in the FY 
09 request.
    The approximately 720 Civil Service positions requested in the FY 
09 budget will be advertised on the www.USAjobs.gov website and hired 
by the relevant bureaus or offices, including passport agencies across 
the country. Recent efforts to consolidate the Department's HR services 
into more efficient shared service centers should speed up the process 
of advertising, vetting, and hiring these new Civil Service personnel. 
We are confident in our ability to attract and bring on board qualified 
new employees.


    Question 24. What has been the level of attrition for the past two 
fiscal years (FY 2006 and FY 2007) in the Foreign Service, by grade?

    Answer. Foreign Service attrition levels for fiscal years 2006 and 
2007 were as follows:

    Foreign Service Attrition Levels for Fiscal Years  2006 and 2007
------------------------------------------------------------------------
                                                       FY 2006   FY 2007
------------------------------------------------------------------------
CM..................................................         5         3
MC..................................................        51        57
OC..................................................        45        31
FS-1................................................        87       103
FS-2................................................        97        93
FS-3................................................        58        69
FS-4................................................       119        95
FS-5................................................        28        18
FS-6................................................        22        27
FS-7 and below......................................         1         2
------------------------------------------------------------------------
  Total.............................................       513       498
------------------------------------------------------------------------


    The numbers above represent an attrition rate of 4.4 percent (2006) 
and 4.6 percent (2007) for Foreign Service Generalists. The attrition 
rates for Foreign Service Specialists were 5.3 percent (2006) and 5.0 
percent (2007).Q02

    Question 25. What has been the level of attrition for the past two 
fiscal years (FY 2006 and FY 2007) in the Civil Service?

    Answer. Civil Service career full-time permanent attrition was 624 
in 2006 (8%) and 637 in 2007 (8%). The Department's Civil Service 
attrition rate is lower than the government-wide average, but is 
projected to increase over the coming years as more Civil Service 
employees reach retirement age.


    Question 26. Of the 20 new positions requested for public 
diplomacy, how many positions will be overseas and how many positions 
will be in domestic offices?

    Answer. At the time we prepared the FY 2009 budget submission, we 
planned on using 16 of the 20 new public diplomacy positions overseas 
and four in Washington. Although there might be a slight change in that 
plan during FY 2009, depending on the situation at that time, we do not 
anticipate a major change.


    Question 27. The CBJ indicates a more than 100 percent increase in 
``Presidential-Vice Presidential Travel Support between FY 2007 
($960,000) to FY 2008 ($2 million) (page 386 of FY 2009 CBJ). What are 
the reasons for such a large increase?

    Answer. The Department provides funding for Presidential and Vice 
Presidential travel support from a number of sources, including funds 
provided to the Bureau of Administration. The amount allocated for 
Presidential-Vice Presidential Travel Support is funded from D&CP 
public diplomacy funds and contributes to travel expenses for personnel 
who deliver the US Government message abroad in connection with travel 
of the President and Vice President. D&CP funds allocated for White 
House Travel, also within the Bureau of Administration, are used to 
support other White House travel activities.
    The FY 2008 estimates for these two activities are currently being 
revised to reflect the increase in travel planned for the President and 
Vice President in FY 2008 compared to FY 2007.


    Question 28. What is the backlog of FOIA cases as of October 1, 
2007? What is the average length of time a request has been pending?

    Answer. The Department's backlog on October 1, 2007 was 3,430 
cases. During Fiscal Year 2007, the median number of days a valid, 
active case had been pending was 226 days. In that same time span, the 
Department processed fast track cases in a median of 67 days, routine 
and complex requests in a median of 212 days, and expedited cases in a 
median of 41 days.


    Question 29. The budget requests $17.6 million to consolidate DS 
training at a single facility. How will a site for this facility be 
chosen? What are the requirements? What is the expected timeline for 
decision? Please provide a more detailed breakdown of the costs 
associated with this request.

    Answer. The requirement for a dedicated Diplomatic Security (DS) 
consolidated training center in the D.C. area has existed for more than 
10 years. DS currently trains personnel in more than 15 locations 
throughout Northern Virginia, Maryland, and West Virginia. DS resources 
are already stretched to the limits, and the mission is growing.
    DS provides training in law enforcement, personal security, attack 
recognition, weapons of mass destruction (WMD), Anti-Terrorism 
Assistance, and other specialized training for Department of State 
employees and dependents, other U.S. government agency personnel, and 
our foreign partners. Specialized training, especially the ``hard 
skills'' training, such as weapons, counter-threat driving, defensive 
tactics, and high-threat protection, requires suitable driving tracks, 
firearms ranges and adequate facilities. The current Diplomatic 
Security Training Center (DSTC) does not accommodate the volume of 
students or provide the infrastructure necessary to meet these 
specialized requirements. Consequently, DS must currently utilize 
multiple sites encompassing three states.
    Among the courses that DS administers is the Foreign Affairs 
Counter Threat (FACT) Course. This training is essential for all 
Foreign Service Officers and other U.S. government personnel preparing 
for deployment to critical and high threat posts around the world, 
including Iraq, Afghanistan and Pakistan. Conducting this training 
outside of driving range of the D.C. area is impractical due to the 
expensive travel and housing costs associated with the heavy volume of 
USG employees that require FACT training prior to deployment overseas. 
A consolidated facility would be capable of incorporating all of the 
necessary hard and soft skills training, physical fitness, classroom 
instruction, administrative functions and housing in to one location.
    DS plans to identify acceptable property no later than the end of 
FY 2009. It is estimated that funding in the amount of $17.6 million 
will be required to fund an architectural and engineering study and to 
make the initial land procurement. In furtherance of these efforts, the 
Bureau of Diplomatic Security, in conjunction with the State 
Department's Office of Real Property Management and GSA, intends to 
conduct a requirements analysis and search for property that would 
accommodate all DS tactical and technical training needs. The base 
requirement is for rural property, within a 100-mile radius of 
Washington, where firearms, explosives, and high-speed driving training 
can occur without the threat of encroachment.
    In the interim, and to meet current requirements while the search 
for a consolidated facility continues, DS has established a temporary 
training facility at Summit Point, West Virginia.


    Question 30. Why is funding for Blair House renovation divided 
between Protocol and the Bureau of Administration?

    Answer. The Blair House serves multiple functions and relies on 
resources from several accounts that have the authority to provide 
funds for those activities. These include:


   Diplomatic and Consular Programs (D&CP) Bureau of Administration 
        (A): Lease payments, operations and maintenance, utilities and 
        minor facility renovations and repairs.

   D&CP Office of the Chief of Protocol (CPR): Household expenses, 
        operations and maintenance related to official visitors.

   Emergencies in the Diplomatic & Consular Service (K Fund): 
        Representational expenses

   General Services Administration (GSA): Capital improvements--
        structural repairs and stabilization

   Blair House Restoration Fund: Decor


    Question 31. What has been the amount expended to date for the 
SMART initiative (State Messaging and Archive Retrieval Toolset)? The 
CBJ indicates that in FY 2008, deployment to 12 pilot posts and 
selected domestic bureaus will be initiated. How many domestic bureaus? 
Has deployment begun and is it on schedule?

    Answer. The planned budget to date is $51.2 million. SMART is 
currently within budget, with actual spending of $49.6 million.

              Funds Expended to Date for the State Messaging and Archive Retrieval Toolset (SMART)
                                                (in U.S. dollars)
----------------------------------------------------------------------------------------------------------------
                                                                 Planned           Actual           Remaining
----------------------------------------------------------------------------------------------------------------
FY 07.....................................................      $38,234,520       $38,234,520                $0
FY 08.....................................................      $53,692,883       $11,368,281       $42,324,602
FY 09.....................................................      $36,329,000                $0       $36,329,000
----------------------------------------------------------------------------------------------------------------

    SMART will be piloted in three domestic bureaus: one functional 
bureau, one regional bureau, and the IRM bureau itself.
    Deployment of Instant Messaging was completed April 2007, on 
schedule. Deployment of SharePoint (MOSS 2007), a centrally-hosted 
collaboration tool, is underway. Pilot I for SMART Messaging 
(integrating cables, e-mails, and memos)--conducted in Belgrade, 
Stockholm, and Muscat--was successfully completed January 2008, on 
schedule.
    Pilots II and III, beginning, respectively, in September and 
December 2008, will constitute the first wave of deployment, as SMART 
will permanently replace legacy messaging systems at the 12 pilot posts 
and 3 domestic bureaus. The initiation of worldwide deployment of SMART 
Messaging will be delayed by six months to satisfy all requirements and 
ensure system integrity. However, if the pace of the roll out is 
accelerated, deployment could be completed by September 2009, on 
schedule.


    Question 32. The CBJ indicates that the ``network of passport 
facilities will be expanded to accommodate'' new hires. Yet the request 
of $40.4 million is $23.7 million below the FY 2008 estimate. Why is 
there such a sizable reduction in the request?

    Answer. We made reductions to our facilities budget estimates for 
FY 2008 because of the following:


   Actual costs for renovations to existing spaces, and build-outs for 
        new ones, were 52 percent less than previous estimates;

   Acquisition of leases on new office space for field offices was 
        deferred to FY 2009; and

   Telecommunications costs attributable to the acquisition of new 
        office space were also deferred to FY 2009.Senator Joseph 
        Biden, Jr. (#33)


    Question. Two years ago, on January 18, 2006, in your speech on 
Transformational Diplomacy, you described a repositioning of officers, 
stating that ``over the next few years the United States will begin to 
shift several hundred of our diplomatic positions to new critical posts 
for the 21st century. We will begin this year with a down payment of 
moving 100 positions from Europe and, yes, from here in Washington, 
D.C., to countries like China and India and Nigeria and Lebanon, where 
additional staffing will make an essential difference.'' Since that 
speech, through FY 2007, how many positions have been shifted, by 
region?

    Answer. I initiated the Global Repositioning (GRP) process in 
autumn 2005 as part of my Transformational Diplomacy initiative. Over 
three rounds of GRP, we have approved the realignment or creation of 
201 Foreign Service positions overseas, among six regional areas, by 
reallocating positions and implementing other management reforms. The 
Foreign Service Officers who fill these positions conduct 
transformational diplomacy through public outreach, increased 
cooperation with military combatant commands, and by establishing a 
U.S. presence in population centers outside of capitol cities. The 
regions of East Asia & Pacific (EAP), South Central Asia (SCA), and 
Near East & Northern Africa (NEA) have been allotted the most new 
positions, with our missions in India and China receiving the largest 
staffing increases. We have effectively repositioned one-tenth of all 
of our political, economic and public diplomacy officers overseas 
through the GRP process.


    The chart below reflects the distribution of all 201 positions as 
well as the number of overseas positions in each region which were used 
to offset the creation of the GRP positions.

                       Distribution of Positions Used to Offset Creation of GRP Positions
----------------------------------------------------------------------------------------------------------------
                          Region                                 Created        Reprogrammed        Net Total
----------------------------------------------------------------------------------------------------------------
AF........................................................               24                 6                18
EAP.......................................................               50                19                31
EUR.......................................................               21                59               -38
IO........................................................                0                 2                -2
NEA.......................................................               32                 3                29
SCA.......................................................               47                 5                42
WHA.......................................................               27                16                11
----------------------------------------------------------------------------------------------------------------
  Subtotal................................................              201               110                91
----------------------------------------------------------------------------------------------------------------



    Question 34. In comparing FY 2006 data to the request in FY 2009 
(in the D & CP budget only), the transformation in the geographic 
bureaus has been relatively modest in all of them except EUR (lost 120 
positions) and SCA (gained 133 positions). The shift in other bureaus 
has been minor or nonexistent (e.g., WHA lost one position in this 
period, while EAP gained one position). Do you believe the 
transformation is accomplishing its purpose, and if so, why?

    Answer. Global Repositioning (GRP) has been very successful in 
supporting the Secretary's transformational agenda through the 
wholesale reprogramming of resources to missions overseas facing high 
priority policy challenges. Over two years, three phases of GRP have 
resulted in the effective redistribution of 10 percent of the 
Department's collective overseas base of Political, Economic, and 
Public Diplomacy positions. Our missions in China and India were 
greatly strengthened to manage the pressing transformational problems 
which we faced in those countries. Beyond that, a significant number of 
mid and smaller sized missions in virtually all areas of the world, 
including Indonesia, UAE, Nigeria, and Venezuela, among others, 
received increases in Foreign Service staffing to address specific 
transformational challenges that have arisen in the last several years. 
This was largely accomplished by the reprogramming of resources 
principally from Washington, DC, as well as from our embassies in 
Europe.
    The FY 2009 budget reflects the implementation of the first two 
phases of Global Diplomatic Repositioning, as decisions on the third 
phase were made after the FY 2009 budget went to press. Within the 
bureau totals there are also shifts between domestic and overseas 
positions. In addition, the comparison between FY 2009 and FY 2006 
reflects the transfer of five posts (Kazakhstan, Kyrgyzstan, 
Tajikistan, Turkmenistan, and Uzbekistan) from EUR to SCA as part of a 
regional bureau reorganization.


    Question 35. In a press release issued on January 28, 2008, the 
President objected to Section 1222 of the FY 2008 National Defense 
Authorization Act (P.L. 110-181), which prohibits the obligation or 
expenditure of funds to establish ``any military installation or base 
for the purpose of providing for the permanent stationing of United 
States Armed Forces in Iraq'' or to ``exercise United States control of 
the oil resources of Iraq.''
    This is the first time the President has raised a constitutional 
objection to the provision, despite the fact that the same provision is 
found in two prior laws: Section 9012 of the FY 2007 Defense 
Appropriations Act (P.L. 108-289) and Section 1519 of the FY 2007 
Defense Authorization Act (P.L. 109-364).
    The basis of the President's objection to Section 1222 is unclear 
from the statement, which refers to four different provisions in the 
law to which the President says he has constitutional objections 
(sections 841, 846, 1079, and 1222). In a Statement of Administration 
Policy issued in relation to an earlier Senate version of the FY 2008 
Defense Authorization Act (S.1547) that included this same provision, a 
constitutional concern was raised with respect to the provision, but 
only with regard to the second paragraph, which prohibits the 
obligation or expenditure of funds to ``exercise United States control 
of the oil resources of Iraq.'' No objection was raised with respect to 
the first paragraph, which prohibits the obligation or expenditure of 
funds to establish ``any military installation or base for the purpose 
of providing for the permanent stationing of United States Armed Forces 
in Iraq.''
    Please clarify whether the objection raised with respect to Section 
1222 of the 2008 Defense Authorization Act by the President in his 
statement of January 28, 2008, is related only to Section 1222(2), or 
if the objection is relevant to Section 1222(1). In addition, please 
explain in detail the Executive Branch's constitutional concern with 
respect to either or both paragraphs of Section 1222, as appropriate.

    Answer. The United States is not seeking to establish or maintain 
permanent bases in Iraq. With respect to your specific question, the 
objection in question was addressed to Section 1222(2). As Attorney 
General Mukasey explained in a November 13, 2007 letter to Chairman 
Levin concerning the House and Senate versions of the National Defense 
Authorization Act for Fiscal Year 2008, section 1222(2) of the Act 
raises a constitutional concern to the extent that it purports to 
prohibit U.S. control over oil resources in Iraq in connection with 
U.S. combat operations. More specifically, the provision ``may 
impermissibly interfere with the President's constitutional authority 
as Commander in Chief to conduct and direct military operations in 
Iraq, because in combat operations, taking temporary control over a 
particular oil resource might be a tactical necessity.''

                               __________

                  Questions Submitted by Senator Lugar


    Question 1. I note that the Department's vacancy rate for its 
positions exceeds 18% for our missions overseas and exceeds 11% for 
positions in Washington. How far will your request, assuming it is 
filled in total this year, go towards correcting such a situation? How 
many of these positions will be security personnel for Baghdad to 
address the recent difficulties with contract security firms? If none, 
where will those positions, and how many, be funded from?

    Answer. NOTE: In the question above, the Department's domestic and 
overseas vacancy rates have been reversed. As of January 2008, the 
Department's overseas vacancy rate is around 11 percent and domestic 
vacancy rate is around 18 percent for a total of 13 percent overall.
    If approved and fully funded by Congress, the Department's FY 2009 
request for 1543 new positions (1095 from State Operations 
Appropriations and 448 fee funded positions under the Border Security 
Program) would significantly reduce the Department's overall vacancy 
rate. With the 300 new positions requested for language training, for 
example, the Department's overseas vacancy rate could be cut in half to 
approximately 6 percent. The overseas vacancies are the most important 
positions for the Department to fill at this time.
    The 300 language training positions would allow us to backfill 
overseas and domestic positions that are currently left vacant while 
Foreign Service officers take needed foreign language training. A March 
2007 study of the Department's training and personnel needs conducted 
by the State Department's Office of Resource Management and Analysis 
(HR/RMA) showed that around 240 new positions were required at that 
time to cover the number of personnel allocated to foreign language 
training slots without creating vacancies elsewhere. Since the 2007 
study, the number of language designated positions has increased even 
further, including positions requiring ``superhard'' languages, such as 
Arabic and Chinese, which generally require two years of training to 
reach a level of general professional proficiency.
    Many of the other new position requests in the FY 2009 budget would 
support important Department initiatives, such as the Civilian 
Stabilization Initiative, but would not reduce the current vacancy 
rate. These requests include 351 positions for the Civilian 
Stabilization Initiative, 20 new Public Diplomacy positions, 75 
positions to increase the number of State personnel who can attend 
military training institutions, 75 positions to support increased 
interagency exchanges and details, 200 positions for Worldwide Security 
Protection, 50 new positions to serve as Political Advisors to military 
commands, 19 positions for Educational and Cultural Affairs program 
increases, and five positions for Embassy Security, Construction and 
Maintenance. The 448 fee-funded positions under the Border Security 
Program will meet increasing requirements for visa and passport 
adjudicators and fraud investigations.
    The Department authorized a permanent increase in Baghdad staffing 
consistent with the staffing recommendations of the Secretary of 
State's Panel on Personal Protective Services in Iraq. This increased 
staffing includes 88 Special Agents and 13 contract positions overseas 
to implement both the Panel's recommendations and the December 2007 MOA 
with the Department of Defense. The additional personnel will provide 
staffing for contract oversight, a joint DoS/DoD investigative response 
unit, and other administrative positions.
Unbudgeted Costs of the Falling Dollar


    Question 2. The falling value of the dollar continues to put 
enormous pressure on the Department's budget, much of which must be 
paid in foreign currencies including the Pound, Euro and Yen. This 
resulted in costs of some $38 million in FY 08, money that was paid out 
of its overall budget.

    Was any funding budgeted in FY 2009 to cover such likely costs 
given the continued devaluation of the dollar?

    What figure is the Department using for FY 2009 for anticipated 
exchange rate losses?

    Answer. Our FY 2009 budget request incorporates exchange rate 
assumptions as of December 2007. It does not factor in exchange rate 
losses that will be incurred if the dollar continues to weaken over the 
coming year. Aside from the uncertainty of predicting exchange rates 
12-18 months in advance, releasing such a prediction could be 
misinterpreted by some observers as an official U.S. government 
forecast or policy.
    We are aware that some independent economic forecasters predict 
that the dollar's six-year slide is likely to continue. For example, 
according to the Global Insight forecasting firm, the dollar may 
decline another 8% vs. the euro over the next 12 months.
    Exchange rate losses cost the Department nearly $83 million in FY 
07 purchasing power and perhaps may cost twice that amount in FY 08. 
Such losses would overwhelm our limited tools to absorb exchange rate 
fluctuations. Prior to FY 2004, exchange rate losses were offset by the 
Buying Power Maintenance Account (BPMA), at the account had over $16 
million at the beginning of FY 2003. During FY 2003 and FY 2004, 
exchange rate fluctuations resulted in the total depletion of the 
account. In the absence of appropriated funding to replenish the BPMA, 
the Department is seeking legislation that would allow the Department 
to utilize expired funds to more quickly replenish this fund. Greater 
flexibility to sweep unobligated expired balances from D&CP and related 
accounts could significantly enhance our ability to replenish the BPMA 
up to its $100 million ceiling.
PEPFAR


    Question 3.  (a) This Congress worked hard to increase funding core 
health programs, especially in the areas of maternal and child health 
in FY 08. I was dismayed to see that the FY 09 budget request for the 
Child Survival and Health Fund faced a decrease of 14 percent from the 
FY 08 enacted level and a decrease of 9 percent from the FY 07 enacted 
level.

    (b) Can you explain where the cuts occurred and why?

    Answer. (a) The President's Child Survival and Health (CSH) budget 
request for FY 2009 is $1.58 billion, a slight increase from the FY 
2008 request of $1.56 billion. It represents a 14 percent reduction 
from the FY 2008 estimated level of $1.83 billion.
    Within a constrained budget, the CSH level still represents about 
30 percent of all program funds appropriated to USAID--making it 
USAID's largest single sectoral program. The USG clearly remains the 
largest donor for health assistance and retains its leadership status 
in this sector.

    (b) The requested levels for FY 2009 were equal to or higher than 
the requested levels in FY 2008 for all CSH elements except Avian 
Influenza and Malaria. A lower request for Avian Influenza (AI) funding 
in FY 2009 was enabled by building stockpiles of commodities to combat 
AI. Funds requested for Malaria in FY 2009 are above the FY 2008 
estimate (by $28 million) to restore funding to the level requested in 
FY 2008 and ensure meeting the goals of the Presidential Malaria 
Initiative.
    Severe funding constraints led to difficult choices on how to 
address health assistance. The FY 2009 request is less than the FY 2008 
estimate for Family Planning and Reproductive Health (by $90 million), 
Maternal and Child Health (by $77 million), Avian Influenza (by $65 
million), Tuberculosis (by $57 million), HIV/AIDS (by $5 million), and 
Vulnerable Children (by $5 million).


    Question 4. The FY 09 budget request for the Global HIV/AIDS 
Initiative account includes a line item request for ``partnership 
compacts.''
    Can you elaborate further on what this assistance will be used for? 
Are you planning on moving towards the compact approach for FY 09?

    Answer. We plan to move forward on Partnership Compacts in FY 09. 
Reflecting the paradigm shift from a `donor-recipient' relationship to 
one of partnership embodied by PEPFAR, the U.S. Government will work 
with host governments to develop Partnership Compacts based on mutual 
trust and respect with obligations and responsibilities for all 
partners. Compacts will be pursued with countries with significant HIV/
AIDS burdens in which the U.S. Government has a well established on-
the-ground presence and where U.S. Government resources would play a 
substantial role and have a comparative advantage in the fight against 
HIV/AIDS.
    A country's progress on financial or policy parameters will not be 
a pre-condition for developing a Compact, and continued efforts in 
countries currently receiving resources will not be conditioned on 
Compacts. Rather, Compacts will serve as a framework for moving forward 
together to save as many lives as possible with the resources that are 
available. Compacts will be structured to promote deeper integration of 
HIV/AIDS services into health systems, seeking to promote 
sustainability by ensuring that HIV/AIDS programs build capacity and 
benefit health systems overall.
    Additional PEPFAR resources under Compacts will not necessarily be 
provided through governments, but will be provided in support of multi-
sectoral national HIV/AIDS plans. Compacts must be tailored to local 
circumstances, so their development will be led by U.S. Government 
personnel in-country, who have relationships with key government 
counterparts. Compacts are anticipated in both PEPFAR's current focus 
countries and in additional countries, and will link new U.S. 
Government resources to host country commitments in two key areas:
            1. Financial commitment
    Resources differ dramatically from country to country, based on 
each nation's level of development. Almost every nation severely 
affected by HIV/AIDS can do more. For example, in the 2005 Abuja 
Declaration, African governments committed themselves to devote at 
least 15% of their budgets to health; only a few have reached this 
level. Several current focus countries have significant resource 
allocations to HIV/AIDS, yet nearly all can do more. In some countries, 
``more'' can be measured in hundreds of thousands of dollars, in others 
millions, tens of millions or more. It is important that resources for 
HIV/AIDS do not offset other health or development areas, and this will 
be reflected in the Compacts.
            2. Policy commitment
    Policy changes can create an environment conducive to an effective 
health and HIV/AIDS response, ensuring that available resources are 
optimally used to save as many lives as possible. While agreements 
would vary from one country to another, key issues addressed might 
include:


   Workforce: Regulations and policies that allow effective task-
        shifting for health care workers.

   Gender: Regulations and policies to limit gender-based violence and 
        discrimination, prevent transgenerational sex, and protect 
        women's inheritance rights.

   Orphans: Regulations and policies to protect the inheritance rights 
        of children.

   HIV-specific: Regulations and policies that promote opt-out 
        counseling and testing, pediatric diagnosis, rapid, tariff-free 
        regulatory procedures for drugs and commodities, and full 
        inclusion of people living with HIV/AIDS in a multi-sectoral 
        national response.


    Question 5. The FY 09 Budget requests $30 billion for PEPFAR over 
the next five years. There are many legislators and interested parties 
advocating for the US commitment to increase to $50-60 Billion over the 
five years.

    What affect would that large of an increase have on existing 
development assistance allocations?

    Answer. On May 30, 2007, President Bush announced his intention to 
work with U.S. Congress to reauthorize the Emergency Plan. He proposed 
a five-year, $30 billion extension that would double the United States' 
initial $15 billion commitment. Under the proposal, PEPFAR would 
support treatment for 2.5 million people, prevention of 12 million new 
infections, and care for 12 million people infected and affected by 
HIV/AIDS, including 5 million orphans and vulnerable children.
    As you note, some members of Congress have advocated that the 
reauthorizing legislation for PEPFAR commit $50-60 billion in funding 
in the next phase. We are sympathetic to the generous intentions behind 
such commitments, but are cautious that the proposals must encompass a 
comprehensive view of U.S. development assistance that would not 
require either an unrealistic increase in foreign assistance funding or 
significant cuts to other valuable programs. We look forward to working 
with the appropriators to further analyze the authorization and verify 
program need.
Energy


    Question 6. On December 19, 2007, President Bush signed into law 
the Energy Independence and Security Act. This law contained several 
international energy provisions affecting U.S. foreign policy, State 
Department organization, and requires reporting on U.S. international 
energy diplomatic activities.

    What is the State Department's plan for implementing the 
International Energy Coordinator position? How much funding is required 
for the office? How much staff support is to be allocated to the 
Coordinator?

    Answer. We expect to announce the International Energy Coordinator 
in the very near future. The position will be staffed and funded via 
restructuring/reallocation of existing resources. This is a high 
priority for the Department of State and will result in increased 
attention to energy issues.

    Note: On March 11, 2008, Under Secretary for Economic, Energy and 
Agricultural Affairs, Ruben Jeffery III, was designated by Secretary 
Rice Coordinator for International Energy Affairs.


    Question 7. Secretary Rice testified to the Senate Foreign 
Relations Committee on February 13, 2008, that a special envoy for 
energy security for the Caspian region and East-West Corridor 
initiative would be appointed. What is the timeline for such a person 
to be appointed? To whom will the envoy report?

    Answer. We intend to appoint, and we are looking for, a special 
energy coordinator, who could especially spend time on the Central 
Asian and Caspian region. This effort is ongoing. We anticipate that 
the envoy most likely will report to the Secretary through the 
Coordinator for International Energy. We also have a strong team of 
senior and mid-level officers who give special emphasis to energy 
issues in Central Asia and the Caspian region, as well as to broader 
European energy security issues.


    Question 8. What progress has been made on formulating policies to 
advance energy cooperation with the Government of Chile? Are there 
specific sectoral areas of interest? (Biofuels, hydraulic, cellulosic, 
gas, nuclear, solar, etc).

    Answer. We have created a four-tiered action plan to deepen our 
bilateral engagement with Chile on energy. The four main categories of 
our cooperation are:


    1. Renewable Energy: Biofuels, Geothermal, Wind, and Solar

    2. Nuclear Power for Electricity Generation

    3. Energy Policy

    4. Energy Efficiency


    Last year, working with the Department of Energy's and business and 
science organizations, the U.S. Trade and Development Agency sponsored 
a visit of Chileans to study geothermal energy in the United States. 
From September 30 to October 6, 2007, a dozen Chilean government, 
private sector, and academic experts met with U.S. industry and 
government experts to explore the potential for cooperation on 
geothermal energy development.
    From April 7-11, a team of eight Chilean government officials who 
play important roles in determining Chile's national policies on energy 
issues, including those related to nuclear power and national security, 
will visit U.S. nuclear facilities and regulators as part of the 
Voluntary Visitors program organized by the Department of State. The 
costs of this program will be shared by the USG and the Government of 
Chile and the delegation will be led by the Chilean Minister of Energy 
Marcelo Tokman. The group will have meetings with senior officials at 
the Department of State, Department of Energy, NRC, EPA, FEMA, the U.S. 
Congress, and representatives of the private sector and of non-
governmental organizations active on nuclear energy issues. There are 
also plans for the group to visit a nuclear reactor and to explore 
emergency management issues at the local level.
    In addition, U.S. Ambassador to Chile Paul Simons and Chilean 
Ambassador to the U.S. Mariano Fernandez traveled to California on 
February 14 and 15, 2008. They identified partnership opportunities 
with the California Energy Commission, California Air Resources Board, 
University of California at Davis, and private sector organizations. 
The Economics, Energy and Business Bureau has also sent a science 
fellow to Embassy Santiago who will further energy cooperation with 
Chile.
    Using U.S. funds at the Organization of American States, the OAS 
will organize a Southern Cone renewable energy conference to be held 
this spring in Santiago, which will bring policy and technology experts 
to provide specific energy recommendations to accelerate the deployment 
of renewable energy technologies.
    The Department of State is also assisting with implementing and 
funding an extensive new academic exchange program with Chile that will 
enable Chilean students to pursue advanced graduate study in the United 
States, and some of these grantees are expected to be enrolled in Ph.D. 
programs concentrating on energy issues.


    Question 9. What, if any, steps are being taken to increase 
communication on international energy policy formulation and 
coordination in implementing international energy diplomatic activities 
with the Department of Energy and other executive agencies?

    Answer. The Department of State continues to coordinate broadly 
with the Department of Energy and other departments on energy policy. 
State and DOE work closely together in bilateral dialogues with key 
energy producers. These include the Energy Working Group with Saudi 
Arabia, the Energy Consultative Mechanism with Canada, and the North 
America Energy Working Group, part of the Security and Prosperity 
Partnership with Mexico and Canada. The State Department works very 
closely with DOE in our extensive energy engagement with China and 
India.
    We exchange information and coordinate with DOE on Caspian energy 
developments. Leaders from both Departments have traveled together to 
key Caspian countries to promote our energy security goals of 
diversification of sources of supply and transportation routes for oil 
and gas. Furthermore, a regular interagency mechanism has been launched 
involving NSC and State leadership to coordinate interagency work on 
Eurasian energy topics.
    We coordinate closely with DOE in multilateral fora, including the 
Five Party Energy Ministerial (China, India, Japan, South Korea, USA), 
APEC, and the G8. Both the Department of State and DOE are on the Board 
of the International Energy Agency (IEA) and jointly develop U.S. 
Government positions in the IEA.
    The Department of State has asked the Department of Energy to be 
part of the Management Committee of the U.S.-Brazil Memorandum of 
Understanding on Biofuels Cooperation. The Department of State and the 
Department of Energy are also working closely together on the Global 
Critical Energy Infrastructure Security strategy.


    Question 10. (a) How much funding is required to implement the 
Global Critical Energy Infrastructure Security Program?

    (b) How much staff support is allocated to this project?

    Answer. (a) Global Critical Energy Infrastructure Protection is a 
key U.S. priority, and the Department has been working both bilaterally 
and multilaterally on efforts to address it. With our G-8 partners, in 
APEC, and in the OAS, the U.S. is leading initiatives to promote 
greater recognition of the threat and propose programs to address it. 
Similarly, with U.S. encouragement, NATO is considering an initiative 
to monitor and assess energy developments that are linked to regional 
instabilities or terrorist threats.
    The U.S. is also working aggressively to address Critical Global 
Energy Infrastructure protection on a bilateral basis. The Department 
is working with experts from across the interagency to help key 
partners improve security measures at key installations and improve 
their own internal capabilities to protect these facilities. While the 
U.S. is aiding these efforts by providing expertise, no State 
Department funds have been requested specifically for this initiative. 
Most of the countries with whom we are dealing have their own assets, 
and we anticipate that they will be both able and willing to cover the 
full costs of developing and implementing recommended security 
improvements.

    (b) At the moment, two individuals have been assigned to work full 
time on this project in the Office of the Coordinator for 
Counterterrorism. As has been the case previously in this initiative, 
however, the Department has identified individuals in other agencies 
and other bureaus of the Department with subject matter expertise and 
utilized their skills in this project on an ``as needed'' basis.


    Question 11. Funding for the Multilateral Donor's Fund for the 
Extractive Industries Transparency Initiative was authorized in 
legislation signed by the President in December 2007. What is the State 
Department's policy on contributing to the Fund?

    Answer. We support EITI, participate actively on the EITI board and 
assist with EITI implementation directly through our embassies. Our 
financial support to date has been:


   FY 06--$990,000 in total funds ($1 million before rescissions) to 
        support civil society participation in EITI implementation, 
        administered by USAID

                   Peru--$445,000 for catalyzing EITI planning and 
                stronger civil society participation in EITI

                   Nigeria--$445,000 to expand civil society oversight 
                of EITI

                   Democratic Republic of Congo (DRC)--$100,000 to 
                expand civil society and private sector engagement in 
                EITI

   FY 07--$1 million to support civil society participation in EITI 
        implementation. USAID is currently determining the recipient 
        countries.

   FY 08--The FY 08 funding estimate is $3 million. The Foreign 
        Operations Conference Report directs that no less than this 
        amount be provided to the EITI multi-donor trust fund at the 
        World Bank; however, the final determinations on the amount and 
        destination of the money are subject to 653(a) negotiations on 
        FY 08 allocations.
Clean Technology Fund


    Question 12. What other mechanisms are available to the U.S. to 
fund clean technology? For example, what is available through the 
International Finance Corporation, the Global Environment Facility, 
OPIC, Ex-Im Bank, USAID, Environmental Protection Agency, the Energy 
Department, the Trade and Development Agency, etc.?

    Answer. The Multilateral Development Banks (MDBs) are all active in 
financing clean technology projects in developing countries and are 
expanding their support for low carbon investments. For example, the 
World Bank Group provided $1.4 billion in financing for low carbon 
energy projects in 2007. In addition, the Global Environment Facility 
has played an important role in leveraging MDB funds to help developing 
countries remove policy, institutional, and other barriers to the 
uptake of cleaner energy technologies.
    The Clean Technology Fund would focus on scaling up the deployment 
of existing commercially available technologies in a smaller number of 
developing countries with significant emissions that are committed to 
mitigating greenhouse gas emissions. The CTF would help to finance the 
cost difference between more expensive clean technologies and cheaper 
dirty technologies. The CTF would leverage the existing capital of the 
multilateral development banks to substantially increase the level of 
their funding of clean technology-related activities. The CTF would 
also leverage substantial private sector investment in clean 
technologies through the private sector arms of the MDBs.
    Bilateral agencies, such as OPIC and Ex-Im Bank are expanding their 
support for clean technology, in particular renewable energy projects, 
and could be co-financiers in CTF investments.


    Question 13. In December 2007, President Bush signed into law 
creation of a Clean Energy Foundation with similar purposes to the 
Clean Technology Fund. What is the justification for two new programs 
with essentially the same goals? How would their work be complementary?

    Answer. The CTF would be a multilateral fund targeted at 
transforming key sectors of major emitting developing countries to 
lower carbon trajectories by deploying clean technologies on a large 
scale and rewarding appropriate policy reform in recipient countries. 
By pooling resources from countries such as the UK and Japan, and 
drawing upon the existing MDB capital base, the MDBs' ongoing policy 
dialogue with developing countries and the technical expertise of these 
institutions, the CTF will develop the scale needed to positively 
affect policy reform and public and private investment decisions.
    The Clean Energy Foundation would promote the deployment of U.S. 
clean technology overseas. We expect that both activities, if funded, 
could provide synergies to achieve a common goal of lowering greenhouse 
gas emissions.


    Question 14. How will the Clean Technology Fund work? Who will 
provide staff? Will they be seconded or will their salaries be paid out 
of the Fund? Where will the Fund be housed? How much will be charged 
for overhead? How will funding decisions be made? Will there be a 
matching grant component so that recipient countries contribute some 
portion of the grant as well?

    Answer. The CTF would be a multilateral trust fund administered by 
the World Bank, as Trustee, but controlled by a trust fund committee 
composed of donors with the participation of recipient countries. The 
fund would provide grants and concessional financing to support 
national policies and efforts to create better market conditions for 
the uptake of clean technologies, and to help finance the cost 
difference between clean and dirty technologies in select developing 
countries. The public and private sector windows of the World Bank and 
regional development banks would submit requests for CTF funding to the 
trust fund committee. The MDBs and their staff would work with public 
and private investors to finance individual projects. By working 
through the MDBs, including their private sector-lending windows, the 
CTF would be able to leverage significant existing public and private 
sector financing to scale up deployment of clean technologies in major 
developing countries.
    The CTF's trust fund committee would review and approve country 
programs and projects generated through a cooperative process between 
the MDBs and the recipient countries based on these countries' low 
carbon economic development strategies. Once CTF funding is approved, 
the MDB implementing the project would follow its normal project 
approval, implementation and safeguard procedures, and provide periodic 
reporting on the status of use of Fund resources back to the World Bank 
for consolidation into reports for the trust fund committee.
    The World Bank would charge the CTF for the actual costs of 
administering the Fund, and there will not be a fixed administrative 
fee. A small administrative unit would be created in the World Bank to 
coordinate the functions of the CTF, organize meetings and prepare 
needed reports. The costs of the unit as well as other administrative 
functions provided by the World Bank (e.g. accounting/audit) would be 
charged to the Fund. The CTF would not have its own staff for project 
development because MDB staff would develop projects for CTF support as 
part of their normal project development process. To receive funding, 
we think that recipient countries should take a variety of actions to 
demonstrate their national commitment to reducing greenhouse gas 
emissions, and co-financing is one of those possible actions.


    Question 15. How will the Clean Technology Fund work in conjunction 
with the Asia-Pacific Partnership?

    Answer. Many of the countries and sectors being supported through 
the APP are also priorities for the CTF. Projects developed for the CTF 
would benefit from sectoral and project development work of APP 
subgroups and project financing and technical assistance relationships, 
such as those with the Asian Development Bank.


    Question 16. Is establishment of the Clean Technology Fund an act 
in fulfillment of the United States' obligations under the United 
Nations Framework Convention on Climate Change?

    Answer. There is no U.S. obligation under the UNFCCC to set up the 
kind of fund, or level of funding, that we have proposed. Having said 
that, the Clean Technology Fund is one of a number of mechanisms that 
will serve to implement general obligations under the UNFCCC to promote 
technology transfer. By assisting major developing countries in 
implementing low carbon growth strategies, the CTF will contribute to 
the achievement of the ultimate objective of the UNFCCC to stabilize 
atmospheric concentrations of greenhouse gases.


    Question 17. Why is the Administration proposing to start a new 
Clean Technology Fund rather than clear U.S. arrears (unfulfilled 
commitments) to the Global Environment Facility for $170.6 million and 
to the International Development Association for $377.9 million?

    Answer. Energy security and climate change are important priorities 
for the Administration. Therefore, in September 2007, President Bush 
proposed a major multilateral initiative to create a new international 
clean technology fund to help developing countries harness the power of 
clean energy technologies and address the growing problem of 
accelerating greenhouse gas emissions in major developing countries. 
The Administration is working with donors and developing countries to 
create a fund, to be launched in 2008, that will catalyze resources of 
the multilateral development banks and the private sector to create 
innovative financing instruments to spur clean technology investments 
in the major emitting developing countries.
    The Administration has tried to keep its FY 2009 budget request to 
a responsible, prudent level consistent with the President's overall 
emphasis on budget discipline. Unfortunately, the Congress did not fund 
our request for arrears last year--in fact, arrears increased overall--
and we hope this year's request is more in line with Congress's 
expectations and funding intentions. That said, it is even more 
imperative that Congress fully fund the FY 2009 request of $1.671 
billion for the multilateral development banks so as not to further 
increase our arrears and worsen our credibility in the institutions and 
among fellow donors.


    Question 18. What is the reasoning for the size of the Clean 
Technology Fund request at $400 million?

    Answer. The World Bank estimates that there is a $30 billion annual 
gap between the cost of deploying clean technology versus dirtier 
technology in the power sector alone in developing countries. This fund 
would help leverage public and private capital to reduce the cost of 
investing in cleaner technology or energy efficiency in power, 
transport, and other sectors so that developing countries are able to 
close that gap. The goal is for the CTF to have a meaningful impact in 
incentivizing key high emissions developing countries to substantially 
reduce their emissions trajectories.
    The Administration is seeking authorization for a $2 billion 
contribution to a multilateral effort that would total up to $10 
billion. $400 million is the proposed first year amount of a three year 
contribution.


    Question 19. Does the Administration intend to send authorizing or 
other legislation for Clean Technology Fund activities for 
Congressional consideration? If so, when will that legislation be sent 
to Congress?

    Answer. Yes. The Administration intends to send to Congress 
authorizing legislation for the Clean Technology Fund in March.


    Question 20. What type of reporting will the Administration provide 
on the activities of the Clean Technology Fund?

    Answer. The World Bank, as trustee for the multilateral CTF, would 
generate reports on the activities of the Fund, and the finances of the 
Fund will be audited in conjunction with the World Bank annual 
financial audit. These reports would follow World Bank standards and 
procedures and be made publicly available.


    Question 21. Will the Treasury Inspector General have investigation 
authorities over the Clean Technology Fund? If not, what part of the 
U.S. Government will have the authority to investigate any fraud and 
misuse of the Clean Technology Fund?

    Answer. The Treasury IG does not audit U.S. contributions to the 
World Bank. The MDBs' internal and external personnel and auditors 
would conduct oversight of funds contributed to the Clean Technology 
Fund, and investigate any alleged fraud or misuse. The GAO could 
conduct reviews relating to specific issues of concern as they do on 
other MDB issues.


    Question 22. If the Clean Technology Fund is housed at the World 
Bank, would it be legal and appropriate to allow Fund proceeds to be 
given to China given that the U.S. is legislatively mandated not to 
support World Bank loans to China due to military audit and human 
rights concerns?

    Answer. The United States would participate in the CTF in a manner 
consistent with U.S. law. Currently, under certain legislative 
mandates, the United States does not vote in favor of loans or other 
assistance to China in the MDBs unless the loans or assistance support 
basic human needs.
    Treasury plans to continue to consult closely with Members and 
staff on how to address the existing legislative restrictions that 
relate to U.S. support for clean technology projects in certain 
countries. The United States has a strong interest in promoting the 
adoption of clean technology and reducing green house gas emissions 
from developing countries, including China, in an environmentally 
effective and economically efficient manner, given the direct global 
benefits of such an outcome and the fact that the poor are 
disproportionately vulnerable to the negative effects of global climate 
change and environmental degradation.


    Question 23. How do we explain to constituents who might argue that 
China has enough funds of its own, as demonstrated by their Sovereign 
Wealth Fund, to fund clean technology investments in their own country. 
What is your response to this assertion?

    Answer. This fund is aimed at the broader issue of rapid growth in 
greenhouse gas emissions by developing countries. Its purpose is to 
create positive incentives to put in place legal and regulatory 
frameworks to encourage the deployment of low carbon technologies and 
to help reduce the risk to public and private investors of committing 
to new clean technology projects.
    By 2030, global demand for energy will increase by 55%, of which 
74% will come from developing countries. Meeting developing country 
energy needs will require an estimated $10 trillion of investment in 
energy supply infrastructure over the next two decades. Using old, 
dirty technologies to meet these needs would massively increase global 
greenhouse gas emissions and offset reductions made in the United 
States and other developed countries. It is in the U.S. interest to 
encourage major developing countries to act now to begin reducing their 
emissions growth.
    No country would have a guarantee of funding from the CTF. The CTF 
would have selection criteria where interested countries will have to 
demonstrate a strong commitment to national action to reduce greenhouse 
gas emissions. China would only be eligible for funding if it were to 
meet the fund's eligibility requirements. In addition, the CTF would 
have a limit on the share of CTF financing that any one country may 
receive. Donors are currently considering a country limit of 15-20 
percent.
    Given China's capacity to finance its own development and the scale 
of its needs, we expect that the Chinese Government and Chinese private 
sector would bear the preponderant share of financing costs and 
obligations needed for energy investments. Any CTF funding in China 
would play a catalytic role and seek to leverage these and other funds.
Multilateral Development Banks (MDBs)


    Question 24. Why did the administration only request $42 million to 
clear the U.S. arrears to the international financial institutions when 
the total of U.S. arrears to the institutions is $872.3 million as of 
end-FY2008?

    Answer. The Treasury Department tried to keep their request to a 
responsible, prudent level consistent with the President's overall 
emphasis on budget discipline. Unfortunately, the Congress did not fund 
the request for arrears last year--in fact arrears increased overall--
and we hope this year's request is more in line with Congress' 
expectations and funding intentions. That said, it is even more 
imperative that Congress fully fund the FY 2009 request of $1.671 
billion for the MDBs so as not to further increase our arrears and 
worsen our credibility in the institutions and among fellow donors.


    Question 25. How do continued U.S. arrears impact U.S. influence at 
the multilateral development banks?

    Answer. Rising arrears jeopardize U.S. credibility and underscore 
the growing international perception that the United States does not 
fulfill its international commitments. Our arrears to the International 
Development Association (IDA), the World Bank's concessional window, 
threaten our ability to meet U.S. debt relief commitments to the World 
Bank. Arrears also undermine our ability to advance key reforms on 
which the United States is the most forceful advocate--continued 
progress on the anti-corruption agenda, improved results of assistance 
programs, and increased transparency and accountability of World Bank 
operations. Finally, our arrears demonstrate a lack of commitment to 
the capital base of the institutions, which is leading to our shares 
being auctioned off to other countries.
Civilian Stability Initiative


    Question 26.  Explain the interagency process that took place in 
developing the Civilian Stabilization Initiative. Provide a breakdown 
of the individual agencies and their equities in this coordinated 
effort to respond to the demand for civilian skills in the field.

    Answer. The Civilian Stabilization Initiative (CSI) is the 
culmination of two years of work by more than 15 agencies, including 
State, DOD and USAID, with extraordinary additional support from the 
academic community and members of Congress, to determine the full 
civilian capacity needs of the U.S. Government to respond to the 
stabilization challenges that we face and will continue to face over 
the next decade. Out of this interagency collaboration, the Interagency 
Management System (IMS) for Reconstruction and Stabilization was 
developed and approved by the Administration.
    With agreement of the CSI and IMS in place, S/CRS joined with 
USAID, multiple State Department offices, and the Departments of 
Justice, Commerce, Agriculture, Treasury, HHS, and DHS, to form an 
Interagency Task Force to finalize the design of the Active, Standby 
and Civilian Reserve components. All eight agencies involved in the 
taskforce will develop Active Response Corps members and field Standby 
Response Corps members. Each of the agencies will also act as 
``proponents'' for categories of Civilian Reserve Corps members 
according to the agencies' specialization, for example: USAID is the 
proponent for specific governance, public administration, and 
infrastructure positions, while Treasury is the proponent for the 
fiscal, monetary, and tax policy and banking systems positions.


    Question 27. If such coordination was available in 2001, what 
impact might it have had on U.S. forces deployment and effectiveness? 
Do you have any estimates of the potential savings such civilian 
preparation might afford the U.S. government?

    Answer. The Civilian Stabilization Initiative is designed to 
provide trained and equipped civilians with the right skill sets to 
deploy quickly in a stabilization operation. The Interagency Management 
System, the command and control structure for civilian operations, will 
improve greatly the efficiency of these operations and should save 
lives and money.
    That said, it is difficult to estimate the potential savings that 
civilian capability might afford the U.S. Government because it has not 
yet been implemented on a broad scale. However, in testimony before the 
House Armed Services Committee in January, Carlos Pascual of the 
Brookings Institute estimated that if we had a civilian capacity in 
Iraq that allowed us to withdraw one division one month early, we would 
have saved $1.2 billion.


    Question 28. What are the key first steps that such a civilian 
response capacity would have to take to make the best use of the 
critical first days of a crisis?

    Answer. S/CRS would convene a CRSG (Country Reconstruction and 
Stabilization Group) with the NSC, the State Department geographic 
bureau, and with policy levels at USAID, DOD and other federal agencies 
likely to be involved in a response to determine an initial course of 
action and to task immediate information collection and response 
assessment. A CRSG secretariat would be established to join up civilian 
and military planning, consult with the U.S. embassy in country (if 
any), dispatch a coordination group, or Integrated Planning Cell (IPC), 
to the relevant military combatant command, and deploy an Advanced 
Civilian Team (ACT) of highly trained experts to the country in crisis.
    S/CRS and the CRSG secretariat would be responsible for calling up 
the civilian response from all the agencies participating in the CSI. 
The first responders would, for the most part, come from the inter-
agency Active Response Corps (ARC). S/CRS would also activate the 
interagency Stand-by Response Corps (SRC) and thereby identify and make 
available a wider pool of government employees with relevant skills.
    The Civilian Reserve Corps (CRC) Home Office, a part of S/CRS, 
would review critical civilian skills needed to support the request and 
begin identifying possible CRC members to alert for federal activation.
    The initial ARC teams could be on the ground at the site of an 
overseas crisis 48 hours after the decision to deploy them, and begin 
the response effort in coordination with the existing U.S. mission in 
country (if any) and any other crisis response teams (such as USAID's 
DART) that might be there. This civilian response would partner, as 
necessary and advisable, with any U.S. military assets deployed to the 
crisis (for instance, a Joint Task Force), and/or with partners or 
international organizations that might also be part of a broader 
international response.


    Question 29. Describe the Coordinator's role and position with 
respect to his ability to coordinate among the most senior officials at 
fellow agencies? How will you support the Coordinator in this 
responsibility?

    Answer. Under National Security Presidential Directive 44, the 
Secretary of State is charged with leading and coordinating integrated 
United States Government efforts to prepare, plan for, and conduct 
stabilization and reconstruction activities. I have instructed the 
Coordinator for Reconstruction and Stabilization, Ambassador John 
Herbst, to act on my behalf in fulfilling this directive.
    The role of the State Department in this context is one of 
leadership and coordination, not directive authority. However, the 
Coordinator has very effectively led an interagency effort to prepare 
and plan for such activities. The Coordinator reports directly to me 
and has my full support in this effort.


    Question 30. Please describe the Defense Authorization Section 1207 
funding. How would you and the Coordinator utilize such funding? How 
would you be able to prevent its premature use for other purposes as 
was apparently the case when State sought funding to respond to the 
Lebanon crisis in 2006 and only some $17 million remained from the 
original $100 million authorized? Please provide a breakdown of the 
amounts and uses of Section 1207 funding by year since its inception.

    Answer. Section 1207 of the FY 06 National Defense Authorization 
Act authorized the Secretary of Defense to transfer to the Department 
of State up to $100 million in both FY 06 and FY 07 to improve U.S. 
capacity and interagency coordination for immediate reconstruction, 
security or stabilization assistance to a foreign country. Section 1210 
of the FY 08 National Defense Authorization Act extended the 
authorization for $100 million through FY 08.
    S/CRS used FY 06 and FY 07 funds for projects in eight countries 
where security, stabilization and reconstruction issues overlap. The 
first one of these projects, and the only expenditure under 1207 in FY 
06, was $10 million for assistance to Lebanon in August 2006. The 
Lebanese Internal Security forces received $5 million and $5 million 
was used for demining activities. Because this project also occurred at 
the end of the fiscal year, there was not sufficient time to use all 
available 1207 funding for 2006.
    In FY 07, an interagency Technical Working Group (TWG) composed of 
S/CRS, the Office of the Secretary of Defense, the Joint Chiefs of 
Staff, and the Office of the Director of U.S. Foreign Assistance (F) 
was formed to ensure a more cohesive decision-making process and to 
evaluate and fund projects throughout the year.
    In FY 07, a total of $99.7 million, or virtually the entire amount 
of the authority, was funded for activities in Haiti ($20m), Somalia 
($25m), Nepal ($10m), Colombia ($4m), Yemen ($8.845m), the Trans Sahara 
Counterterrorism Program ($15m for Mauritania, Mali and Niger), and the 
East Asia Tri-Border Initiative ($16.9m for Malaysia, Indonesia and the 
Philippines. These funds are being used for activities ranging from 
police training to public diplomacy, civil society support and 
employment generation.
AFRICOM
            Political Advisors


    Question 31. The FY 2009 budget request includes 50 additional FTE 
positions for ``Political Advisors.'' State has indicated that these 
are intended to meet the demand for new Combatant Command positions.

    a. To whom will they belong organizationally and through what chain 
of command will they be responsible? Who will pay their salaries when 
attached to a COCOM?

    Answer. Foreign Policy Advisors (POLADs) are State Department 
officers detailed to the command in which they are serving. Their 
salaries will be paid by the Department of State. The command pays for 
travel expenses associated with their duties at the command.


    Question b. Will these State Department and other civilian agency 
personnel be responsive to their respective Congressional Committees of 
Oversight?

    Answer. Yes


    Question c. Will the State Department and USAID IG offices 
participate in review of the COCOM activities insofar as they fall 
within U.S. foreign policy parameters such as humanitarian or 
development assistance, security cooperation etc.?

    Answer. The Department of State Office of Inspector General (OIG) 
regularly reviews coordination between Chiefs of Mission and the 
respective combatant commands (COCOM) when inspecting U.S. embassies. 
OIG will solicit input from DOS Political Advisors (POLADs) who are 
assigned to COCOMs on areas such as the adequacy of political or 
economic advocacy and reporting in specific missions, and extent and 
effectiveness of COM coordination with all DoD elements with programs 
or interests in the country. OIG considers entering into, as 
circumstances and resources allow, joint reviews with other OIGs, e.g., 
USAID OIG and DoD OIG, on implementation of humanitarian and 
development assistance, security cooperation, etc.


    Question d. What authority will these personnel have to use or 
direct the use of State Department or USAID funding?

    Answer. None.


    Question e. What specific training with these personnel receive 
that differs from other State Department personnel?

    Answer. POLADs attend an Orientation course organized by the Bureau 
of Political-Military Affairs at the Foreign Service Institute as they 
assume their assignments. They are also encouraged to take the Foreign 
Service Institute's Political-Military Course. Other training is 
available based on the officer's experience and the position they will 
take.


    Question f. AFRICOM stand-up personnel have briefed staff that 
their intent is to seek 150 or more non-DoD civilian personnel? How 
many have they requested to date from State and USAID? How many have 
been provided from State and USAID or are intended to be provided by 
State and USAID? Please provide a list of the position or roles that 
will be filled at the COCOM.

    Answer. Our discussions with the Department of Defense over a 
period of months have focused on different numbers of State Department 
and/or USAID detailees to AFRICOM. Currently, State and USAID have 
filled or are planning to fill six positions at AFRICOM. The State 
Department has detailed personnel for the positions of Deputy to the 
Commander for Civil-Military Activities and of Foreign Policy to the 
Commander (POLAD), and a USAID employee is in the Senior Development 
Advisor position. In addition, USAID plans to detail one of its 
personnel to serve as the Chief of
    Humanitarian Assistance at AFRICOM, and State and USAID anticipate 
making nominations for two more positions in the near future: Chief of 
Outreach and Director of Programs. We have not received any additional 
requests from DoD to fill positions at AFRICOM. We are prepared to 
consider any future requests, taking into account our own staffing 
requirements and available funding.


    Question g. Are any other agencies making similar personnel 
requests for the purpose of manning the new model of COCOM? Is the 
Department of Energy providing personnel?

    Answer. We suggest that you may wish to contact the Department of 
Defense on this point. According to what we have heard from DoD, the 
Environmental Protection Agency and the Departments of Energy, 
Treasury, Education, and Homeland Security have provided nominees for 
the positions of either the Chief of Outreach and/or the Director or 
Programs. We understand that a Department of Commerce nominee has been 
selected for the position of Deputy Director for Resources.
            Budget
    The DoD budget request for FY 2009 includes $389 million ``to 
establish a new command'' known as AFRICOM.


    Question 32a. What if any funding is requested for FY 2009 in the 
150 or 050 account for the planning, preparation or construction of a 
military headquarters in Africa in FY 2009 or thereafter?

    Answer. The State Department has not requested any funds for 
AFRICOM from the 150 account for the planning, preparation or 
construction of a military headquarters in Africa. We understand from 
the Department of Defense that there are no funds in its FY 2009 050 
budget request for the construction of a military headquarters. We 
suggest, however, that you may wish to contact DoD directly on this 
point.


    Question 32b. What is the budget of the State Department/USAID 
personnel contingent for AFRICOM in FY 2009 and are the funds from the 
050 or 150 account resources?

    Answer. With the exception of the Foreign Policy Advisor to the 
Commander (POLAD), all direct hire State Department/USAID positions at 
the Command are reimbursable by the Department of Defense and therefore 
do not have specific implications for the 150 account. The POLAD 
position is funded from the State Operations budget. A contractor 
position to be filled by the Office of Disaster Assistance (OFDA) will 
be funded from International Disaster Famine Assistance (IDFA) 
resources.


    Question 32c. Has there been any coordination on planning for an 
African continent-based AFRICOM headquarters?

    Answer. No specific plans or decisions have been made regarding an 
AFRICOM Headquarters on the African continent. We expect the 
headquarters to remain in Stuttgart for the immediate future.


    Question 32d. What is the extent of such planning and what 
countries does it involve?

    Answer. No plans have been made regarding an AFRICOM headquarters 
on the African continent.


    Question 32e. Has Liberia formally or informally requested that the 
AFRICOM headquarters be based in that country?

    Answer. President Johnson Sirleaf has publicly expressed Liberia's 
interest in hosting an AFRICOM presence.


    Question 32f. What is State Department's position on Liberia as the 
location of AFRICOM?

    Answer. Liberia is the only country that has publicly expressed an 
interest in hosting an AFRICOM presence. Selection of any location for 
an AFRICOM presence would depend foremost on host nation willingness. 
Additional factors would likely include other foreign policy 
considerations, security, infrastructure, and logistical 
supportability. No decisions have been made regarding the structure or 
location of an AFRICOM headquarters on the continent. However, 
President Bush said during his recent trip to Africa that he would 
strongly consider Liberia's offer to host AFRICOM.


    Question 32g. Would you provide any review that has been made of 
options for physical location or locations of AFRICOM?

    Answer. The Office of the Secretary of Defense (OSD) led a 
technical mission to visit a small number of African countries in 
November 2007. The site visits were intended to support U.S. decision-
making processes. A representative of the Bureau of African Affairs 
participated in the site visits. We suggest you may want to contact OSD 
for the trip report.
Democracy and Governance


    Question 33. Describe the planned U.S. democracy and governance 
programming for FY 2008 and FY 2009 in Ethiopia, Nigeria, Kenya and 
Pakistan.

    What lessons have been learned and what changes in such programming 
are being incorporated in the wake of disappointing progress in these 
four instances?

    Answer. In Ethiopia, the USG adapted to the flawed 2005 elections 
with a strategy to work outside the national government while also 
recognizing the potential for future democratic progress. To exploit 
potential openings, the USG is promoting constructive dialogue on key 
issues, legislation, and policies; expanding conflict management and 
reconciliation work at the national and local levels; and supporting 
multi-party capacity building in the legislature. Working outside the 
government, the USG started new programs to strengthen independent 
human rights monitoring. These programs complement efforts to improve 
respect for human rights in the judiciary and police. Support is also 
being provided to assist the Gambella and Somali Regional State and 
Municipal Governments to improve governance through better service 
delivery. The USG has reduced its plans to contribute to long-term 
multilateral support for the national and regional state parliaments 
and the National Elections Board (NEB) due to significant cuts in FY 
2008 funding and a lack of demonstrated openness on the part of the 
Government of Ethiopia to consultative reform. The USG is currently 
soliciting new proposals for Ethiopia to provide legal assistance to 
journalists; build the capacity of independent media outlets; build the 
capacity of the judiciary; and improve the capacity of civil society to 
effectively monitor and report on human rights.
    In Nigeria, the primary democracy and governance problem is that 
political power, both formal and informal, lies almost exclusively in 
the hands of non-accountable political elites. This problem existed 
before last year's flawed elections, and it still exists today. 
Consequently, the USG strategy in Nigeria is to address the elite 
control of political power at the national level and the crippling 
dysfunctions it creates at the sub-national level. USG assistance will 
support the creation of more responsive governance structures and help 
build the capacity of civil society organizations. U.S. assistance will 
also work to improve the capacity and credibility of the electoral 
commission and promote civil society input into electoral and 
constitutional reform dialogue in advance of the 2011 elections. We 
hope to start a new rule of law program in FY 2009.
    In Kenya, the USG is working to develop a new strategy in response 
to the current political crisis. It is clear that Constitutional and 
electoral reforms will be essential to address the issues that have 
arisen since December. Parliament and civil society will both be 
critical to the success of reform efforts. USG programs will work with 
the Parliament, local government, and political parties to improve the 
system of checks and balances and to facilitate necessary anti-
corruption reforms. U.S. assistance will also promote civil society 
efforts to advocate for further governance reforms, provide citizen 
input to influence government policy, and monitor the government's 
progress. In addition, the U.S. is providing funds to assist civil 
society in promoting national dialogue and discussion on a political 
solution to the current crisis. The USG will also support longer-term 
constitutional, land, and electoral reforms as part of the recent peace 
and reconciliation accord following the flawed general elections of 
December 27, 2007.
    In Pakistan, in the aftermath of the February 18 Parliamentary and 
Provincial elections, the USG will continue to support the 
strengthening of political processes to support the Government of 
Pakistan to establish truly democratic institutions with significant 
involvement by Pakistani civil society groups and NGOs. The USG 
strategy includes supporting the empowerment of women and youth to take 
active roles in civil society, promoting rule of law, strengthening 
political party development, promoting electoral reform, and expanding 
independent media. The USG will also help Pakistan strengthen its legal 
institutions and support reform of the judicial systems to protect 
human rights and promote the rule of law.
    Our experience in these four countries indicates the importance of 
an independent electoral commission and a proper election adjudication 
system to ensure open and fair electoral processes that instill 
legitimacy in newly-elected governments. These countries also 
illustrate the need for civil society to expand its base beyond 
politically motivated individuals engaged in episodic political events 
and address broader constituency demands in order for democratic 
institution building to take root over the long term.
Afghanistan


    Question 34. Describe the planned U.S. programming for FY 2008 and 
FY 2009 with regard to building judicial capacity in Afghanistan.

    Answer. The primary U.S. agencies involved in building 
Afghanistan's justice sector are the Department of State's Bureau for 
International Narcotics and Law Enforcement Affairs (INL), the United 
States Agency for International Development (USAID), and the Department 
of Justice (DOJ). The Department of Defense (DOD) is also expanding its 
rule of law programming, focusing on Eastern Afghanistan and on police-
prosecutor overlaps. Over the past year these agencies have played a 
central role in improving the justice sector, including the judiciary 
(Supreme Court), the Ministry of Justice, the Attorney General's 
office, and various governmental and non-governmental entities that are 
key to establishing the rule of law. They have been implementing the 
goals of a U.S. strategy approved by the National Security Council in 
August 2006 to (a) accelerate U.S. Government justice programs at the 
central level, (b) encourage increased donor contributions, and (c) 
expand justice to the provinces. We have made significant progress in 
all areas.
    At the central level, we have roughly doubled the scope of our 
assistance to the three primary justice institutions since early 2007, 
launching organizational reforms, rolling out a new court 
administration program, revising legislation that governs the 
administration of justice, establishing new training and mentoring 
programs, and providing infrastructure and equipment support. At the 
same time, we have played a leading role in Kabul and with other 
capitals in increasing the focus on the justice system. Our strong 
encouragement was a major factor in the Government of Italy's decision 
to host the July 2007 Rome Conference on the Rule of Law in 
Afghanistan, co-hosted by the Italian Prime Minister, Afghan President 
Hamid Karzai, and the United Nations Secretary General. The conference 
garnered $98 million in new contributions to the justice sector over 
four years, on top of existing commitments. We also have pushed the 
expansion of justice assistance into the provinces, which have received 
comparatively little support to date, by expanding our own bilateral 
programs and developing the Provincial Justice Coordination Mechanism, 
which is presently deploying rule of law coordinators across the 
country to work with Afghan and international actors.
    Meanwhile, the Government of the Islamic Republic of Afghanistan 
(GIRoA) is finalizing the National Justice Sector Strategy of the 
Afghanistan National Development Strategy (ANDS), which sets 
development goals to be met by 2013. To implement these, the GIRoA and 
international community are finalizing the National Justice Program 
(NJP) which will use a combination of Afghan and donor programs (both 
bilateral and multilateral) to develop and reform the justice system. 
The World Bank is establishing a justice program that will support the 
NJP, using pooled donor funding to reduce the number of small-scale 
implementers.
    With the National Justice Program providing a new strategic 
framework for the justice sector, the U.S. Government is developing its 
own strategy to support the NJP that is coordinated through the U.S. 
Embassy and incorporates U.S. military efforts. This new strategy, 
currently under development, will ensure the NJP priorities are 
implemented. These priority areas include: accelerating institutional 
reform; building provincial infrastructure and capacities; bolstering 
counter-narcotics and anti-corruption prosecutions; investing in the 
corrections system; improving linkages between police and prosecutors; 
and focusing on public awareness and legal aid to improve public 
confidence and access to justice. These efforts support the overall 
U.S. Government push to project governance to the provincial and 
district levels, which in turn will build nationwide confidence in the 
central Government's ability to provide security and services.
    Building Afghanistan's capacities to manage its own system is 
fundamental to success in Afghanistan. U.S. Government efforts also 
recognize that building justice sector capacities and public demand for 
justice alone will do little without high-level political will on the 
part of the GIRoA to tackle corruption, from the top down. To that end, 
the U.S. strategy emphasizes using diplomatic, political, and law 
enforcement tools to strengthen the Afghan political will to institute 
true reforms and tackle corruption within their government. We have 
seen several positive signs, including the recent passage of the 
Advocates Law (establishing a national bar and legal defense service). 
The GIRoA recently became a signatory to the United Nations Convention 
Against Corruption (UNCAC), an important step in the right direction.


    Question 34a. What are the levels of U.S. assistance and in what 
areas has U.S. assistance been used to reform the judicial system, with 
the exception of police training?

    Answer. U.S. Government assistance to the justice sector has 
gradually grown over the years, with an FY 07 budget of $67.35 million 
($55 million in INLCLE funding and $12.35 million in USAID funding). 
For FY 08, the projected INCLE funding level for justice is $68 
million, while USAID is projected at $4 million. This makes the U.S. 
Government the largest donor in the justice sector.
    As noted above, there are four US agencies primarily involved in 
building Afghanistan's justice system: INL, USAID, DOJ, and DOD. These 
agencies and their programs are coordinated through the US Embassy 
Special Committee on the Rule of Law, chaired by the U.S. Rule of Law 
Coordinator. Below is an overview of each agency's activities.
            Department of State--International Narcotics and Law 
                    Enforcement Affairs
    The INL Afghanistan Administration of Justice program is primary 
concerned with building and reforming the criminal justice and 
corrections systems. Two major assistance platforms support this 
program: the Justice Sector Support Program (JSSP) and the Corrections 
System Support Program (CSSP), described in greater detail below. Both 
programs are implemented by Pacific Architects and Engineers (PAE) 
Government Services and have been in place since mid 2005 and early 
2006, respectively.
    In addition to these two primary programs, INL also supports 
several smaller initiatives, including: (1) a grant with the University 
of Washington--Seattle which brings Afghan law professors to the U.S. 
to earn certificate and Master's of Law (LLM) degrees; (2) a grant with 
the International Association of Women Judges (IAWJ) to support women 
in the legal profession; (3) an agreement with the United States 
Institute of Peace (USIP) to focus on specific policy and reform 
issues; (4) contributions to two multilateral trust funds to address 
disproportionately low salaries for judges, prosecutors and corrections 
personnel; and (5) funding to support three field offices of the 
Provincial Justice Coordination Mechanism mentioned above. INL also 
funds the Department of Justice (DOJ) Senior Federal Prosecutors 
Program in Afghanistan.
    The JSSP supports 30 U.S. justice advisors (prosecutors, judges, 
defense attorneys, and criminal justice systems experts) and 30 Afghan 
legal advisors, and has permanent teams based in Kabul, Herat, Balkh, 
Konduz, and Nangarhar provinces to build Afghanistan's criminal justice 
system. JSSP provincial teams as well as DOJ prosecutors are conducting 
police-prosecutor training and mentoring, and will soon establish a new 
training program to improve justice capacities at the district level, 
working closely with the police program's Focused District Development 
initiative. To date, DOJ and the JSSP have trained more than 1,000 
Afghan lawyers. The Kabul JSSP team is split into three sections. The 
first section consists of 16 U.S. and Afghan advisors who are 
reorganizing the Attorney General's Office, providing training and 
mentoring, and advising the Afghan Attorney General on key matters. The 
second section supports the Ministry of Justice and its key 
directorates with three U.S. and 11 Afghan advisors, including the 
recently established (entirely Afghan staffed) Policy and Strategy Unit 
which provides policy and organizational reform advice to the Minister. 
The third JSSP section focuses on improving access to justice, which 
includes mentoring and capacity building for private legal defense 
organizations, legal education and training, and organizing provincial 
justice conferences. The JSSP also has a gender justice advisor who is 
developing linkages between police Family Response Units and the 
prosecution services; as well as a military liaison to coordinate joint 
police-justice efforts.
    The CSSP supports over 30 U.S. corrections advisors in Kabul, 
Herat, Balkh, Nangarhar and Paktia provinces and is focused on four 
areas: training, capacity-building, infrastructure support, and 
operations and maintenance for a new facility in Kabul. The provincial 
teams have trained over 1,300 corrections officers to date in a basic 
8-week course and a ``train the trainers'' course. The training 
program, which is based on international and United Nations human 
rights standards and was developed specifically for (and with) the 
Afghan Government, and is launching numerous advanced and specialized 
courses this year. The CSSP also supports a capacity-building program 
which is advising the Ministry of Justice's Central Prison Directorate 
(CPD) on prison policies, prison management, establishing a prisoner 
tracking system and organizational reforms. The third CSSP component is 
the infrastructure team, which has refurbished the national corrections 
training center, completed numerous small-scale renovations of prisons, 
provided a new annex for the CPD headquarters for staff, and 
established an Afghan Engineering Office within the CPD. Together with 
Afghan architects and engineers, the CSSP has developed a ``hybrid'' 
prison design that incorporates international human rights standards 
with Afghan realities and cost-effectiveness to create a sustainable, 
humane, and secure prison design. In addition to constructing two 
prisons over the coming year, the CSSP is also advising other donors to 
ensure that their designs and construction of prisons implement this 
Afghan-approved sustainable model. Lastly, the CSSP will support the 
operations and maintenance of the Counter-Narcotics Justice Center 
(CNJC) in Kabul, a secure facility built by the Army Corps of Engineers 
that will house the Counter-Narcotics Criminal Justice Task Force 
(CJTF) and Central Narcotics Tribunal (CNT) as well as a detention 
center.
    Finally, INL entered into an agreement with the United States 
Institute of Peace in mid 2007 to work with Afghan and international 
actors to develop policies and possible linkages with the non-state 
system of dispute resolution. While the focus of U.S. assistance must 
be on building the central government's reach through the formal 
justice institutions, there may be linkages with the informal system 
for certain civil (but not criminal) disputes that could maximize 
efficiency and utilize the legitimacy that many customary systems 
enjoy, so long as human rights and gender rights are respected and 
enforced.
            United States Agency for International Development
    The USAID-funded Afghanistan Rule of Law Project assists in the 
development of a democratic Afghan government, which has broad citizen 
participation and a vigorous economic sector, by improving the 
country's legal infrastructure.
    Working with the Ministry of Justice and the Supreme Court, as well 
as with faculties of law and Sharia in five provincial universities, 
the project works to: improve the formal court system; strengthen 
institutional capacity for lawmaking, and increase citizens' awareness 
of their legal rights and how the judicial system operates.

    The project is divided into seven components:


   Court administration. Simplifies and standardizes court 
        administration procedures to improve access to court 
        information

   Judicial Training and Professional Development. Creates 
        opportunities for improving judicial professionalism, knowledge 
        and skills

   Commercial Dispute Resolution. Lays a foundation for the effective 
        resolution of commercial disputes

   Legal Education. Strengthens the formal legal education system

   Legislative Process Reform. Improves the legislative process and 
        access to legal information

   Women's Rights Under Islam. Increases knowledge of women's rights 
        under Islam

   Access to Justice and Building Links to the Informal Justice 
        Sector. Ensures that the appropriate sector for resolving 
        disputes is recognized


    USAID is also working to assist the Afghan government in fighting 
corruption. Judicial corruption remains endemic in Afghanistan. Since 
his appointment to the Supreme Court in August 2006, Chief Justice 
Abdul Salam Azimi has made cleaning up the courts his top priority. He 
has instituted an aggressive, two-pronged approach to reduce the level 
of corruption in the courts and to raise the level of public trust and 
confidence in the judiciary. The strategy includes instituting a new 
code of conduct for judges and raising judges' salaries so they are 
more immune to bribery.


    The New Regulation of Judicial Conduct. The first part of the 
Supreme Court strategy focused on developing a modern code of judicial 
conduct that establishes ethical standards for how all of Afghanistan's 
judges are to conduct their affairs. On June 19, 2007, that code, 
entitled the Regulation of Judicial Conduct for the Judges of the 
Islamic Republic of Afghanistan, was adopted. Each of Afghanistan's 
1,280 judges will receive training on the Regulation's meaning and 
importance by the end of September 2008.

    Improving Judicial Salaries and Working Conditions. The second part 
of the strategy focuses on securing funds from the international 
community to increase judges' wages and improve their working 
conditions so that they are less inclined to accept bribes. Donor money 
for judges' salaries was incorporated as one of the court's highest 
funding priorities this past July, when the Supreme Court presented its 
Afghanistan National Development Strategy (ANDS) to international 
donors at the Rome Conference on the Rule of Law in Afghanistan, July 
2-3, 2007.


    Starting in 2007, the Supreme Court also began sending its justices 
on inspection tours of provincial courts to ensure they are in 
compliance with judicial regulations. The inspections are followed by 
three-day conferences, where the visiting Supreme Court justice will 
discuss the inspection results, recent or coming changes in court 
policy and operations. Judges participating in these conferences, which 
are supported by the Afghanistan Rule of Law Project (ARoLP), also 
receive training in the Regulation of Judicial Conduct and the recently 
adopted Afghan Court Administration System (ACAS) for streamlining the 
courts' case-management processes.
            Department of Justice
    Since 2005, the Department of Justice DOJ has assigned up to four 
senior Assistant United States Attorneys as Senior Legal Advisors and 
three senior experienced criminal investigators to Kabul to assist in 
law reform and training and mentoring of the Criminal Justice Task 
Force (CJTF) and the Central Narcotics Tribunal (CNT), a special task 
force of Afghan judges, prosecutors, and police investigators 
responsible for cases against mid- and high-level drug traffickers. 
DOJ's Senior Federal Prosecutor Program also provides criminal law 
advice to the Embassy and Afghan leadership and U.S. law enforcement, 
upon request. The prosecutors have succeeded in 1) drafting and 
enacting a comprehensive counternarcotics law that also provides for 
the use of modern investigative techniques (e.g., electronic 
surveillance, and the use of informants and undercover officers); 2) 
establishing a specialized narcotics court with nationwide exclusive 
jurisdiction for cases against mid- and high-level traffickers; 3) 
achieving the first-ever extraditions (of major drug traffickers) from 
Afghanistan to the U.S., and 4) working with our U.S, and international 
partners to establish, train, and mentor the CJTF and CNT.

    More specifically, DOJ's prosecutors have:


    1. Drafted (in consultation with Afghan legal advisors, DOJ's 
Criminal Division, and the international community) and had signed into 
law a Comprehensive Counter-Narcotics Law that builds upon former 
Afghan law to criminalize all narcotics and narcotics-related offenses, 
sets controls on processing chemicals, authorizes the use of modern 
investigative techniques, and confirms the use of the 1988 U.N. 
Convention against Narcotics and Psychotropic Substances in 
extradition;

    2. Drafted and had signed into law the Presidential Decree 
establishing the Central Narcotics Tribunal with exclusive nationwide 
authority for the trial of all mid- and high-level narcotics 
trafficking cases;

    3. Refined and had signed into law the Military Courts Legislation 
and Military Courts Penal and Procedural Law that established a 
separate court and its law and attendant procedures for the Afghan 
National Army that meet international standards;

    4. Drafted counter-terrorism and extradition laws now under review 
by the Afghan legislative unit at the Ministry of Justice;

    5. Prepared a legal analysis of Afghanistan's former, interim, and 
proposed criminal procedure codes, highlighting areas for reform;

    6. Deployed a DOJ expert team to Kabul to assess current capacities 
and make recommendations for assisting the Afghan Attorney General and 
the CJTF with an anti-corruption initiative. As a result, DOJ has now 
assigned one of the federal prosecutors full-time to the Attorney 
General's Office and will be establishing a sub-unit within the CJTF 
dedicated to investigating and prosecuting narcotics-related corruption 
cases upon country clearance approval from the Department of State for 
additional DOJ attorneys;

    7. Provided and continues to provide prosecutorial advice to the 
Embassy leadership, Afghan officials, and U.S. law enforcement (DEA and 
FBI) and prosecutors in the development of criminal investigations for 
prosecution in Afghanistan, the U.S., or elsewhere;

    8. Prepared an in-depth training regime and conducted training for 
the CJTF and CNT focused on the new Afghan Counternarcotics Law and 
proactive investigations. In addition, the DOJ attorneys provide in-
depth special topics seminars for the CJTF, CNT, and provincial 
prosecutors on regular basis to improve understanding of fundamental 
concepts and the implementation of investigative modern techniques;

    9. Advised on the design of Afghanistan's Counter-Narcotics Justice 
Center in Kabul that is under construction and will soon house the CJTF 
and CNT;

    10. Assisted in the development of an adjunct project by the U.S. 
Marshals Service that has been deployed to train a protective corps 
drawn from the Afghan National Police to provide court security at the 
CNT and protection to CNT judges and CJTF prosecutors; and

    11. Coordinated with Department of Defense/Combined Joint Task 
Force-82 (CJTF-82) authorities regarding counternarcotics and 
counterinsurgency operations in Afghanistan.
            Department of Defense
    The Department of Defense has increased its activities in providing 
rule of law assistance over the past year in two main areas: improving 
linkages between the justice and police sectors, and expanding rule of 
law programming by the Judge Advocate General Corps in eastern 
Afghanistan.
    On police-justice integration, Combined Security Transition 
Command--Afghanistan (CSTC-A) has played an important role in 
furthering joint initiatives to support the justice sector and CSTC-A's 
primary mission, building the Afghan National Police and the Ministry 
of Interior (MOI). In this capacity, CSTC-A has advised the MOI Legal 
Advisor's Office on key legislation and procedures that govern law 
enforcement, and is working closely with other US agency efforts and 
the international community on advancing overall justice sector 
development and reform.
    In addition, Combined Joint Task Force--82 (CJTF-82) is 
implementing rule of law initiates in its area of operations under 
NATO's International Security Assistance Force (ISAF) in Eastern 
Afghanistan. CJTF-82 has worked with the US Embassy and programs listed 
above on legal training, distribution of legal texts, and 
infrastructure support to improve provincial and district level justice 
systems.


    Question 34b. What assistance has the international community 
provided to date and in what areas of the country has it been applied, 
with the exception of police training?

    Answer. The international community has been a key partner in the 
justice sector. Unfortunately, the enormous gaps in the justice system 
overwhelm the capacity of any single donor; as a result, there is a 
proliferation of small-scale donor assistance programs. The National 
Justice Program and its subordinate multilateral implementation 
mechanisms will likely reduce the number of bilateral programs at the 
central level over the coming years, as donors' small contributions are 
pooled. This will also reduce the number of actors involved in 
institutional reform over the next several years. The primary donors at 
present include Canada, the United Kingdom, the United States, Germany, 
Italy, and the European Commission. Key implementers include direct-
hire international officials (such as prosecutors), various United 
Nations agencies, NGO's, and government contractors.
    The focus of the international community to date has been on 
building and reforming the Kabul institutions, though progress has been 
slow. Major accomplishments include advancing reforms in the Ministry 
of Justice, progress on reforming and amending the legislative 
framework for governance, improving detention conditions for women and 
juveniles, training for prosecutors and judges, and construction of 
justice facilities and prisons. The United Kingdom has been a key 
partner in the area of corrections and counter-narcotics justice. The 
Italian Government completed the National Legal Training Center in 
2007, with support from the U.S., which is currently home to a judicial 
training program.
    Some donors have launched provincial justice programs, including 
the U.K. in Helmand, Canada in Kandahar, and Germany in Balkh and 
Konduz. Others, such as Italy, have launched provincial assistance 
programs based out of Kabul, but have not established provincial 
advisor teams. Thus, the U.S. is the only donor that has deployed 
advisor teams across the nation. The hope is that with additional 
commitments from the Rome Conference and the establishment of the 
Provincial Justice Coordination Program, the number of donor programs 
outside of Kabul will increase.


    Question 34c. What is the State Department assessment of the status 
of the Afghan judicial system from the district to national level? How 
many narcotics cases have been brought to trial in 2007 by region? How 
many have been sentenced?

    Answer. The GIRoA has made strides in drafting and consolidating 
the National Justice Sector Strategy (NJSS). However, 
disproportionately low salaries, widespread corruption, poor 
infrastructure, inefficient organizational structures, untrained 
professionals, and a lack of equipment and supplies plague the system.
    To ensure the integrity of legal reform, the justice sector must be 
built out from the center to ensure standardized training and 
application of laws. At the same time, we must build the 34 provincial 
justice systems, which at present remain very weak and have limited 
capacities to administer justice effectively. Many districts don't have 
courthouses or prosecutors due to infrastructure gaps, and to the fact 
that judges and prosecutors with jurisdiction over the districts often 
reside in the provincial capital. Detention centers and prisons can be 
found in most districts and provinces, though many are rented houses 
and are unacceptable in terms of living conditions. Furthermore, 
Afghans frequently turn to the informal justice system to resolve their 
disputes, which do not always adhere to the constitutional rights of 
citizens, particularly women.
    On a positive note, the central justice institutions have competent 
leaders willing to work with the international community. Several key 
laws have been passed or are being revised that will lay the foundation 
for the justice sector, and the institutions are generally being 
supportive of organizational restructuring and civil service reform.
    In addition, the GIRoA is advancing narcotics prosecutions under 
the Central Narcotics Tribunal (CNT) and Criminal Justice Task Force 
(CJTF) in Kabul. Since March 2005, when the CJTF was set up, it has 
investigated and prosecuted over 1200 cases involving 1600 defendants 
from 33 provinces for narcotics-related crimes. Of these, 1450 
defendants were convicted. Convictions include the high-level narcotics 
traffickers Misri Khan, Bahram Kahn, and Noor Ullah who are currently 
serving their sentence in Afghanistan. Other Afghan high-level 
narcotics traffickers have been sent to the United States for 
prosecution and are awaiting trial, sentencing, or are serving their 
sentence. They include Haji Bushehr Noorzai, Haji Baz Mohammad, 
Mohammad Essa, and Khan Mohammad. The President of the United States 
had designated two high-level traffickers--Noorzai and Baz Mohammad--as 
foreign narcotics kingpins under the Foreign Narcotics Kingpin 
Designation Act.
    To effectively move the justice sector forward, the GIRoA and 
international community must carefully build and balance the central, 
provincial and district levels in a coordinated manner. At the central 
level, our programs and Embassy are working closely with the Afghan 
Government and international community, and are making progress. At the 
provincial level, our programs are leading the way, but the needs far 
exceed available donor resources and programs at present. At the 
district level, there are few justice systems in the first place, but 
we are launching a plan to train district-level personnel at the 
provincial level starting in the summer of 2008. In summary, we are 
making notable progress and have carefully prioritized our U.S. 
Government assistance programs, though the overall needs of the justice 
sector and demands placed on it outpace available international 
resources.
MEPI


    Question 35. Please describe the scope of intended Middle East 
Partnership Initiative (MEPI) programming. Have there been any 
substantive or organizational changes to MEPI?

    Answer. MEPI programs seek to redress the deficits in the region 
associated with unaccountable governments, weak educational systems, 
inadequate government services, lack of political and economic 
opportunities for women, poor governance, and economies that provide 
insufficient job opportunities for young people.
    There have been no substantive or organizational changes to the 
Middle East Partnership Initiative. MEPI programs are still focused on 
four primary areas:


    1. To promote democratic reform by providing technical assistance 
for parliamentary and municipal elections; supporting and training 
political parties and candidates; aiding democratic reformers and 
activists; assisting local NGOs with voter education, reform advocacy, 
and popular mobilization behind the reform agenda; and expanding 
independent media, civil society, and rule of law programming.

    2. To advance women's empowerment by promoting women's political 
and economic rights, providing increased professional development 
opportunities and political training, helping secure women's equal 
rights under the law, and building public-private partnerships that 
champion women's issues.

    3. To enhance the existing business environment and encourage 
private sector-led economic growth by assisting political, judicial, 
regulatory, and commercial leaders in making improvements to their 
policies, laws, and organizational structures.

    4. To revitalize education systems to improve curriculum content 
and delivery, increase students' awareness of civic rights and 
responsibilities, and develop their leadership and critical thinking 
skills.
Merida Initiative
    According to U.S. Director of National Intelligence Michael 
McConnell, Venezuela is undermining counterdrug efforts in neighboring 
countries by serving as an increasingly frequent transit zone for 
Colombian cocaine. In 2005, the Government of Venezuela ended its long-
standing cooperative relationship with the US Drug Enforcement Agency, 
claiming DEA agents were nothing but American spies. Since that year, 
President Bush has continually designated Venezuela as having ``failed 
demonstrably'' in certification for his annual report on the major drug 
producing and/or transit countries.


    Question 36. How have actions undertaken by the Government of 
Venezuela undermined success in U.S. counternarcotics assistance to 
Colombia (Plan Colombia)? What are the potential implications for the 
Merida Initiative and Central American Security Assistance (CASA) 
programs?

    Answer. The Government of Venezuela's unwillingness to cooperate 
creates opportunities for drug trafficking organizations to resist and 
evade U.S.-supported counternarcotics efforts in Colombia and the 
region as a whole. The Venezuelan government has not systematically 
policed the 1,400-mile Venezuelan-Colombian border to prevent the 
movement of groups of armed terrorists or to meaningfully interdict the 
flow of arms and illicit narcotics. Particularly damaging has been 
President Chavez' ideological and political tolerance of the 
Revolutionary Armed Forces of Colombia (FARC) and the National 
Liberation Army (ELN) terrorist organizations which finance their 
activities through the proceeds of drug-running. As a result, Venezuela 
has failed to prevent its territory from being used as a safe haven by 
the FARC and the ELN, effectively flouting UN Security Council 
Resolutions 1373 and 1540. FARC and ELN units often cross into 
Venezuelan territory to rest and regroup with relative impunity. It 
remains unclear to what extent the Venezuelan government provides 
material support to Colombian terrorists. Limited amounts of weapons 
and ammunition--some from official Venezuelan stocks and facilities--
have turned up in the hands of Colombian terrorist organizations. 
Regardless, it is clear that a conscientious partner in Venezuela would 
increase the effectiveness of U.S. counternarcotics assistance to 
Colombia.
    Because Venezuela is not fully cooperating in the fight against 
narcotics traffickers, there is a gap in our regional line of defense. 
That line should run in a semi-circle around the Caribbean, giving drug 
runners no space to ply their trade. The break in the line of defense 
puts everyone more at risk and complicates our approach at every turn. 
The evidence is clear.
    As for the second question, while the Venezuelan government's 
unwillingness to cooperate may assist the narcotics traffickers, the 
Merida Initiative demonstrates the commitment of the United States and 
our partners in Mexico and Central America to work together to confront 
the criminal organizations that plague the region and spill over into 
the United States. By focusing our efforts in Mexico and Central 
America, we can deny these groups the bulk of the territory they 
currently use to transit narcotics and other contraband, regardless of 
the Venezuelan government's unwillingness to cooperate.


    Question 37. You have a 19% vacancy rate across NEA, which some 
would suggest is a key region in the war on terror. Can you explain the 
trendline on this? In Iraq, you have made extensive use of temporary 
hires to fill State Department positions. Many of these individuals are 
very impressive. Nevertheless, with recruiting, training and especially 
overtime pay, this is tremendously costly. Have you put a cost figure 
to the savings that replacing temporary personnel with Foreign Service 
officers will bring you over a year?

    Answer. The Department has done its best to staff Foreign Service 
positions at overseas posts, particularly those deemed as high priority 
to meet our policy goals. The overall overseas vacancy rate of 13 
percent demonstrates the deficit of midlevel Foreign Service personnel 
due to hiring shortages in the 1990s. The 19 percent vacancy rate in 
Near East Asia (NEA)--while appearing slightly higher than the overall 
overseas rate--does not take into consideration the more than 60 
Foreign Service generalists and specialists who have volunteered to 
serve in Iraq and been sent on long or short-term temporary duty (TDY) 
assignments from other overseas posts or from Washington. These TDY 
Foreign Service employees are filling high priority jobs in Iraq and 
other posts--though that means the positions they left behind in other 
overseas posts or in Washington remain empty, as there are not enough 
Foreign Service personnel to backfill.
    The 19 percent vacancy rate referred to above was derived from a 
calculation that considered only the status of permanent Foreign 
Service positions at Near East Asia (NEA) posts. Positions designated 
for employees of and within the Iraq Transition Support Office (ITAO), 
a 5 U.S.C. Sec. 3161 temporary organization, or positions staffed by 
other federal agencies were not counted. We have not used ITAO 
employees to fill vacant Foreign Service positions.
    The cost of filling Iraq positions with Foreign Service officers on 
temporary duty is not significantly higher than assigning them to Iraq 
on a permanent basis. Because these employees are recruited from within 
the existing Foreign Service corps, there are no additional recruiting 
costs. The costs associated with training and overtime are the same for 
employees on permanent assignment or TDY. All Foreign Service personnel 
going to Baghdad on permanent assignment or TDY are required to take 
training courses to prepare them for their responsibilities in Iraq and 
its security environment. Whether on TDY or permanently assigned, 
untenured Foreign Service officers and specialists are eligible for 
overtime pay for hours worked beyond the normal 40 hours work week and 
tenured Foreign Service personnel, who are not entitled to overtime, 
may be eligible for a special differential. The main differences in the 
cost of permanent assignment versus TDY relate to the eligibility for 
locality pay or Involuntary Separate Maintenance Allowance and not to 
recruiting, training, or overtime.


    Question 38. A Washington Post article critical of the SIGIR 
operations noted the extensive overtime pay claimed and paid to its 
temporary employees. Do State Department temporary employees earn the 
same pays? How many hours on average does a 3161 employee claim in a 
week?
    How many 3161 hires are working on Iraq for the Department of 
State--both in country and elsewhere? What is the annual cost of the 
average 3161 hire--including overtime, care and feeding, travel 
expenses and other compensations?
    Can you describe how you recruit 3161 hires with specialties 
suitable for Iraq missions? What advertising do you do and where?
    Do State Department temporary employees earn the same pay?

    Answer. Compensation paid to employees hired under 3161 
appointments is based on the grade of the position. Grades are 
determined according to OPM classification standards and pay rates are 
equivalent to General Service (GS) employees with similar levels of 
responsibilities. 3161's receive the same benefits as GS employees. Our 
3161 employees are paid overtime based on hours submitted, although the 
hourly pay for overtime is straight time and not time and a half.


    Question 39. How many hours on average does a 3161 employee claim 
in a week?

    Answer. Taking a sample of two pay periods, the average overtime 
hours per pay period was 34 hours for 145 Baghdad employees and 4 hours 
for 14 DC employees.


    Question 40. How many 3161 hires are working on Iraq for the 
Department of State--both in country and elsewhere?

    Answer. As of February 2008, there are currently 156 3161 hires 
working in Iraq and an additional 25 3161 hire in Washington, DC.


    Question 41. What is the annual cost of the average 3161 hire--
including overtime, care and feeding, travel expenses and other 
compensation?

    Answer. These positions run from the equivalent of a GS-9 to that 
of a Senior Executive Service position (there are only 5 such 
positions). The average salary is $107,800 (taking the total salary of 
all 3161's and dividing it by the number of such employees)--related 
costs are as follows:


               Salary and Related Costs of 3161 Employees
                            (in U.S. dollars)
------------------------------------------------------------------------
                                        Employees          Employees
                                      located in DC     located in Iraq
------------------------------------------------------------------------
Base pay..........................           $107,800           $107,800
Overtime for Baghdad Employees....                               $45,814
Overtime for DC Employees.........                                $5,389
Post differential (35% of pay)....                               $37,730
Danger pay (35% of pay)...........                               $37,730
Costs for food and lodging in Iraq                               $60,000
Initial deployment travel and                                     $4,600
 miscellaneous costs..............
Initial training costs............                                $3,500
Annual cost of travel for rest/                                   $8,300
 consultation breaks..............
Return travel at end of                                           $2,200
 appointment......................
Unaccompanied Air Baggage.........                                $2,200
  Total...........................        $113,189.00        $309,874.00
------------------------------------------------------------------------



    Question 42. Can you describe how you recruit 3161 hires with 
specialties suitable for Iraq missions? What advertising do you do and 
where?

    Answer. Our main source of recruiting is USAJobs, the OPM website. 
However, we have also advertised on other on-line job banks such as 
Monster, CareerBuilder, and engineeringjobs.net. As needed, we also 
meet with officials and advertise on websites connected with 
professional organizations such as the Government Finance Officer 
Association, the Foreign Policy Association, and American Banker's 
Association.


    Question 43. In Irbil, there has been a plan to move the RRT 
(Regional Reconstruction Team) to the Korean base. What are the 
advantages to this? Some have expressed concern that this will further 
isolate the team from interaction with Iraqis, NGO's and other 
visitors.

    Answer. RRT Erbil is a Coalition unit. The operation in the city of 
Erbil was always intended to be temporary. The plan was to get the team 
up and running while the site at the Korean base, about 10-20 minutes 
away from the current location, is being prepared. The current offices 
in the city are too small to house all the elements of the RRT. In 
addition, following the massive truck bombing in Erbil, the RSO 
determined that the site in the city of Erbil where the team works and 
lives is too vulnerable. The work to prepare the new site at the Korean 
Camp is now underway and with completion scheduled for August, after 
which employees will be housed on the base. The former site in the city 
of Erbil has been retained as an office and meeting site in order to 
facilitate frequent and convenient interactions with Iraqi 
counterparts, but the USG personnel will live in safer conditions at 
the Korean base. While some have voiced concern that Iraqis will not be 
as likely to visit the Korean site, our experience in REOs Al-Hillah 
and Basra tell us that this is not the case. Both sites host frequent 
meetings with Iraqi counterparts and are in areas are much less 
hospitable than the Korean base.


    Question 44. This morning the Parliament passed the 2008 Budget, 
the Amnesty Law and the Provincial Powers law. This is a tremendous 
accomplishment for the Iraqi Parliament. Do you see any hope for the 
Hydrocarbon Laws with the Minister of Oil and the Kurds taking such 
strong and potentially poisonous stances?
    It appears that the Iraqis are coming to practical pragmatic 
accommodations to work through major legislative and political issues, 
and perhaps the Council of Representatives is finding its feet and 
working through the building blocks that will ``bring Iraqis together 
as Iraqis.'' At the top, they are using almost 3+1 collaborative 
government whereby Prime Minister Maliki, President Talabani, and the 
two Deputy Prime Ministers (Hashimi and Abdel Mahdi) come to a 
consensus before moving forward. Can you comment on how this is viewed 
within the Iraqi body politic? Is this sustainable?

    Answer. Political reconciliation is an essential component of a 
peaceful, stable, and democratic Iraq. Iraqi leaders are working to 
reach a political accommodation among the various parties in Baghdad, 
and as importantly, in the provinces. Iraqis still struggle with 
fundamental questions about how to share power, accept their 
differences and overcome their past. Most Iraqis genuinely accept Iraq 
as a multi-ethnic, multi-sectarian society.
    The Executive Council (which embodies the process formerly known as 
the 3+1 power sharing agreement), made up of the Prime Minister, the 
President, and the two Vice Presidents, met for the first time in 
January 2008. They have since established a secretariat and are meeting 
regularly. These events show that Iraq's leaders recognize that to 
achieve national reconciliation and political progress, they must 
cooperate across sectarian, party, and institutional lines. Iraqis 
prefer to see their political leaders work together toward common 
goals; effective power sharing is one area in which Iraq's leaders can 
meet the expectations of their citizens.
    The United States Government is engaging with leaders from both 
sides at a high level to encourage them to address the unresolved oil 
law issues, which relate to authority to approve contracts and how 
revenue will be shared. Despite the disagreements by both sides this 
past year, we believe a settlement is still possible, because until a 
national law is ratified, all parties face enormous legal obstacles to 
developing the hydrocarbon industry and the KRG cannot export any crude 
oil. The United States Government continues to discourage the KRG from 
signing deals until a national law is ratified.
    We will continue our efforts to assist Iraqis in the pursuit of 
national reconciliation, while recognizing that progress on this front 
may come in many forms and must ultimately be achieved by Iraqis 
themselves.
UNAMI


    Question 45.  I am pleased at the news that UNAMI has taken on work 
to help resolve the Article 140 issues in Iraq. Increased UN activity 
in Iraq can only be good, and they have a long hill to climb to 
overcome the scars from the Canal Hotel bombing and the Oil For Food 
scandal. What can we do to help them with their transportation needs--
specifically airlift? We have been informed that DoD cannot provide a 
dedicated aircraft to support their needs.

    Answer. The U.S. welcomes the increased UN involvement in Iraq 
since the adoption of their expanded mandate in UNSCR 1770. Staffan de 
Mistura, the new Special Representative of the Secretary General 
(SRSG), and his staff are to be commended for the work they are 
undertaking in difficult circumstances. Plans to increase UN staffing 
in Baghdad and in Erbil are further positive steps.
    The Department of Defense (DOD) has supported UNAMI's 
transportation requests over the past seven months. At the same time 
UNAMI is signing logistical support contracts with international 
corporations and securing the lease of an aircraft. DOD will continue 
to provide the maximum possible support to UNAMI's mission while the UN 
works to get a contract carrier in place. The SRSG appreciates the 
transportation being provided by the U.S.
    The U.S. will continue to support UNAMI. We will also urge other 
member states to maintain and expand their assistance to ensure the 
success of the UN mission in Iraq, and to respond favorably to SRSG de 
Mistura's appeals for logistical and other assistance.
Regional Support


    Question 46. I noted your announcement that the Kuwaitis would be 
hosting another Neighbors' Summit. This is encouraging; nevertheless, 
short of hosting refugees, we have seen no additional reports of 
concrete activities taken by Iraq's neighbors (the sending of 
ambassadors, assistance, calling of regional working groups, etc.) What 
headway are the Iraqis making in getting along with their Arab 
neighbors?

    Answer. The Government of Iraq is making considerable headway in 
getting along with its neighbors, but admittedly, there is still room 
for improvement. Over the last year, the Expanded Neighbors of Iraq 
process has emerged as a forum in which Iraq's neighbors, and others in 
the international community, can address the political and security 
challenges facing Iraq. As you note, the next Ministerial is scheduled 
to take place in Kuwait in April, with working groups hosted by Jordan, 
Syria and Turkey convening sometime in March.
    Arab states need to do more to increase support for the Government 
of Iraq. We continue to urge them to openly demonstrate their support 
on a bilateral basis by opening diplomatic missions and sending 
ambassadors. We are starting to see some progress in this area; during 
a January 15, 2008 press conference in Riyadh, Saudi FM Prince Saud al 
Faisal reiterated his government's commitment to re-open a diplomatic 
mission in Baghdad and post a resident ambassador. The Saudis have 
since sent a delegation to Baghdad to discuss possible embassy sites. 
This is welcome progress, and we are actively encouraging other 
countries to take similar steps.
    The launching of the International Compact with Iraq (ICI) 
represented a major step forward in Iraq's economic integration into 
the international community and its neighbors played a significant role 
in this process. Kuwait, the United Arab Emirates and Saudi Arabia were 
members of the Preparatory Group that drafted the ICI. The UAE hosted 
the conference where the broad outlines of the ICI were agreed, and 
Kuwait hosted the conference in October 2006 where the final text of 
the ICI was adopted. Egypt hosted the launching of the ICI with more 
than 70 countries and international organizations in attendance.
    Iraq's neighbors have also been helpful in other ways when it comes 
to assistance. Kuwait and Iraq recently signed a memorandum of 
understanding providing $160 million of Kuwaiti economic assistance to 
Iraq, and Saudi-Iraqi negotiations on debt forgiveness continue.
    Saudi and Iraqi officials have met to discuss security issues, and 
the Saudis are working to stop the flow of foreign fighters to Iraq. We 
continue to urge them to intensify their efforts.


    Question 47. I was pleased to hear that this morning the 
legislature passed the 2008 Iraqi budget, which reports estimate at 60 
trillion Dinar, or about $50 billion. Charts that the Committee has 
received indicate that oil revenues have steadily increased from $31.3 
billion in 2006 to $41 billion in 2007. January 2008 figures show $5.21 
billion generated in 2008 already, with exports expected to rise. Can 
you provide further detail on Iraq's budget situation, cash on hand, 
etc, including prior years unexpended funds? How much do they retain in 
cash reserves? Please include all provincial and ministerial 
allocations and disbursements.

    Answer. On account of high oil prices and increased export levels 
in the second half of the year, the Government of Iraq (GOI) earned 
significantly more in 2007 than projected. Early estimates indicate 
that the GOI received over $37 billion in oil revenues, compared to $31 
billion projected in the 2007 budget.
    With higher-than-expected revenue, the Ministry of Finance has 
accumulated cash balances at the Development Fund for Iraq (DFI). 
According to the International Monetary Fund (IMF), the DFI balance is 
currently estimated at $12.5 billion. The money in the DFI represents 
the funds on which the Iraqi Government can draw to pay for its 
expenditures.
    The GOI will use part of these funds to cover projected 2008 
deficits, which are estimated to be $6 billion. The GOI needs to 
maintain a reserves cushion in the DFI going forward because of the 
volatility of the oil sector, which contributes 90 percent of budget 
revenue.
    In separate accounts, the foreign currency reserves at the Central 
Bank of Iraq (CBI) have reached $27 billion. These funds are controlled 
by the CBI, which is an independent institution. CBI reserves support 
monetary policy, not GOI expenditure. The current IMF Stand-By 
Agreement sets a floor of approximately $21 billion on net 
international reserves for the CBI. The Central Bank Law prohibits CBI 
lending to the Ministry of Finance for budget purposes or to other 
government entities. These reserves will also be used for Iraq to 
finance large external debt service payments beginning in 2011. Debt 
service to the Paris Club will exceed $3 billion in 2011, and required 
debt repayments will increase in later years as non-Paris Club and 
commercial debt repayments come due.
    The 2008 GOI Budget, which was passed by the Council of 
Representatives on February 13, projects $42.5 billion in revenues and 
allocates $48.4 billion for expenditures. The GOI is increasingly 
allocating its revenues for security and capital investment. The 2008 
budget allocates $9 billion to security ministries and $13 billion for 
capital projects and reconstruction. This represents a 23 percent 
increase and a 29 percent increase, respectively, over 2007 allocations 
in these areas. Oil revenues in the 2008 budget are based on oil prices 
of $57 per barrel and oil exports of 1.7 million barrels per day. If 
oil prices remain high, it is likely that the budget deficit for 2008 
will be less than the projected $6 billion.
    Regarding prior year unexpended funds, complete GOI expenditure 
data for 2007 is not yet available; expenditure data in Iraq as 
elsewhere takes time to consolidate. However, a recent unofficial 
Ministry of Finance (MoF) special report on capital expenditures 
indicates that, through October 31, 2007, the Iraqis had contributed 
over $6 billion of their own money to capital projects and 
reconstruction at the national, regional, and provincial levels in 
2007. This includes central government ministries expending 37 percent 
of their 2007 capital budgets, the Kurdistan Regional Government 
expending 89 percent of its 2007 capital budget, and provincial 
governments expending over 57 percent of their combined 2006 and 2007 
capital budgets, through October 31, 2007.
    While the ability of the GOI to spend its own resources improved 
substantially in 2007, the two year old government still suffers from 
maturing budgetary processes, leaving it unable to execute its entire 
2007 capital budget. Residual funds can be used in 2008 or revert to 
the DFI. The serious challenges to capital budget execution continue to 
include the security environment, corruption, fear of corruption 
charges, lack of clarity on budget execution rules and responsibilities 
and, in many cases, a lack of technical expertise. U.S. Embassy 
officials and Provincial Reconstruction Teams continue to work with 
central government and provincial officials to improve this picture 
through building technical capacity on budgeting and budget execution.


    Question 48.  Reports received by the Committee suggest that on 
average, Iraqi ministries are ineffective, they lack management skills, 
budgetary controls, executive capacity, they fail to cooperate with 
each other, management is not empowered, and much worse they continue 
to fail in delivery of basic services. This is dire news. Do the Iraqis 
recognize this? Roughly how much has the United States spent to improve 
ministerial capacity over the past five years? How much is left in the 
current contract? What do you estimate to be the most effective 
programs?

    Answer. Iraqi Government ministries have made progress, in some 
cases very significant progress, over the two years of their existence. 
The maturing institutions are improving their capacity to deliver 
essential services to the Iraqi people. These ministries are making 
progress both at the national level, and in their regional offices, 
which are helping improve delivery of services in the provinces. There 
is no question that the record of achievement is mixed, with some 
ministries performing better than others, and all the ministries 
continue to face significant challenges. Over the past two years, 
security has posed a challenge for USAID contractors working with some 
of these ministries. Also during this period several ministries 
objected to working with the USG. With the improvement of security on 
the ground, and changes in some ministers, we have largely been able to 
overcome these difficulties.
    Despite these constraints, the Embassy and USAID have identified a 
number of alternative and creative approaches to deliver assistance. 
The National Capacity Development Program (NCDP) involves engagement on 
the part of the Embassy and USAID with the leadership and working-level 
civil servants at the Iraqi ministries. The Iraq Transition Assistance 
Office (ITAO) oversees several short-term projects organized to enable 
rapid response to immediate priorities. These projects, the program 
administered by USAID (Tatweer) and the Embassy's Rule of Law program 
are designed to assist Iraq's transition to self-sufficiency by 
enabling the government to provide security, to ensure the rule of law, 
to deliver essential services to the Iraqi people, and to develop a 
market-driven economy through democratic processes.
    USAID's Tatweer program is designed to meet this goal by developing 
the skills and qualifications of public servants through public 
management and administration training. In addition to working with key 
ministries to improve their ability to carry out core functions, such 
as strategic planning and policy development, budgeting, training, and 
managing a personnel system, CD programs are also being implemented in 
the Prime Minister's and Deputy Prime Minister's offices as well as the 
Council of Ministers' Secretariat. Tatweer is a three-year program with 
an award ceiling of $209.5 million. To date, USAID has received 
$205,000,000 to support ministerial capacity development programs.
    In January 2008 the Embassy's Ministerial Engagement Team concluded 
an informal assessment of the 11 civilian ministries participating in 
USAID's Tatweer program and ITAO's short-term national capacity 
development programs. This informal assessment covered the period of 
January 2006 through December 2007. Across the board, improvement was 
noted in the areas of budget execution, contracting and procurement. 
These findings are confirmed by the increased national spending rates. 
The January ministerial assessment revealed that in the areas of 
technology development, strategic planning, and human resource and 
workforce management, weaknesses exist. We are working with our 
implementers, international partners and the Government of Iraq to 
address shortcomings.
    Our capacity development programs do not stop at the national 
level. Our Provincial Reconstruction Teams (PRTs) are instrumental in 
strengthening provincial government capacity to transparently allocate 
and spend their capital budgets through direct US technical assistance 
and training and by fostering working relations with national 
ministries. In 2006 and 2007 the central government channeled over $3 
billion to the provinces, of which over $2 billion has been spent. 
Acting as a driver of political reconciliation, the budget has drawn 
different partners to work together to improve the lives of Iraqi 
citizens. Another important outcome of PRT efforts has been to generate 
domestic, bottom-up pressure for improved ministerial performance. 
However, insurgents hurt the ability of the provincial governments to 
perform. Provinces with the lowest level of attacks in 2007 executed 
the highest portion of their budgets.
    The Provincial Reconstruction Development Council (PRDC) program 
and the Local Governance Program (LGP) are just two examples of ongoing 
provincial level capacity building programs implemented via the PRTs. 
The PRDC program helps develop local and provincial capabilities to 
plan and execute small-scale infrastructure projects using USG and 
Iraqi resources. USAID's Local Governance Program (LGP) builds the 
capacity of local political institutions at the governorate, district, 
sub-district, and neighborhood levels. Congress has allocated 
approximately $790 million for PRDC and $245 million for LGP in the 
2006 and 2007 supplementals.
Refugees


    Question 49.  Can you provide an update on Iraq's $25 million 
pledge to Syria and Jordan to help support its citizens who are being 
hosted by those governments? Are more contributions expected?
    Please describe US, Iraqi efforts to resettle families who wish to 
return. Are international organizations actively involved on the 
ground? Are the Iraqis willing to fund this further?
    The Administration has increased sanctions against Syria against 
reports that the Syrian government has been helpful to the Iraqis who 
have sought refuge there. How many refugees have been interviewed for 
processing by US teams in Syria? Do you expect the Syrians to 
reciprocate? What provisions have been made to ensure our DHS and State 
Department teams who have been working to process Iraqi refugees are 
not limited by new sanctions?

    Answer. The Government of Iraq pledged to provide $25 million in 
refugee assistance to Syria, Jordan, and Lebanon. The Iraqi government 
has delivered $15 million directly to the Syrian government and $2 
million to the Lebanese government. The $8 million allocated by Iraq 
for assistance to refugees in Jordan has not yet been disbursed. The 
Iraqi and Jordanian governments are still engaged in discussions about 
the mechanism through which these funds will be disbursed to support 
Iraqi refugees in Jordan. Senior GoI officials agreed with Under 
Secretary for Democracy and Global Affairs Paula Dobriansky during her 
visit to Baghdad on February 7, 2008, that the Iraqi government needs 
to do more for its vulnerable citizens displaced abroad.
    Recent reports from international humanitarian organizations 
caution that conditions for Iraqis displaced inside Iraq and in the 
region continue to deteriorate. These reports, along with the short-
lived spike in repatriation in late 2007, have focused GOI, USG, and 
international humanitarian community attention on the need to prepare 
for returns.
    The Iraqi Government has launched a number of initiatives to 
address displacement and repatriation. In the spring of 2007, the GOI 
announced that it would make one-time payments of one million Iraqi 
dinars, approximately USD 800, to displaced families who returned to 
their homes in Baghdad. Several thousand families received payments 
under this program before it was temporarily suspended. In late 
November, when there was a sudden surge in returns of both refugees and 
IDPs, the GOI, in coordination with the UN, launched the Joint Rapid 
Response Plan. This Plan is a pilot project to target assistance to the 
most vulnerable returnees.
    UNHCR provided funding of more than $10 million to assist returnees 
to Baghdad at that time.
    The USG, UN, and other international humanitarian organizations are 
also working closely with the Iraqi government to plan for returns. 
Embassy and MNF-I staff meet regularly with senior GOI and UN officials 
to urge the GOI to take a more pro-active role in preparing for large 
scale IDP and refugee returns, including the creation of a broad 
national policy, the identification of resources, and the creation of 
governmental coordination structures to manage returns. The USG has 
established an inter-agency working group in Washington, DC that 
focuses on planning for Iraqi returns and repatriation.
    The international humanitarian community is increasing its 
engagement as well. UN High Commissioner for Refugees Antonio Guterres 
announced during his visit to Baghdad on February 16 that UNHCR would 
increase its international staff in Baghdad from two to six people, 
including the senior-level Resident Representative. Commissioner 
Guterres also announced that UNHCR had proposed to join the GOI in 
assessing conditions for large-scale return of displaced Iraqis. UNHCR 
and the GOI are now discussing Terms of Reference for the proposed 
mission. A conference is also being planned to include the Iraqi 
Ministry of Migration (MoM), the UN, PRTs, USAID, the International 
Organization for Migration, and the U.S. Embassy. The goals of the 
conference are to further refine GoI policy on internally displaced 
Iraqis and to coordinate technical assistance to the MoM from the USG, 
its implementing partners, and the UN.
    Regarding Syria, we recognize that the Syrian government plays an 
important humanitarian role in hosting almost half of all refugees 
displaced in the region. The State Department has engaged the Syrians 
on this important humanitarian issue. Former Assistant Secretary for 
the Bureau of Population, Refugees and Migration Ellen Sauerbrey 
visited Damascus in March 2007 to discuss humanitarian and refugee 
issues. Ambassador James Foley, the Secretary's Senior Coordinator for 
Iraqi Refugee Affairs, traveled to Damascus in October 2007, where he 
reiterated our commitment to providing assistance to Iraqis living in 
Syria through the United Nations and our international partners, as 
well as our commitment to resettling particularly vulnerable refugees 
in the United States. Due to A/S Sauerbrey's and Ambassador Foley's 
efforts, we have an agreed framework with the Syrian Government and the 
UNHCR for carrying out U.S. refugee admissions processing in Syria.
    As of February 13, UNHCR had referred 6,451 Iraqi refugees in Syria 
to the U.S. Refugee Admissions Program, of which 2,483 individuals had 
been interviewed by the Department of Homeland Security. The remainder 
will be interviewed by DHS between March and July of this year.
    We would like the Syrians to do more; refugee processing in Syria 
is contingent upon the ability of DHS and State Department officials to 
continue to receive visas to enter the country, and we have asked the 
SARG to provide those visas as needed. We have also asked the SARG to 
allow our implementing partner in refugee processing, the International 
Organization for Migration (IOM), to bring in added staff necessary for 
training and processing. While the DHS visas have generally been 
granted, we have not had success with visas for IOM staff.
U.S.-Brazil MOU


    Question 50. What progress has been made on implementing the 
biofuels investment feasibility studies envisioned under the U.S.-
Brazil Memorandum of Understanding?

    Answer. We have identified nearly 30 possible feasibility studies 
and technical assistance projects across our four target countries: El 
Salvador, Haiti, the Dominican Republic, and St. Kitts and Nevis. 
Working with the target country governments and our consultants 
(Winrock International and Getulio Vargas Foundation), we identified 
eight priority opportunities, which involve feasibility studies and/or 
technical assistance in each of the target countries and have begun 
committing funds for each. The United States, Brazil, and our donor 
partners will support as many projects as possible in the coming 
months. Our consultants will continue to develop funding proposals for 
the remaining projects.


    Question 51. How much funding is required to implement the MOU?

    Answer. The eight current projects are budgeted at $2.5 million. 
The United States is collaborating with donors including the 
Organization of American States (OAS), Inter-American Development Bank 
(IDB), and United Nations Foundation that have expressed their 
willingness to contribute a total of $11 million. We are pleased with 
our commitments to date and do not foresee the need for additional 
funding.


    Question 52. Has the Brazilian government met their obligations 
under the MOU?

    Answer. Yes, the GOB has met its obligations, both in management 
and implementation of the agreement as evidenced by the strong progress 
across all three prongs of the MOU.
    To advance the bilateral R&D cooperation, the GOB sent a team of 
Brazilian scientists to the United States in September 2007 to visit 
U.S. Departments of Energy and Agriculture renewable energy labs and 
offered to receive a team of U.S. scientists for a reciprocal visit in 
the Spring or Summer 2008. We expect joint agreement on areas of 
cooperation and an implementation roadmap shortly after. Additionally, 
the U.S. Department of Energy and the Brazilian government (Ministry of 
Foreign Relations/Ministry of Science and Technology) initiated a 
bilateral project on the impact on greenhouse gases (GHG) from the 
expansion of ethanol production in the two countries. The National 
Renewable Energy Laboratory (NREL) and the State University of Campinas 
(UNICAMP, Brazil) are implementing this project.
    To advance regional cooperation, the GOB hired technical 
consultants from the Fundacao Getulio Vargas to assist target country 
governments in their long-term planning for biofuels development. The 
GOB has joined the United States in engaging diplomatically in the 
target countries and meetings with target country officials in the 
United States.
    To advance multilateral cooperation on standards and codes, the GOB 
established the International Biofuels Forum (IBF) in the fall of 2006. 
In addition to Brazil and the U.S., the IBF includes India, China, the 
European Commission (EC), and South Africa. The United States, GOB, and 
EC have advanced work on standards and codes through our respective 
standards bodies (NIST in the case of the United States). The results 
of the collaboration are summarized in the United States, Brazil, and 
the European Union Release Report on Biofuels Standards http://
www.nist.gov/public_affairs/biofuels_report_fact_sheet.pdf and the 
white paper is available at http://www.nist.gov/public_affairs/
biofuels_report.pdf.


    Question 53. Is the State Department planning to send the Congress 
proposed legislation for the U.S.-Brazil led biofuels initiative? Would 
authorizing legislation be useful in maintaining momentum for the 
initiative past January 2007?

    Answer. The Department currently has no plans to propose 
legislation to the Congress on this initiative. Given the broad support 
for the partnership, we do not anticipate barriers to continuing work 
beyond January 2009.

                               __________

                  Questions Submitted by Senator Boxer


    Question 1. In 2005, when you were Secretary of State, then 
attorney general Alberto Gonzales reportedly approved two secret memos 
specifically authorizing waterboarding, head slapping, and frigid 
temperatures. NBC News reported that you were aware of these secret 
memos. Were you aware of these memos? If so, did you agree with the 
decision to authorize waterboarding?
    Is waterboarding ever permitted under the U.N. Convention Against 
Torture?

    Answer. Although I would not comment on the accuracy that report, I 
was aware that the Department of Justice prepared legal opinions in 
2005 relating to the CIA interrogation program.
    As to the question whether waterboarding would be lawful, I would 
emphasize that there have been a number of changes in the law 
applicable to interrogation techniques, including enactment of the 
Detainee Treatment Act of 2005 and the Military Commissions Act of 
2006, and the promulgation of the President's Executive Order of July 
2007, which implement the Supreme Court's decision in Hamdan v. 
Rumsfeld (2006) that Common Article 3 of the 1949 Geneva Conventions 
applies to the armed conflict with al Qaeda. These provisions make 
clear that any techniques within the CIA program must comply with the 
legal prohibitions on torture, cruel, inhuman and degrading treatment, 
and the humane treatment requirements of Common Article 3. Were any 
U.S. agency or person to propose the use of waterboarding in the 
future, it would be necessary to consider the lawfulness of the 
technique under all applicable domestic and international law. 
Furthermore, the President would have to determine whether to authorize 
its use.


    Question 2.  I remain very concerned about Iran's failure to 
suspend its nuclear enrichment program as required by the UN Security 
Council. What are the prospects for a tough UN Security Council 
resolution that has the support of the international community?

    Answer. The Council clearly expressed its intention in UN Security 
Council resolution 1747 to consider the adoption of further appropriate 
measures under Article 41 of Chapter VII of the UN Charter if the IAEA 
Director General's report showed that Iran had failed to comply with UN 
Security Council resolutions 1737 and 1747. The Director General has 
reported three times since the adoption of that resolution in March 
2007 that Iran has failed to do so.
    The Foreign Ministers of China, France, Germany, Russia, UK, and 
the United States (P5+1) reached agreement on the elements of a third 
UNSC sanctions resolution on 22 January 2008 in Berlin. The EU3 shared 
the draft resolution with the full Council on 5 February 2008. The 
Council has been engaged in negotiations on the resolution in New York 
for the past several weeks. We expect the Council will adopt the 
resolution soon.
    Pursuant to standing P5+1 strategy of incremental increases on 
sanctions on Iran until it meets its Security Council obligations, the 
draft resolution increases the severity of existing sanctions and 
expands upon the previous two UNSC sanctions resolutions (UNSC 
Resolutions 1737 and 1747). The resolution is the product of intense 
negotiations between the members of the P5+1 and is a clear signal to 
the Iranian regime that the P5+1 are united in ensuring that Iran 
complies with its UNSC obligations. These obligations include providing 
the IAEA with the all of the information and access it needs to verify 
that Iran has permanently ceased all weapons-related work.
    Until Iran meets its UNSC obligations, as clearly outlined in 
UNSCRs 1696, 1737, and 1747, and the calls of the IAEA Board of 
Governors and has fully disclosed any weapons-related activities to the 
IAEA, the international community can have no confidence in the 
exclusively peaceful nature of Iran's nuclear program. UNSC sanctions 
are part of our dual track strategy to clarify to Iran's leaders the 
consequences of its continued noncompliance, while also keeping open 
the door to direct negotiations.
Update to take into account recent developments:
    On 22 February 2008 the IAEA Director General reported that Iran is 
continuing to fail to comply with its UN Security Council obligations 
and calls by the IAEA Board of Governors to suspend all proliferation 
sensitive nuclear activities, including enrichment-related activities, 
and has not undertaken full and complete transparency with the IAEA. 
After allowing for time to review and consider the IAEA Director 
General's report, the Council adopted UNSC sanctions resolution 1803 on 
3 March 2008 by a vote of 14-0 with one abstention (Indonesia). This is 
now the third time that the Council has imposed Chapter VII sanctions 
on Iran.


    Question 3.  Please describe the progress made, if any, by the 
Philippine Government in implementing the recommendations of the United 
Nations Special Rapporteur on Extrajudicial, Summary or Arbitrary 
Executions.

    Answer. United Nations Special Rapporteur on Extrajudicial, Summary 
or Arbitrary Executions Philip Alston visited the Philippines in 
February 2007. In his final report, which was released in November 
2007, the Special Rapporteur made numerous recommendations aimed at 
eliminating extrajudicial killings (EJKs) from counterinsurgency 
operations, achieving convictions in EJK cases, reforming the witness 
protection program, and bolstering human rights enforcement throughout 
the government's civilian, military and security agencies.
    The Philippine government has taken significant measures to address 
the problem of EJKs. To begin, President Arroyo has been clear in 
directing members of the Armed Forces to adhere strictly to human 
rights principles. The military leadership issued a directive outlining 
command responsibility as a basis for criminal liability.
    The Philippine government has underway a number of investigations 
and prosecutions into EJKs and forced disappearances. As of December 
2007, the Philippine Department of Justice State Prosecutor Task Force 
was investigating 23 cases. Between January and November 2007, the 
Commission on Human Rights (CHR) investigated 30 cases of politically 
motivated killings involving 38 victims. The Philippine National Police 
Task Force Usig reports that it has filed 59 cases in court, archived 
49 as ``cold'' (no developments or progress in one year), and dropped 
one.
    The Philippine Department of Justice reports that one police 
officer and eight civilians have been convicted for extrajudicial 
killings. According to the Philippine Supreme Court, 45 cases of 
extrajudicial killings are currently pending in the regional trial 
courts. To streamline the prosecution of these and other EJK cases, 
President Arroyo has mandated cooperation and coordination between 
prosecutors and police from the outset of a political or media killing 
until the termination of cases in court.
    Further, the Philippine Department of Justice has implemented 
several reforms to the Witness Protection Program. According to the 
Philippine government, admission requirements for witness protection 
coverage have been liberalized. Regional prosecutors have also been 
authorized to grant provisional coverage to high-risk witnesses under 
threat pending confirmation of their admission to the Program. The 
economic benefits and social services for witnesses under the Program 
have also been enhanced.
    In October 2007, the Philippine Supreme Court issued new rules 
regarding the ``writ of amparo,'' a remedy available to human rights 
advocates and families of victims of human rights abuses by government 
agencies. Under the new rules, any aggrieved person or family member 
may file a petition against any public official or agency. The judge 
may then issue a writ of amparo mandating that the respondent within 
five days produce the missing person, provide information on the 
person's whereabouts, or demonstrate that the government agency is 
taking affirmative action to locate the missing person. The judge may 
also issue inspection orders to search particular locations. Human 
rights lawyers have filed at least 15 writs of amparo against the 
military. Seven cases were resolved and eight are pending hearings. Of 
the seven resolved cases, four resulted in the release of the accused 
from military custody.
    In 2007, there was a significant decline in EJKs. According to Task 
Force Usig, there were seven EJKs in 2007, down from 41 in 2006. 
Similarly, the Commission on Human Rights reported 38 victims through 
November 2007, down from 159 during the equivalent time frame in 2006. 
The NGO Karapatan reported 68 victims in 2007, down from 209 in 2006. 
The numbers vary because each organization differs in its definition of 
EJK; however, there is an unmistakable downward trend in each report. 
The decline in extrajudicial killings was most likely due to the 
measures noted above, along with heightened international attention to 
the issue.
    While we welcome the government's steps and last year's apparent 
decline in EJKs, we remain concerned about the problem of EJKs and 
continue to press the Philippine authorities to pursue these 
investigations and seek convictions, as well as to further strengthen 
institutional efforts to combat EJKs.


    Question 4.  Please describe the progress made, if any, by the 
Philippine Government in implementing a policy of promoting military 
personnel who demonstrate professionalism and respect for human rights, 
and investigating and prosecuting military personnel and others who 
have been credibly alleged to have committed extrajudicial executions 
or other violations of human rights.

    Answer. It is the Department's understanding that professionalism 
and respect for human rights are among the factors considered by the 
Armed Forces of the Philippines (AFP) in making promotion decisions. 
The Human Rights Office of the AFP, which was created in January 2007, 
organizes continuing human rights education programs and investigates 
formal complaints on alleged violations of human rights. We remain 
concerned about the problem of EJKs and continue to press the Armed 
Forces of the Philippines to pursue investigations and seek 
convictions, as well as to further strengthen institutional efforts to 
combat EJKs.


    Question 5.  Is the Philippine military engaging in acts of 
intimidation or violence against members of legal organizations who 
advocate for human rights?

    Answer. Concerns that members of the security forces are involved 
in extrajudicial killings persist. U.S. military assistance programs 
continue to encourage respect for due process, combat corruption, and 
strengthen the professionalism, commitment to human rights, discipline, 
and technical expertise of the Philippine military. Hence, significant 
numbers of Philippine soldiers each year receive some form of human 
rights training, which is embedded in training exercises, by U.S. 
military personnel. U.S. support for the Philippine Defense Reform 
program remains crucial for building the command and control necessary 
to end practices such as extrajudicial killings and ensure widespread 
respect for human rights.


    Question 6. Japan is the only G-7 industrialized country which is 
not a party to the Hague Convention on the Civil Aspects of 
International Child Abduction. Please describe the State Department's 
efforts to resolve active cases of international parental child 
abduction involving Japan.

    Answer. The Office of Children's Issues currently maintains more 
than forty open cases of international parental child abduction to 
Japan involving more than fifty children. That number increases 
steadily because children abducted to Japan are seldom returned. The 
Department is aware of only three cases of abduction to Japan that have 
resolved favorably. In two of those cases, the couple reconciled. In a 
third, a sixteen-year-old boy surreptitiously left the taking parent's 
home with the aid of the left-behind parent. The consulate issued the 
boy an emergency U.S. passport and assisted him as appropriate with his 
return to the United States.
    Through our Office of Children's Issues, the Department provides a 
point of contact and a resource for left-behind parents whose children 
have been taken to Japan. We tailor our efforts to the individual 
situation and work diligently to be responsive to the requests of our 
left-behind parents while balancing the realities of the tragic 
situation. The Office of Children's Issues works individually with the 
parents to advise them regarding options in domestic courts, with local 
law enforcement and the FBI, and in the courts in Japan. We advise them 
to move expediently to seek custody of their children in U.S. courts. 
We assist them in communicating the gravity of the situation to local 
law enforcement and the FBI and identifying federal statutes that may 
be applicable. We consult with attorneys, many of whom are dealing with 
an international abduction situation for the first time. We inform 
left-behind parents of patterns observed in the behavior of taking 
parents in Japan and the difficulty facing American parents in Japanese 
courts. The Department also seeks to designate non-U.S. citizen 
abductors and those who assist them as ineligible for U.S. visas. 
Measures such as pursuing criminal charges, seeking Interpol notices, 
and designating abductors ineligible for U.S. visas restrict taking 
parents' ability to travel and put pressure on them to negotiate a 
resolution.
    Where it is appropriate, we work to build communication between the 
parties. By so doing, in other EAP countries, we are occasionally able 
to help negotiate informal solutions or compromises whereby a left-
behind parent can gain occasional access to their child. While these 
compromises fall short of a full resolution of the situation, most 
parents consider occasional access preferable to being completely cut 
off from their child as frequently happens in Japan.
    Our ability to help the left-behind parent is crucial, but the 
highest priority of the Department is safeguarding the welfare of U.S. 
citizen children. To protect our most vulnerable citizens, the victims 
of parental child abduction, we work through our embassy in Tokyo and 
consulates to conduct welfare and whereabouts visits with abducted 
children; we raise abuse and neglect concerns with the Japanese 
government; and we pursue all lawful and appropriate means to return 
abducted children to their custodial parents.
    Welfare visits often require assistance from the host government, 
as taking parents may not provide information about their whereabouts 
to the left behind parents. Citing privacy laws and legal and cultural 
differences, and noting that the children in question are often 
Japanese citizens as well, the Government of Japan has long declined to 
assist with welfare and whereabouts visits. In one notable example, a 
diplomatic note requesting assistance in gaining consular access to an 
abducted child has gone unanswered for more than a year. However, in a 
recent break with that policy, the Ministry of Foreign Affairs 
responded quickly to a subsequent diplomatic note in a separate case 
and contacted the attorney of a taking parent to underscore our request 
for a welfare and whereabouts visit. Although the taking parent 
continued her refusal and no visit has occurred, this direct action by 
the Government of Japan was the first of its kind.
    In Japan, our ability to assist on individual cases has proven 
consistently to be sharply limited. Consequently, the Department 
focuses significant effort on the bi-lateral relationship between the 
United States and Japan to enable us to provide better assistance to 
left-behind parents in the United States. When the Hague Convention on 
the Civil Aspects of International Child Abduction applies, the Office 
of Children's Issues, which is the Central Authority for the 
Convention, assists parents in filing an application with foreign 
central authorities for return of, or access to, the child. Japan is 
not a partner in the Hague Abduction Convention. Consequently, our 
strategy with respect to international parental abduction cases to 
Japan is to raise the issue with the Government of Japan at every 
appropriate opportunity.
    When Ambassador Maura Harty, then the Assistant Secretary of the 
Bureau of Consular Affairs, traveled to Tokyo in December 2005, she 
initiated a high-level State Department dialogue with the Japanese 
Government on issues involving international parental child abduction. 
On September 6, 2006, U.S. and Japanese representatives met again in 
Tokyo to discuss international parental abduction. The Department once 
again urged Japan to accede to the Hague Abduction Convention, which we 
have been doing since the early 1990's. In March 2008, the Department 
participated in a Canadian-sponsored symposium in Japan to once again 
press the issue. In conjunction with her participation in the 
symposium, the Deputy Director of the Office of Children's Issues met 
with Ministry of Foreign Affairs officials to stress the importance of 
the issue to the U.S. Government. However, the Japanese Government's 
reception to these requests to join the Hague Convention has been 
consistently unfavorable.
    Other efforts appear to be yielding incremental, but significant, 
gains. In parallel with their efforts to gain Japan's agreement to join 
the Hague Convention, State Department officials in Washington have 
pressed the Japanese Embassy at a high level on the abduction issue. 
The Department has encouraged the U.S. Embassy in Tokyo to identify and 
push for alternative ways the Japanese Government can address the 
concerns of the left behind parents. These meetings, coupled with the 
senior-official discussions held in Japan, appear to have increased 
Japanese Government awareness of the agonizing separation forced upon 
the left-behind parents and encouraged a willingness in the central 
government to consider how they could promote greater readiness at the 
local level in Japan to assist in such cases. At the conclusion of the 
Canadian-sponsored symposium, Japanese officials delivered a long-
awaited ``handbook'' to guide left-behind parents whose children are in 
Japan and those seeking to assist them. The U.S. Embassy in Tokyo is 
working to translate the document to analyze how this will affect the 
Department's assistance to left-behind parents.
    Given the difficulties in resolving the situation after a child has 
been taken to Japan, it is infinitely preferable if the child does not 
become a victim in the first place. Consequently, we work to prevent 
abductions. The Prevention Unit of the Bureau's Office of Children's 
Issues educates parents on the dangers of international abduction and 
works with them to protect children in the United States from this 
threat. Prevention tools on the Bureau of Consular Affairs website 
(www.travel.state.gov) include information on precautions for parents, 
the importance of custody orders, passport requirements for minor 
children including parental consent regulations, and the Children's 
Passport Issuance Alert Program (CPIAP). This important program enables 
Children's Issues to notify a parent or court-ordered legal guardian 
before issuing a U.S. passport to his or her minor child. To enter a 
child's name in the program, parents or guardians need to submit a 
written request to Children's Issues.
    We also endeavor to interrupt abductions in progress. Our abduction 
and prevention officers often act as points of contact as a parent 
works to marshal legal remedies to try to prevent a potential abductor 
from leaving the United States. By working with a parent's legal 
representative, local law enforcement, and the FBI, we are sometimes 
able to utilize the Department of Homeland Security's Prevent Departure 
program to keep a potential abductor from leaving the United States.


    Question 7.  On January 25, 2008, I sent a letter with my 
colleague, Sen. Dianne Feinstein, to the Prime Minister of Vietnam, Mr. 
Nguyen Tan Dung regarding Mr. Nguyen Quoc Quan, an American citizen and 
California resident. According to available news reports, Mr. Nguyen 
Quoc Quan was arrested in Vietnam on November 17, 2007 for peacefully 
distributing pro-democracy leaflets. Our letter called for Mr. Nguyen 
Quoc Quan's release and the release of all political prisoners detained 
for the peaceful advocacy of democracy. Will you continue to work for 
the release of Mr. Nguyen Quoc Quan? What more can be done to encourage 
Vietnam to improve its human rights record?

    Answer. We have expressed our concern over the arrest of American 
citizen Dr. Nguyen Quoc Quan to senior Vietnamese officials in Hanoi 
and to the Vietnamese Ambassador in Washington. We have made clear that 
the United Stated opposes the arrest of anyone for the peaceful 
expression of his or her views, and that anyone detained on that basis 
should be released immediately. We will continue to raise at high 
levels our concerns with the Vietnamese government.
    We continue to press Vietnam to improve its human rights record. We 
are urging Vietnam to release all remaining political prisoners, and 
end the use of catch-all ``national security'' provisions like Article 
88 of the criminal code, which outlaws ``propaganda against the State'' 
and is used to suppress political opposition. The next round of our 
bilateral Human Rights Dialogue is planned for May this year. We have 
made clear to the Vietnamese that the Dialogue must lead to concrete 
action to improve the human rights situation. More broadly, we have 
underscored that expanding our relationship will depend on progress in 
all areas, including greater respect for human rights and more freedom 
for the people of Vietnam.

                               __________

                 Questions Submitted by Senator Coleman

Hmong Human Rights


    Question 1. What are we doing in conjunction with the Thai 
government to protect the lives of Hmong refugees and ensure that they 
are not deported back to Laos?

    Answer. We have repeatedly urged the Thai government to evaluate 
all Hmong claims to refugee status individually before a decision is 
made on deportation. We understand that the Thai government has 
established a vetting process to evaluate Hmong asylum-seekers' cases 
and has consistently assured us that Hmong asylum-seekers with a 
legitimate fear of persecution will not be repatriated to Laos. 
Nevertheless, Thai authorities did deport several groups of Hmong 
asylum-seekers without screening in 2006 and 2007. We have registered 
strong concerns about those repatriations at senior levels of the Thai 
government.
    The Department of State, through the Bureau of Population, 
Refugees, and Migration, in late 2007 contributed approximately 
$500,000 to support basic humanitarian assistance at the Hmong 
settlement at Petchaboon, Thailand through a contribution to the United 
Nations Children's Fund (UNICEF). UNICEF works with the sole non-
governmental organization present at the settlement, Medecins Sans 
Frontieres (MSF), to provide food, cooking fuel, blankets and other 
basic assistance to residents. MSF has provided basic health care for 
the Hmong at Petchaboon for over two years. UNICEF will continue to 
monitor living conditions there during regular visits to the 
settlement.
    With respect to the issue of potential return of any Hmong not 
found to be refugees, we have urged the Lao government to allow 
international monitors access to areas where Hmong have been 
repatriated and permit humanitarian organizations based outside of Laos 
to assist with reintegration. That system was in place in the 1990s 
when Thailand repatriated to Laos the last of approximately 29,000 
ethnic Hmong and others deemed economic migrants, and UNHCR was 
permitted to monitor their return and reintegration. It should be noted 
that UNHCR assessed that these returnees were not mistreated by the Lao 
government, and UNHCR closed its office in Laos in 2001. U.S. officials 
will also continue to seek expanded international access to Hmong areas 
in general.


    Question.  What other efforts are being made to improve the human 
rights situation in Laos?

    Answer. Senior U.S. officials, including Deputy Assistant Secretary 
for Southeast Asia Scot Marciel during his visit to Laos in January 
2008 and Ambassador Ravic Huso on several recent occasions, have had 
productive discussions with Lao officials on improving the status of 
the Hmong ethnic minority. We have actively raised a range of Hmong-
related issues, including: Hmong asylum-seekers in Thailand, treatment 
of those in hiding in remote areas of Laos, and the Lao government's 
overall relations with this ethnic minority group. In general, the Lao 
response to our concerns in recent months has been cautious but 
slightly more encouraging than in the past. Nonetheless, we will 
continue to urge the Lao government to permit international 
humanitarian access to and monitoring of the Hmong in remote areas.
Bahrain


    Question 3. I am concerned about reports of abuses in Bahraini 
prisons, particularly of individuals whose imprisonment may have been 
politically motivated. Does the State Department believe Bahrain holds 
political prisoners? What is the Department's view about allegations of 
mistreatment of individuals detained in Bahrain? Can you tell me the 
Department's position on the jailing and reported abuse of activist 
Mohamed Al-Singace?

    Answer. In December 2007, Bahraini officials arrested many 
individuals in connection with protest-related violence and the beating 
of one police officer. Fifteen men are being held on an array of 
offenses including arson, attempted murder of a police officer, theft 
of a weapon, and illegal possession of a firearm. On February 24, the 
detainees appeared in court to hear the charges against them. Human 
rights observers, family members, and the defendant's legal 
representatives were present at the hearing. The Bahraini government 
has refused to allow a few of the detainees access to legal counsel or 
family members. Two men received temporary release from jail in order 
to complete education and family obligations.
    The Department of State views the allegations of abuse relating to 
Mr. Mohamed Al-Singace quite seriously and although we are satisfied 
with the review of his case thus far, we continue to discuss this 
matter with appropriate Bahraini officials and human rights activists 
in an effort to ensure that Mr. Al-Singace receives a transparent and 
fair review of his case.


    Question 4. As a board member of the National Endowment for 
Democracy, I'm concerned about the fact that the National Democratic 
Institute was expelled from Bahrain. Can you please tell me how the 
Department responded to that expulsion, and what the U.S. is doing to 
promote democratic reform in Bahrain?

    Answer. In July 2007, NDI resumed activities in Bahrain in 
cooperation with the Bahrain Institute for Political Development. USG 
dialogue with the government of Bahrain, led by our Embassy in Manama 
and by the State Department, was instrumental in NDI's successful 
return to Bahrain. Since reaching agreement, NDI has successfully 
completed two parliamentary training programs and has received Bahraini 
permission to carry out additional programs in March and April 2008.
    In May 2006, the Government of Bahrain declined to renew a 
residency permit for the Middle East Partnership Initiative (MEPI) 
funded Country Director of the National Democratic Institute (NDI), 
effectively closing down NDI's operations in Bahrain. While USG 
programs on democratic development (many of them implemented by NDI) 
were paralyzed for a period of time, NDI and the Government of Bahrain 
began a dialogue about proposed Bahraini-NDI cooperation a short while 
later. During these discussions senior USG officials strongly urged the 
Bahraini government to support NDI activities. The Department 
recognizes that increased and sustained Bahraini support for NDI 
activities is critical to continued democratic reform in Bahrain.
    Bahrain is a friend and ally to the United States; human rights and 
democratic development continue to progress despite some setbacks and 
challenges. We continue to promote these issues in Bahrain through 
frank and constructive dialogue with Bahraini government officials and 
activists. Additionally, our Embassy in Manama has at its disposal an 
array of public diplomacy tools to support democratic development as 
well as effective programs funded by the Middle East Partnership 
Initiative to increase respect for human rights and the rule of law in 
Bahrain.


    Question 5. Some have suggested that Bahraini elections are a sham 
because elected leaders wield little real power. Do you agree or 
disagree with this viewpoint? What is the Department doing to 
strengthen Bahraini elected institutions?

    Answer. The November 2006 parliamentary and municipal elections in 
Bahrain have largely been viewed as a success. The elections were 
Bahrain's second since democratic reforms were instituted in 1999. In 
contrast to its decision to boycott the 2002 parliamentary elections, 
the Shia oppositionist group Al-Wifaq chose to participate during the 
2006 elections and now holds 18 of 40 seats in the elected Council of 
Representative (COR), making it the COR's largest block. Al-Wifaq has 
used its new position of influence to seek positive, tangible reforms 
to benefit Bahrain's Shia community. However, Al-Wifaq's increasingly 
prominent role in the Bahraini political process is a positive example 
of democratic participation in Bahrain.Strong Bahraini institutions are 
important to Bahrain's ongoing democratic development, and despite some 
powers such as the ability to propose legislation and question 
ministers, more needs to be done to support COR authority. NDI has held 
two successful training sessions to empower and educate Bahraini 
parliamentarians, and two additional sessions are scheduled to take 
place in spring 2008. Embassy Manama continues to work diligently to 
strengthen democratic institutions by encouraging broad participation 
in Bahrain's political process and by participating in meetings and 
dialogue with Bahraini officials and activists.


    Question 6. During President Bush's recent visit to Bahrain, I 
understand a petition with more than 83,000 signatures was delivered to 
the U.S. Embassy to express concern about a lack of democracy in 
Bahrain. Can you tell me how this petition was received and what is the 
U.S. response to it?

    Answer. On January 8, Embassy Manama made special accommodations to 
receive the petition you mention, delivered by Mr. Abdujalil Singace. 
Despite a holiday-related closure, the Embassy opened its doors to Mr. 
Singace and made special accommodations to facilitate his entry onto 
the Embassy compound. Mr. Singace requested to personally deliver the 
petition to President Bush. Embassy staff could not accommodate this 
request, but did deliver the petition to appropriate White House staff 
during President Bush's January 12-13 visit to Bahrain. Embassy Manama 
did not confirm the number of signatures on the petition before 
delivering it to White House staff. The petition remains under review 
by White House staff.


    Question 7. Does the U.S. Embassy in Bahrain or State Department in 
Washington meet with Bahraini political dissidents and democracy 
activists?

    Answer. U.S. officials in Bahrain and Washington regularly meet 
with those Bahraini activists who responsibly express their opposition 
and do not advocate violence or extremism. Senior U.S. officials also 
regularly meet with such activists and NGO leaders. For example, during 
a February 25-26 visit to Bahrain, Deputy Assistant Secretary of State 
for Near Eastern Affairs Kent Patton hosted separate roundtable 
discussions with Bahraini oppositionists and NGO leaders. In July 2007, 
the Bureau of Democracy Human Rights and Labor Affairs sponsored a 
roundtable discussion in Washington among then U.S. Ambassador-
designate to Bahrain Adam Ereli, NGO representatives, and Bahraini 
activists. Ambassador Ereli has pledged to engage the Bahraini 
government in a dialogue about human rights and hopes ongoing 
discussion will continue to highlight the importance of NGO groups as 
an asset in promoting respect for democratic reform and human rights in 
Bahrain.
Philippines


    Question 8. Could you please describe the efforts of how the State 
Department is working with the Philippine government to monitor and 
ensure that ``command responsibility'' is being properly implemented in 
the Philippine military, and that current and former military officers 
credibly alleged to be responsible for extrajudicial executions and 
disappearances are prosecuted?

    Answer. Senior USG officials, both in Washington and Manila, 
repeatedly raise concerns about allegations of extrajudicial killings 
(EJKs) and urge the Philippine authorities to investigate cases and 
prosecute cases, if credible evidence is discovered. State Department 
officers also communicate with international and local NGOs and 
activists to receive updates on human rights conditions in the 
Philippines, including extrajudicial killings, forced disappearances, 
and implementation of command responsibility.
    In May 2007, as part of its ongoing efforts to help the Philippine 
government promote and protect human rights and rule of law, the U.S. 
Embassy held a seven-day seminar that included a significant component 
on command responsibility. This seminar was taught by a U.S. Attorney's 
Office expert and focused on the investigation and prosecution of 
extrajudicial killings. It was attended by 31 Philippine investigators, 
10 Philippine Department of Justice prosecutors who specialize in the 
prosecution of these cases, and four Philippine Commission on Human 
Rights regional directors.
    Ongoing U.S. military assistance programs enhance professionalism, 
encourage respect for human rights, and strengthen the concept of 
command responsibility among members of the Philippine Armed Forces. 
Each year, thousands of soldiers receive some form of human rights 
training, which is embedded in training exercises conducted by U.S. 
military personnel.


    Question 9. What role is the State Department playing in helping 
the Philippine government with the reform of the newly enacted anti-
terror law, the Human Security Act, so that the law provides basic 
procedural guarantees and are in accordance with international human 
rights standards?

    Answer. The Philippine Human Security Act of 2007, signed into law 
on March 6, 2007, expanded the tools available to the Philippine 
government to investigate and prosecute acts of terrorism. The United 
States supported the passage of this legislation since the lack of a 
prior legal framework for counterterrorism efforts by law enforcement 
agencies had contributed to the Philippines becoming a haven safe for 
al Qaida-linked groups, such as the Abu Sayyaf Group and Jemaah 
Islamiya. The Human Security Act should enable prosecutors to use new 
investigative tools, including electronic surveillance, which will help 
bolster their cases against terrorists in court.
    The legislation has been criticized by some non-government 
organizations concerned about potential government abuse of the Act's 
provisions. Accordingly, the Philippine Senate added safeguards to 
ensure the Act was not misused by targeting government critics and 
opposition politicians. These safeguard provisions are considered 
highly protective of civil liberties; some Philippine Congressmen have 
since expressed concerns that these provisions are exceedingly strong, 
so much so that the Act itself may be difficult to implement. 
Philippine President Gloria Macapagal Arroyo publicly promised that 
``law abiding Filipinos have nothing to fear.for it is a weapon that 
shall be wielded against bombers and not protesters.'' To further allay 
public concerns, President Arroyo delayed implementation of the Act 
until two months after the May 2007 mid-term elections.
    The U.S. Embassy worked closely with Philippine legislators and 
officials to improve and strengthen the counterterrorism legislation 
prior to its passage, while strongly advocating for the inclusion of 
built-in protections of the rights of Philippine citizens. After the 
act was signed, the Embassy also issued a statement congratulating the 
Philippine government and Congress for taking a positive step in 
countering and preventing terrorism in the Philippines by providing 
needed legal tools while ensuring protection of civil liberties and 
human rights.
    Since the passage of the Act, we continue to work with the 
Philippine government as it implements the law. The Embassy provides 
training and assistance to officials from the military, police, and the 
Philippines National Intelligence Coordinating Agency, who implement 
the Human Security Act. U.S.-sponsored training, whether for the 
military, intelligence, or law enforcement community, includes a human 
rights component. We will continue to encourage the Philippine 
government to use its new counterterrorism tools so as to ensure that 
the rights of Philippine citizens are protected in accordance with 
international human rights standards.
    In December 2007, the U.S. Department of Justice conducted a 
training program with the National Intelligence Coordinating Agency and 
representatives of the Philippine Anti-Terrorism Council that addressed 
the Act and compared it with U.S. law. The focus was on use of 
electronic surveillance for presentation in court and, among other 
things, discussed the procedural safeguards contained in U.S. law as a 
basis for implementation of the act's provisions. The conference also 
addressed the current restrictions of the act and the need for 
accountability of law enforcement through the public criminal justice 
system.


    Question 10. Prior to providing military assistance to the 
Philippine military, how is the State Department monitoring and 
identifying those military units whose members have been credibly 
alleged to have committed human rights violations, as required by the 
Leahy Law?

    Answer. We conduct intensive vetting of all Philippine members of 
law enforcement or military units who are candidates for U.S.-funded 
training, including civilians attached or assigned to security force 
units. The three-part vetting process includes 1) internal vetting by 
relevant USG law enforcement agencies at post, including the Drug 
Enforcement Administration, the Department of Homeland Security, and 
the Regional Security Office; 2) host country vetting by the Philippine 
National Bureau of Investigation and the Philippine Commission on Human 
Rights; and 3) vetting with the State Department's Bureau for 
Democracy, Human Rights, and Labor; Bureau of East Asian and Pacific 
Affairs; Bureau of Intelligence and Research; and Bureau of Political-
Military Affairs. If there is no credible information of gross 
violations of human rights by the candidate at all three levels, the 
individual and/or unit are permitted to attend the scheduled training. 
Candidates for whom questionable or identified derogatory information 
is available have been and will continue to be excluded from receiving 
U.S. assistance, as required by the Leahy Amendment. All derogatory 
information received on vetted individuals and units is maintained for 
review and consultation in future vetting processes.
    In 2007, we vetted 2,235 law enforcement and armed forces training 
candidates and identified derogatory information on 196 candidates. 
Upon further investigation, we excluded 39 individuals and one entire 
unit for various human rights violations.


    Question 11. Is the State Department working with the Philippine 
National Police and the Armed Forces of the Philippines to ensure that 
all writs of amparo and other summonses issued by Philippine courts and 
the Philippine Commission on Human Rights are fully and completely 
enforced and responded to by the PNP and AFP?

    Answer. In October 2007, the Philippine Supreme Court promulgated 
new rules regarding the writ of amparo, a remedy available to victims 
of human rights abuses, particularly extrajudicial killings and 
enforced disappearances. The writ may be filed in any of the 800 
Regional Trial Courts against any agency, public official, or private 
individual and gives the respondent five working days to provide all 
relevant information regarding the case, including steps taken to 
investigate the fate or whereabouts of the victim. Since the rules came 
into effect in October 2007, human rights lawyers have filed 17 writ of 
amparo petitions against the military. Six petitions have resulted in 
the release of six persons from military custody.
    The USG supported the development and application of the writ of 
amparo through programs implemented by the U.S. Agency for 
International Development (USAID). In July 2007, USAID co-sponsored the 
Supreme Court's National Consultative Summit on Extra-judicial Killings 
and Enforced Disappearances, which identified measures to address human 
rights violations in the country, including the urgent need for the 
writ of amparo. After the Supreme Court issued the writ of amparo in 
October 2007, USAID supported a series of events designed to foster 
greater understanding of the writ and to encourage its appropriate use, 
including a USAID-supported one-day Supreme Court event with 20 human 
rights organizations to discuss guidelines for their accreditation as 
private protection providers (the writ of amparo stipulates that 
private organizations can provide witness protection in human rights 
cases).
    In November 2007, USAID support enabled 247 judges and clerks of 
court from the regions of Luzon, Visayas, and Mindanao to participate 
in a conference to clarify provisions of the new rule and to discuss 
how petitions should be handled. This February, USAID supported a case 
conference attended by networks of human rights organizations to 
discuss specific actions needed to support the filing of petitions for 
writ of amparo in connection with ten cases of enforced disappearances. 
USAID is currently working with the Supreme Court to develop 
information materials that will easily convey, through storytelling and 
illustrations, the legal procedures involved in securing a writ of 
amparo.
    In 2007, the Department of Justice/International Criminal 
Investigative Training Assistance Program (DOJ/ICITAP) provided 
training to approximately 1,500 police officers. While all training 
includes a human rights component, approximately 500 of these officers 
were specifically trained in Police Ethics or Human Rights. We are on 
course to train another 250 by the end of March. Finally, our ICITAP 
program is collaborating with the Philippine National Police Human 
Rights Affairs Office to help support them with the delivery of their 
own in-house human rights training throughout the country.

                               __________

                Questions Submitted by Senator Menendez


    Question 1. The Administration requested $550 million in the 2008 
supplemental and now another $550 million in the 2009 budget for a 
counterdrug package in Mexico. In light of this increase, please 
justify the $37 million overall cut in the 2009 request from DA, ESF, 
and CSH accounts compared to the 2008 levels in Latin America.

    Answer. A key priority in building the FY 2009 foreign assistance 
request was reinvigorating our investment in the Western Hemisphere. 
While the Merida security initiative to combat drug trafficking, 
transnational crime, and terrorism in the region is an important focus 
of this year's request, the FY 2009 budget also prioritizes funding for 
development objectives in the Western Hemisphere such as advancing 
democracy and free trade. Excluding funding for the Merida initiative, 
the FY 2009 request for the region represents $31.5 million (2.1 
percent) increase over FY 2008 enacted levels.
    The FY 2009 budget acknowledges criticism of last year's request by 
increasing development assistance (DA/ESF) funding for the region. 
Combined, these two accounts increase $77.3 million (13.8 percent) from 
last year's request, with significant investments for Bolivia, Ecuador, 
and Central America to promote democratic governance and economic 
opportunity, as well as support for the implementation of the Central 
American and Dominican Republic Free Trade Agreement (CAFTA-DR). 
Funding is also targeted to expand democracy, poverty reduction, and 
environment programs in Haiti.
    We appreciate Congress' strong support for programs funded from the 
Child Survival and Health (CSH) account, reflected by an FY 2008 
enacted level for the region of $134 million, a 24 percent increase 
over the Administration's FY 2008 request. CSH programs are a top 
priority for this Administration as we continue to balance assistance 
across all sectors to support sustainable development practices. As a 
result, the FY 2009 request for the CSH in the Western Hemisphere is 
essentially straight lined from last year's request level.
Staffing at USAID
    I believe that the strength of U.S. development assistance efforts 
depends on the strength and morale of the people who make up its 
workforce. I also believe, that one good way to ensure impact of our 
programs is ensure that we have the most capable, dedicated, and 
diverse workforce on the ground. Over the last few decades, there has 
been a stark erosion of the technical and managerial capacity at USAID. 
As a result, many of USAID's staff have left to pursue better 
opportunities.
    I recently sent a letter along with Sen. Biden asking USAID 
Administrator Fore to come to Congress with a comprehensive plan to 
staff up the Agency, rather than the stop-gap measure they have 
proposed to increase the number of Foreign Service officers. While I 
believe that getting more people is important, but it won't solve the 
problem--getting the right people and retaining the best people is the 
only way that USAID is going to re-establish itself as the heavy-weight 
in the U.S. Government's foreign assistance. In your budget request, 
the Administration has asked for an 18 percent increase of Overhead 
Expenses (OE) or $117 million dollars. While more resources are part of 
this equation, they are only a small part.


    Question 2. What are you doing to make sure that USAID is able to 
attract and retain the most qualified workforce?

    Answer. Recognizing the development landscape has changed over the 
past two decades with levels in trade, foreign direct investment and 
remittances overtaking official, development assistance, I have 
instituted an aggressive outreach program that will target candidates 
with the skills needed for a 21st Century USAID workforce. 
Demonstrating a commitment to enriching the application pool, senior 
USAID leadership will be participating in recruitment events that will 
identify quality candidates to be considered for upcoming Foreign 
Service Officer positions.


    Question 3. Do you plan to make a sincere gesture to build the 
capacity of the staff at USAID, instead of just increasing the number 
of Foreign Service Officers?

    Answer. New initiatives have been undertaken focusing on 
strengthening the skills of the entire workforce. The USAID training 
budget was doubled for FY 2007 and maintained at this level in FY 2008 
even under significant budget constraints. I have directed the staff to 
look at the content and how we deliver training, including bringing a 
greater number of more relevant courses to the desk tops of our staff 
through e-learning. In addition, USAID is moving to greatly expand our 
foreign language training beyond French, Spanish, Portuguese and 
Russian to include Arabic, the languages of South and East Asia and 
some of the more common African languages.


    Question 4. What percentage of Personal Services Contractors and 
Institutional Contractors, respectively, represent in the current USAID 
workforce?

    Answer. The total U.S. workforce is 3,308. Of this total, Personal 
Services Contractor and institutional contractor staff amount to 628 
and 280, respectively. The percentage of the USAID U.S. workforce for 
Personal Services Contractors is 15% and for institutional contractor 
staff it is 19%.


    Question 5. How will these individuals be integrated into the 
staffing at USAID?

    Answer. As I have mentioned in the past, USAID cannot double the 
size of the Foreign Service workforce by solely bringing in entry-level 
hires. The workforce gap analysis is identifying areas of mid-level 
shortfalls taking into account the organizational needs and on-board 
staff. USAID will then competitively recruit to fill these gaps. It is 
anticipated that qualified Personal Services Contractors that apply 
would rise to the top of the list. There will also be a continued need 
for a very small number of Personal Services Contractor staff to fill 
short-term targeted needs.


    Question 6. In November, Defense Secretary Gates stated in a speech 
at Kansas State University that there is a ``need for a dramatic 
increase in spending on the civilian instruments of national security--
diplomacy, strategic communications, foreign assistance, civic action, 
and economic reconstruction and development.'' Do you agree with this? 
If so, can you elaborate?
    Please comment specifically on why the key elements of our 
development assistance efforts--basic education for example, or 
fighting disease and improving health care--are particularly effective 
instruments of national security today, and will be even more so in the 
months and years to come?

    Answer. I absolutely agree with Secretary Gate's statement. 
President Bush's Fiscal Year 2009 Foreign Operations Budget for the 
Department of State, the U.S. Agency for International Development 
(USAID) and other foreign affairs agencies totals $26.1 billion, an 
increase of 8.9 percent over the total Fiscal Year 2008 enacted to 
date, including emergency funding, or 14.3 percent over the FY 2008 
enacted base. This increase reflects a determined effort to enhance 
civilian instruments of national security-including the capacity of our 
civilian agencies, with staff increases for the Department of State and 
the largest requested increase in USAID's operational budget in nearly 
two decades-and our development, reconstruction, and security 
assistance.
    Development now plays a vastly elevated role in America's foreign 
policy. The charge I have given to our diplomatic corps is a long-term 
development goal-to help build and sustain democratic, well-governed 
states that respond to the needs of their people, reduce widespread 
poverty, and behave responsibly toward their people and the 
international system. In the 21st century, defined as it is thus far by 
an unprecedented and increasing interdependence, human development is 
both a moral end in itself and also a central pillar of our national 
security.
    Today, the idea that foreign assistance-and specifically long-term 
development-is a vital tool of our international statecraft meets with 
broad and growing support. The closer collaboration of State and USAID 
enacted under the establishment of a dual-hatted Director of U.S. 
Foreign Assistance and USAID Administrator has aided that effort, 
providing our development professionals the opportunity-indeed the 
mandate-to more fully participate at all levels of budget and program 
planning, providing their insight, perspective, and superior 
development expertise across the range of our programs and accounts, 
not just those appropriated to USAID, and to the tough choices that 
need to be made across our global budget.
    With respect to funding, we have continued to boost the quantity of 
our assistance. Since 2001, with the support and partnership of 
Congress, President Bush has launched the largest development agenda 
since the Marshall Plan. In the past six years, we have nearly tripled 
official development assistance worldwide and quadrupled it to Sub-
Saharan Africa.
    As noted above, the FY 2009 request reflects the continuation of 
this effort, further illustrating the emerging national consensus in 
support of development. The resources requested in the Fiscal Year 2009 
Foreign Operations Budget demonstrate our strong commitment to fighting 
poverty, with a focus on strengthening democratic governance and 
promoting economic growth. This is reflected in our request for the 
Development Assistance account, which is nearly 60 percent higher than 
the Fiscal Year 2008 request, and our request of $1.7 billion for 
democracy promotion and governance.
    I would also like to specifically mention the State Department's 
Civilian Stabilization Initiative (CSI) that is included in the 
President's budget. CSI is the product of the work of 15 agencies, 
including Defense, to build the full complement of U.S. government 
expertise necessary to respond to a stabilization crisis and to promote 
effective rule of law, economic stabilization and transitional 
governance in weak and failing states.
    With the requested resources, the Department of State, USAID and 
other foreign affairs agencies strive to create the conditions 
conducive to sustained progress in governance, economic growth, and 
human capacity, recognizing that countries that move in this direction 
become our partners in global peace and prosperity.


    Question 7. How can the U.S. Government improve its coordination 
across the different agencies conducting international development and 
health work, like MCC and PEPFAR, especially given that the latter two 
programs are outside the direct authority of the Director of Foreign 
Assistance? While the Director of Foreign Assistance does have 
coordinating authority over those agencies, the experience over the 
last two years has not demonstrated that that authority is sufficient 
to effectively coordinate the activities and budget planning between 
USAID, MCC, and PEPFAR--either here in Washington or at the country 
level.

    Answer. The establishment of a dual-hatted Director of U.S. Foreign 
Assistance and USAID Administrator has led to continued improvement in 
the interagency coordination of activities and budget planning. For FY 
2008, for example, with the establishment of common objectives, a 
common program lexicon, and common budget and program planning 
processes, State (including PEPFAR) and USAID were able to improve 
coordination, with steps taken toward greater MCC and DOD coordination. 
For FY 2009, MCC and DOD were formally added as participants in State 
and USAID's budget and program planning process, in addition to their 
coordination in the field.
    The evidence of such coordination is illustrated by a number of 
examples: In Ghana, for instance, USAID is focusing its programming on 
enhancing the capacity of local government, which is responsible for 
implementing MCC compact activities in economic growth. In Honduras, 
USAID programming focuses on trade and investment capacity building and 
private sector competitiveness, in order to complement MCC compact 
investments in infrastructure and agricultural diversification.
    With respect to PEPFAR, the greater coordination achieved through 
the DFA helped highlight development gaps in our non-HIV/AIDS 
programming, including interventions in governance and economic growth 
that will help build host government capacity to sustain further 
progress on their own. Thus, in FY 2009, the budget includes $2.1 
billion for State Department and USAID programs in Africa to address 
development gaps and support economic opportunity and governance 
programs critical to the success of the investments we have made 
through PEPFAR.
    A number of additional activities are ongoing for this year that we 
hope will further improve coordination. A strong interagency country 
strategy development process is being planned for specific pilot 
countries. The 3-to-5-year strategic plan will be developed by the 
field, under the leadership of Ambassadors, and is explicitly targeted 
to include full interagency, other donor, and where appropriate, host 
government participation. As with last year, the annual Operational 
Plan process will provide additional opportunities for the interagency 
in the field to develop comprehensive program plans, working together 
to ensure coordination.
    Finally, to extend coherence across all U.S. Government foreign 
assistance, the Director of U.S. Foreign Assistance and USAID 
Administrator now leads the interagency Development Policy Coordination 
Committee. As technical as it sounds, this committee is an important 
tool for aligning U.S. Government efforts, making joint policy 
decisions on critical development issues, and forging stronger 
collaboration to deliver greater impact from the U.S. Government's 
development efforts around the world. The Development Policy 
Coordinating Committee has agreed to focus on intra-government 
coordination-including the use of the DFA-established common 
objectives, program lexicon, and planning processes-in a select number 
of countries. Lessons learned from this pilot will then be adopted on a 
broader scale.
    We share your concern about the importance of such comprehensive 
coordination, and welcome your input and feedback on our ongoing 
efforts.

                               __________

                 Questions Submitted by Senator Vitter


    Question 1. The United States has not ratified the Law of the Sea 
Treaty (LOST) and therefore is not a party to the Treaty. Under the 
U.S. Constitution, without Senate ratification, the Treaty has no force 
of law in the U.S. and the U.S. is not bound to provide financial 
support to the International Tribunal of the Law of the Sea (ITLOS) and 
the Deep Seabed Authority (the ``Authority'').
    For what reason is the Administration requesting funding for 
entities to which the U.S. has no financial obligation, have not been 
previously funded, and were created by a Treaty that has not been 
ratified?
    Under what authority does the Administration propose to fund 
international organizations created by a Treaty which has not been 
ratified by the U.S. Senate?

    Answer. The Administration did not request funding for a treaty 
that has not been ratified. The President's budget request related to 
the Law of the Sea Convention ($1.3 million to the International Seabed 
Authority and $3.6 million to the International Tribunal for the Law of 
the Sea in FY 2009) was explicitly conditioned on Senate approval of 
U.S. accession to the Convention. (Attached are pages 737 and 740 from 
the Contributions to International Organizations Appropriation section 
of the FY 2009 Department of State Congressional Budget Justification.) 
As our budget presentation indicates, no funds will be provided to 
either organization until the United States accedes to the Convention.
    Let me reiterate the Administration's strong support for U.S. 
accession to the Law of the Sea Convention. Joining the 154 other 
parties to the Convention would promote U.S. security, economic, and 
environmental interests, with very modest financial implications, 
especially when weighed against the substantial benefits that would 
accrue to the United States.


    Question 2. Even if the Senate ratifies LOST, the U.S. will not 
fall under the jurisdiction of ITLOS; to settle disputes arising under 
LOST, the U.S. has chosen to utilize arbitral tribunals created under 
Annex VII, and special arbitral tribunals for specified categories of 
disputes constituted pursuant to Annex VIII.
    Why is the Administration funding an international tribunal (ITLOS) 
that has no jurisdiction over the U.S. and to which, even if LOST is 
ratified, the U.S. has no plans to submit?

    Answer. You correctly note that the United States would not 
generally be subject to ITLOS jurisdiction (choosing arbitration and 
special arbitration for its disputes). However, as the Administration 
and others have made clear, certain matters can be brought to ITLOS in 
any event (such as the prompt release of vessels held for fishing 
violations, which cannot wait for the establishment of an arbitral 
tribunal).
    It should also be noted that joining the Convention would give the 
United States the opportunity to nominate a judge to sit on the ITLOS. 
Thus, while we would generally not be subject to its jurisdiction, a 
U.S. national would potentially be in a position to influence its 
deliberations.


    Question 3. Not only is the Administration funding international 
entities that are not approved by the Senate, but it is handing over 
American dollars to organizations at which there are no American 
representatives present to protect U.S. interests. There are no 
American representatives because the U.S. is not a member of this 
treaty.
    Has the Administration taken steps necessary to restrict the uses 
of U.S. funding to the Authority and ITLOS, to ensure it is spent only 
to further U.S. interests?
    Has the Administration taken any precautions to ensure that 
American taxpayers' money is not used to support endless bureaucratic 
meetings or bloated payrolls?
    Has the Administration tied restrictions to the uses of the 
funding?

    Answer. As stated in the response to Question 1, no funds will be 
provided to either entity until the United States accedes to the 
Convention. As a Party to the Convention, the United States along with 
the other States Parties would approve the budget of the International 
Tribunal and review its expenditures at an annual meeting. As a Party, 
the United States would have a guaranteed seat on the Finance Committee 
of the International Seabed Authority, which has jurisdiction over all 
budgetary and financial matters; the Finance Committee must make 
decisions by consensus.
    We believe the activities of both the Seabed Authority and the 
Tribunal are consistent with U.S. interests. The United States has 
consistently sought the inclusion of effective dispute settlement 
provisions in any law of the sea treaty, as an additional tool to 
promote compliance. Consistent with U.S. interests, the 1982 Convention 
provides appropriate flexibility to parties with respect to both forum 
and subject matter.


    Question 4. Among its various flaws, LOST creates new 
unaccountable, bureaucratic institutions manned by foreign interests 
that may be hostile to the U.S.; threatens American sovereignty by 
leaving open the question of ``military activities'' and intelligence 
operations to the jurisdiction of binding international tribunals; and 
promises to undermine our economy through environmental law-fare. Yet 
the Administration is proposing to provide the funding for two LOST 
organizations (ITLOS, the Authority).
    Has the Administration taken any precautions to ensure that 
American dollars would not be used in a way that would harm U.S. 
interests?

    Answer. Please see the answers to the first three questions. The 
Administration does not agree with your characterizations of these two 
organizations. We strongly support U.S. accession to the Law of the Sea 
Convention. Joining the 154 other parties to the Convention would 
promote U.S. security, economic, and environmental interests, with very 
modest financial implications, especially when weighed against the 
substantial benefits that would accrue to the United States.

                               __________

                  Questions Submitted by Senator Casey


    Question 1. Why was the budget request for the State Department's 
nonproliferation programs cut? The final FY 2008 appropriations for 
State Department nonproliferation programs came in at $211 million, yet 
the Administration is only requesting $210 million for the upcoming 
year.
    In particular, why was funding reduced for such key 
nonproliferation initiatives like the State Department's Export 
Controls and Border Security program ($4.3 million dollar cut) and U.S. 
contributions to the International Atomic Energy Agency ($1 million 
cut)?

    Answer. The State Department strongly supports robust funding for 
its nonproliferation programs and, since FY 2007 we have provided a 6 
percent increase in these programs. However, in FY 2009, due to 
competing priorities, we were not able to plus-up the nonproliferation 
programs as a whole. Our FY 2009 requests for the Export Control and 
Related Border Security (EXBS) program and for the U.S. voluntary 
contribution to the IAEA were the same as the President's request for 
FY 2008 (the final FY 2008 appropriation reflects additional funding by 
Congress), and continue to reflect adequate funding for these two 
important nonproliferation programs.


    Question 2. The Blackwater shooting incident on September 16, 2007, 
in which Blackwater employees opened fire in a crowd of Iraqis killing 
17 civilians and wounding 27 others publicly revealed many of the 
dangers that private contractors in Iraq pose for the broader U.S. 
mission in the country. In late October, you reached an agreement with 
Secretary Gates to revise the rules under which security contractors 
working for the State Department operate in Iraq. That agreement was 
implemented by a memorandum of understanding between General Petraeus 
and Ambassador Crocker in early December.
    How have the new rules addressed the problems revealed by the Sept 
16th incident? What legislative actions or policy recommendations do 
you suggest the Congress take to ensure that security contractors 
operate fully within the military chain of command and in support of 
the broader national interest?

    Answer. Following the events of September 16, 2007, the Department 
of State initiated a thorough review of its security operations in 
Iraq. A panel of experts assembled by the Secretary of State determined 
the Department's security practices in Iraq to be highly effective in 
ensuring the safety of mission personnel and recommended additional 
measures to strengthen coordination, oversight, and accountability of 
the Department's security programs. Many of the panel's recommendations 
are incorporated into the Memorandum of Agreement (MOA) signed on 
December 5, 2007, between the Department of State (DOS) and the 
Department of Defense (DOD). The MOA represents a joint effort to 
develop and implement core standards for all DOS- and DOD-contracted 
private security companies (PSCs) in Iraq.
    The Department continues to move forward with implementation of the 
panel's recommendations and provisions of the MOA. Significant progress 
has been made in a number of critical areas, including use-of-force 
policies, incident response and investigation, and movement 
coordination and control. The Department increased the staffing levels, 
bolstered Iraq-specific training for security contractors, and 
increased the use of technology. The Department has also taken strides 
to strengthen oversight and accountability of PSCs that protect 
contractors, subcontractors, or grantees of the State Department or 
other civilian agencies under Chief of Mission authority.
    The joint efforts between the Departments of State and Defense in 
developing and implementing the December 2007 MOA have established a 
strong foundation for continued coordination in meeting the 
requirements of the National Defense Authorization Act for Fiscal Year 
2008, Sections 861 (Memorandum of Understanding on Matters Relating to 
Contracting) and 862 (Contractors Performing Private Security Functions 
in Areas of Combat Operations). We feel that the December 2007 MOA 
coupled with the newly enacted legislation found in NDAA 08 Sections 
861 and 862 provides all necessary guidelines to integrate DOS and DOD 
operations in a designated battle space. For example, DOS is prepared 
to participate in DOD's Synchronized Pre-Deployment Operational 
Tracking (SPOT) database, upon its anticipated rollout to the 
Department this March.
    The Department believes its efforts have positively impacted 
operations and have effectively strengthened accountability and 
oversight of private security contractors. The Department strongly 
supports efforts to provide greater legal accountability for unlawful 
acts its security contractors may commit abroad. The Administration is 
currently working with Congress on legislation to clarify coverage of 
U.S. criminal laws, so that we have the laws we need to hold private 
contractors overseas accountable when appropriate.


    Question 3. The criminal investigation into the conduct of the 
Blackwater security contractors during the September 16th shooting 
incident has been hindered by a number of significant legal 
complications. Among those legal setbacks is the promise of limited 
immunity from prosecution that was granted to Blackwater employees by 
State Department investigators.
    How is the State Department cooperating with the Justice Department 
to resolve these legal issues so that the contractors and Blackwater 
can be held accountable for their actions?

    Answer. The Department of State is not in a position to immunize 
individuals from federal criminal prosecution. The Department of 
Justice, in their October 30, 2007 press release, indicated that any 
suggestion of immunity from federal criminal prosecution for Blackwater 
employees is inaccurate. The Department of State continues to cooperate 
fully with the Department of Justice and the FBI in their ongoing 
investigation of the September 16 shooting incident.

                               __________

                 Question Submitted by Senator Isakson


    Question 1. Does the Department plan to advance the schedule of the 
Malabo New Embassy Compound (NEC) for construction; also, are their 
plans for improving the Ambassador's residence?

    Answer. The Department of State has a Congressionally-mandated 
process by which our embassy facilities are ranked and prioritized for 
replacement construction. Under the Secure Embassy Construction and 
Counterterrorism Act of 1999 (SECCA), the Department is authorized to 
spend security capital appropriations only among the top 80 most 
vulnerable posts (the ``top 80 list''). (Although SECCA contained a 
sunset provision after 5 years, the Department continues to work with 
Congress consistent with SECCA requirements.)
    Annually, the Bureau of Diplomatic Security (DS) reviews the 
vulnerability of all chancery and consulate buildings, considering many 
security factors and assigned threat levels. the regional bureaus, in 
consultation with DS, Overseas Buildings Operations (OBO), and 
Department senior management, recommend posts for addition to the top 
80 list, and each regional bureau prioritizes its posts within the top 
80.
    In August 2006, Malabo was added to the top 80 list for 
construction of a NEC and was at that time prioritized by the Bureau of 
African Affairs for a construction award for FY 2014. However, in 
December 2005, the Government of Equatorial Guinea passed a resolution 
to grant a 12.3-acre site to the United States at no cost. The site was 
determined to be viable for a NEC, and on October 18, 2007, Embassy 
Malabo took title in the name of the United States of America. As a 
result of this action, Malabo is currently planned for a new embassy 
contract award in FY 2009.
    Suitable housing is scarce and expensive in Malabo. Post and OBO 
have been working to find a more suitable Chief of Mission Residence 
(CMR), even before current Ambassador Johnson's arrival at post. 
Unfortunately, there are major problems in finding properties in Malabo 
that meet a wide variety of OBO and Diplomatic Security requirements. 
We are continuing our search for an adequate CMR. In order to assist in 
the search, OBO's Division of Real Estate will be sending a team to 
Malabo to review the housing situation at post.


                                 <all>




</pre></body></html>
